<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                ALAN B. MOLLOHAN, West Virginia, Chairman

PATRICK J. KENNEDY, Rhode Island       RODNEY P. FRELINGHUYSEN, New Jersey
CHAKA FATTAH, Pennsylvania             JOHN ABNEY CULBERSON, Texas
C.A. ``DUTCH'' RUPPERSBERGER, Maryland HAROLD ROGERS, Kentucky
ADAM SCHIFF, California                TOM LATHAM, Iowa
MICHAEL HONDA, California              ROBERT B. ADERHOLT, Alabama
ROSA L. DeLAURO, Connecticut           
DAVID E. PRICE, North Carolina         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

             John Blazey, Marjorie Duske, Adrienne Simonson,
                   Tracey LaTurner, and Diana Simpson
                           Subcommittee Staff
                                ________

                                 PART 5
                                                                   Page
 Department of Justice............................................    1
 Federal Bureau of Investigation..................................   71
 Drug Enforcement Administration..................................  115
 Bureau of Alcohol, Tobacco and Firearms..........................  159
 Office of Justice Programs, Community Oriented Policing Services, 
Office of Violence Against Women..................................  203
 Bureau of Prisons; U.S. Marshals Service; Office of the Federal 
Detention Trustee.................................................  277

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 42-792                     WASHINGTON : 2008








                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania                 JERRY LEWIS, California
 NORMAN D. DICKS, Washington                  C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia              RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                           HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana                  FRANK R. WOLF, Virginia   
 NITA M. LOWEY, New York                      JAMES T. WALSH, New York     
 JOSE E. SERRANO, New York                    DAVID L. HOBSON, Ohio 
 ROSA L. DeLAURO, Connecticut                 JOE KNOLLENBERG, Michigan    
 JAMES P. MORAN, Virginia                     JACK KINGSTON, Georgia 
 JOHN W. OLVER, Massachusetts                 RODNEY P. FRELINGHUYSEN, New Jersey        
 ED PASTOR, Arizona                           TODD TIAHRT, Kansas   
 DAVID E. PRICE, North Carolina               ZACH WAMP, Tennessee            
 CHET EDWARDS, Texas                          TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr., Alabama       ROBERT B. ADERHOLT, Alabama        
 PATRICK J. KENNEDY, Rhode Island             JO ANN EMERSON, Missouri       
 MAURICE D. HINCHEY, New York                 KAY GRANGER, Texas      
 LUCILLE ROYBAL-ALLARD, California            JOHN E. PETERSON, Pennsylvania           
 SAM FARR, California                         VIRGIL H. GOODE, Jr., Virginia             
 JESSE L. JACKSON, Jr., Illinois              RAY LaHOOD, Illinois                   
 CAROLYN C. KILPATRICK, Michigan              DAVE WELDON, Florida      
 ALLEN BOYD, Florida                          MICHAEL K. SIMPSON, Idaho
 CHAKA FATTAH, Pennsylvania                   JOHN ABNEY CULBERSON, Texas        
 STEVEN R. ROTHMAN, New Jersey                MARK STEVEN KIRK, Illinois       
 SANFORD D. BISHOP, Jr., Georgia              ANDER CRENSHAW, Florida            
 MARION BERRY, Arkansas                       DENNIS R. REHBERG, Montana 
 BARBARA LEE, California                      JOHN R. CARTER, Texas       
 TOM UDALL, New Mexico                        RODNEY ALEXANDER, Louisiana        
 ADAM SCHIFF, California                      KEN CALVERT, California    
 MICHAEL HONDA, California                    JO BONNER, Alabama       
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas              
                                    
    
                  Rob Nabors, Clerk and Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2009

                                           Thursday, April 3, 2008.

                         DEPARTMENT OF JUSTICE

                                WITNESS

MICHAEL B. MUKASEY, U.S. ATTORNEY GENERAL

                    Congressman Obey Opening Remarks

    Mr. Obey [presiding]. Well, good morning, everybody. Good 
morning, Mr. Attorney General.
    Mr. Mukasey. Good morning.
    Mr. Obey. Good to see you again.
    Mr. Mukasey. Good to see you.

                     Opening Statement of Mr. Obey

    Mr. Obey. I would like to welcome everyone to this 
morning's hearing on the Department of Justice. Our witness 
today will be Attorney General Michael B. Mukasey.
    Sir, when you became Attorney General, you inherited a 
Department rife with problems. The most troubling of those has 
been the infiltration of partisan politics in the Department's 
legal counsel, management decisions and operations.
    You are well aware, I think, of congressional concern about 
the partisan arm twisting that led to the authorization of the 
Administration's warrantless wire tapping program, as well as 
the parsing of words that has been used to justify the CIA's 
use of torture in its interrogation program.
    Last year, there were also severe concerns about White 
House involvement in the firing and hiring of U.S. Attorneys. 
With the Presidential election coming this year, many Americans 
are concerned about the Civil Rights Division's capacity and 
willingness to investigate and enforce the `` Voting Rights 
Act'' in cases of voter suppression.
    Unfortunately, politicization is only the tip of the 
iceberg in terms of management challenges at the Department of 
Justice. We have seen a steady stream of incidents across the 
Department in which senior leadership has abdicated its 
oversight and management responsibilities.
    I want to make clear I am not talking about you. I am 
talking about things that happened largely before you came on 
board.
    Over a period of several years, as you know, FBI agents 
have gained unauthorized access into the phone, banking, and 
credit records of American citizens, all without detection or 
redress by senior managers at either the FBI or the Department 
of Justice.
    The Bureau of Prisons faces a critical operating shortfall 
this year, and allegations have been raised that the Department 
has handed out juvenile justice grants to cronies rather than 
to deserving applicants identified through fair, merit-based 
competitive processes.
    We get a lot of lectures, frankly, from the White House 
about congressional earmarking practices. It seems to us that 
under a variety of disguises, the same practices are being 
practiced in spades in many of the agencies down on the 
executive end of Pennsylvania Avenue.
    The Administration again proposes to slash funding for 
state and local law enforcement and crime prevention grants 
despite clear indications that crime rises during economic 
downturns. The White House proposes even deeper cuts to state 
and local law enforcement than last year, to the tune of $1.6 
billion below the current year funding level. I do not know of 
a single sheriff in the United States who agrees with that 
recommendation.
    With respect to federal law enforcement initiatives, the 
funding you have requested for `` Adam Walsh Act'' sex offender 
apprehension and immigration enforcement appears to represent 
only a passing thought. In addition, nearly every element of 
your Department is severely undercut by a lack of resources to 
deploy an interoperable wireless communications network around 
the country, a critical shortfall identified in the aftermath 
of the 9/11 tragedy and still not deployed today.
    Continued growth in the FBI and the federal prison system 
is starving other critical functions at your Department in my 
judgment, activities such as criminal enforcement, litigation, 
administrative support and infrastructure deployment.
    This trend, in my view, must be addressed sooner rather 
than later if there is to be any significant hope of a 
Department of Justice comprised of more than the FBI and the 
Bureau of Prisons in the very near future.
    So we look forward to hearing your views on these and on 
any other issues that either you or members of the Committee 
choose to bring up. Again, we appreciate your appearance here 
today.
    Before we begin with your statement, I would like to ask 
the Subcommittee's Ranking Member, Mr. Frelinghuysen, for any 
comments he might have.

                 Opening Statement of Mr. Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Attorney General, I join Chairman Obey in welcoming you 
this morning for your first appearance before our Committee to 
discuss your 2009 budget.
    First, I want to recognize and extend my sincere 
appreciation to the men and women of the Justice Department who 
ably carry out their responsibilities to protect our country 
from terrorism and crime each and every day. We owe them a debt 
of gratitude.
    I would also like to recognize your public service career, 
not only as an attorney within the Justice Department, but your 
service on the Federal bench.
    As the Chairman has said, for 2009, you are seeking 
discretionary appropriations totaling $22.85 billion for the 
Department, a reduction of 514 million or 2.2 percent from the 
fiscal year 2000 level.
    While the request includes large and critically needed 
enhancements in national security and counter-terrorism money 
for those programs especially at the FBI and increased 
investments for criminal justice programs on our Southwest 
border, the budget also contains very deep and damaging cuts to 
assistance programs to state and local law enforcement, indeed 
our partners and your partners in some very important efforts.
    In addition, the Committee will act soon on the 
Administration's pending supplemental request, so I will have 
some questions about the Department's pending supplemental 
request of $146.7 million for Iraq, Afghanistan, the Global War 
on Terror.
    As you are aware, that request was formulated, I think, 
about 18 months ago and I am sure there are some updates you 
can provide us so we are operating on the latest and most 
current information.
    Again, like the Chairman, I welcome you here for your 
testimony this morning. Thank you.
    Mr. Obey. Mr. Attorney General, why don't you proceed. We 
will put your full statement in the record. Take whatever time 
you feel you need to tell us what you want to tell us, and then 
we will get to the questioning.
    Mr. Mukasey. Well, I would like to make just a brief 
statement before the questioning.
    Good morning, Chairman Obey, and----
    Mr. Obey. Take whatever time you need.
    Mr. Mukasey. Well, I do not want to run a lot of clock 
here.

             Opening Statement of Attorney General Mukasey

    Good morning, Chairman Obey, Ranking Member Frelinghuysen, 
and members of the Subcommittee. I am here today appearing 
before you to present the President's fiscal year 2009 budget 
for the U.S. Department of Justice.
    In my recent return to the Department in November, I have 
confirmed what I had hoped and expected to find, which is men 
and women who are talented, hard working, and dedicated to 
fulfilling the Department's mission.
    As you are aware, the Department is charged with defending 
the interests of the United States according to the law, 
ensuring public safety against threats both foreign and 
domestic, seeking just punishment for law-breakers, assisting 
our state and local partners, and ensuring fair and impartial 
administration of justice for all Americans.
    During my tenure, I have looked for opportunities to work 
with Congress to ensure that the Department is provided with 
statutory and other tools that are necessary to fulfill our 
mandate. The Department relies on the funding from this 
Committee to pursue our mandate and to enhance our efforts in 
the areas that need it.
    And, Mr. Chairman, I want to thank you and the other 
members of the Committee for your continued support of the 
Department, and I very much look forward to continuing to work 
with you and members of this Subcommittee to advance a budget 
that will help us to achieve our mission.
    My written statement, which you have put in the record, 
addresses the Department's budget request and goals in some 
detail. But I would like to take just a few minutes to 
highlight a few priorities.
    The Department's budget request for fiscal year 2009 is 
$22.7 billion. Those funds will allow us to accomplish our 
mission and to focus on several of the priorities that I have 
discussed in other settings. These are national security, 
violent crime, immigration and border security, and public 
corruption.
    The President's fiscal year 2009 budget request reflects a 
six percent total increase over the fiscal year 2008 enacted 
budget for the law enforcement and prosecution programs within 
the Department.
    I want to mention briefly four particularly important 
elements of the President's budget proposal.
    First, the proposal increases the resources that are 
dedicated to national security and counter-terrorism efforts by 
$492.7 million which includes resources necessary to expand and 
improve the counter-terrorism programs of the newly created 
National Security Division within the Department and the 
Federal Bureau of Investigation.
    Since the devastating attacks September 11, 2001, the 
Department has mobilized its resources to help protect the 
nation. In that time, this Committee has strongly and 
repeatedly shown its support of the Department's efforts in the 
War on Terror. And, again, we appreciate those efforts.
    Second, the budget dedicates an additional $100 million to 
the Southwest Border Enforcement Initiative. Those funds will 
provide the essential resources, personnel, and infrastructure 
that is needed to address illegal immigration, drug 
trafficking, and gun smuggling across the Southwest Border.
    Third, the budget request plans to support essential 
federal detention and incarceration programs that provide the 
infrastructure necessary to the Department's law enforcement 
personnel and prosecutors to carry out their responsibilities.
    As programs such as Project Safe Neighborhoods and the 
Southwest Border Enforcement Initiative investigate and 
prosecute dangerous criminals, the Department has to be ready 
to confine those individuals in a safe, secure, and humane 
environment.
    Finally, the budget funds current base operations and 
reflects the Department's strategy to work in partnership with 
state, local, and tribal authorities, and target funding to 
address the most significant needs of those communities.
    It is our collective obligation to ensure that our 
resources, whether expanded on federal efforts or in support of 
our state and local partners, are used wisely and in a way that 
is calculated to achieve the most significant impact.
    Chairman Obey, Representative Frelinghuysen, and members of 
the Subcommittee, I want to thank you for this chance to 
present the fiscal year 2009 budget. With your continued 
support, the men and women of the Department of Justice who are 
protecting and serving this country can continue to do their 
jobs and ensure that justice is served.
    During a time of limited resources and tough decisions, I 
am grateful that the Committee continues to support the 
Department's mission and its people.
    I thank you for inviting me here today, and I would be 
pleased to provide answers to the questions that you have. 
Thank you.
    [Written statement of Michael B. Mukasey, Attorney General 
of the United States follows:]



                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    Mr. Obey. Thank you very much.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Attorney General, you and I come from a part of the 
country, the New York, New Jersey region where we view 
September 11, 2001 perhaps a little bit differently than other 
parts of the country.
    And so when we talk about your budget and the centerpiece 
of your budget is counter-terrorism and intelligence, I do not 
think anyone views it in the abstract.
    I have said in a number of hearings, 700 New Jersians died 
on that day. I do not forget it. I know that your main mission 
is to make sure that it never happens again. You are working 
hard to prevent it, apprehend those responsible for it, and I 
know doing whatever you can to prosecute those that we find to 
be responsible for those acts.

                           BUDGET PRIORITIES

    You are proposing $493 million in new investments. The vast 
majority of that is in the Federal Bureau of Investigation, the 
FBI.
    You mentioned in your fuller testimony the national 
intelligence estimate and the renewed threat of an Al-Qaeda 
capability and their intention to carry out its act.
    What to your mind are the most areas in which the 
Department intends to focus the resources you are seeking to 
prevent further such attacks?
    Mr. Mukasey. Well, the money that you mentioned is focused, 
as you mentioned, principally on the FBI, which is that agency 
within the Department of Justice that is charged with 
intelligence gathering.
    I should add that that is a relatively new mission of the 
FBI that was begun really or gotten more robust after September 
11. And we have also, as I mentioned, stood up a new National 
Security Division within the Department of Justice.
    The money that you mentioned, the almost $493 million, will 
be used, among other things, to hire 280 agents at the Bureau, 
271 intelligence analysts, and as well as resources for DEA, 
the Office of the Inspector General, and law enforcement 
wireless communications, which are the radios that are 
necessary to ensure interoperable communication.
    Mr. Frelinghuysen. Director Mueller told us, the Committee, 
that his top priority was more people. You have mentioned the 
numbers.
    Is our best investment against terrorism more of these 
skilled agents and analysts? How do you view their work?
    Mr. Mukasey. There are enormous resources, as you know, 
from the various agencies across the intelligence community in 
gathering information. What is necessary is people who can 
gather information in ways other than are gathered by those 
intelligence agencies and also people who can evaluate the 
information. If the information piles up unevaluated, it does 
not do us any good.
    So we need to get both people who can gather information 
and people who can evaluate the information that is coming from 
other partners in the intelligence community, as well as 
information that is gathered domestically, and integrate it 
with all the other information that we are gathering that is 
coming in from the CIA, the Defense Intelligence Agency, and 
other agencies, and put it into a coherent picture.

                          TRAINING FACILITIES

    Mr. Frelinghuysen. This is not necessarily a parenthetical, 
but, you know, we are going to go hire new agents and analysts, 
but we do not appear to have enough training facilities for 
them. One of the missing links here is the needed money for a 
new FBI Academy.
    Mr. Mukasey. I believe the Director testified yesterday. I 
am not certain precisely which funds would be used for the 
Academy, but I believe that the FBI can train, has trained, and 
will continue to train, and also rely on having some of its 
agents pass through other intelligence gathering agencies so 
that there would be folks who would go through the CIA and so 
on. So there would be some training that goes on as part of 
that process as well.
    Mr. Frelinghuysen. Well, not only do they train their own 
people, they also work pretty closely with local law 
enforcement, and I think we can all verify here, in a 
bipartisan fashion, that we need more money for construction. 
It would be good to have your endorsement because we want the 
best skilled people that are out there.
    Thank you very much, Mr. Chairman.
    Mr. Obey. Would the gentleman yield?
    Mr. Frelinghuysen. Yes. Be happy to.
    Mr. Obey. Let me simply emphasize that it is our concern 
that the agencies will, if they have to make a choice between 
infrastructure and personnel, pursue adding personnel. We 
understand the reasons for that.
    But I think it is safe to say that many of us on the 
Committee feel that we run the risk of neglecting the 
infrastructure that is needed to support these added personnel, 
and we would hope that the Department would take that into 
strong consideration as it participates in budget decisions.
    Mr. Mukasey. We certainly will. And I appreciate that point 
being made.
    Mr. Obey. Mr. Kennedy.

                              DRUG COURTS

    Mr. Kennedy. Thank you. Welcome, Mr. Attorney General.
    You have heard the expression the 800-pound gorilla in the 
room or elephant in the room, although the identity of the 800-
pound gorilla tends to vary.
    Mr. Mukasey. Right. Exactly.
    Mr. Kennedy. Well, obviously in our country, often it is 
sitting in front of us and, yet, we overlook it. And in our 
prison system, we have more people incarcerated in our country 
than even China in spite of the fact that we are always 
bemoaning the fact their human rights record is abysmal and we 
are debating in our own country whether to boycott the 
elections. And we are constantly looking at other countries and 
complaining about their human rights record.
    But on a per capita basis, we have more people incarcerated 
in our country than China does. It says a lot about, you know, 
our prison record. And the fact is that we have people 
incarcerated in our country at such record numbers because of 
our drug laws.
    And, yet, in this budget that you submitted, we zero out 
drug courts. And this is in spite of the fact that 68 percent 
of those at the time of arrest test positive for one of five 
drugs. And this is in spite of the fact that within three years 
of being let out of prison, people's recidivism rate is back 
into prison and in large measure because of drugs.
    The war on drugs is just a farce as you know being a former 
judge. This is the big elephant in the middle of the room.
    What I want to ask is what your opinion is on, as the lead 
law enforcement officer in the nation, what we should be doing 
as a nation to address the fact that our prisons have become a 
public health institution of last resort because of the failure 
of our public health system to address really a public health 
issue, which is, addiction as a public health issue. What do 
you think of it as criminalizing really a public health issue?
    Mr. Mukasey. The fact is that Congress has passed statutes 
that criminalize the sale of drugs. And I want to stress that 
we do not prosecute possession and use cases. That is not what 
the Justice Department is about. We are about stopping the 
people who are making tons of money out of ruining other 
people's lives.
    Mr. Kennedy. So why zero out the drug courts?
    Mr. Mukasey. Well, I think it is something of an 
overstatement to say that we have zeroed out the drug courts. 
What we tried to do with that program as well as other programs 
is to put them into a more coherent framework of essentially 
four categories, violent crime reduction, Byrne public safety 
protection, child safety and juvenile justice, and violence 
against women.
    And what we would ask for is that various programs submit 
applications for grants, which we will evaluate, which will 
include drug courts. We are bound to include drug courts, we 
have to include them under one or more of those categories. So 
we are not ceasing to address that problem.
    Just a parenthetical comment. I do not know whether it was 
part of your question, but I do not think our incarceration 
rate reflects a bad comparison with the human rights record of 
China. The people who are incarcerated in the United States are 
incarcerated after trials or guilty pleas.
    Mr. Kennedy. And I understand that. I understand that.
    Mr. Mukasey. They have a totalitarian society, so they do 
not really need a high incarceration rate. They do it in ways 
that--we do not want to, we do not want to reduce our prison 
population that way. I think we can agree on that.
    And I realize that was not part of your question, but I 
thought I wanted to address it. But we do not underestimate----

                        JUVENILE JUSTICE GRANTS

    Mr. Kennedy. But when we cut the Juvenile Justice and 
Delinquency Prevention Program, which your budget does, which 
helps us avert a high incarceration rate, it is an indictment 
on our society to lower the number of people we put in prison. 
Your budget cuts the dollars that we have to avoid a high 
incarceration rate in our country.
    Mr. Mukasey. I think one has to recognize that, as I said, 
one of the things we have done is to put into four categories 
the various grants that we have given out under a myriad of 
cross-cutting and intersecting programs. One of them is $185 
million for Child Safety and Juvenile Justice.
    But that does not really stand alone. It stands along with 
our own efforts that involve task force efforts directed, for 
example, at an unprecedented number of gun prosecutions and 
other task force prosecutions that we carry on.
    So what we are trying to do is, number one, rationalize and 
coordinate grants and, number two, coordinate them with our own 
Justice Department enforcement efforts, that we have got a kind 
of doubling of resources.
    Mr. Kennedy. But I do not know whether the experts in the 
field have consulted with you on that, but did the juvenile 
justice folks in the field say that the JAIBG Program and Title 
5 needed to be reformed, because from what I have understood, 
they have worked very well over the years?
    I did not hear an outcry that they were not working and 
somehow they were not being made available for the kinds of 
prevention efforts that were needed to be made available for 
and, therefore, needed to be rolled into this kind of lump sum 
block grant that you say they needed to be rolled into.
    Mr. Mukasey. As to those two specific matters, I think I am 
going to need to get back to you because I do not want to----
    Mr. Kennedy. Right.
    Mr. Mukasey [continuing]. Either try to grope for the 
materials in here or give a general answer that is not 
responsive. So I will try to get back to you with regard to 
those two specific programs.
    [The information follows:]

Juvenile Accountability Incentive Block Grant (JAIBG) Program and Title 
                                   V

    The Department is not aware of any sentiments or calls from the 
states to reform either the Title V Community Prevention Block Grants 
or Juvenile Accountability Block Grants (formerly JAIBG) programs. In 
fact, in their annual reports and recommendations to the President and 
Congress and to the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) Administrator for the years 2004 through 2007, the 
Federal Advisory Committee on Juvenile Justice (FACJJ) made no 
recommendations regarding these two programs beyond requesting that 
Congress either increase or maintain their annual funding levels.
    The annual reports of the FACJJ are available at: http://
www.facjj.org/annualreports.html.]

    Mr. Kennedy. Okay. Well, thank you, and look forward to 
that answer. That would be great.
    Mr. Obey. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Attorney General, I want you to know how much I admire 
the work you have done. You have just done a magnificent job as 
our new Attorney General, and very proud of the work that you 
and your office are doing and look forward to supporting your 
budget request.
    I am pleased to see that you have asked for enough money 
that you look like you will be in a position, if we are able to 
fully fund that, and certainly I will do my best to see that 
that happens, that you can support the work of our Border 
Patrol agents and our other law enforcement officers along the 
border.

                            SOUTHWEST BORDER

    I represent the State of Texas, the west side of Houston, 
and we have for a number of years, my constituents, everybody 
in the state, I know it is a concern of the country, but 
particularly in Texas, been just apoplectic over the lack of 
enforcement of our immigration laws, especially of our laws at 
the border.
    There have been an increasing number of extremely dangerous 
criminals coming across the border, MS13 gang members, the 
human and drug smugglers. Slavery still exists. I did not fully 
appreciate that until I had been to the border and seen the 
tragic circumstances of people coming here for economic reasons 
who are literally held in slavery. And pirates still exist. 
They prey on each other.
    It is the wild west, but today the Comanches are carrying 
machine guns and satellite phones and infrared binoculars. It 
is a scary place. There is a war going on down there, as you 
know, sir, and I have been devoting as much time as I can as a 
member of Congress, as a member of this Committee to help 
support law enforcement to find effective, thoughtful ways to 
secure the border, and have been very pleased with the work the 
Border Patrol is doing.
    This Congress has supported the Border Patrol and given 
them so much money, in fact, that the officers, the sector 
chiefs, the Border Patrol agents along the border have, as 
Chief Gilbert in the Tucson sector told me, that the Border 
Patrol has been so generously and so well-funded by the 
Congress that they have like Napoleon outrun their supply train 
in many cases.
    And that is something, Mr. Chairman, I hope we will work on 
here because the U.S. prosecutors, the U.S. Marshal Service is 
going to need help to help support this because truly like 
Napoleon in many ways, the Border Patrol has outrun the supply 
train.
    In the Del Rio sector and in the Laredo sector, Mr. 
Chairman and Mr. Attorney General, the Border Patrol in working 
with the U.S. Attorney's Office has implemented an extremely 
successful policy that I have been working arm and arm with 
Ciro Rodriguez and Henry Cuellar with the full support of the 
local community which is 96 percent Hispanic.
    In the Del Rio sector, they have begun a policy called 
Operation Streamline in which they are arresting and 
prosecuting essentially 100 percent of everybody they arrest 
with, of course, obvious exceptions for officers using their 
good judgment. If it is a woman with children, they do not 
throw them in jail. If they are somebody that is sick, they are 
using good judgment.
    But in the Del Rio sector as a result of that, Mr. Attorney 
General, the crime rate in Del Rio has fallen 76 percent. The 
number of illegal apprehensions is down to the lowest level 
they have seen since 1973 when they first began to keep 
statistics.
    In the Laredo sector, I was able to persuade the Sector 
Chief there, Carlos Cario, who is a good man, they have a 
terrible crime problem in Laredo with the drug war going on 
across the border. Sector Chief Cario has implemented Operation 
Streamline and the results have been similar. They have seen a 
dramatic drop in the crime rate and a similar drop in illegal 
crossings. I am working to get it rolled out in Brownsville.
    What I am leading up to, sir, is I made a trip to Tucson, 
Arizona in early February and met with the Border Patrol Chief 
there. I had understood they were interested in doing Operation 
Streamline out there.
    And, Mr. Chairman, I mentioned to you and Mr. Frelinghuysen 
before, but I was dumbfounded to discover that in the Tucson 
sector, which has the largest number of illegal crossings in 
the country, there is an absolutely out of control drug 
smuggling problem.
    The drug smugglers are so bold, in fact, that they have 
actually set up observation posts in the U.S. soil on top of 
hilltops where they put observers with satellite phones and 
infrared. They are actually watching our agents and telling the 
smugglers where the officers are.
    So I went to Tucson to find out firsthand how I could help 
them with Operation Streamline and was dumbfounded to discover, 
and what I am about to tell you is absolutely--I still could 
not believe it myself, had to quadruple check it--if you are 
arrested by a Border Patrol Agent in the Tucson sector carrying 
less than a quarter ton of dope, you have a 99.6 percent chance 
of being home in time for dinner and never going to jail 
because the U.S. Attorney's Office is not prosecuting them.
    And it is deeply disturbing. And when you look at the 
prosecution rates up and down the border, obviously the Tucson 
sector has got a huge problem. The Border Patrol is arresting 
over 50 percent of the people coming across the border.
    And the U.S. Attorney in that sector was, I have to tell 
you, completely unhelpful, aggressively unhelpful in providing 
me information. I went there with hat in hand, how can I help 
you. They would not even talk to me. They were literally 
aggressively unhelpful is the most polite way I can put it.
    I have met with your folks at the Department of Justice and 
grateful to know that this budget request you have given us 
will help, but I wanted to particularly ask you, sir, if you 
could just direct some personal attention, because I know what 
a good man you are. You are focused on law enforcement.
    A .39 percent prosecution rate this year, .14 percent 
prosecution rate last year is not a matter of not enough 
resources. I mean, that is a policy decision of somebody in the 
U.S. Attorney's Office out there, because I looked at the 
evidence room.
    The U.S. Attorney in Tucson actually notified the Border 
Patrol that they were only going to prosecute a very narrow 
range of violent cases, a very narrow range of cases. Anybody 
else was not going to be prosecuted.
    And the Border Patrol officers asked for clarification, we 
want it in writing, and the U.S. Attorney actually sent out a 
memo to the Border Patrol saying that if you arrest anybody 
with less than 500 pounds, we are not going to prosecute.
    And I asked the officers how long did it take the smugglers 
to come in with loads at 499 or less and they said about 48 
hours. The loads of dope that are in the evidence room in 
Tucson are all below 500 pounds. They even had a 28-pound load 
of cocaine that the U.S. Attorney would not prosecute.
    And Mr. Attorney General I really admire what you are doing 
and I know that you folks are doing your best, but Tucson is a 
hemorrhage. It is like we have got a bleeding artery in Tucson 
that is going to need your personal attention.
    Quick example. The Border Patrol has invested tens of 
millions of dollars in unmanned aerial vehicles. They have got 
state-of-the-art UAVs, the ones that they are using in Iraq, 
based at Fort Huachuca. I went and saw them.
    And the proud officers there working in the trailer, they 
showed me videos of arrests that they have made two o'clock in 
the morning. The Border Patrol agents are vectored out to 
intercept a caravan of smugglers coming in, one that was 
carrying a thousand pounds of dope.
    The UAV saw them in Mexico in the vehicles, tracked them 
crossing the border with armed men with machine guns escorting 
them. They vector in the Border Patrol agents at two o'clock in 
the morning out in that dangerous desert. These proud Border 
Patrol agents go out with helicopters, vehicles. They go in. 
They make the arrest. Everything is on film, unbroken. They 
give it to the U.S. Attorney in Arizona and she says, no, I am 
not going to prosecute.
    So what this does, of course, it is utterly demoralizing to 
the officers. The smugglers are laughing at us out there. And 
it is a terrible problem.
    And I hope that if you could, please, talk to me a little 
bit about what can you do, your office personally to make sure 
that we stop the bleeding in Tucson, and that sector is 
absolutely out of control, and get this prosecution rate of .4 
percent up.
    Mr. Mukasey. A couple things. First of all, I am familiar 
with, principally by discussion, with the successes in Del Rio 
and elsewhere in Texas.
    Mr. Culberson. Like Laredo.
    Mr. Mukasey. And Laredo that you mentioned.
    Mr. Culberson. And we are working on Brownsville, I hope 
with your help. The local community would love to have your 
help in Brownsville because they are ready.
    Mr. Mukasey. I hope to help with Brownsville. But 
respectfully, those numbers in Del Rio and Laredo and 
presumably in Brownsville are much, much smaller than the 
numbers involved in Tucson.
    And we have had great success in Del Rio and Laredo in 
large part because of the nature of the people who are coming 
over in those areas who turn out to be people who are simply 
looking for work and people to whom the fact of a criminal 
prosecution, whether they get a little bit of time or, I mean, 
even as little as two weeks or 30 days is a major message 
because they simply did not think of their activity as 
criminal.
    Mr. Culberson. And it is a federal crime. If they come back 
again, it is a felony and they are barred forever. So there is 
real meaning to that prosecution rate even if it is for a few 
days.
    Mr. Mukasey. Right. Move up, however, to Tucson----
    Mr. Culberson. Yes, sir.
    Mr. Mukasey  [continuing]. Which I actually visited on my 
trip. I made a trip to the border and to Mexico.
    Mr. Culberson. Okay.
    Mr. Mukasey. Their numbers are enormous. And my experience 
did not coincide with yours. I think I need to revisit this by 
phone or otherwise insofar as this supposed 500-pound 
threshold.
    My understanding is that when they get people, the 
backpackers who use diversion and then come across with their 
backpacks, put it all together and ship it up to cities north, 
those people are being prosecuted. That the percentages that 
you refer to are the other folks who are not involved in that 
kind of activity. They do, in fact, take quite seriously, the 
smuggling of marijuana and other drugs.
    Mr. Culberson. Unfortunately, I think your local office 
might have put on a good dog and pony show. I poked around a 
lot. I went around and got off the radar and poked around. The 
evidence room is full of loads under 500 pounds. I would love 
to work with you on this and I want to be supportive and 
helpful.
    Mr. Mukasey. I understand that you do and I would be happy 
to work with you.
    Mr. Obey. Mr. Schiff.
    Mr. Culberson. Thank you.
    Mr. Schiff. Thank you, Mr. Chairman.

                          EXECUTIVE PRIVILEGE

    Mr. Attorney General, I want to ask you a few questions 
about the subpoena power of the Department and the courts and 
the Congress.
    When the Department subpoenas witnesses to come before the 
Grand Jury, I take it they have an obligation to appear before 
the Grand Jury. They can make a claim of privilege once they 
get there, but they are required to appear before the Grand 
Jury; are they not?
    Mr. Mukasey. As to Grand Jury subpoenas?
    Mr. Schiff. Yes.
    Mr. Mukasey. Yes.
    Mr. Schiff. If they want to make a claim of privilege, they 
would have to particularize it and say that as to this question 
or this document, that is a matter of attorney-client privilege 
or some other privilege and I am not required to provide that?
    Mr. Mukasey. And Grand Jury proceedings are secret.
    Mr. Schiff. Right. When you were on the Federal bench, if 
someone was subpoenaed to come into your courtroom and testify, 
I take it they were required to appear in your court and make a 
claim of privilege if they had one to make? They could not 
simply----
    Mr. Mukasey. Absent a successful motion to strike the 
subpoena, in which case it would happen.
    Mr. Schiff. But absent that, they could not simply fail to 
appear?
    Mr. Mukasey. Correct.
    Mr. Schiff. Why does the same principle not apply when the 
Congress issues a subpoena to the executive? Why is the 
executive not required to appear and to make a claim of 
privilege and make a particularized claim and say as to this 
question, this is covered by executive privilege, as to that 
question, I can testify?
    Mr. Mukasey. I think what you are talking about is 
subpoenas that I testified about before the Oversight Committee 
relating to in particular people immediately around the 
President who were subpoenaed, as to whom there was long-
standing OLC authority to the effect that their testimony was 
privileged under executive privilege and that that privilege 
embraced, because they were people who would directly advise 
the President, embraced essentially no necessity to appear 
because what they were being asked to do was to discuss their 
advice to the President which was privileged.
    Mr. Schiff. Mr. Attorney General, as we have seen in the 
case of the torture issue, the opinions of the Office of Legal 
Counsel are often wrong and they are often repudiated.
    I would take it if someone were subpoenaed to appear in 
your court when you were judge, notwithstanding that they had 
the opinion of their own attorney, that what they had to say 
was privileged, the fact that their own attorney might advise 
them to say it was privileged does not preclude them from 
having to go to court and make the argument why their testimony 
is privileged.
    So why is it different in the case of the executive and 
particularly in the case of a former executive official?
    Mr. Mukasey. I reviewed the particular opinions relating to 
the subpoenas that I think you are talking about and I believe 
they are valid.
    I think what is different is, in large part, the fact that 
we are talking oddly about two matters. One is congressional 
oversight. The other is executive privilege. Oddly neither of 
which is provided for directly in the Constitution, but both of 
which are implicit in the Constitution.
    Mr. Schiff. But, you do not deny the power of the Congress 
to subpoena someone to come and testify, right?
    Mr. Mukasey. We do not.
    Mr. Schiff. The only question is whether the privilege 
applied. How can it be the policy of the Department, how can it 
be legal to take the position that we can simply fail to appear 
and not have to particularize any claim of privilege based on 
our own internal opinion?
    Mr. Mukasey. I think when you are talking about people who 
were directly involved in advising the President--we are not 
talking about people who are lower down in the executive--but 
people who were directly involved in advising the President, 
the principles are somewhat different.
    Mr. Schiff. Well, they can make those arguments, I would 
assume, when they appear before Congress, when they are asked a 
particular question, that this question was the subject of 
discussion with the executive and, therefore, is privileged.
    The President has asserted, with respect to some of the 
things that the Congress was interested in, that he was not 
party to the discussions, and so presumably there would be 
areas of testimony that would not be within the realm of 
executive privilege.
    So how can we make that determination in a vacuum?
    Mr. Mukasey. Even if the President is not himself a direct 
participant, there is a decision-making process within the 
White House that has been found to be the subject of executive 
privilege.
    Mr. Schiff. That is probably exactly correct, but that 
would not apply to every question about every issue and cannot 
be made, I think, in isolation within the executive.
    If I can ask you also, Mr. Attorney General, ask you to put 
your federal judicial hat on again. The Congress disagreed with 
your opinion----
    Mr. Mukasey. It would have to be a violation of----
    Mr. Schiff. Well, just for the purpose of today, the 
Congress disagreed with the opinion of the Office of Legal 
Counsel. It found that the failure to appear constituted 
contempt. According to the statute, that when the Congress 
makes that finding, it is the United States Attorney whose duty 
it shall be to bring the matter before the Grand Jury for its 
action. Once it is brought before the U.S. Attorney, the 
statute says that that U.S. Attorney shall bring the matter 
before the Grand Jury.
    Now, when, as a federal judge, have you interpreted the 
word shall in such clear terms to mean may? What is the basis 
for instructing the U.S. Attorney that the requirement that he 
shall bring it before the Grand Jury is somehow discretionary?
    Mr. Mukasey. I think the basis is set forth in an OLC 
opinion which says essentially that when there has been a 
finding of a valid claim of executive privilege, a United 
States Attorney could not under those circumstances, that is 
when there has been a finding that the claim of executive 
privilege was valid, could not under those circumstances bring 
a contempt proceeding.
    Mr. Schiff. Do you not see how this would inoculate the 
executive in every circumstance because presumably whenever the 
executive operates consistant with what its own attorneys tell 
it, they would then instruct the U.S. Attorney not to enforce 
any type of a contempt citation?
    It seems to me that the issue would be placed before the 
Grand Jury to decide. By the executive taking the position that 
we can write our own legal opinion to justify the failure to 
appear and that we can write our own legal opinion to justify 
the failure to enforce our failure to appear, the executive 
inoculates itself from any enforcement mechanism by the 
Congress.
    Mr. Mukasey. Respectfully, I do not think that inoculation 
is necessarily a hundred percent effective because, as I 
understand it, and I do not know this to be the fact, but I 
have read that there is to be a lawsuit relating to those 
subpoenas and that matter will be decided in court.
    Mr. Schiff. Well, there is a lawsuit. We had to take that 
extraordinary step.
    The problem that I am pointing out here is that as the 
chief law enforcement officer for the country, I do not think 
you can take the position that an answer to a lawful subpoena, 
the executive can simply fail to appear on the basis of its own 
attorney's view and it can instruct its own attorneys not to 
enforce contrary to the explicit language of the statute when 
it does so.
    Mr. Mukasey. I certainly agree with you as an across-the-
board matter that that should not happen. But in these 
particular cases for reasons that we have outlined, we think it 
should and that matter is going to be resolved in court. There 
have been previous cases involving assertions of executive 
privilege and they have been sustained at times, overridden at 
times.
    And one case that comes strongly to mind is the United 
States versus Nixon where the same material was subpoenaed by a 
Grand Jury and by a congressional committee, and where the 
issue broke was that, as to the Grand Jury subpoena, the 
subpoena was upheld and the objection was overridden. And as to 
the congressional subpoena, essentially the same material, the 
objection was sustained.
    Mr. Obey. Mr. Ruppersberger.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Ruppersberger. Interesting legal debate for both. You 
can tell you both know your issues. Probably both lawyers too.
    Mr. Schiff. I plead guilty.
    Mr. Ruppersberger. Okay. I want to try to get into three 
areas, if I can quickly, but maybe I might not be able to.

                             ADAM WALSH ACT

    The first thing, Congresswoman Deborah Wasserman-Schultz 
and Senator Biden have asked me to raise this issue with you.
    You are aware that the 2006 ``Adam Walsh Act'' directed the 
Attorney General to deploy technology to Internet crimes 
against children. There is a great program, a Wyoming program 
that has been very successful about bringing together the 
different jurisdictions and really has helped make a lot of 
cases. You now want to expand that program.
    We want to make sure that the Wyoming program stays in 
place until the new program is up and running and it works. We 
have had a lot of issues, as you know, in the FBI with the 
problems with our technology.
    So my question to you is, are you going to maintain the 
Wyoming program until a new program is up and running and has 
been tested?
    Mr. Mukasey. I cannot speak directly to the Wyoming program 
because I am not familiar with it. I would be happy to get back 
to you specifically with regard to that.
    However, we do work very closely with an entity called 
NCMEC, which is the National Center for Missing and Exploited 
Children out in Alexandria. And if anybody has not paid a visit 
out there----
    Mr. Ruppersberger. Yeah, but I do not want to get into 
that. I am going to ask you the question because I have to get 
to some other areas.
    Can you give us a commitment that you will maintain the 
Wyoming program? You have won a national award for this or the 
Justice Department has won an award for being effective, and we 
do not want to do away with one program because we are starting 
another one that does not work yet.
    Mr. Mukasey. One thing I can promise you is that I will 
look into it and get back to you in writing if I have to. I am 
not going to comment on a program with which I am not familiar.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Ruppersberger. Okay. I would suggest you look at it 
very closely and hopefully you will follow the suggestions that 
we have given you.

                 FOREIGN INTELLIGENCE SURVEILLANCE ACT

    FISA, as you know, is the legislation to reform the 
government's ability to engage in wire tapping. I am on the 
Intelligence Committee as is Mr. Schiff, and I do represent 
NSA. NSA is in my district. I spend a lot of time at NSA.
    So a lot of my constituents work at NSA. And anyone who 
works in the field of intelligence should know exactly what the 
law is. They should have the ability not to worry about whether 
something is in a gray area. So it is so important that we move 
ahead with FISA.
    We have now worked out a lot of issues. I think the biggest 
problem started when we tried to undertake the FISA 
legislation. It was the issue of the courts.
    And you as a judge and a lawyer know that our forefathers 
created a great system of government with checks and balances. 
And, you know, I personally felt very strongly as a former 
prosecutor also that we needed the court whenever you have a 
wire tap for the check and balance. And I think we have 
resolved most of that issue now.
    I think what it comes down to with respect to FISA right 
now is the Senate bill that is giving full immunity versus our 
House bill that is not going to give full immunity.
    And by the way, I believe that it is more, and I know my 
colleague, Mr. Schiff, believes this way, that it is not as 
much about the immunity with me. It is about whether or not 
anybody in the government really broke the law. And, 
unfortunately, there is a lot that we can't say because of 
issues being classified, that really these companies can 
protect themselves.
    So now we are in a position where we are asking, will you 
and the Administration be willing to negotiate on this issue so 
we can get beyond this back-and-forth bickering. It is for our 
national security. It is for the people that work in this field 
every day. And we have got to have a consensus and move on in 
dealing with national security.
    Where are we, and will you be willing to negotiate and work 
with us so we can get this behind us?
    Mr. Mukasey. I am not directly the person doing the 
discussing, but I should tell you that, first of all, as to the 
need for certainty, I could not agree with you more. That is a 
significant part of the problem underlying the immunity debate.
    Secondly, nobody, nobody is talking about immunity for 
government activity. This is immunity under two circumstances, 
one in which a carrier did not participate. And I think 
everybody can agree that if they did not participate, there 
should be no lawsuit.
    Secondly, a situation which a carrier received from the 
government a notification that they were being asked by the 
President to do something that was lawful and that served 
national security, under those circumstances, yes, immunity was 
requested.
    And these people need to know on a certain ongoing basis 
whether they are protected or not because, otherwise, their 
cooperation with us--and it is not just as to electronic 
surveillance. Private entities cooperate with the intelligence 
community across a broad area and cooperate voluntarily.
    But they are not charitable institutions. They are not 
governmental institutions. They have responsibilities to their 
boards. And if they are going to be sued whenever they provide 
that kind of cooperation, their only response is going to be 
and has to be ``Make us do it.''
    Mr. Ruppersberger. I agree with you on that issue.
    Mr. Mukasey [continuing]. To be resolved.
    Mr. Ruppersberger. Okay. I agree with you on that issue. 
However, the votes are not there on our side at this point. So 
part of our system of government is about working out issues 
and compromise. And this is too important an issue.
    So really my question to you, understanding the fact you 
might not be integrally involved in negotiation, would you be 
willing to use your position as Attorney General to sit down 
and to try to work a compromise as it relates to this FISA 
Bill? It needs to move forward.
    Mr. Mukasey. I think anything that can be discussed should 
be discussed. But I do not think we can cut bone simply in the 
interest of achieving a compromise.
    Mr. Ruppersberger. There are some other issues that I do 
not want to talk about now that could be resolved. You know, 
unfortunately because of the fact that we have classified 
information, we cannot talk about it.
    But, you know, we need good faith here. There are a lot of 
issues out there with the President and his interpretation of 
authorities, but this needs to move forward.
    Okay. Let me get into one other area that--yes.
    Mr. Obey. Only if it will take 30 seconds. Your time is up. 
Did you want to----

                             CYBER SECURITY

    Mr. Ruppersberger. Yeah. Real quick, because I will say it. 
Cyber security, very important issue. We are being attacked on 
a regular basis by China and Russia and we need to be 
aggressive. They could cut down our banking institution. But we 
are moving forward in this arena.
    I think it is very important that the Attorney General get 
involved and start discussing the issues of civil liberties and 
privacy and those issues so we do not get into a FISA 
situation. We have a lot to do here, but we also have to deal 
with civil liberties.
    I think we do not have a road map as it relates to cyber. 
We need a road map. And I think you in your position, you have 
to focus on where we are going to be in this regard.
    Mr. Mukasey. One answer, amen.
    Mr. Ruppersberger. Was that 30 seconds, Mr. Chairman?
    Mr. Obey. What?
    Mr. Ruppersberger. Was that 30 seconds?
    Mr. Obey. That was just fine.
    Mr. Ruppersberger. Good.
    Mr. Obey. Mr. Rogers.
    Mr. Rogers. Mr. Chairman, thank you.
    Attorney General, welcome.
    Mr. Mukasey. Thank you.

                         SENTENCING GUIDELINES

    Mr. Rogers. I want to ask you about the recent decision by 
the Sentencing Commission for crack cocaine offenders that 
allows the offenders in prison prior to November 2007 to 
petition a federal judge to have their sentences retroactively 
reduced accordingly. The sentencing guidelines had employed a 
hundred-to-one ratio that treated 100 grams of powder cocaine 
the same as one gram of crack cocaine for purposes of 
sentencing convicted cocaine offenders.
    My questions to you relate to that. What impact will that 
decision have on drug-related and violent crime in the U.S. and 
what impact will it have on the prosecution of cocaine 
offenders in the future?
    Mr. Mukasey. I do not want to be alarmist about this, but 
the fact is as you know, we were against the amendment of the 
guidelines retroactively for a number of reasons.
    First of all, crack offenders, because of the nature of 
that business, were among some of the most violent offenders in 
the prison system. To release them prematurely, we thought, 
without the benefit of the reentry programs and other programs 
designed to reintroduce them to society in a way that minimizes 
the chances of recidivism was a mistake.
    Secondly, it was in the large, unfair to take the cohort 
probably least deserving of a retroactive application of the 
optional feature of the guidelines that has now been read in by 
the Supreme Court and give that group the benefit of optional 
application of the guidelines, whereas others were in on 
mandatory sentences that were going to hold regardless.
    Third, the sentences that had been imposed on those folks 
were the result of cases that had been built in large measure 
on the assumption that the crack cocaine sentences were what 
they were going to be.
    We answered pleas from communities where people were 
literally being held hostage by the presence of violent crack 
dealers in their communities.
    We went in. We made cases based on the crack statutes and 
the crack guidelines as they existed at the time, were able to 
forego problems that might be presented, for example, by 
figuring out who in the gang was responsible for the weapons at 
the stash house and so forth and made cases that were built on 
the existence of the guideline system as it was at the time. 
Those sentences are now being reconsidered with other 
considerations in mind.
    And it seems that we did a substantially good job at that 
and to the point where the concern has now turned from the 
communities that were besieged to the people who are in prison. 
And we just think that was a mistake for those reasons.
    The numbers are going to accelerate as these people come 
out. Frankly, I hope predictions of dire results are wrong. But 
it is not hard to see that people who come out after a crack 
sentence are going to go back to their neighborhoods and they 
are going to find one of two things, either the spot they 
occupied is unoccupied, in which case it is back to business, 
or the spot is occupied, in which case there may very well be 
violence.
    Mr. Rogers. Well, I share your worry and fear that the 
worst may happen.
    According to the Sentencing Commission about 19,500 inmates 
sentenced between 1991 and 2007 would be eligible to seek a 
reduced sentence and the average sentence reduction would be 27 
months or about 17 percent.
    That is a big number, 19,500 crack offenders thrown back 
into our cities and communities. That is a rather large number; 
is it not?
    Mr. Mukasey. It is a big number. And I should point out 
that so far as the reduction you spoke of, that is, I think, 
based on the assumption that the reduction would be limited to 
a two point adjustment.
    Once a person like that comes up for resentencing, the 
level of the reduction really depends on a decision by the 
judge, the guidelines being optional at this point. If the 
judge can provide a reason, the judge can go down as far as he 
or she wants. So that assumes only two points. It could be 
more.
    Mr. Rogers. So these requests, are they being made already?
    Mr. Mukasey. They are being made. In fact, in one 
jurisdiction, as soon as the new retroactive guidelines were 
announced, the judge did not wait for the effective date. He 
said that because the effective date is itself optional, he 
might as well do it right now and did it.
    Mr. Rogers. How many have been released so far?
    Mr. Mukasey. So far, I cannot give you a hard number. I 
will try to find that. It was three in that case.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Rogers. My information as of March the 5th was that 
more than 400 requests have been processed by BOP and they are 
already releasing inmates.
    Mr. Mukasey. That is----
    Mr. Rogers. Do you know how many would be eligible for 
release in the near future?
    Mr. Obey. Last question.
    Mr. Mukasey. I think that the number is around 1,600.
    Mr. Rogers. My information is 4,000 inmates would be 
eligible for release within one year of March 3rd, 2008.
    Mr. Mukasey. I was working with the smaller near future.
    Mr. Rogers. Yes.
    Mr. Obey. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    And welcome, Attorney General Mukasey.

                             WORKER ABUSES

    This week, members of the Congress have been briefed by H2B 
workers from India about horrendous worker abuses that they 
have suffered in Texas and Mississippi at the hands of the 
Signal International Corporation.
    They were promised green cards and family Visas and close 
to 600 workers gathered 20,000 U.S. dollars, their life 
savings, only to be provided with H2B Visas, temporary Visas, 
wage and hour violations, inadequate facilities, cramped living 
quarters, isolation, constant surveillance by armed guards, and 
threats of deportation for those who reported these abuses. I 
am aware that the workers have reported these abuses to the 
Department of Justice.
    Could you confirm that DOJ is conducting a serious 
investigation into this case? And I hope that DOJ is the lead 
on the investigation on these cases, that they are and not 
immigration customs enforcement. And how will DOJ ensure that 
these H2B workers will be able to fully participate in the 
investigation given their current vulnerabilities?
    The other section of my question in this area is I am 
concerned about whether the DOJ is generally putting effort 
into investigating these types of labor trafficking cases and 
how many past investigations have been conducted involving 
labor abuses of guest workers by U.S. corporations and 
recruiters and how many of these cases have been prosecuted and 
what were the results?
    The current temporary worker program in the United States 
permits serious abuses to occur. What is the protocol for 
investigating cases that involve guest workers given their 
particular situation and vulnerabilities? And later I have 
another question on Korean immigrants.
    Mr. Mukasey. I have heard about it, but I am not familiar 
with it to the point of being able to discuss it, the 
particular case that you mention, and I would like to get back 
to you further on that.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committtee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Although from the facts you describe, it sounds like a 
fraud investigation might conceivable be warranted. But I would 
like to know more about it and will respond in writing about 
that.
    The Department's response to the situation of workers who 
are brought here and kept essentially in slavery--and when I 
was district judge, I prosecuted a woman who headed what was 
called the snakehead operation and kept people in virtual 
slavery. She is doing a substantial sentence as a result of 
that. And people who worked with her are doing substantial 
sentences as a result of that.
    Mr. Honda. Thank you.
    Mr. Mukasey. But the particular case you mention is 
something that came to my attention the other day. I have not 
gotten into the details of it and I should not respond without 
knowing that. The same is true for the numbers that you asked 
for.
    Mr. Honda. Right. We will look forward to working with you 
very closely because of the seriousness of the case and its 
implications.

                           IMMIGRATION FRAUD

    My second question, Mr. Attorney General, is, over a 12-
year period, a long-time INS supervisor accepted over half a 
million dollars in bribes from immigration consultants in 
exchange for green cards he later authorized.
    In 1999, the four immigration consultants were convicted 
for their participation in this green card scam that affected 
some 275 Korean immigrants based on the testimony of the 
corrupt INS officer, who paid a fine and only received 
probation.
    As a result of this fraudulent scheme conducted by this INS 
official and immigration consultants, hundreds of these Korean 
immigrants are facing uncertainty for almost eight years now. 
They are facing deportation hearings and undue anxiety after 
building their lives in California for the past two decades.
    And I am sure that the Department comes across cases of 
immigration fraud such as this where innocent victims may be 
subject to deportation proceedings.
    How does the Department handle these cases to ensure that 
the innocent victims are not punished for the wrongdoings of 
corrupt officials and middlemen? Is there a collaboration with 
the Department of Homeland Security to ensure that the lives of 
innocent victims are not destroyed and families not separated?
    Mr. Mukasey. The way cases are built has to vary on a case-
by-case basis. And as you point out in your question, the 
responsibility for what happens to people who are here and are 
undocumented is principally that of DHS rather than DOJ.
    That said, we try to prosecute people who are principally 
responsible for schemes like the one that you mentioned.
    And, again, calling on my experience as a district judge, I 
tried somebody who was a guard over at 26 Federal Plaza who was 
conning people into believing he had authority. He, too, is 
serving time in jail.
    Mr. Honda. I do not want to be disrespectful, but I just 
want to make use of the time. The point is that this case was 
shifted over to DHS because of the shifting of 
responsibilities.
    My question is, if we are pursing justice and in your 
preamble, you talked about ensuring justice and even though it 
goes over to DHS, when these cases are prosecuted and we go 
after and punish the perpetrators, why would the victims be 
victimized again when they are up for review of their green 
cards, and why could we not argue on their behalf and say let 
us put them in another situation and treat them as if none of 
these things have happened so that they can be dealt with in a 
way that there were no other situation that was negative on 
their behalf?
    Mr. Mukasey. I think that it should be the responsibility 
of the Department to call to the attention of anybody who 
adjudicates their situation at DHS. The cooperation that they 
have provided to the Justice Department in prosecuting cases 
and in disclosing this kind of thing, I would be surprised if 
that were not taken into account.
    Mr. Honda. I wrote a letter to the previous Attorney 
General, Ashcroft, asking for that consideration, even a 
communication to DHS indicating that or even suggesting that 
they be treated in a way that would recognize their situation 
and not be treated as if they were part of that fraud.
    Mr. Mukasey. It is our policy to call cooperation to the 
attention of any authority that deals with somebody who 
cooperates, whether it is DHS or the Bar Association or anybody 
else. And I do not see why it should vary here. I will----
    Mr. Honda. I would like----
    Mr. Obey. The gentleman's time is about to expire.
    Mr. Honda. Thank you very much.

                          PROSECUTORIAL ABUSE

    Mr. Obey. Mr. Attorney General, the court a long time ago 
in a famous case observed that the power to tax is the power to 
destroy. I think that people would also agree that the power to 
prosecute is the power to destroy.
    When the FBI Director was before this Committee two days 
ago, I told him about something I witnessed in Wisconsin when I 
was in the legislature, an event in which a Democratic Attorney 
General's Office in the State of Wisconsin, in my view, engaged 
in prosecutorial abuse. In the process, they virtually 
destroyed the career of the Republican leader in the State 
Legislature.
    I have now witnessed the exact opposite case where it seems 
to me that if not prosecutorial abuse, at least prosecutorial 
spectacularly bad judgment virtually destroyed the career of an 
innocent woman and enabled millions of dollars of demagoguery 
to be directed against an incumbent Democratic Governor.
    I do not know if you have ever heard of Georgia Thompson. 
She is a 59-year-old single woman, an employee of the State of 
Wisconsin. If you lived in Wisconsin, you would certainly have 
heard of her because she was prosecuted by the U.S. Attorney 
for the Eastern District of Wisconsin. Her prosecution was, in 
turn, used as the central issue in the Republican party's 
efforts to unseat the Democratic incumbent Governor.
    Of the $7.6 million spent by the party in that race, $4 
million was spent on TV ads talking about the fact that she had 
been indicted and somehow trying to drag the Governor into the 
controversy.
    She was a career civil servant. She was not on the 
Governor's staff. She worked for the State for years before the 
current Governor was even elected. Yet, the prosecution 
contended that she had awarded a contract out of political 
favoritism, and the U.S. Attorney, operating in an atmosphere 
which we often see in which anyone accused of a political crime 
is automatically assumed to be guilty, unfortunately succeeded 
in getting a conviction, and she was sent to prison for 18 
months until the case got before the Appeals Court.
    I think it is fair to characterize the reaction of the 
three judges on that court as being appalled at the prosecution 
and the judgment exercised by the U.S. Attorney in that 
instance.
    After 20 minutes of oral arguments, Judge Diane Wood told 
your Department's attorneys, `` I have to say it strikes me 
that your evidence is beyond thin. I am not sure what your 
actual theory in this case is.'' The judges then called the 
prison from the courtroom and demanded that the woman be 
released immediately.
    Now, your Department released some documents months ago 
which included an e-mail by Craig Don Santo. I believe he is in 
charge of the Department's Election Crimes Branch. His e-mail 
asks how in heck did this case get brought. That is a question 
which I would still like to have the Department of Justice 
answer.
    Georgia Thompson is now out of prison. She is back at work. 
She lost her home. She lost a year of her life. But the guy who 
brought this case, Stephen Biskupic, where is he? He is still 
the U.S. Attorney for the Eastern District of Wisconsin.
    So your Department continues to invest him or invest in 
him, I should say, the power to destroy people's lives if he 
makes a serious misjudgment.
    Now, we all make mistakes. I have been around long enough 
to see a lot of prosecutorial abuse. However, it is very hard 
to understand how any thoughtful or balanced prosecutor could 
have allowed this to happen.
    Prosecutors, as you know, have a job not just to prosecute 
but to also assure that justice is done in the process. It sure 
as hell does not appear to have been done in this case.
    Now, that case would be less disturbing to me if there were 
not examples of perhaps similar situations in other 
jurisdictions. I do not want to even get into the Alabama, I 
believe it was, Governor who was prosecuted recently. I guess 
that case is now open again.
    When we see some of the activities associated with that 
case, it frankly makes one wonder. I am not qualified to reach 
any conclusions on that case, and I do not want to even get 
into it. It is not my job.
    But it is my job representing the State of Wisconsin to 
speak out when I see something that amounts to a travesty of 
justice, and that sure as hell was the case in the case of this 
woman who was doomed before, thankfully, the Appeals Court 
finally recognized an injustice and demanded that it be 
corrected immediately.
    I would like to know when there is going to be an 
accounting for those missteps. The only people who can provide 
that accounting, in my view would be the Justice Department.
    I recognize that this did not occur on your watch, but you 
have got the kind of reputation that leads me to believe that 
you would care about correcting something like this. I would 
like to know what we can expect from the Justice Department.
    Mr. Mukasey. I do care about it. I will take a look into 
the facts surrounding the prosecution. To the extent that I can 
disclose them without violating Grand Jury secrecy, I will try 
to do that in a way that answers your question.
    [The information follows.]

    Question. Will there be an accounting from the Justice Department 
for missteps in the Prosecution of Georgia Thompson in the Eastern 
District of Wisconsin?
    Answer. The Office of Professional Responsibility initiated an 
investigation into the circumstances surrounding the prosecution of 
Georgia Thompson after the Seventh Circuit reversed her conviction in 
United States v. Thompson, 484 F.3d 877 (7th Cir. 2007). The 
investigation is pending. We will advise you of the results after OPR 
has completed its investigation.

    Mr. Obey. I just think it is important. We all talk about 
accountability, but it is important that people who are lodged 
with the power to impose accountability are also themselves 
accountable. That certainly so far has not seemed to be the 
case in this instance.
    I have a number of other questions that I have to get 
through for the record and they will take some time, so why do 
I not ask each of you if you have any other questions you want 
to ask before I get into those.
    Oh, Chaka, I did not see you walk in. Sorry about that. Why 
don't I yield to you for five minutes.
    Mr. Fattah. Thank you, Mr. Chairman.
    Thank you and let me welcome you to the Committee.
    Mr. Mukasey. Thank you very much.

                      EAVES-DROPPING ON MRS. KING

    Mr. Fattah. I have one question that is on my mind having 
not much to do with your appropriations request. But 
nonetheless we are at the 40th anniversary of the death of Dr. 
King.
    The Department which you now lead a few months back 
acknowledged that for years after Dr. King's death, his widow, 
his late widow now, Coretta Scott King, was eavesdropped on by 
the Justice Department for no apparent reason.
    That acknowledgment from the Department of Justice was a 
factual acknowledgment. And I would like to know what your 
opinion of that circumstance is? And I think it would be 
important to put on the record now, you know, the facts 
surrounding that.
    Mr. Mukasey. I do not know precisely of the circumstances 
relating to the eaves-dropping on Mrs. King. I have read, 
obviously as we all have, of the former FBI Director having 
eaves-dropped on Dr. King. And if the circumstances were 
anything like that, it is just as reprehensible.
    Mr. Fattah. But this is after Dr. King's death and it is an 
acknowledgment from your Department. We will leave the record 
open and perhaps you could make some comment to the Committee 
on this matter.
    [The information follows:]

     Eavesdropping by the Justice Department on Coretta Scott King

    As reflected in documents released pursuant to the Freedom of 
Information Act, Coretta Scott King was never the target of electronic 
surveillance by the FBI. In 1968 documentation, the FBI Director 
expressly directed that no investigation be initiated on Mrs. King, and 
other documents during that time period indicate that the FBI had not, 
in fact, investigated Mrs. King. During the late 1960's, when the FBI 
was investigating a long-time member of the Communist party, it appears 
that on a very limited number of occasions electronic surveillance 
targeting that person involved conversations between that target and 
Mrs. King. As indicated above, that did not result in an investigation 
of Mrs. King herself.
    The information contained in these FBI files was collected during 
an earlier era in our history when different concerns drove the 
government, the news media, and public sentiment. Today's laws and 
other legal guidelines strictly limit the circumstances in which 
investigations may be initiated and various investigative techniques, 
including electronic surveillance, may be used. Many of the 
investigations and techniques used in times past are no longer either 
lawful or appropriate and would therefore not be initiated today.

    Mr. Mukasey. I will.
    Mr. Fattah. Thank you.
    Mr. Obey. I would like to have the Committee take a five or 
ten-minute break before we resume questioning.
    [Recess.]
    Mr. Obey. Mr. Frelinghuysen.

                          SUPPLEMENTAL FUNDING

    Mr. Frelinghuysen. Thank you, Mr. Chairman. In the time 
remaining, I would like to get from you, Mr. Attorney General, 
what you really need in this budget. I know you have 
highlighted some areas. I raised the issue of supplemental. It 
has been a while since your submission. I think what? Eighteen 
months ago. I think you were looking for $146.6 million to 
support a variety of needs.
    Mr. Mukasey. I think what we need principally is for the 
2008 spending plan to be fully funded. That would go a long way 
toward making sure that we can do what we need to, be assured 
that the money is going to be there, and spend it in an 
intelligent way rather than, you know, having to go helter 
skelter toward the end. I would deeply appreciate the funding 
of the 2008 spending.
    Mr. Frelinghuysen. But the money is focused, I think, on 
Iraq and Afghanistan.
    Mr. Mukasey. So far as the $100.7 million that the 2008 
supplemental that you requested, this is for FBI, U.S. 
Marshals, CREM, DEA, for agents, attorneys and operations in 
Afghanistan and Iraq.
    I was over in Iraq. I saw what our people are doing over 
there and in cooperation I should add with -they are really 
they are helping us with that and sponsoring it. But our people 
are doing terrific things towards helping their courts function 
and putting the law into the law and order formulation over 
there. And we need that money to help.
    Mr. Frelinghuysen. It doubles the 2007 supplemental, but it 
is absolutely essential for your DOJ people.
    Mr. Mukasey. It is absolutely essential for them because 
they are literally putting their lives on the line. And I spoke 
the other day with five FBI agents who were injured over there 
and they are really putting their lives on the line.
    Mr. Frelinghuysen. So the dollar amount you are seeking 
here would be that amount or?
    Mr. Mukasey. One hundred point seven million dollars.

                       NATIONAL SECURITY DIVISION

    Mr. Frelinghuysen. All right. So you are not asking 
anything in addition to that. You highlighted in your testimony 
the work of the relatively new National Security Division. You 
are basically looking for maintaining the same staffing level. 
What can you say about the coordinating role that division is 
playing with counter terrorism and interacting with the FBI?
    I know there are certain things you can't talk about. You 
have mentioned some of, at least one success, but how is that 
effort of coordination and interaction occurring?
    Mr. Mukasey. The National Security Division coordinates all 
our activities with regard to FISA applications, all our 
activities with regard to prosecutions of counter terrorism. I 
guess one of the best pieces of evidence I can give is that the 
Assistant Attorney General in charge of the National Security 
Division has been now asked to go over to the White House to 
serve to replace Fran Townsend. The compliments don't come much 
more concretely than that.
    We have taken a number of otherwise independently 
functioning portions of the Justice Department and put them in 
that Division and stood it up within a relatively short period 
of time. And the person who did that, was principally 
responsible for it, was Ken Wainstein. He has now been asked to 
serve over in the White House and we are going to have somebody 
new put in charge of it. But it is functioning to do all the 
coordinating, all our relationships with the FISA Court which 
are very important, as well as our counter terrorism 
prosecutions.
    Mr. Frelinghuysen. We want to talk -
    Mr. Mukasey. And evaluation of the intel that comes in as 
well. So it is the nerve center.

                      INTEGRATED WIRELESS NETWORK

    Mr. Frelinghuysen. One of your other nerve centers and 
another key to addressing counter terrorism is this integrated 
wireless network. I looked over the Inspector General's report 
and 79 percent of the Department of Justice's radios are not 
airwave compliant. Ninety- five percent lack the mandated 
security; 73 are obsolete. In the overall scheme of things you 
are not asking for a lot of money. Some of it is sort of a 
repair job. And then you are putting about half of the $43 
million into new technology.
    We are obviously interested in supporting this effort. We 
know the need for interoperability, but some of those IG's 
statistics and reports are pretty disturbing.
    Mr. Mukasey. We need to look to put it very succinctly, we 
need to be able to talk to one another. We need to be able to 
talk to the State and locals. If we can't do that then our 
efforts are necessarily helter skelter.
    Mr. Frelinghuysen. Well, my gut feeling, as a lay person, 
you are not asking for enough money. What is going to be the 
life cycle cost of what we are talking about here?
    Mr. Mukasey. I am going to have to get back to you with 
regard to that specific number. I mean, I was a liberal arts 
major myself, and I can't get in as far into the technology as 
I would like. I would be happy to respond afterwards to the 
precise number that you have asked for and the life cycle.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Frelinghuysen. We are supportive for the reasons that I 
have stated. We want to give you the tools that you need. The 
thought that some how you would be unable to meet all the 
things that you need to meet because of the lack of assets is 
quite disturbing.
    Thank you, Mr. Chairman.
    Mr. Obey. Mr. Schiff.

                          EXECUTIVE PRIVILEGE

    Mr. Schiff. Thank you, Mr. Chairman. I want to discuss for 
a moment the situation with the DNA evidence. Before I do, I do 
want to make one final point on the discussion we had earlier 
on the subpoena issue.
    And that is to raise a concern about what to me is a 
disturbing circularity in the arguments on this issue. That we 
don't want to have to appear. We request our own lawyers to 
give an opinion. Our own lawyers tell us we don't have to 
appear. We don't appear. We are held in contempt. The statute 
says that shall be brought before the Grand Jury. We don't 
bring it before the Grand Jury because our legal opinion says 
that the failure to appear was okay. And it just goes around in 
a circle.
    And the problem I see is that I think this undermines the 
Department of Justice. I think it undermines the Congress and I 
think it undermines the checks and balances of the system. I 
understand this is a position you have taken on this issue, but 
I would just urge that in other contexts that we not employ the 
circularity of reasoning that is flowing from these Office of 
Counsel opinions. They should not be the first and last word 
about the obligations of the Department.

                                  DNA

    Turning to DNA. I understand that the FBI has a backlog of 
about 200,000 convicted offender DNA samples. The backlog 
increased substantially in 2006 when a new law took effect 
requiring that a greater category of felons be required to 
submit DNA samples. There is another law that will take effect 
later in this year or 2009 that will again expand the number of 
samples that we take. The fiscal year 2009 request is a little 
over $30 million. That to me seems far short of what will be 
necessary to bring that backlog down.
    So the first question I have is, is that going to be 
adequate to get rid of the backlog particularly with the new 
law kicking in?
    The second thing I want to ask is a lot of our States and 
localities have a tremendous backlog of their own. And some 
cities, I saw a report that the City of Oakland, for example, 
half of the rape kits have gone un-analyzed, which to me is a 
tragedy of enormous proportions. That we could be taking 
rapists off the street, serial rapists off the street. And we 
are not, even though the evidence is sitting there in a lab un-
analyzed.
    The President a few years ago announced with great fanfare 
an initiative to spend over $200 million a year for five years 
to do away with that backlog around the country. But this year 
all the funding for DNA has been rolled in with the Byrne Grant 
program that funds everything else. And the sum of all of those 
programs is about $200 million. So it has got to be a fraction 
of what the President said he wanted to do some years ago and 
the backlog problem hasn't gone away.
    So I want to ask your thoughts about that. And then finally 
one last DNA question. I am working on legislation that would 
try to make greater use of the private labs which localities 
are turning to. And when a private lab analyzes an offender 
sample, not a case for example that is more complicated, but 
just a swab from an offender, it provides that to a local crime 
lab. The local crime lab can't upload in the system to see if 
there is a match with this suspected murderer or rapist until 
there is a 100 percent technical review of what the private lab 
did.
    And I am interested to know if the Department would support 
a legislative change that would allow the State lab to upload 
that sample prior to the technical review being done. The 
technical review would still have to be done at some point. But 
my understanding is in every case where there is a hit because 
you upload a sample they take a new sample from the offender 
anyway to double check the work.
    So it is not like it is going to mis-identify someone or 
you won't have to repeat the test anyway. But the loss of that 
time means that someone that has committed a violent crime is 
still on the street committing other violent crimes before you 
take them off the street. So I would be interested to know if 
you would support that kind of legislative change.
    Mr. Mukasey. Obviously, we will take a look at the 
legislation and give it serious evaluation. As to the DNA 
problem that you mentioned, I think a large part of it relates 
to getting in place regulations that do two things. One, impose 
standards on labs so that we can say that once we get results 
they are reliable, but secondly, don't impose standards that 
are so high that no lab can meet them. I am told that we are 
close to getting the regs in place that do that and that will 
help correct for that problem. And hopefully help clear up that 
backlog which I am told we can do assuming that we get our act 
together as far as getting regulations in place.
    Mr. Schiff. Now I assume you are referring to the private 
labs when you talk about that standards or are you referring to 
the State and local crime labs?
    Mr. Mukasey. I am referring to State and local crime labs.
    Mr. Obey. The gentleman's time has expired. Mr. Culberson.

                          EXECUTIVE PRIVILEGE

    Mr. Culberson. Thank you, Mr. Chairman. Mr. Attorney 
General, my hero is Thomas Jefferson and one of the few things 
I disagreed with him on was he believed that the President 
could decide the constitutionality of whatever he did himself. 
That it shouldn't go to the Supreme Court. And that is tough. 
And I have said I tend to agree to Mr. Schiff's analysis. It is 
difficult, I think, for the executive branch to determine 
itself whether or not what they submit to Congress is executive 
privilege. I would like to see that get the courts myself as 
soon as it could.

                          OPERATION STREAMLINE

    But, Mr. Attorney General, I also wanted to ask follow up 
on Operation Streamline, because it is so important for the 
safety of the country that, that border be secure. And I would 
suggest it is the real win/win solution I think we have all 
been looking for, because Streamline has the support of the 
local community. The community in Del Rio and Laredo is just 
thrilled with it. It works in those communities. I mentioned 
Brownsville to you. I would love to have your help in rolling 
it out in Brownsville.

                    BORDER PATROL AGENT PROSECUTIONS

    But the contrast between the work that is being done in 
Brownsville and I can tell you in Tucson is very distressing, 
particularly when the country sees in and I can tell you the 
whole country knows about the case of the two border patrol 
agents, Ramos and Compean. When I visited Nashville the guy 
that was driving the cab took me to the airport. As soon as he, 
you know, found out I was a member of Congress his first 
question was, `` What are you doing to get those border patrol 
agents Ramon and Compean out of prison?'' He didn't get their 
names right, but he knew who they were.
    And I wanted to ask you specifically about those agents as 
you know, it was not on your watch, but they were accused of 
hiding evidence in a shooting. They shot a drug dealer who was 
carrying a million dollars worth of drugs. The guy escaped into 
New Mexico. The prosecutor out there threw the book at these 
guys. They were thrown in and prosecuted a maximum, given 11 -
ten to 12 years in prison. Their lives are destroyed. I am 
reminded of them listening to Chairman tell you about the case 
in Wisconsin, their lives are destroyed. They were denied an 
appeal bond. The U.S. attorney out there in the Western 
District would not even permit an appeal bond for these guys to 
get out.
    And I think about Scooter Libby who was pardoned because 
the punishment he was given didn't fit the crime. He had 
already suffered enough. And certainly in this case those 
agents the punishment did not fit the crime. And they certainly 
suffered enough. Why couldn't we, you recommend to the 
President that border patrol agents Ramos and Compean be 
pardoned for the same reason that Scooter Libby was pardoned?
    Mr. Mukasey. Well I think that case is on appeal. I don't 
generally get involved in or comment on cases on appeal. We 
have a Pardon Attorneys Office and those applications go 
through that office. That office reports to the Deputy Attorney 
General and not to me. But any such application can be pursued 
through that office. The case again is on appeal.
    Mr. Culberson. It is extremely important, I think, for the 
nation, for law enforcement officers. That case it is not just 
another case. It is one that everyone in the nation knows 
about. This has rung everybody's bell from coast to coast. It 
is one that everyone knows about. It is a terrible injustice. 
Those two officers, if they have certainly obviously done 
something wrong, but the punishment doesn't fit the crime.
    I just want to ask if you could personally, we have written 
you a letter, Congressman Ted Poe, Congressman Rohrabacher and 
I and a number of others have written you a letter asking you 
to personally review that. Could I ask you, please sir, to 
personally review their case and see if you can't recommend 
that they be Officers Ramos and Compean be pardoned.
    Mr. Mukasey. The President has the power to pardon 
regardless of any recommendations from anybody. And so far as 
the Justice Department is concerned, those applications have to 
go through the Pardon Attorneys Office to the Deputy. And I 
have----
    Mr. Culberson. But could you make a personal inquiry? This 
one would really help, I think, morale of the border patrol. It 
would be a great signal to the nation that these guys have 
suffered enough and we need to get, you know, get them out of 
prison.
    Mr. Mukasey. The only comment I can make on that case is 
that it is on appeal. And that the President has the power to 
pardon.

                          OPERATION STREAMLINE

    Mr. Culberson. Okay. Following up on what is going on 
Tucson. I can tell you that the Border Patrol has offered to 
help the U.S. Attorney there with a border patrol a facility, 
and I just want to make sure this is on the record, because I 
am not sure that when you visited that they might not have told 
you this.
    But the Border Patrol has a facility right there in Tucson 
that they could handle up to 140 cases a day. It is an 
auxiliary building. It has got a room in it that can easily be 
converted to a courtroom. There has already been a memorandum 
of understanding signed between the Marshall Service and the 
Border Patrol that would convert that building into a 
processing facility for Operation Streamline.
    It doesn't even require the U.S. Attorney to provide any 
prosecutors. The Border Patrol will handle it with the Marshall 
Service. They can handle 100 to 140 cases a day. The U.S. 
Attorney has been resistant. You have got a serious problem 
with that U.S. Attorney in Arizona. The prosecution rate is 
just absolutely outrageous at .4 percent. The officers and the 
Border Patrol making arrests know that 99 percent of their 
cases are going to be turned loose and yet we are throwing the 
book at Ramos and Compean. It is a terrible problem and I 
really want to urge you to get personally involved. You are a 
man of great integrity. Everyone respects you and admires you.
    And I thank you for what you have done so far. And I know 
my time is about up, but I look forward to working with you. 
And if you could please bore in on Tucson and help us roll out 
Operation Streamline from Brownsville to San Diego, the nation 
will be safer, we will keep the criminals out, the terrorists. 
And I think, Mr. Chairman, once that program is in place, I 
think anything is possible in immigration reform.
    Mr. Obey. The gentleman's time has expired.
    Mr. Culberson. Thank you.
    Mr. Obey. Mr. Honda.

                              WORKER ABUSE

    Mr. Honda. Thank you, Mr. Chairman. Just a followup on a 
previous conversation on the Indian workers. I asked if we 
could figure out how we can help the workers to be able to 
participate in an investigation because of their 
vulnerabilities and their status. And perhaps you can, your 
Office can get back to us on that. And then the victims of 
labor trafficking. I believe that they are being surveyed by 
ICE officers. And so it would be very, very important that 
these folks are not deported during the case. And their 
testimony and their presence may be necessary. And so I was 
wondering what the protocol that might be followed by DOJ would 
be.

                          DETENTION STANDARDS

    And there is another arena that I was concerned about and 
that is the detention standards of immigration detainees held 
under your prison. I understand that DOJ has refused to adopt 
DHS detention standards which acknowledge there are big 
differences between convicted criminals and non-citizens held 
for civil proceedings that are pending in the immigration 
system.
    I guess the question would be why doesn't or why hasn't DOJ 
adopted the DHS detention standards?
    Mr. Mukasey. That is not, the question of detention 
standards in facilities, I guess like Oakdale, Louisiana, and 
others, is not one that I have looked into specifically. I will 
look into that and get back to you.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Honda. Okay. Thank you very much.
    Mr. Obey. Mr. Price.

                     EXTRATERRITORIAL JURISDICTION

    Mr. Price. Thank you, Mr. Chairman. General, welcome to our 
Subcommittee. I add my word of welcome and want to take up with 
you a matter that, you may or may not be aware, I have been 
working on for a number of years. That is the obstacles that 
prevent your Department from investigating and prosecuting 
criminal incidents allegedly involving contractors and 
subcontractors employed by the United States government 
overseas, particularly in areas of conflict such as Iraq and 
Afghanistan.
    As you know, your Department and also the Departments of 
State and Defense, have now publicly acknowledged that one 
obstacle to effective investigation and prosecution is a vague 
and probably incomplete extraterritorial legal jurisdiction for 
dealing with such acts.
    The House has passed corrective legislation. This bill is 
now held up in the Senate, one factor apparently being 
Administration objections. But I hope we can count on your full 
support to get whatever problems need to be dealt with, dealt 
with, and to get this legislation on the books since three 
executive departments have publicly acknowledged the need for 
it.
    Today, I would like to leave aside for the moment the 
question of which contractors are not covered under existing 
jurisdiction and deal with those who are. Because there is no 
question that U.S. extraterritorial jurisdiction does now 
extend to a significant universe of contractors, including all 
contractors working for the Department of Defense or in support 
of Defense Department missions in areas of contingency 
operations including Iraq and Afghanistan.
    So I am interested in what you are doing with your present 
authority: what the Department of Justice's current efforts 
look like to investigate and prosecute allegations of 
misconduct by contractors that are currently covered under 
extraterritorial jurisdiction, including the Military 
Extraterritorial Jurisdiction Act.
    First, since Operation Iraqi Freedom began, how many 
incidents involving alleged violent misconduct in Iraq has your 
Department investigated? And in how many of these cases have 
suspects been indicted? And in how many have convictions been 
achieved?
    I would appreciate your furnishing those statistics now if 
you can, for the record if you cannot. And we would appreciate 
also comparable statistics for incidents in Afghanistan.
    Mr. Mukasey. I will furnish those statistics for the 
record. I would simply point out that we have prosecuted cases, 
but that as I am sure you would recognize, the difficulty of 
investigating cases that arise in a war zone and bring 
successful prosecutions is fairly substantial.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Also, unlike military prosecutions of people who may be 
involved in improper behavior, we have a much narrower set of 
choices when it comes to prosecuting people. I mean military 
people can be prosecuted for everything from conduct unbecoming 
an officer to other kinds of violations that are lesser than 
criminal violations. Criminal violations have to come up to a 
pretty high standard.
    So it is correspondingly more difficult and then at the 
same time when you are investigating cases that arise in the 
war zone, getting evidence, getting witnesses, making sure that 
you have got a chain of custody and so forth to get all those 
into court is not an easy task. We have done it. And I will 
provide you with the statistics.
    Mr. Price. Have you done it just in rough estimate? Have 
you done it anymore than just a handful of cases?
    Mr. Mukasey. I don't know what constitutes a handful and I 
am reluctant to say that it has been more than a handful. We 
have done it in a couple of cases. But the conviction rates 
have not been, I believe, have not been substantial in large 
measure because of the difficulty that I referred to.
    But I would like to get you the hard numbers and not simply 
sit here and work from memory.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Price. Well, there is no issue as to whether this is 
difficult. We understand that it is difficult. It is very 
challenging, but it is also true that we have more contract 
employees now in Iraq than we have troops. I mean we are 
deeply, deeply involved in this contracting. Those aren't all 
security contractors, admittedly, but the contract employees 
outnumber them in the tens of thousands. And so you would no 
doubt agree that this is a significant challenge, a significant 
problem. And your own Department has said that you need 
enhanced authority, presumably enhanced assets.
    And that is my next question.
    Mr. Obey. The gentleman's time has expired. I am sorry, 
but----
    Mr. Price. If I could, Mr. Chairman, I would like to submit 
additional questions for the record.
    Mr. Obey. Absolutely.
    Mr. Price. And get those questions addressed. Thank you.
    Mr. Obey. Absolutely. Mr. Latham.

                        LAW ENFORCEMENT GUIDANCE

    Mr. Latham. Thank you, Mr. Chairman and welcome the General 
here. Last fall the GAO noted that, overall, U.S. law 
enforcement entities charged with assisting foreign 
governments, foreign nations in dealing with terrorists, lacked 
any coordinated guidance. GAO noted defined roles as far as 
responsibilities in assistance in fighting terrorism, 
identifying, disrupting and prosecuting terrorists.
    Could you give me your opinion as to what has been done to 
address this? Are there any U.S. laws that are obstacles to 
coordination like the GAO stipulated?
    Mr. Mukasey. I am not familiar with the GAO report that you 
mention and I would really need to take a look at it and 
respond to you in a supplemental way. I am sorry I don't know 
the report.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

              INTERNATIONAL ORGANIZED CRIME AND TERRORISM

    Mr. Latham. Okay. If you would, I would appreciate it. On 
another note, can you talk about the coordination between 
organized crime and terrorist entities today, recognizing that 
we are in an open hearing here, obviously. We can't talk about 
everything, but try to keep it in an appropriately general 
level. The connection between international organized crime and 
terrorism is one that we have encountered more than once.
    The international organized criminals will sell anything to 
anybody and buy anything from anybody. And that includes 
terrorists. And so we found even with such seemingly routine 
criminal matters as intellectual property violations, you find 
that somebody who is selling counterfeit intellectual, that is 
counterfeit bags or sneakers or whatever, is selling them on 
behalf of somebody who has been using the money and laundering 
the money and using it for terrorist related activities.
    Those people have one thing in common, that is a desire to 
move as much money around as possible. And there is no 
particular effort about what they sell or how they sell it, 
including weapons, including counterfeit electronic parts for 
weapons systems and so forth. And I don't want to get--can 
you----
    Mr. Mukasey. There is a lot of----
    Mr. Latham [continuing]. You probably can't publically 
identify where the worst violators would be or the regions 
where they are.
    Mr. Mukasey. The problem exist to a substantial degree in 
parts of the former Soviet Union and in the People's Republic 
of China to name only two.
    Mr. Latham. Right. Okay. I will submit some more questions 
for the record, Mr. Chairman. Thank you.
    Mr. Obey. Thank you. Mr. Attorney General, I have got about 
16 questions to which I need to get answers, and we have got 
time for about four of them. So I will submit the rest for the 
record.

                                EARMARKS

    Let me start with this one. As I said earlier, we are 
getting a lot of, in my view, gratuitous advice from the White 
House about how the Congress should proceed with respect to 
earmarks. In 2007 Congress did not earmark State and local law 
enforcement grant programs. We were assured that the Department 
would award discretionary grants in a fair, competitive 
fashion, yet today we have a lot of questions about the process 
in awards of the Part E discretionary Juvenile Justice grants 
for 2007.
    A number of grantee applicants are alleging that the 
priorities and criteria published in the official solicitation 
were not ultimately the same as those used to award the grants. 
The newspaper Youth Today has also published what appears to be 
raw scores for the evaluation of these grants, which, if 
accurate, indicate that none of the top six applicants with the 
highest reviewer scores received grant awards. They were passed 
over in favor of lower scoring entities.
    A number of questions flow from that. Although these events 
certainly occurred previous to your tenure, do you know how the 
Part E Juvenile Justice grants were awarded in 2007? Should we 
be concerned that the grants were handed out to cronies instead 
of being fairly competed and awarded? Did the Department use an 
external peer review panel to evaluate these applications? If 
not, what was the internal review process? Was it conducted by 
the Juvenile Justice Office staff?
    Mr. Mukasey. Without getting into details of which I am not 
familiar, I can tell you what I do know about that matter that 
you have mentioned.
    Number one the Youth Today article was a subject of an 
inquiry from Congress to which I understand we are going to 
respond. The scores to which you refer are one basis and an 
important basis, but not the only basis on which grants were 
awarded. We also take into account geographic considerations.
    Mr. Obey. That is interesting, because Congress does the 
same thing when we engage in the earmarking process. Somehow 
that is supposed to be considered illegitimate.
    Mr. Mukasey. No it is not illegitimate. What we are doing 
is trying to make sure that we get money to not only to the 
large cities, but also the smaller municipalities. We have got 
$90 million out to 106 separate jurisdictions. Some of which 
are very small. So that we make sure that money gets used in a 
wide variety of places for problems that really need to be 
solved.
    As I said, the scores are one indication, but not the only 
indication. And we try to not to be in a situation where we 
have got a mechanical process where we are awarding grant 
writing instead of real needs.
    That said, the situation that you mentioned warranted 
examination and we have gotten an inquiry about it. We are 
going to respond.
    [The information follows:]

              Part E Discretionary Juvenile Justice Grants

    The Office of Juvenile Justice and Delinquency Prevention (OJJDP), 
in the Office of Justice Programs (OJP), awards formula, block, and 
discretionary grants directly to states, units of local government, 
Indian tribal governments, and private organizations to administer 
selected programs. These grant awards support an array of activities, 
including preventing delinquency, supporting state and community 
efforts to prevent and respond to delinquency, holding youthful 
offenders accountable for their behavior, and protecting children from 
abuse, neglect, and exploitation. In Fiscal Year 2007, OJJDP posted 32 
solicitations, under which OJJDP made 488 grant awards totaling more 
than $383 million.
    In FY 2007, six solicitations were posted for grants to be awarded 
under Part E of the Juvenile Justice and Delinquency Prevention Act. 
Specifically, these solicitations are the FY 2007 National Solicited 
Juvenile Justice Programs; FY 2007 National Juvenile Justice Program; 
FY 2007 Substance Abuse Prevention and Intervention Programs; FY 2007 
Project Safe Childhood Programs; FY 2007 Prevention and Intervention 
Programs; and FY 2007 High-Risk Youth Offender Reentry and Family 
Strengthening Initiatives.
    For all of the FY 2007 solicitations, except the National Solicited 
Juvenile Justice Programs, a peer review process was used to identify 
sound proposals that addressed a broad array of needs. In addition to 
the peer review scores, OJJDP was mindful of the Department's priority 
areas and whether funding had been provided in the past for similar 
programs or proposals. Additionally, attention was given to proposals 
that encouraged cutting edge improvements, held the promise of 
significant impact, focused on helping children most in need, and aimed 
to reduce the numbers of minority children who have contact with the 
law enforcement system. Funds were awarded to support local prevention 
and intervention efforts and national-scope projects designed to combat 
delinquency, reduce child victimization, and promote innovations in the 
administration of juvenile justice. Emphasis was placed on programs 
that would increase collaboration with state and local governments and 
community and faith-based organizations to build effective programs and 
services for juveniles and their families.
    Experts, to include in-house and external reviewers, evaluated the 
applications to determine whether the proposals met the requirements 
set forth in the solicitations. Each applicant received a score that 
was measured only against the solicitation criteria. This pool became 
the universe from which the Assistant Attorney General for OJP, in 
consultation with the Administrator of OJJDP, selected programs to be 
funded.

    Mr. Obey. All right. Thank you. I have two more questions 
on this point for the record. Now let me turn to another 
subject.

                         MONITORSHIP CONTRACTS

    Recent news reports have brought to light the Department's 
widespread use of lucrative no-bid contracts to monitor 
compliance with out of court settlements and deferred 
prosecution agreements in criminal cases. The most notable of 
those is a contract worth up to $52 million awarded by the New 
Jersey U.S. Attorney to former Attorney General John Ashcroft's 
consulting firm. According to the Washington Post, the number 
of corporate monitors has risen seven fold since 2001. Since 
the initiation of those reports, it apparently took nearly two 
months for the Department to issue guidelines for the selection 
and use of these arrangements. What took so long? Were there no 
departmental policies on oversight mechanisms in place before 
March 11? Since 2001, how many of these no-bid contracts have 
been awarded? What is the status of your internal review of 
these contracts?
    Could you also provide for the record a full accounting of 
these contracts including their value, how they were awarded, 
and their current status?
    Mr. Mukasey. First of all, examination of monitorship 
contracts was under, was a matter that was a departmental 
concern well before the story that you mentioned hit the 
newspapers.
    Mr. Obey. Good.
    Mr. Mukasey. So I guess, well not so good maybe, because 
you asked what took so long. I guess what I am telling is it 
took longer even than you suggested. But we took this up. We 
were taking this up with the Attorney General's Advisory 
Committee which consists of U.S. Attorneys across the country. 
And on March 7, we issued a set of best practices for the 
appointment of monitors. I should also point out that the money 
that you mention comes from the entity being monitored. This is 
not public money in any case in which a monitor is appointed. 
We are not talking about the giving out of public funds, we are 
talking about money that comes out of the entity being 
monitored.
    Monitorships arise in a variety of situations from a labor 
union that was doing things it shouldn't have done, it needs a 
monitor to non-prosecution agreements in connection with a----
    Mr. Obey. Well in response to that I would simply say that 
I know my argument isn't with you, but it is with the White 
House Budget Office and the political geniuses down there who 
are finding unique ways to set double standards. They argue, 
for instance, that earmarks add to federal spending. They do 
not. What earmarks do is simply move dollars from one place to 
another within ceilings established by the Committee, and a 
single member of Congress can knock the entire bill off the 
floor if the bill exceeds the amount that was allocated.
    So I welcome your response, but I wanted to get that on the 
record to illustrate the view from the other end of the avenue.
    Mr. Mukasey. I understand that perspective is a great deal 
in these matters. But under the further of the issue of 
monitors, they arise in a wide variety of situations from labor 
unions to private entities where there are non-prosecution 
agreements or where there are deferred prosecution agreements. 
And one size, in other words, doesn't fit all.
    What we are trying to do is get a set of best practices 
that end up with every monitor having to be approved by the 
Deputy Attorney General, which achieves it seems to me two 
things. One is uniformity. And the second is political 
accountability. And that is what we have tried to put in place.
    Mr. Obey. Well our point is simply that these apparently 
are no-bid contracts, and I think one would have to admit that 
when you see one of such size provided to a former Attorney 
General and his associates, that sort of becomes a poster child 
for concern, just as the ``bridge to nowhere'' did in 
congressional discussions.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Obey. Sure.
    Mr. Frelinghuysen. With all due respect, a former U.S. 
Senator from the State you mention was awarded a similar 
contract. Hopefully, we are making some progress that future 
such arrangements are indeed reviewed.
    Mr. Obey. Amen.
    Mr. Frelinghuysen. Amen. Thank you.

                             GRANT FUNDING

    Mr. Obey. Let me turn to something that was discussed 
somewhat earlier this morning. As you know, for 2008 Byrne JAG 
was funded at $170.4 million, a 67 percent cut below the 2007 
funding level of $520 million. A high profile campaign has been 
launched by coalition groups including the National Criminal 
Justice Association, the National Sheriffs Association and the 
International Chiefs of Police to seek emergency supplemental 
funding to restore Byrne JAG to $600 million, the fiscal year 
2008 House-passed level.
    Why are all those folks wrong?
    Mr. Mukasey. What we are trying to do is to coordinate the 
granting of money and get away from formulas and getting to a 
situation where we put the money in a focused way and take into 
account as well our own law enforcement efforts within the 
Department. That is what we have been trying to do.
    We have made some provision for Byrne JAG grants. On the 
other hand, strict formulas that allocate in ways that we don't 
think are responsive, aren't of as much help particularly in 
lean budgetary times. I mean recognizing that everybody can 
always use more money and I am not arguing with the people who 
say they can. But what I am saying is that what we have tried 
to do, given particularly the lean budget times we are working 
within is to coordinate on the one hand our own law enforcement 
efforts which have tended to be more successful when they are 
in the nature of task force efforts, with grants, when they are 
grants to local and state police forces in such a way that 
difficult problems get solved.

                           ANTITRUST DIVISION

    Mr. Obey. Let me turn to the Antitrust Division, which has, 
as you know, an operating shortfall of $7.3 million for the 
current year. What is the impact on the Division's pre-merger 
filing and criminal investigations? Do you intend to seek a 
reprogramming to address the shortfall? Assuming that $7.3 
million is restored, is the 2009 request sufficient to maintain 
current services at the 2008 funding level?
    Mr. Mukasey. I believe the 2009 request is sufficient. I 
mean the strong point here is that we are funding our base. 
There has been in the Antitrust Division a hiring freeze that 
hopefully we can loosen up. We believe that we have been able 
to meet the requirements that are imposed on the Antitrust 
Division. But nonetheless, we are going to welcome the return 
to a normal budget when, and if, it comes.

                       COUNTERTERRORISM OVERSIGHT

    Mr. Obey. On counterterrorism oversight and the FBI's abuse 
of National Security Letters. As you know, the Justice 
Inspector General, in a report issued in March, was highly 
critical of the FBI's use of NSLs from 2003 to 2005. Last month 
the IG issued a follow up report looking into the FBI's use of 
those NSLs in 2006. Unfortunately, he found a similar pattern 
of abuses, including unauthorized data collections, under-
reported violations and noncompliance with statutory mandates. 
The new report praises the FBI for its commitment to preventing 
these abuses and notes the Department's attempts in 2007 to 
improve guidance, training and oversight, but the IG apparently 
is not ready yet to say that these steps are sufficient. He 
noted that, `` Several of the FBI's and the Department's 
corrective measures are not yet fully implemented and it is too 
early to determine whether these measures will eliminate the 
problems.''
    The IG was required by the Congress to undertake both of 
the studies conducted so far. If we were to require yet another 
report to assess 2007, do you believe we would see the same 
issues appear again?
    Mr. Mukasey. I believe based on what the IG himself said, 
you would see an improvement. The IG reported that he believed 
that the steps that were being put in place by the Bureau and 
I--it is important to keep in mind the dates that you just 
referred to. The earlier study concerned an early period. The 
second study concerned a later period, but neither study 
concerned a period that followed the implementation of the 
corrective measures that were suggested.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    And the IG had generally positive things to say about those 
corrective measures. My own belief is that we would see an 
improvement. Are we going to see perfection? I seriously doubt 
it in this life. But I think that if we do see problems we will 
see them as being a whole lot smaller and subject to further 
tweaks. We are certainly open to that.
    Mr. Obey. I have two more questions on this point for the 
record, which I would appreciate your answering. Again, the 
Department is sponsoring an NSL Working Group to evaluate how 
NSL-derived records are used, stored and disseminated. 
According to the IG's March 2008 report, the Working Group 
initially declined to set limits on the use or retention of 
NSL-derived information beyond the FBI's existing general data 
policies. We understand this recommendation was withdrawn, and 
the NSL Working Group is continuing its work.
    When do you expect the NSL Working Group to submit a 
revised report and recommendations?
    Mr. Mukasey. I don't know precisely when that is expected, 
but I can find out how close they are. Generally projected 
dates for completion of projects that don't have strict time 
lines is a very difficult matter. At least I knew that when I 
was a judge people would ask me when I was going to decide a 
case and I could never give a satisfactory answer. But I am 
going to find out when they expect to have that study 
completed.
    Mr. Obey. Again, I have three more questions on this point 
for the record.
    With that, let me simply say that I will submit the rest of 
these for the record. It is afternoon. We are expecting votes 
very shortly. I appreciate your appearance here today.
    Does anybody have any last parting questions before we shut 
it down?
    Mr. Frelinghuysen. No, thank you, Mr. Chairman.
    Mr. Obey. All right. Thank you all. Thank you, Mr. Mukasey.
    Mr. Mukasey. I really appreciate the opportunity to appear. 
Thank you very much.
    Mr. Obey. Good to have you.

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>
    
                                            Tuesday, April 1, 2008.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ROBERT S. MUELLER, III, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION

                            Opening Remarks

    Mr. Obey. Good morning everyone. I think we will get 
started. Let me welcome everyone to the hearing this morning on 
the Federal Bureau of Investigation's fiscal year 2009 budget 
request. Our witness today will be Robert Mueller, Director of 
the FBI.
    Director Mueller, this Committee has more than doubled your 
agency's annual budget since 2001. Its given you hundreds of 
millions of dollars in supplemental money. It has bailed out 
the agency on several occasions when the agency has made multi-
million dollar mistakes. A significant number of those mistakes 
came before your tenure, I understand that. All of this has 
come at a significant cost to the rest of the Department of 
Justice, where criminal enforcement, litigation and state and 
local assistance have suffered in the budget year after year. 
And I would point out that this year the President is again 
recommending a $1.6 billion reduction in state and local law 
enforcement. It is very hard to justify an increase in any of 
the other agencies in this bill when those kinds of reductions 
are being contemplated.
    Given the amount of support that this Subcommittee has 
provided to your agency it is disappointing to see the numerous 
occasions on which money has been wasted and authorities have 
been abused. Let me say simply that I can think of no two 
government agencies that are more central to the healthy 
functioning of a democracy than the Attorney General's Office 
and the FBI. My brother in law is a former DA. He was shot in 
the line of duty a number of years ago, and I think that I have 
seen enough of law enforcement problems through him through the 
years to have a healthy respect for each and every person who 
enforces the law, be they members of local police, or members 
of any state or federal agency. They put their lives on the 
line and it is far from the easiest job in the world to enforce 
this country's laws.
    I can think of nothing more corrosive to a democracy than 
to have the American public lose confidence in the 
determination of either the Attorney General's Office or the 
FBI to abide by the law. And yet we have seen a number of 
instances where the law has certainly been bent. Three weeks 
ago we received a report from the Justice Inspector General 
documenting significant abuses and deficiencies in the FBI's 
use of National Security Letters. This is the second year in a 
row that we have had such a report, and this year's findings 
are, to say the least, unsettling. Unauthorized collections, 
undercounted violations, inconsistent compliance with statutory 
obligations, and many more.
    Even worse, we know that there is more news on the way 
which is of concern. The IG is still working on an assessment 
of the FBI's use of so called exigent letters, which were used 
to obtain information through misrepresentation, and blanket 
NSLs, which apparently were attempts to retroactively justify 
the illegal use of the exigent letters. This cavalier approach 
toward legal protections may have temporarily gained the agency 
some useful investigative information, but it had a long term 
cost to our rights and to our trust and to our government's 
credibility.
    Today is April 1st. This is the thirty-ninth anniversary of 
my election to Congress. I was elected on April Fools' Day, it 
could not have happened any other day. But one of the things I 
have learned through the years is a very unpleasant fact. When 
I am often asked by college students what is the most 
disturbing thing that I have learned in the years that I have 
been in the Congress, I tell them that the most disturbing 
thing that I have learned is the government has routinely lied 
to me and to the Congress of the United States. All you have to 
do is to go back to Lyndon Johnson's days in Vietnam, trace it 
through Richard Nixon's days, and a number of more recent 
examples.
    But the second most disturbing thing that I can think of is 
to discover that almost on a regular basis we see agencies of 
the United States government that do not appear to have 
complied with the requirements of law. And it think it puts us 
at a tremendous disadvantage, because it means that our 
constituents lost faith in not just the agencies involved but 
all of government. And I think we need to know that this kind 
of conduct is not going to happen again and we need to know 
that we will have something more than pleasant assurances that 
some of these incidents with respect to NSL programs or FISA 
collections will not be occurring in the future.
    We also have a number of concerns about your budget, which 
you and I touched on yesterday. But in the interest of time let 
me forego comments on those for the moment and simply ask Mr. 
Frelinghuysen for any comments he might have before we begin.
    Mr. Frelinghuysen. Thank you, Chairman Obey. Director 
Mueller, I join the Chairman in welcoming you to appear this 
morning to testify on your 2009 budget. I am pleased we are 
holding this hearing today, particularly since we did not have 
the opportunity to hear your testimony on last year's budget 
request. For 2009 you are seeking an appropriation of $7.1 
billion, an increase of $450 million or 6.8 percent. We look 
forward to your testimony on the new increases you are seeking 
as well as on the FBI's continuing transformation activities to 
fulfill its role as our key domestic counter terrorism and 
intelligence agency.
    In addition the Committee will act soon on the 
administration's pending supplemental request. In this 
Subcommittee's jurisdiction the FBI has by far the largest 
supplemental request at $100 million. However, that request was 
formulated almost a year and a half ago, so perhaps there are 
some updates you can give us this morning and provide us 
concerning those requirements.
    Lastly, I would like you to pass on to your people the deep 
appreciation all of us have for their hard work. The 
responsibility of your agents, your analysts and support staff 
to protect the nation from terrorism and crime is perhaps the 
most important activity we support in this overall federal 
budget. We recognize the tireless efforts required to carry out 
those missions both at home and today very much abroad as well. 
But the work is often dangerous, sometimes underappreciated and 
misunderstood, but essential to keeping us safe.
    While I have not been here thirty-nine years, I have been 
here fourteen years, and I think you know my father served as a 
member of Congress for twenty-two years. So my perspective of 
the FBI is I have not lost faith in you. I have great faith in 
the work of the FBI, its proud history. There have perhaps been 
a few missteps along the way but I think you have done your 
level best. I know of you. You enjoy a good reputation as a 
very honorable and outstanding person. I think you have done 
your level best to make those corrections. So I admire you for 
that, and with the Chairman I welcome you this morning for your 
testimony. Thank you, Mr. Chairman.
    Mr. Obey. Mr. Director, why do you not proceed? We will put 
your full statement in the record. Take whatever time you wish 
and then we will proceed to the questioning.
    Mr. Mueller. Thank you, Mr. Chairman. Let me start by 
congratulating you on your anniversary. Congressman 
Frelinghuysen, it is a pleasure to be here. I have a very short 
statement. Thank you for including my longer statement with the 
numbers in the record. I do have a short statement and then if 
you will allow me, I will address a couple of the items that 
you mentioned at the outset.
    What I would like to do in this opening statement is put in 
context the request for this year. As I know everyone on this 
Committee is aware, the FBI's top three priorities are 
counterterrorism, counterintelligence, and cyber security. 
These priorities are critical to our national security and the 
FBI's vital work as a committed member of the intelligence 
community. Important too are our efforts to protect our 
communities from the very real threat of crime, especially 
violent crime. In the counterterrorism arena, Al Qaeda and 
related groups continue to present a critical threat to the 
homeland, So too do self-radicalized home-grown terrorists and 
home grown extremists. They are difficult to detect, often 
using the Internet to train and operate. At home, through our 
domestic Joint Terrorism Task Forces and abroad with our Legal 
Attaches and international partners, we together share real 
time intelligence to fight these terrorists and their 
supporters. An important aspect of the fight against terrorists 
is the threat of weapons of mass destruction, and the FBI's 
commitment to our Render Safe Mission to prevent, prepare for, 
and respond to the threat of WMD in the United States. With 
your support we will continue our work in this critical area.
    With regard to the counterintelligence threat, protecting 
our nation's most sensitive secrets from hostile intelligence 
services or others who would do us harm is also at the core of 
the FBI mission. We reach out to businesses and universities, 
we join forces with the intelligence community, and we work 
closely with the military to help safeguard our country's 
secrets.
    Cyber threats to our national security and the intersection 
between cyber crime, terrorism, and counterintelligence is 
increasingly evident. Today the FBI's cyber investigators focus 
on these threats and we partner with government and industry 
through our sponsorship of a program called InfraGard, an 
alliance of more than 23,000 individual and corporate members 
who help identify and prevent cyber attacks.
    I am mindful of your abiding interest in the FBI's progress 
in building an intelligence program while combating these 
threats. The FBI has made a number of changes in the last 
several years to enhance our capabilities. Today's intelligence 
is woven through every FBI program and every operation. 
Utilizing this intelligence, we have successfully broken up 
terrorist plots across the country, from Portland, Oregon; 
Lackawanna, New York; Torrance, California; and Chicago, 
Illinois; to the more recent- last year's Fort Dix and JFK 
plots. We have increased and enhanced working relationships 
with international partners, sharing critical intelligence to 
identify terrorist networks and disrupt planned attacks. With 
your assistance, we have doubled the number of intelligence 
analysts on board and tripled the number of linguists. We have 
tripled the number of Joint Terrorism Task Forces, from thirty-
three in 2001 to over 100 now, combining the resources and 
expertise of the FBI and the intelligence community, military, 
state, local, and tribal law enforcement.
    Another important part of the FBI mission is quite clearly 
our work against criminal elements in our communities, very 
often in task forces with our federal, state, local, and tribal 
partners. Public corruption remains the FBI's top criminal 
investigative priority. In the past two years alone we have 
convicted over 1800 federal, state, and local officials for 
abusing the public trust.
    Similarly our work to protect the civil rights guaranteed 
by our Constitution is a priority, which includes fighting 
human trafficking as well as our focus on the civil rights cold 
case initiative.
    Gangs and violent crime continue to be as much a concern to 
the FBI as it is for the rest of the country. The FBI's 141 
Safe Streets Gang Task Forces leverage the knowledge of state 
and local police with federal resources and contemporary 
investigative techniques. The FBI also sponsors fifty-two 
additional Violent Crime and Interstate Theft Task Forces, as 
well as sixteen Safe Trails Task Forces targeting crime in 
Indian Country.
    The FBI combats Transnational Organized Crime in part by 
linking the efforts of our nation's 800,000 state and local 
police officers with international partners through the FBI's 
over sixty FBI Legal Attache offices.
    Finally, major White Collar Crime, from corporate fraud to 
fraud in the mortgage industry, clearly continues to be an 
economic threat to the country. In recent years, the number of 
FBI pending cases, including those associated with subprime 
lending, has grown nearly 50 percent to over 1,200 cases. 
Roughly half of these have losses over $1 million and several 
have losses greater than $10 million. We will continue to work 
to identify large scale industry insiders and criminal 
enterprises engaged in systemic economic fraud.
    We recognize that for the past 100 years of the FBI's 
history, our greatest asset has been our people. We are 
building on that history with a comprehensive restructuring of 
our approach to intelligence training for both our professional 
Intelligence Analyst cadre as well as for new FBI agents coming 
out of Quantico. We have and will continue to streamline our 
recruiting and hiring processes to attract persons having the 
critical skills needed for continued success.
    I also remain committed to ensuring our employees have the 
Information Technology (IT) infrastructure they need to do 
their jobs, and this includes the continuing successful 
development of the SENTINEL Case Management System as well as 
other IT upgrades.
    I am very aware of your concerns that we always use legal 
tools given to the FBI fully, but also appropriately. For 
example, after the Department of Justice review of the use of 
National Security Letters, we instituted internal oversight 
mechanisms to ensure that we, as an organization, minimize the 
chance of future lapses. Among the reforms was the creation of 
a new Office of Integrity and Compliance within the Bureau, 
reporting to the Deputy Director to identify and mitigate 
potential risk.
    In closing, the FBI recognizes that it is a National 
Security service, responsible not only for collecting, 
analyzing, and disseminating intelligence, but most 
particularly for taking timely action to neutralize threats to 
this country, be it from a terrorist, a foreign spy, or a 
criminal. And in doing so, we also recognize that we must 
properly balance civil liberties with public safety in our 
efforts, and will continually strive to do so.
    Mr. Chairman, you did comment at the outset on the National 
Security Letters issue and the report that was issued most 
recently by the Inspector General. And I will tell you that the 
report did cover part of 2006, before we had put in place the 
modifications to assure that this will not happen again. I also 
believe that with a fair reading of that report you will see 
that the Inspector General found that we have done a great deal 
to resolve the problems and appear to be on track to make 
certain this does not happen again, although he does quite 
obviously hold out the expectation of further reviews by 
himself. But I do believe we have addressed that fully.
    I also understand your concerns, but I know you would 
understand that the heart of what the Bureau stands for is 
integrity, and you can expect from anybody in the Bureau, 
myself included, absolute honesty in whatever is said to you, 
whether it be in this hearing or otherwise.
    [Written statement of Robert S. Mueller III, Director of 
the Federal Bureau of Investigation follows:]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

    Mr. Obey. Thank you. Mr. Frelinghuysen.

                           FBI TRANSFORMATION

    Mr. Frelinghuysen. Do you yield to me for questions, Mr. 
Chairman? Thank you very much. You have implemented, is an 
understatement, a pretty dramatic transformation since 
September 11, 2001. Obviously the emphasis is on our counter 
terrorism mission. What are your top priority areas that you 
are focusing on?
    Mr. Mueller. Well, in this particular budget, the 2009 
budget, we have requested a number of positions for special 
agents, analysts, and professional support for our National 
Security mission. We have requested 145 positions for 
surveillance. We find as our cases grow, the necessity of 
having a professional surveillance cadre has come to the 
forefront, and we have not requested this volume in the past 
for surveillance positions. And our third area is resources to 
enhance our workforce training and the handling of human 
sources. Specialized training and initiatives weigh into both 
national security as well as the criminal side of the house. So 
our three main areas in this budget are additional positions 
for national security, which will relieve some of the tension 
we have in, cannibalizing the criminal side of the house to pay 
for national security. Secondly it is surveillance, and third 
funding for training, particularly when it comes to specialized 
training in the national security field.
    Mr. Frelinghuysen. The training falls under what you would 
call the human capital management area?
    Mr. Mueller. It does.
    Mr. Frelinghuysen. In reading over your testimony in the 
section on surveillance, this just struck me, ``shifting from a 
reactive criminal prosecution approach to a prevention and 
intelligence driven focus in our counter terrorism program is 
taxing the FBI's capacity to gather intelligence through both 
physical and electronic surveillance.'' I mean, that sort of 
says to me, as a layperson, that as this transformation is 
occurring maybe something has to give here between what you 
have been traditionally doing and things that you have actually 
focused and concentrated your efforts on since September 11th.
    Mr. Mueller. In the past, I think we have been amongst the 
best in the world at collecting information for a prosecution, 
to go into a courtroom. And we have tended in the past to look 
at pieces of information and determine whether those pieces of 
information are admissible in the courtroom. In the wake of 
September 11th, we understand that our obligation is not just 
to investigate a case or a terrorist act after it has happened, 
but prevent that terrorist attack, which requires us to 
identify individuals who are taking steps to undertake a 
terrorist attack before that attack occurs. To do that we need 
intelligence. We need analysts. We need the surveillance 
capabilities to run an intelligence operation to not only 
capture the conversation through technology, whether it be e-
mail or the phones, but also to back it up with surveillance.
    As we develop this capacity, which I would say it augments 
what we have done in the past----
    Mr. Frelinghuysen. This is also the issue of making your 
case solid.
    Mr. Mueller. Well yes, it is. But the recognition has to be 
that we have tremendous capabilities in the Bureau. We have to 
augment those capabilities with the gathering of intelligence, 
the exchange of intelligence with our counterparts in the CIA, 
DIA, NSA, and the like, and build our capabilities to be a 
domestic intelligence agency at the same time we are a domestic 
law enforcement agency, understanding that as we grow those 
capabilities we have to do it within the framework of the 
Constitution, applicable statutes, and the Attorney General 
Guidelines.
    Mr. Frelinghuysen. You also say in that paragraph, and I do 
not mean to take words out of context, ``We need a vigorous 
surveillance capacity to keep on top of known and emerging 
targets.'' I assume we should have every confidence that we are 
well placed in that regard?
    Mr. Mueller. We are well placed in that regard. But quite 
often we will find we will have, if you take a case such as 
Lackawanna, New York, and Torrance, California, where we have a 
group of individuals, and we have substantial predication that 
they are working together to undertake a terrorist attack. We 
have to pull resources from elsewhere in the country to do the 
type of investigation and follow up of the organization that 
would be necessary to gather the information we need ultimately 
to disrupt that plot. That means surveillance teams from around 
the country. It means individuals who, assuming we have either 
a FISA wire or a Title III wire, the individuals who are 
capable of putting up and monitoring those wires. And they are 
very personnel intensive to do that kind of in depth 
investigation. Consequently, while we are pushing the resources 
around the country to do this, as our work expands we need the 
resources to accomplish this.
    Mr. Frelinghuysen. And lastly, my time is limited, but your 
budget request is linked to the new Strategy Management System?
    Mr. Mueller. Yes.
    Mr. Frelinghuysen. How will that system enable you to align 
your budget with these emerging threats and trends?
    Mr. Mueller. Over the last two and a half years we 
developed a Strategy Management system that focuses on our 
priorities. Anyone in the organization who feels that they need 
additional capabilities has to link that request to one of the 
priorities that we have agreed upon in our Strategic Management 
System. And then we prioritize, under the Strategic Management 
System, to make certain that we are focused on that which is 
most instrumental to us being successful in the missions that 
have been given to us. We will tell you, as was pointed out I 
believe by the Chairman, and I think everyone knows, in the 
wake of September 11th, focusing on our particular priorities, 
there are a number of criminal priorities we cannot focus on. 
And we have to identify those priorities and align the budget, 
the personnel, the recruiting, the hiring, the training, the 
career development, to those priorities as they are established 
in our strategic management plan.
    Mr. Frelinghuysen. So it is a Strategic Management System 
but humans are still the ones that are running it?
    Mr. Mueller. Always.
    Mr. Frelinghuysen. Got it. Thank you, Mr. Chairman.
    Mr. Obey. Mr. Schiff.

                              DNA EVIDENCE

    Mr. Schiff. Thank you, Mr. Chairman. Mr. Director, I 
appreciate your being here. I spent six years as Assistant U.S. 
Attorney and worked extensively with the FBI on counter 
espionage and corruption cases and I have a tremendously high 
regard for the people in your agency. There are a number of 
areas I want to cover. I was, very concerned, as our Chairman 
indicated, with some of the problems that I have seen, where 
the NSLs, more specifically where the exigent letters saying, 
``Provide us these records,'' that there is an exigency, that 
there is a grand jury subpoena forthcoming, when in fact there 
was no grand jury even impaneled, let alone a subpoena 
forthcoming. That did not sound at all like the FBI that I had 
the pleasure of working with. I want to ask you about that.
    Before I turn to that, one of the areas that I am also 
interested in is the use of DNA evidence. There has been a very 
substantial backlog of DNA samples which is expected to get a 
lot worse when the new law kicks in and a broader pool of 
convicts and arrestees will be within those required to be 
sampled. In the budget request there is a request of only a 
little over $30 million. I do not see how that will be enough 
to try to deal with the backlog we have now, let alone the 
backlog we can anticipate when the new law kicks in later this 
year or in 2009. Do you know what the current backlog is of DNA 
samples? Do you have a sense of what resources would really be 
necessary to eliminate that backlog?
    Mr. Mueller. I would have to get you those specifics but I 
can also tell you that we are still recovering from the changes 
in law in 2005, which added a substantial number of individuals 
that we would need to process. Clearly it is going to occur 
again. We put into the budget that which we think we could 
utilize, and hopefully build upon in years to come. I would 
have to get you both the figure on the backlog as well as a 
break down of what it would cost to remove that backlog.
    [The information follows:]

                              DNA Samples

    As of March 2008, the FBI has a backlog of 231,488 convicted 
offender samples. The FBI is working with resources provided in the FY 
2008 budget to control this backlog. However, additional resources 
requested in the FBI's FY 2009 budget will be necessary to reduce this 
backlog and help to prevent future backlogs. The requested resources 
include:
          <bullet> 36 positions and $20.8 million to expand the 
        capacity of the Federal Convicted Offender Program (FCOP). This 
        will allow the FBI to reduce the backlog and process increased 
        submissions expected as a result of the USA Patriot Act of 
        2001, the Justice for All Act of 2004, and the DNA Fingerprint 
        Act of 2005. Funding would provide additional technical 
        personnel, space, and equipment to support the processing of 
        samples.
          <bullet> 6 positions and $735 thousand to perform Combined 
        DNA Index System testing and quality assurance.
    The FY 2009 budget also requests additional funding for other 
related improvements to the FBI's DNA program.
          <bullet> 3 positions and $1.2 million to enhance the 
        functionalities of the National Missing Persons DNA Database, 
        which is part of the FBI's Combined DNA Index System.
          <bullet> 2 positions and $7.9 million to address the 
        increased volume of mitochondrial DNA casework related to items 
        submitted by the Terrorist Explosive Device Analytical Center.
    The FBI will work with DOJ, OMB, and Congress to ensure the 
appropriate level of resources to eliminate the backlog and provide for 
timely processing of future samples.

    Mr. Schiff. I would very much like to get that. This is 
such a powerful tool. There is perhaps no other tool like it in 
the sense that you can directly correlate and say, ``If we 
clear up this backlog we can anticipate getting x number of 
thousand new hits. We get that many thousand new hits that 
means we can take that many murderers and rapists off the 
street.'' We can say, I think with absolute certainty if we do 
not eliminate the backlog there will be people who will be 
raped by serial rapists that we could have taken off the street 
that we can identify now. We have the power and we may have 
even collected the rape kits or the offender's DNA but not have 
had a chance to analyze it yet. So I would look forward to 
getting that information and would love to work to see if we 
can get the resources necessary to really deal with this and 
make sure that, at least vis-a-vis the most serious offenses, 
law enforcement can get those samples analyzed very quickly.
    Can you share with me on the----
    Mr. Mueller. Can I just add one other point?
    Mr. Schiff. Yes.
    Mr. Mueller. One of the other things we are looking at is 
advances in technology to expedite the examinations and some of 
the process, the DNA process, that would also eliminate the 
backlog. Not just the additional personnel, but we are looking 
hard at technology being also a contributing factor to removing 
that backlog. And we can brief you on that as well.
    Mr. Schiff. Wonderful. One other issue that is related to 
that, the state and local law enforcement have a tremendous 
backlog problem as well, probably greater than yours. One of 
the obstacles they face is that when, like a local police 
department in my district, they do not have a facility 
themselves, they have to go to the County Sheriff's Department. 
That often takes so long that they go to a private lab, which 
is very expensive to do. I guess there is a 100 percent 
requirement of review of the private lab's work by the County, 
but when the County uses the same private lab for its overflow 
without evidently the same requirement. I think, according to a 
National Institute of Justice study, some of these 100 percent 
review requirements are adding tremendous cost without 
improving accuracy. I would love to work with your office as 
well on that issue.
    On the issue of the exigency letters, specifically can you 
share what the audit has found? Or what you have found? Or what 
steps have been taken to try to ensure that we do not have a 
situation again where you have agents telling phone companies 
or others, ``We need these records, it is an emergency, you are 
going to get a grand jury subpoena,'' when in fact there is no 
grand jury even impaneled?
    Mr. Mueller. We are working jointly with the IG in an 
investigation of the exigent letters and that is still under 
investigation. So I cannot get too far in depth into the 
investigation. There are a couple of things I can tell you. 
Back when the IG report came out, we issued a ban against the 
use of them. So they have not been used once we became aware of 
the extent of the use in the IG report last year. I will say 
that my understanding is the practice arose, first of all, in 
New York and was to a certain extent imported to headquarters 
as a result of the shift of primacy for handling a case from 
the field office back to headquarters. And the practice arose 
from persons using forms without reading the forms. This is my 
understanding; it is not by way of excuse. But it was 
transported from New York and was utilized here without the 
appropriate attention to what was happening, and to assure that 
whatever representation was made in a piece of paper as to what 
was going to happen was in fact true. As I said, the 
investigation is ongoing and I will see what the IG recommends 
in terms of whatever further steps need to be taken to assure 
that this practice does not grow in another way.
    I will tell you one other thing that we have found that I 
think covers not just National Security Letters but other areas 
as well. And that is, while we would establish procedures, we 
did not have a mechanism to assure that the procedures were 
being followed. So we established an Office of Integrity and 
Compliance to look at those areas where there is weakness or 
potential weakness to identify them early on and address them. 
So when Congress passes a statute and requires that we adhere 
to certain procedures in the future, we will not only set forth 
procedures within the Bureau but we will make certain that we 
have red teams and others who are looking to assure, throughout 
the organization, that the procedures are indeed being 
followed. The lesson we have learned from this episode is that 
it is insufficient to issue procedures without also having a 
mechanism to assure that the procedure is being followed in our 
fifty-six field offices and in our 400 resident agencies.

                                  FISA

    Mr. Schiff. I appreciate that. This colors our view of the 
whole FISA debate when we see some of the authorities we have 
already provided with the NSLs or in other areas without 
adequate safeguard and abuses. It certainly colors how we view 
the additional requests in FISA. Thank you, Mr. Director, I 
appreciate your testimony. Thank you, Mr. Chairman.
    Mr. Obey. Mr. Aderholt.

                             NEW TECHNOLOGY

    Mr. Aderholt. Thank you, Mr. Chairman. Thank you, Mr. 
Director, for being here. Going back to the technology aspect 
that you addressed in your testimony, you discussed the aspect 
about working with the local law enforcement officers, and in 
some of these cases that this new technology would provide 
forensic, analytic, and operational technologies. In what sense 
do you, when you say with the local law enforcement officers, 
in what sense do you all work with those? And how do you make a 
priority for the cases on the local level?
    Mr. Mueller. Well if you look, we have fourteen Regional 
Computer Forensics Laboratories around the country in which 
federal, state, and local authorities all work together to 
prioritize the computer forensics in a particular area. And 
they have been tremendously successful. Again, if you are 
looking at the narrow range of cyber issues where we do not 
have the Regional Computer Forensics Laboratories, our agents 
spend a great deal of time with state and local law 
enforcement, both on training, exchanging new methods of doing 
the forensics, and helping each other out. I think most state 
and local law enforcement agencies would tell you that keeping 
up with the change in technology is tremendously difficult for 
a smaller jurisdiction. We do what we can to assist. As I said, 
the Regional Computer Forensics Laboratories have been 
tremendously successful throughout the country, and I think if 
you talk to any state and local law enforcement entity that 
participates in those laboratories they would be very positive 
in their views. And as I said, where we do not have one we look 
to help as best we can on a particular issue.
    As I have indicated to the Chairman in the past, I am a 
great believer in working on task forces, that we leverage our 
capabilities by sitting shoulder to shoulder with state and 
local law enforcement and with other agencies. And my own 
belief is that to the extent the mode of addressing the threats 
in our communities or indeed overseas can be funded across the 
board. It is beneficial to the American public, not just to the 
FBI.
    Mr. Aderholt. You indicated in your testimony that you plan 
to open a new Legal Attache Office in Algiers, Algeria to 
address a significant number of counter terrorism cases and 
leads in that region. Of course, currently Algiers is covered 
by the Attache in Morocco. Will Algiers now have its own 
office? Or will responsibility for countries such as Tanzania 
and Niger shift into this office as well?
    Mr. Mueller. Well, I am not certain what other countries 
would be covered by the office that we put in Algiers. Over the 
last year, year and a half, the capabilities of Al Qaeda in the 
Maghreb after it has become associated with Al Qaeda have been 
substantial. We have great concern that as the capabilities of 
Al Qaeda in the Maghreb have grown, so too has the possibility 
of individuals with joint passports, say with France and 
Algeria, could find a way into Europe and then be an e-ticket 
away from JFK Airport here in the United States because it is a 
visa waiver country. So the first chance you get to see the 
individuals coming in is at the airport.
    We have developed a good working relationship with our 
counterparts in Algeria, and this is the next step in the 
building of that relationship to address this new phenomenon, 
the new threats that come out of the Maghreb.
    [The information follows:]

                             Legat Algeria

    The Legat Algeria will cover the following terrorities; Chad, 
Niger, Tunisia,and Libya.

    Mr. Aderholt. So the bombings and Al Qaeda connection has 
definitely been a factor in that?
    Mr. Mueller. Yes.
    Mr. Aderholt. That is all I have, Mr. Chairman, thank you.
    Mr. Obey. Mr. Ruppersberger.

                        NATIONAL SECURITY BRANCH

    Mr. Ruppersberger. Director Mueller, good to have you here. 
I know we have had numerous conversations in the Intelligence 
Committee and private conversations about particular issues.
    The first issue I would like to talk about today is the 
National Security Branch. Basically I guess that is our 
domestic CIA, and the FBI has the responsibility for standing 
up this group. The FBI is clearly our top law enforcement 
agency, and the culture has been to investigate, arrest, 
convict. And now we are going into an intelligence mode, which 
is an entirely different culture. And this, I believe, it has 
been, what, four years now that we have attempted to stand up 
the National Security Branch?
    Mr. Mueller. It was three.
    Mr. Ruppersberger. Three or four years, and I think that 
you have an individual from the CIA that I respect a lot, and 
is with you, and working with you to help stand up. How are we 
doing as far as the change in the type of agent or 
investigators you have to hire? How are we training our people 
in this National Security Branch? And another thing from a 
point of view to motivate people to become full time in 
intelligence in the FBI is to have a line of promotion. I make 
an analogy that in fire departments where you have paramedics 
who are a small group, and then you have the firefighters that 
are a large group, a lot of paramedics were trained to be 
paramedics and yet they want to switch over because they can 
get promoted quicker on the other side. How are you dealing 
with standing up the National Security Branch?
    Mr. Mueller. We are in the process, in the next six months 
to nine months, of executing a number of projects that have 
been in the making for a period of time. We have a Field 
Intelligence Group in every one of our fifty-six field offices. 
We have had them for several years. But we have adopted a 
standard Field Intelligence Group structure that is going to be 
in place in various iterations throughout the country. What 
this does is enable us to do a better job of recruiting, 
hiring, and training to particular job positions within the 
Field Intelligence Groups. We also have a look first of all at 
the analyst side. We have undertaken a substantial recruiting 
drive for analysts in many of the top colleges around the 
country. We are building a career path for the analyst cadre 
all the way to the top.
    Mr. Ruppersberger. We talk about collecting intelligence 
but it is so important to analyze it.
    Mr. Mueller. It is.
    Mr. Ruppersberger. And I know it is difficult in the 
beginning when you have FBI agents and then you have analysts. 
And it is almost a different profession to analyze. Can you 
address how are you motivating and getting the analysts that 
you need to do the job? To analyze the information that is 
collected?
    Mr. Mueller. We have had no problems in getting applicants 
for the analyst positions. We have a good retention rate. But 
as I said, we have undertaken a special recruiting drive to 
hire in excess of 400 this year. We had approximately 1,000 
analysts in 2001. We have doubled that almost to 2,000, or a 
little above 2,000 analysts, who have remarkable pedigrees in 
terms of their capabilities. What we are finding is that the 
relationship between the agent and analyst is improving day by 
day. We have a remarkable cadre of analysts with whom I work 
day in and day out. They are well trained, contribute a lot, 
and they have the respect of the agents. And increasingly we as 
an organization understand that we need a number of specialized 
skills in order to be successful. One of those are the 
analysts. On the agent side of the house, we have just changed 
our new agents course to enhance yet again the emphasis on 
intelligence, and secondly we have developed career paths for 
each of the National Security Branch professional areas.
    Mr. Ruppersberger. Let me say this. Your fiscal year 2009 
request includes eighteen positions and $43.6 million to 
address these workforce requirements. How much of that request 
is for training in the National Security Branch?
    Mr. Mueller. Almost all of it is for the National Security 
Branch. Very little of it is solely on the criminal side of the 
house. I will tell you, though, the criminal agents need the 
training as much as anybody. And to a certain extent one of the 
things that was pointed out by the Chairman in his remarks is 
the criminal side of the house, whether it be ours or the 
Department of Justice, budgets have been squeezed, one would 
say cannibalized, by the necessity for building up the national 
security side of the house. I am the first one that believes we 
have to build up the national security side of the house. We 
have done it by taking away from the criminal programs. And as 
was pointed out, we are squeezing in the Department of Justice. 
The funds are coming, I think appropriately so, to the FBI, but 
are squeezing out some of the other programs in the Department 
of Justice that should be funded.

                          FY 2009 BUDGET NEEDS

    Mr. Ruppersberger. We are about finished. All right, well I 
have got a couple of other questions but I am going to ask you 
just one more question. I know that you are part of the 
administration, and the President determines the budget, and 
that you have to honor that budget. But I am going to ask you 
the question that I think is important, especially with all 
that is going on with the FBI, the JTTF, the Joint Terrorism 
Task Force, setting up the National Security Branch, is there 
anything that is not in the President's budget that you feel is 
important or a high priority that we should look at to increase 
that budget?
    Mr. Mueller. Going through the budget process, as this 
Committee would know as well as any, you go through a 
prioritization process. And so the top priorities that we have 
addressed have gone through the Department of Justice, have 
gone through OMB, and become part of the President's budget. 
Quite clearly we could, in programs, have requested and could 
utilize additional funds. But we have gone through the 
prioritization process and what you have before you in the 
President's budget are the top priorities for the Bureau.
    Mr. Ruppersberger. So that was a nice answer as a Director 
of the FBI protecting the President's budget. I appreciate the 
answer.
    Mr. Mueller. Well, I will be a little bit more forthcoming 
in that regard in the sense that one of the challenges for us 
is to enhance training. And we have somewhat outmoded buildings 
that were established, or built I think in Quantico back in the 
1970's. I would like to bring on additional instructors, have 
the capability, the physical capability, to add training 
capacity as we go through this transformation. Another area 
that I can assure that you will be hearing from us in future 
years is that we need funding to address the advance in 
technology where we need to collect in terms of intercepting, 
and you have cell phones and a number of more innovative 
communications mechanisms that require building up the 
expertise in the Bureau that I think we are going to have to 
address down the road.
    Mr. Ruppersberger. Okay, thank you.
    Mr. Obey. I have a whole series of questions that need to 
be asked, but before I get to those so that we can keep it more 
systematic, I would like to have another five minute round for 
the other members of the Subcommittee. So Mr. Frelinghuysen?

                       GWOT SUPPLEMENTAL REQUEST

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Let me thank 
your people for giving me a tour of your Quantico operation. I 
must say I have quite a lot of school districts in New Jersey 
that you have antiquated facilities, and certainly you need 
some upgrades there. You have got to balance it between other 
needs out there. What do you call it? Squeezing or taxing? It 
is a pretty difficult task, to balance all of those interests. 
I mentioned in my initial remarks the supplemental. Can you 
talk a little bit about what your needs are there? Can you put 
some flesh on the bones?
    Mr. Mueller. Without going too far into detail, our 
presence in Iraq and Afghanistan relates to our contributions 
when it comes to interviewing detainees. And we have a 
substantial role in evaluating IEDs and running them through 
forensics, DNA, and fingerprints for instance, and providing 
the results back to the military. We do sensitive site 
exploitations when a safe house is taken. We then go in and 
help with the exploitation of the information using the 
techniques that we have developed over the years in our law 
enforcement capacity. What we are seeking in the supplemental 
is equipment that enables us to participate as I have 
described. Body armor, armored vehicles, airlift support, 
generators, evidence collection materials, other areas of----
    Mr. Frelinghuysen. The dollar amount you are looking for at 
this juncture?
    Mr. Mueller. $100 million.
    Mr. Frelinghuysen. $100 million----
    Mr. Mueller. Yes.
    Mr. Frelinghuysen. Would you anticipate that you would be 
coming in with a larger figure?
    Mr. Mueller. Well this was a figure, as I think you or 
others have pointed out, of some time ago but what we have on 
the table at this point is $100 million.

                                SENTINEL

    Mr. Frelinghuysen. I want to shift briefly to the SENTINEL 
program, one of your biggest challenges. I have been on the 
Committee fifteen months but there has been a lot of challenge 
and frustrations relative to the automation of your case files 
and case management system. Can you give us an update?
    Mr. Mueller. Certainly. The----
    Mr. Frelinghuysen. As to where we stand? Obviously this is 
an issue, and the Chairman alluded to it, oversight issues. 
Give us a sort of a synopsis of where we stand on this system.
    Mr. Mueller. It is a system that is going to take 
approximately four years to develop, and it is called SENTINEL. 
The first phase was successfully deployed in June of last year. 
And since that deployment of Phase One we have had twelve 
separate additional builds on Phase One. We are well into Phase 
Two, and Phase Two is on schedule to begin implementation in 
the spring. It is within the planned cost. I really do not 
think there are many in the way of programs that have as much 
oversight as this particular program.
    Mr. Frelinghuysen. I know. Just for the record, what is the 
last estimate for the current life cycle cost?
    Mr. Mueller. Generally in the range of $335 million. It may 
run a little bit over that, in the sense that we have developed 
an incremental development strategy as opposed to a straight 
phased strategy which will mean that we want and will get 
earlier in the cycle enhancements to SENTINEL.
    Mr. Frelinghuysen. I thought the last estimate was $425 
million?
    Mr. Mueller. That may be with O and M.
    Mr. Frelinghuysen. Yes.
    Mr. Mueller. I think the total value of the contract with 
Lockheed Martin is $335 million over six years and we 
anticipate, still anticipate, delivering full capacity in 2010.
    Mr. Frelinghuysen. What do you see as additional funding 
requirements?
    Mr. Mueller. I would have to get back to you on that. But 
again it would be on the end.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable etablished by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Frelinghuysen. I understand you have deployed two of 
the most critical deliverables in Phase One, a web-based portal 
and word boxes and summarize cases and leads. Are you satisfied 
with the quality of the Phase One products?
    Mr. Mueller. Yes.
    Mr. Frelinghuysen. What have you learned based on staff 
use?
    Mr. Mueller. The staff use is not as high as we would like 
at this juncture because, really the core of the program is 
coming in Phases Two and Three. The heart of it is to take the 
base information we have in what is called ACS, make it first 
of all available through the SENTINEL program, but then migrate 
that data to other databases. The problem we face, and many 
companies face, is that the database, the ACS database is an 
antiquated database. The persons who knew that database way 
back around are few and far between. And much of the funding in 
upgrading goes to identifying the pathways by which you can 
migrate the data into the new database. As I said, we are on 
target both in terms of time and money in Phase Two. My 
expectation is there may be, as we go down the line and we 
bring in earlier pieces of the program, that there may be, a 
very modest enhancement in terms of cost.
    Mr. Frelinghuysen. The recommendations from the IG came out 
within August. I think there were nine? One was limit the scope 
and duration of future project phases to make them more 
manageable. Where do those recommendations stand?
    Mr. Mueller. Well, we decided one of the lessons we learned 
in Phase One is that the phased structure, where you go for a 
period of time building it up and then all of a sudden, push it 
out to the field, is not as beneficial as incremental 
development. So we have shifted to an incremental development 
with various increments during the phases. So, as I said, Phase 
One has had, twelve additional builds in the incremental 
development. So as opposed to doing it in straight phases, we 
are doing it incrementally. Some people call it spiral 
development or incremental development, based on what we 
learned in Phase One, which will make it more efficient and 
will enable us to push out to the field enhancements earlier 
than we had anticipated when we started the project.
    One of the problems with a project like this, and one of 
the problems I believe that you have with new government 
projects such as this, is you get locked into a project early 
on with requirements, which you need in order to have a 
contract that is structured and you can meet the gates. On the 
other hand, technology changes, capabilities change over the 
period of the contract, and your challenge is to keep the 
contract within budget, make use of the new technology that 
comes along in the meantime, but assure that you come to the 
finish line on time and under budget and utilize whatever 
mechanisms you can to enhance your abilities to get your people 
what you need in terms of technology as you go through that 
project cycle.
    Mr. Frelinghuysen. It would be an understatement to say the 
Committee is not following this with interest and all sorts of 
language in the omnibus to provide greater direction and 
reports. We wish you would keep us posted. Thank you, Mr. 
Chairman.
    Mr. Mueller. Well if I might add, there is not a lack of 
oversight on this project. We have GAO, we have the IG, we have 
OMB, we have a number of congressional committees, and----
    Mr. Frelinghuysen. We want the system to work.
    Mr. Mueller. And anytime you need, or would like, a 
briefing, we are happy to give them. We try to give them 
periodically, every couple of weeks, and we will offer them to 
the staff whenever they need more insight into how the project 
is going.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Obey. Mr. Schiff.

                                 GANGS

    Mr. Schiff. Thank you, Mr. Chairman. Mr. Director, my 
district is the Los Angeles district and we are facing a 
problem that has become increasingly nationwide and in fact 
crosses international borders, and that is dealing with gangs. 
Back when I was with the U.S. Attorneys we did very little gang 
prosecution. It was mostly a state and local issue. But as 
gangs have proliferated and become national and international 
and gotten more heavily involved in the drug trade I know that 
is changing.
    Senator Feinstein has a bill that passed the Senate. I have 
got a slightly different version here in the House that would 
invest a substantial sum in prevention to try to keep kids out 
of trouble on the front end. It would also invest a substantial 
sum on the back end in getting law enforcement additional 
resources to deal with the gang problem with programs like 
Hydra and others. It would also establish a RICO like statute 
specifically for dealing with gangs, so that prosecutors do not 
have to resort to something that was designed with the Mafia in 
mind to deal with a very different criminal structure. And I 
wonder if you could share your thoughts on the FBI's increasing 
role in dealing with this problem, and why that has been 
necessary, as well as whether you think these tools in terms of 
a statute that is more on point than RICO for dealing with 
gangs, whether that would be something of value to federal law 
enforcement?
    Mr. Mueller. I believe very strongly, to the extent that 
the FBI can assist state and local law enforcement in reducing 
violent crime in the cities, the FBI should. We certainly 
cannot supplant state and local law enforcement whose principal 
responsibility is to address it. But to the extent that whether 
through technology, intelligence, or federal statutes, we can 
assist, we should.
    Consequently since September 11th, through one of our 
priorities Transnational-1, International Organized Criminal 
Groups, we have addressed gangs as well as our violent crime 
program. We have over 180 Safe Street Task Forces around the 
country. I believe, the most effective and efficient way of 
addressing it is to combine the resources of state and local 
law enforcement with the FBI because we have the jurisdiction 
across the town lines, the city lines, the state lines, and now 
international lines.
    If you take something--if you take a gang such as MS-13 
they started in Los Angeles. Los Angeles and El Salvador 
basically, but it spread to Guatemala, Honduras, and Mexico, 
and then across the country.
    Our ability to gather the intelligence and make it 
available to Bill Bratton in Los Angeles for instance I think 
is important in assuring his success in addressing gangs in Los 
Angeles. We now have a task force. We have task force members 
down in El Salvador that are assisting the El Salvadorians in 
collecting fingerprints and putting together databases that can 
be useful in addressing the gang structures in the United 
States.
    That is the type of effort that I think is important. I 
would also go back to a belief that state and local law 
enforcement should be funded in my mind with the view towards 
funding going to participation in task forces, because that is 
the way you are most effective.
    As to the other question, in terms of the statute, I think 
I agree with you that we continue targeting criminal 
enterprises who, have elements that make it difficult in many 
situations to address the configuration of gangs as we see them 
on the streets in America today.
    I am not familiar with your legislation but we should be 
seeking, additional capabilities to address the differing gang 
structures that we see around the United States, which are, as 
you point out, somewhat different from the narcotics 
trafficking gangs of the past and the mob, the mafia.
    Mr. Schiff. Let me ask you on the terrorism front. My 
colleague, Mr. Ruppersberger's, mentioned the cultural change 
that FBI has had to undertake in going from a law enforcement 
agency that also did counterespionage to a heavy focus on 
gathering information in terms of potential domestic terrorism.
    Part of the changes, you know, that have been required to 
make are institutional within the FBI. But part of the broader 
changes are--involve information sharing and the attempt to 
make sure that we can connect the dots and to use an overused 
expression. Part of that, improvising some of the laws about 
when you could share information that was derived in criminal 
investigation with people doing intelligence and vice versa.
    Can you share your thought on how that has worked out? Are 
there any remaining impediments to your ability to get the 
information you need from the intelligence community to do your 
job, or conversely information you derive, and on the criminal 
side from sharing that with those that need to know in the 
intelligence community? Are there any remaining legal obstacles 
that we should be aware of? Are there any legal or otherwise 
that we should be focused on?
    Mr. Mueller. In that particular area, I can't think off the 
top of my head another area which we need to open to enhance 
better sharing. I would have to get back to you. I would have 
to think about that.
    But I will say since September 11th, the Patriot Act and 
certain rulings of the FISA Court, have broken down the walls 
that were there before within the FBI, in other words, on the 
intelligence side of the house. That counterintelligence cannot 
talk to criminal and vice versa. But also between the FBI and 
the CIA, DIA, NSA, and the like. Those have, in large part 
broken down, and appropriately so.
    You are also seeing, at the same time, the growth of 
entities such as the National Counterterrorism Center. They 
understand that we collect information under different 
authorities.
    Once that information is collected, it has to be integrated 
in order to get a clear picture of the threats, because many of 
the threats to the United States now may well come from 
outside, whether it be cyber or terrorism or the like.
    And without that, that integration of information, we 
cannot get the picture. So I think we have come a far way. 
There is one inhibitor. I am not going to say we are perfect, 
it is less institutional, far less institutional now than in 
the past. Now, I will have somebody, or my counterparts will 
have somebody, who has not seen the light and we have to 
address those individual instances. The institutional chasm has 
been addressed.
    Mr. Aderholt. Thank you, Mr. Chairman. I think the Director 
just addressed my question on interagency cooperation. So I 
will go ahead and pass for right now.
    Mr. Obey. All right. Mr. Ruppersberger.

                      WEAPONS OF MASS DESTRUCTION

    Mr. Ruppersberger. I think in 2006 that the Bureau 
established a new headquarters directorate for weapons of mass 
destruction. And I think that is very positive. I think even 
the country isn't aware of what is probably our biggest threat, 
nuclear threats, and the components that might be coming in 
from an al-Qaeda situation or other countries.
    The directorate's mission, I understand, is going to be to 
basically identify, deter, disrupt, and respond to WMD threats. 
And then coordinate with Department of Energy, both 
domestically and internationally.
    How will this year's budget request for the directorate 
further this objective?
    Mr. Mueller. I know we have in the budget additional 
requests for personnel, 30 agents, 20 support, for a total of 
50 at $15 million. And so each year we are seeking to enhance 
the personnel we have in the WMD Directorate.
    So yes, we are looking for 50 positions that includes 30 
agents to be coordinators in the field. And, again, each year 
starting when we set up the directorate, we have sought funds 
and generally had received the funds not only for the 
directorate, but also for our Render Safe Mission.
    Mr. Ruppersberger. Is part of that mission to identify 
where components of nuclear bombs and fertilizer are purchased 
in different parts of the world? I know that the CIA and other 
agencies are looking at that. Are you working with them in that 
regard?
    Mr. Mueller. Oh, yes. We are looking at both counter-
proliferation as well as establishing tripwires in the United 
States so that we trigger persons who are seeking to either 
build or to buy components of nuclear devices.
    But we have not forgotten about the biological and chemical 
weapons. And the directorate addresses not just nuclear but bio 
and chemical as well.
    Mr. Ruppersberger. Okay.
    Mr. Mueller. Developing the expertise so we have the 
tripwires out there to identify it and then can move very 
quickly to render any device safe before it can----
    Mr. Ruppersberger. And one other----
    Mr. Mueller [continuing]. Trigger.

                               NARCOTICS

    Mr. Ruppersberger [continuing]. Area I want to get into, 
since 9/11, rightfully so, we needed to really step up what we 
do from a resource point of view in dealing with the issue of 
terrorism. And I believe strongly that the best defense against 
terrorism is intelligence.
    But as a result of that it seems to me that there have been 
a lot of resources that have not been given in the area of 
narcotics. If you look across this country, and this is just my 
opinion, but our citizens are more impacted by narcotics than 
anything else and that causes violent crime. And the resources 
just don't seem to be going there.
    I know that you have some jurisdiction, DEA has total 
jurisdiction. DEA is all over the world attempting to deal with 
drug trafficking. But it seems to me that the narcotics 
situation now is getting worse instead of better.
    We have Afghanistan which has more poppies coming up now 
than ever in the history of the world. South America is really, 
really gearing up. And what concerned us in the beginning in 
the intelligence field was that the cartels would connect with 
al-Qaeda and the cartels with money. Al-Qaeda and some of the 
extremists sometimes seem to be more religious. But now those 
two seem to be combining together.
    Where are you, the FBI, as far as your priorities as it 
relates to narcotics? Are you getting the resources that you 
need for narcotics? Are you still working very closely with DEA 
and state and local law enforcement as it relates to the issue 
of the large cartels and also in the domestic area?
    Mr. Mueller. Well, the bottom line is that I had to 
transfer approximately 900 agents from our criminal program to 
our national security in the wake of September 11th. And those 
agents have not been replaced.
    Mr. Ruppersberger. That is a very serious problem. Do you 
believe this?
    Mr. Mueller. Pardon?
    Mr. Ruppersberger. Do you believe that is a serious 
problem?
    Mr. Mueller. Well, I believe it is. Although I do believe 
the DEA has covered some of the shortfall. We still require--
    Mr. Ruppersberger. Have you seen DEA's budget by the way?
    Mr. Mueller. I have not.
    Mr. Ruppersberger. It is not real good.
    Mr. Mueller. I understand that from my counterpart. But I 
have not seen it.
    But, no, we still participate in a number of drug cases, 
particularly through the OCDETF Program.
    But one thing that we did have and still do have is 400 
resident agencies around the country. So our coverage was 
somewhat more than other agencies.
    In terms of the intersection between narcotics trafficking 
and terrorism, we have seen it certainly in Colombia with the 
FARC. You see it to a certain extent in Afghanistan, certainly 
with the Taliban. And it is an issue that is principally in the 
purview of the DEA. But needless to say, human resources would 
enhance our participation in that area.
    But as I said, we had to prioritize in the wake of 
September 11th. And this was a result of our prioritization.
    Mr. Obey. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Director Mueller, I 
just want to tell you what a huge fan I am of you and the FBI. 
It is a great comfort to know that you are there. The superb 
job that you do is deeply appreciated by I know everybody on 
this Committee and in the country.
    I want to ask you about two areas in particular. First of 
all, CIS has actually adopted a new policy that I wanted to ask 
you to comment on. That they are no longer going to issue green 
cards before the FBI completes a background check, which seems 
to me to be a bad idea.
    And I just wanted you to comment on it. If you thought that 
was prudent, particularly since once the green card is issued 
that it is the responsibility of the government to prove that 
the aliens should not be in the country. It will sort of flip 
the burden of proof and allow this person in before you have 
been able to do your part.
    Mr. Mueller. I must say that I am not familiar with the 
details and the rationale. I understand that may have been the 
case but I really don't feel prepared to talk about that 
decision.

                            SOUTHWEST BORDER

    Mr. Culberson. Okay. Maybe if I could also ask you to do 
this is specific request. And I think you and the FBI could 
make a significant different right away.
    I had a chance to go to Tucson. I have been working up and 
down the border with my friends, Congressman Ciro Rodriguez, 
Congressman Henry Cuellar. We have successfully been able to 
get a policy called Operation Streamline expanded from Del Rio 
to Laredo where the Border Patrol is enforcing existing law and 
arresting everyone who comes across the border illegally.
    So essentially a zero-tolerance program that is very 
successful. The local community loves it, because the crime 
rate has dropped about 76 percent in the Del Rio sector. It has 
got broad-based support among local officials. The local 
community is delighted with it. Illegal crossings in the Del 
Rio sector are the lowest they have been since 1973 when they 
began keeping statistics.
    And in the process of working with my colleagues in Texas 
to get that program rolled out along the Texas border, we are 
working on Brownsville next, I visited Tucson, because I had 
heard that Tucson has about half of the arrests in the country 
where illegal border crossings are made in the Tucson sector. I 
know you are aware of that.
    And I was mortified to discover in talking to the sector 
chief there, Robert Gilbert, a good man with the Border Patrol, 
he gave me these statistics. I went to the booking station, 
talked to the officers.
    It turns out that the people arrested--if you are arrested 
in Tucson carrying up to 500 pounds of dope, you have a 99.6 
percent chance of never going to jail and in fact being home in 
time for dinner, quite literally. They are turning them all 
loose. I have no idea. I just was thunderstruck.
    The U.S. Attorney in Tucson sector will not do anything to 
attempt to try to reverse that. They are turning loose 
literally 99.6 percent of everybody arrested in the Tucson 
sector, even if they are carrying up to 500 pounds. The 
evidence room is stuffed with loads of dope that are 500 pounds 
or less. It is unbelievable.
    So my good friend from Maryland is exactly right about the 
narcotics problem. We know you have testified. We have seen 
evidence that the terrorists are attempting to use these 
smuggling routes to enter the United States.
    What I was going to suggest specifically, because I know 
you may not be familiar with that, so I just wanted to ask--I 
think it would be very productive for the FBI. I noticed in 
your request to this Committee, you are asking for 568 new 
positions, a number of special agents, intelligence analysts, 
228 professional support to enable the FBI to work more closely 
with federal, state, and local partners.
    I would suggest if you could to think about assigning an 
FBI agent to sit in the booking room of Tucson sector. They had 
a State Department employee there part time, because the Border 
Patrol was so desperate to get some help that they had a State 
Department official there to look for visa violations so they 
could hold these guys or anything, because the U.S. Attorney is 
turning them all loose.
    This is something I am going to explore with this 
Subcommittee with the Attorney General tomorrow. And I have 
been--I am working something up, Mr. Chairman and Mr. 
Frelinghuysen, for you and the other Committee members so we 
can look at sector by sector.
    It never occurred to me. I was assuming an arrest was made. 
I know you do when an arrest is made by an FBI agent that you 
assume it is a good arrest. That the person is going to be at 
least presented to a grand jury and there is going to be some 
effort at prosecution.
    From what I understand, the U.S. Attorney in Tucson is even 
turning loose over 90 percent of your arrests. They are turning 
them loose when your folks makings arrests. They are cutting 
them loose.
    Are you aware of this problem number one? And number two, 
is there something you can do? Can the FBI assign some 
additional people there to help the Border Patrol in 
identifying people that, A, might be a terrorist threat or a 
dangerous criminal that the U.S. Attorney is just letting walk 
out the door?
    Mr. Mueller. As I think I indicated before, I am not 
familiar with the
    Mr. Culberson. This is----
    Mr. Mueller [continuing]. Issue, but will look into that.
    [The information follows:]

                  Assignment of Agent in Tucson Sector

    The FBI has a number of Organized Crime Drug Enforcement Task 
Forces and Safe Street Task Forces along the southwest border that work 
with state, local, and other federal law enforcement agencies to 
address the problem of drug smuggling across the southern border.
    Although an arrest may not be prosecuted by a U.S. Attorney, the 
criminal is not necessarily released into the community. Many suspects 
who are arrested are processed for deportation through Customs and 
Border Patrol; other are handed over to state and local justice systems 
for processing.
    The FBI concentrates resources on making the largest impact 
possible. The FBI works cooperatively with law enforcement partners 
along the border to target the criminal enterprises behind the 
smuggling crime problem. If the arrest cannot be prosecuted by the U.S. 
Attorney, the FBI makes every effort to ensure that justice is served 
and that the best intelligence possible is gathered to dismantle the 
enterprise responsible.

    Mr. Culberson. Okay. It is apparently going on in the San 
Diego sector. Director, I understand that they are turning 
loose literally almost everybody. This is dumbfounding to me.
    I have been meeting with the Department of Justice and 
attempting to try to find some resolution. They tell us in the 
budget request they have submitted to this Committee will help 
resolve that. But in the meantime, there has been no effort to 
change the .39 percent prosecution rate, which is deeply 
disturbing.
    In the brief time that I have got left, I wanted to ask you 
if you could to talk to us a little bit about the threat that 
the Homeland Security Secretary has talked to us about that al-
Qaeda is recruiting Caucasians, people from Western Europe, 
that we might not--that would be more difficult for us to 
respond.
    Can you talk to us about the changing nature of the type of 
people that al-Qaeda is trying to sneak into the country?
    Mr. Mueller. I can speak generally, because it is an open 
session, to the fact that Al-Qaeda is utilizing portions of 
Afghanistan in federally administered tribal area of the Fatah 
for smaller training camps.
    The information we do have is that they are recruiting 
westerners, because they believe that persons with a valid 
passport, with either a European country or North American 
passport, will more easily pass scrutiny and be able to enter 
the United States. That is a current threat that we, the CIA, 
NSA, and ODNI are all concerned about.
    Mr. Culberson. Have you seen any additional evidence of 
this? Since the last time we visited last year and the year 
before I asked you about the FBI had seen indications of 
individuals from countries with known al-Qaeda connections 
changing their Islamic surnames either to Hispanic or other 
surnames.
    Could you talk to us a little bit more about that and how 
many examples of that type of identify change you have seen?
    Mr. Mueller. I have no further information on that, sir.
    Mr. Culberson. Okay. I would like to work with someone in 
your office, in conclusion, Mr. Chairman, you have been 
generous with the time, to work with you on this Tucson 
problem.
    And I think the FBI could do a world of good assigning an 
agent, maybe rotating him out in those booking rooms, in the 
Tucson sector and the San Diego sector. I think in the 
Laurenceberg also, which is the El Paso area. It is frankly 
appalling that the U.S. Attorney is not prosecuting arrests 
that you agents are making. It is ATF; it is FBI; it is DEA, 
and above all the Border Patrol.
    It is just astounding to me. And I know that it will be a 
real concern to you and your agents as well. And I would like 
to work with you to help try to resolve that.
    Mr. Mueller. I must say I have not heard that was a 
problem. I would have thought that if there was a problem about 
it I would have heard about it. But we will look into that. And 
get back to you, sir.
    Mr. Culberson. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Obey. Mr. Latham.

                               CYBERCRIME

    Mr. Latham. Thank you, Mr. Chairman, and welcome. We just 
opened a cybercrime facility in Iowa that deals with identify 
theft, child pornography, child predators. I just would like to 
have you maybe elaborate more on what is being done in that 
area.
    I don't think we are putting enough attention to this issue 
myself. You talk to some of the parents who have had children 
subjected to child predators and they believe that they can 
find a lot of these predators beforehand online. Additionally 
they believe that we are not doing what we should. If you could 
elaborate or what initiatives you think that we should be doing 
or that you are doing, that would be great.
    Mr. Mueller. Well every one of the U.S. Attorney's offices 
around the country, as well as every one of our offices, have 
some form of task force with state and local law enforcement to 
address this.
    And of course we have had a program called the Innocent 
Images Program for number of years. Our cases have grown 
expodentially over the years to address the proliferation of 
child pornography on the internet.
    As I may have indicated previously, state and local law 
enforcement often lack the resources to address this, because 
it takes some capability, not only investigative capability, 
but the understanding and additional capability of 
understanding and knowing how to investigate on the internet.
    Consequently, in each of these task forces around the 
country, we combine our expertise with the expertise that is 
developing in state and local law enforcement.
    We also have 14 Regional Computer Forensics Laboratories 
that are spread around the country. The forensics, which can be 
very time consuming, are conducted by our agents along with 
state and local law enforcement. That has been tremendously 
helpful.
    I see the problem getting worse as more persons utilize the 
Internet and more predators gravitate to the Internet. Several 
weeks ago, we took down a group of individuals here in the 
United States but also with our counterparts in Australia, 
Germany and the U.K., who had something along the lines of 
400,000 child pornographic images that they would trade 
utilizing a specialized server with encryption. That arrest was 
substantial.
    It indicates that it is not just us working alone. It is us 
working together with our counterparts in countries such as 
Australia, Germany, and the U.K. in this particular case. So it 
is an issue that is going to be with us for a period time.
    Mr. Latham. You know, the parents in some of these very 
high profile cases have been in my office as well as those of 
other members. And, you know, they basically say there are 
systems available to track these people today.
    And I just am very concerned that we are not doing 
everything we can to go after these people. Some of the cases 
are so horrible, to see what has happened to these children. 
The forensics are what is being explored in Ankeny, Iowa, 
through the area community college. I believe there is 
cooperation with the FBI and local and state enforcement.
    But I would just encourage you to do everything possible. I 
think it is one of the most horrible crimes we should attack.
    But I will quit there for the moment anyway, Mr. Chairman.
    Mr. Obey. Mr. Fattah.

                              SURVEILLANCE

    Mr. Fattah. Thank you, Mr. Chairman. I have something very 
positive to say. First and foremost, I want to thank you for 
the FBI's assistance in Philadelphia in terms of what has been 
a fairly significant violent crime and definitely a homicide 
rate increase over the last couple of years. We now have a 
decline in the homicide rate. The FBI has been working very 
closely with the local police department and the task force 
with DEA. I want to thank you for that publicly and on the 
record.
    I want to raise one other concern with you slightly off the 
budget. The issue is that your office acknowledged the 
surveillance of the late Coretta Scott King a few months back. 
And even after-- obviously, she was no longer with us. I 
thought that appropriate to be publicly acknowledged. And I 
want to thank the agency for doing so.
    Obviously, the eavesdropping was wrong. However, I didn't 
hear that in the announcement. There was a factual announcement 
versus the one that, years after the death of Dr. King 
acknowledged that wiretapping and eavesdropping on a woman who 
had broken no laws was inappropriate.
    And so even though I appreciate the candor, I didn't hear 
any suggestion in the acknowledgment that it was wrong.
    Mr. Mueller. Well, what I can tell you is that the Bureau 
today is a somewhat different Bureau than it was before. And my 
hope would be that we would treat any similar circumstances far 
differently.
    Mr. Fattah. Thank you very much. Thank you, Mr. Chairman.
    Mr. Obey. Mr. Director, I have about ten different subjects 
that I need to cover, so I will try to make the questions as 
short as possible. If you can do the same with the answers, I 
would appreciate it.

                             NSL VIOLATIONS

    First of all, with respect to the NSL violations, let me 
simply ask a series of questions on this point. Is this the 
last time that we are going to hear about the FBI's abuse of 
those authorities, or are we going to get a similar report 
about your use of those NSLs in 2007?
    Second question, an internal FBI audit, as I understand it, 
found out that the NSL violation rate in FBI field offices was 
two percent higher than the rate originally documented by the 
Office of the Inspector General. In the most recent report, the 
OIG found fault with your audit methodology and determined that 
the violation rate was still higher.
    What are you doing to ensure that we have an accurate 
baseline on the violation rate so that we can use that to 
evaluate your progress?
    Mr. Mueller. Well, I answered the first question. And my 
open expectation is that this is a last time you will see an 
FBI or an OIG report that reflects the practices in some of the 
offices. It wasn't all of the offices. Some of the offices that 
occurred in 2006. The last IG report covered 2006. It was 
required by Congress to cover that period.
    And as I indicated before, the report said since that time, 
we have taken substantial steps to assure that it would not 
occur again. So, I would not expect that it would.
    In terms of the rate, there had been some disagreements 
with the Inspector General in terms of what is deemed to be a 
risk or not a risk, an error.
    I will say that in the wake of the IG report, we directed a 
ten percent audit of all of our offices, which was way beyond 
what the IG had done for the purposes of getting our own 
baseline much more throughly throughout the country. And I am 
not sure whether it was 2.7 we found slightly more than the IG 
did or not. I would have to check that.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    An example of some of the disagreement many of these 
instances where we would send out a request, an NSL letter, and 
the communications carrier would respond with information that 
was beyond the request.
    Now, this was not initially our responsibility, but we did 
have a responsibility to identify what was within the request 
and that which was not in the request, to sequester it, and to 
make certain it was not used or didn't go in our databases.
    We had some differences of opinion on how you would treat 
that particular issue, because many of the ones that he had 
come up with in that kind of circumstance, which is different 
than our--not having the appropriate approval, which is a 
different category. So, yes, there were disagreements with the 
IG, but I think they were relatively minimal. And we were on 
the same track in terms of evaluating our progress.
    Mr. Obey. So you just raised the question of third-party 
errors. I will get to that in a minute. But before I do that, 
let me ask you a different question.
    You placed a lot of emphasis on the fact that the FBI is 
committed to implementing the recommendations for corrective 
actions. But most of those actions rely on the FBI itself to 
actually accomplish them.
    And the Inspector General report singles out turnover among 
middle management as one of the causes of noncompliance. But 
what are the corrective actions to address that problem? What 
are you doing to blunt the effect of high middle management 
turnover?
    Mr. Mueller. When you look at those--I look at those 
statistics periodically. It depends to a certain extent how you 
define middle management. But in our SES ranks, the turnover is 
less than it has been over the last ten years.
    Inevitably in an organization such as ours as, well as in 
an organization such as the military, persons move through 
various stages of their careers and spend maybe two to three 
years in a particular position as they move up the ranks.
    That is a problem, because when persons go through the 
ranks, there may be an unwillingness to take ownership of 
problems that you get when you are there. And you don't take 
ownership of it, because you are going to leave two or three 
years down the road.
    What we have done to address that is what I have talked 
about before is to assure compliance, because if persons from 
the Compliance Office are routinely looking at the procedures 
in place they have to assure that the procedures are being 
adhered to by the current occupant of that particular position.
    But that was a weakness. It was a weakness that contributed 
to the issues we had with national security. And I think we 
have addressed that with the Compliance Office.
    Mr. Obey. I have two more questions on that point that I 
would like you to respond to for the record regarding third-
party errors. The IG's report gives us the impression that the 
FBI does not have consistent procedures for handling 
information that is mistakenly provided under an NSL.
    The result is that some agents are compounding third-party 
errors by uploading unauthorized information into FBI systems 
or sharing that information with other parties.
    Do you have a firm, consistent policy now for the 
disposition of unauthorized collections?
    Mr. Mueller. I think it definitely was a problem in the 
past, but we have changed our policies to address that.
    Mr. Obey. Will you expand on that for the record?
    Mr. Mueller. I would have to get back to you on the 
details. I know that is one of the issues that we have 
addressed by requiring agents to make certain that they review 
the documents that are provided by the third-party carriers and 
make certain that they are relevant in the ambit of the NSL. 
When that is not the case, to take appropriate action where 
those are, outside say the time period requested. And that 
means not uploading it, not utilizing them, and sequestering 
them until a determination can be made, or in some cases where 
they become necessary as the investigation goes along, issuing 
additional NSLs.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Obey. It is our understanding that the NSL Working 
Group has declined to set limits on the use or retention of 
NSL-derived information beyond the FBI's preexisting general 
data policies. First of all, is that correct?
    Mr. Mueller. I am not certain that it has reached a 
definitive decision on that. I know the IG is concerned about 
the work that he perceives has not been done by the group to 
fully address this issue. And I am not certain of where the 
group is at this juncture in terms of addressing that 
particular issue.
    Mr. Obey. Well our concern is that this could mean that an 
individual's NSL-derived information can be uploaded into FBI 
systems and retained for extended periods of time, even if that 
person is subsequently determined to no longer be of 
investigative interests.
    The IG recommended that the NSL Working Group reevaluate 
these recommendations and try to find a better balance. Will 
the FBI, as a Working Group member, commit to reexamining this 
issue and forming a more measured data use and retention 
policy?
    Mr. Mueller. Yes. I have indicated to the IG we will. 
Absolutely.
    Mr. Obey. And what do you think the time frame will be on 
that?
    Mr. Mueller. I am really uncertain on that. I would have to 
get back to you on that, sir.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                        INTERROGATION TECHNIQUES

    Mr. Obey. Okay. With respect to harsh interrogation 
techniques, it is my understanding that the FBI is due some 
credit on this issue. The FBI has refused to allow its agents 
to engage in harsh or enhanced interrogation techniques. And 
the FBI has even pulled its agents out of joint interrogations 
with the CIA when FBI personnel witnessed methods that violated 
the Bureau's internal policies.
    Is that an accurate statement?
    Mr. Mueller. Yes.
    Mr. Obey. Would you state for the benefit of the Committee, 
why you think it is good policy for the FBI to not engage in or 
even witness the types of harsh interrogation techniques that 
are suggested?
    Mr. Mueller. Our longstanding policy prohibits the use of 
any coercive techniques. And over the years we have come to the 
belief that policy is appropriate and sufficient to our 
mission. Understanding that our mission traditionally, and in 
most cases, has been applicable to the work that we do within 
the United States or with the view towards the information only 
being used in a courtroom.
    But we believe that one needs to develop rapport with the 
individual being interviewed. And that has been the method we 
have used. We have prohibited the use of coercive methods, and 
we believe that is sufficient and appropriate to our mission.
    Mr. Obey. Well, I appreciate that. And I commend you for 
that response.
    I will submit a couple of questions to you for the record 
on this point. And then let me turn to our friend FISA.

                           FISA SURVEILLANCE

    How common is it for an information provider to give the 
FBI more information than is requested when executing a FISA 
order?
    Mr. Mueller. Well in execution of a FISA order, I think it 
is uncommon. I would have to go back and ask that particular 
question. But I think it is very uncommon, because there is a 
court order that general counsel usually has, and the company 
has the responsibility of providing the information within the 
ambit of that court order.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Attaching that to national security letters was relatively 
common. And I say ``relatively'' in terms of the errors that we 
looked at in the national security letter issue. It was 
relatively common that the errors would be third-party errors 
because their accounting systems or their internal bill keeping 
systems would enable them very easily to respond to a request 
for telephone calls on a particular number for a particular 
time period. And that time period may well not have matched up 
with the time period requested in the subpoena.
    It was easy for the third-party carrier to just give us 
everything. I would say it is far, far less of a problem when 
it comes to responsiveness to a FISA order. But I would have to 
get back to you on that.
    Mr. Obey. Did anyone notify the holders of the accounts in 
question that they had been inadvertently collected?
    Mr. Mueller. No.
    Mr. Obey. Why?
    Mr. Mueller. In part because it would disclose ongoing 
investigations.
    Mr. Obey. Well, I have two more questions for you on this 
point.
    I mean, the reason we raise it is that a New York Times 
article last month reported that in the course of a FISA 
surveillance operation, the FBI inadvertently received access 
to the email messages of an entire computer network instead of 
the single email address that was approved through the FISA 
court.
    It seems to me that when something like that occurs it 
raises interesting questions about what the target ought to be 
told.
    Mr. Mueller. I understand your concern in that regard.
    Mr. Obey. Unpaid bills. For the record, how many FBI 
wiretaps do you believe were dropped due to nonpayment of 
bills?
    Mr. Mueller. I don't think there were any wiretaps that--
well, I take that back. I think if I recall correctly, and I 
would have to go recheck the report, but I think the IG 
identified five instances where that may have occurred. I 
believe we investigated them.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    We found two instances where in 2002 that occurred. But 
that in neither case did--was the investigation adversely 
affected as a result of that.
    There were 16 recommendations from the Inspector General. 
And we have resolved--at this juncture I think closed one or 
more or otherwise resolved all 16 of those recommendations.

                          TERRORIST WATCH LIST

    Mr. Obey. Okay. On the question of terrorist watch list 
reporting, the Justice IG, as I understand it, has released a 
new report. And in that report he found that the FBI was not 
always providing updated nominations when new information 
became known about an individual, including information that 
should have resulted in the individual being removed from the 
watch list.
    When will you finally have all the necessary procedures in 
place to ensure that people who are mistakenly on the watch 
list will promptly be removed from the list?
    Mr. Mueller. Well, I believe there was some delay in 
getting information on that. My belief is that we have 
addressed that at this juncture.
    And I would have to get back to you with more specifics on 
that one.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Obey. One more question on that. Again, as I understand 
it, the OIG review was done in concert with reviews by other 
IGs and agencies that also participate in the terrorist watch 
listing process. Can you tell us anything about the findings of 
those other reports? Do they indicate any additional problems 
with information sharing that you and the FBI and other watch 
list----
    Mr. Mueller. I did read the report. It did mention the 
experiences of other agencies. I did not focus on that. I do 
think that the procedures we have in place for the most part 
were valid and appropriate. As you pointed out and as the IG 
pointed out, there was a delay in getting information if I 
recall correctly that should have been updated from the 
particular record of individuals. My belief is that we have 
addressed that.

                          MISTAKEN IDENTITIES

    Mr. Obey. Let us move to the question of mistaken 
identities. In recent years, the FBI mistakenly linked an 
Oregon lawyer to a terrorist bombing in Spain, wrongly 
suspected the security guard who found a bomb in the Atlanta 
Olympic bombing, wrongly arrested several men for the Yosemite 
murders, and shot a 20-year-old Baltimore man when he was 
mistaken for a bank robber.
    Why do these mistaken identity cases persist? What is the 
FBI doing to avoid those mistakes? And what kind of public 
affairs standards are in place to guide what an investigator 
can say to the media about a suspect's presumed guilt or 
innocence?
    Mr. Mueller. Well, addressing the last question. The 
guidance says that the case should not be discussed, except for 
certain limited exceptions prior to return of an indictment or 
the filing of an arrest. Then whatever is said should be within 
the parameters of that charging document where the statement is 
always made. Until conviction of the individuals, they are 
entitled to the presumption of innocence.
    With regard to the number of cases that you have listed as 
mistaken identity, I think if you look at each of them it has 
been a different set of circumstances. The shooting in 
Baltimore was an agent in a very fluid situation who believed 
that the individual that he was pursuing was indeed a criminal. 
That was a mistake in a very fluid situation. It was a wrong. 
But it was a very fluid situation.
    The circumstance of the fingerprints in Oregon was a 
completely different type of mistake whereby the individual had 
fingerprints that were very close to fingerprints found on a 
package at one of the Madrid stations. Our examiner did not do 
the type of thorough evaluation that should have been done.
    We brought in, in that particular case, an outside panel of 
experts to see what happened, why it went wrong in this 
particular place, and put in procedures to assure it would not 
happen again.
    So in each of these cases of mistaken identity, we have 
looked at and put into place procedures to assure they would 
not happen again to the extent that we can give that assurance.
    Mr. Obey. Let me digress for a moment to explain to you why 
it personally gets under my skin when I see information come 
out in the general public implying that someone has been 
involved in a crime, and then we find out afterwards it was 
false information. This story is going to take a little time.
    When I was in the Wisconsin Legislature, I was subpoenaed 
to appear before a grand jury to testify about what I knew 
about the conduct of the Republican floor leader in the 
Assembly. I had been told by the Attorney General that no one 
would know that I was coming to that grand jury until I 
actually appeared.
    One hour after I had been given that assurance, my name was 
all over the radio in Wisconsin, with the AP reporting that I 
was to be called before the grand jury. No indication that I 
was not a target. No indication that I was being called to 
testify about what someone of the opposite party had done, 
about which I knew nothing. Yet I can assure you that within 24 
hours, there were a hell of a lot of people in the entire State 
of Wisconsin who thought I had been guilty of something, or I 
wouldn't be called before a grand jury.
    It took about four months before the information became 
public enough that people had their impression corrected.
    Now that is just a minor, little example of what happens to 
someone called as a witness in a case. You can imagine the 
turmoil when people's lives are literally ruined. There will 
always be people who think that the parties in the Atlanta 
case, or in the other fingerprinting case in Spain, were 
guilty.
    So it seems to me that the government has a special 
obligation to be damn careful before they ruin somebody's life 
through mistaken information or carelessness.
    I really want to know what the agency is doing to make 
certain that that simply does not happen again and that you 
have adequate guidelines to make sure that some loudmouth 
doesn't accidentally loose that information on the American 
people.
    Mr. Mueller. I agree with your view of the issue and the 
problem. Whenever that occurs, we conduct an investigation. I 
take what action is necessary to address what I would consider 
that misconduct.
    I will tell you also that I think we do have an obligation 
to put out the information as to the innocence of a particular 
person. When I was Chair in the Department of Justice, if that 
did happen, it happens in this town, there are a lot of people 
that talk unfortunately.
    If that happened, the lawyer could send a letter saying is 
my target either a subject or a target in an investigation. We 
would be very quick to send a letter back saying no.
    So the person could say, I was called into the grand jury, 
but I am neither a subject nor a target of the investigation 
and have the word of the Justice Department if that is the 
case.
    So, I share your concern about those issues. I wish it did 
not happen. I also can tell you it is unfortunate that we do 
make mistakes in our investigations and investigations are not 
always clean. We hope to do as thorough and efficient 
investigation as we can to determine the persons who deservedly 
will face some form of process and to assure that others who 
may have been under the shadow of that investigation are 
outside that shadow.

                     DEVELOPMENT OF BUDGET REQUEST

    Mr. Obey. Okay. I raised this with you yesterday on your 
budget. The FBI, in your new budget request, is requesting 
funding for 41 different initiatives, some as small as a 
million dollars.
    As I told you yesterday, it seemed to us that that is quite 
a scattershot approach, especially when increases for your 
agency are essentially being financed by cutbacks in aid to 
state and local law enforcement. We are looking for an 
indication that the agency's budget request is in fact 
disciplined.
    I know you would like to respond to that and give your 
view. So why don't you go ahead.
    Mr. Mueller. Well, each of our budget requests fits into a 
category that is essential to our growth as an organization, as 
we augment our law enforcement capabilities with intelligence 
capabilities.
    We are requesting additional people for weapons of mass 
destruction, confidential human source validation, the field 
investigations. All within the category of domain and 
operations.
    There are a number of areas under surveillance, whether it 
be technical surveillance in which we have to keep up with 
technology, or physical surveillance where we have to augment 
our capabilities in the physical surveillance arena.
    Infrastructure, we have to build. One of the things that we 
recognize is we have to build the capability in our offices to 
handle growth. As we become more a part of the intelligence 
community in Washington, we have to have the capability to 
handle top secret information in all of our offices, which 
means building the infrastructure.
    Regarding technology, DNA was mentioned today. We are 
requesting $30 million to address the backlog in DNA. I talk 
about partnerships, the fusion centers, the counterterrorism 
operations, which include the Joint Terrorism Task Forces are 
exactly the vehicles that I think we can maximize not only our 
effectiveness, but the effectiveness of state and local law 
enforcement where the crimes they see in their communities 
transcend the borders of those communities. The Bureau has the 
jurisdiction to conduct the investigation with them throughout 
the United States or internationally.
    Lastly, in the workforce, the key to our growth is 
developing the recruiting capabilities to hire, to train, the 
career development in each of our specialized areas, whether it 
be cyber, intelligence, source development. That requires the 
growth of our workforce to do it.
    In the past, we have done a very good job with new agents. 
Our new agent training at Quantico is probably second to none. 
We do a very good job with the National Academy, where we bring 
in every quarter 250-300 state and local law enforcement.
    But we have not built up the capacity to train beyond that. 
Training career paths for agents or analysts to provide the 
type of training we need for our intelligence cadre. Those are 
the areas that we put forth in our budget.
    While we have itemized them and some of them are small 
enhancements, they all fit in to our strategic management 
system outline of what we need to make the Bureau a flexible, 
adaptable organization for the threats of the future.
    Mr. Obey. Before I ask you these last questions, let me ask 
you if you have any other questions.

                                  CNC

    Mr. Frelinghuysen. Mr. Chairman, I was wondering if Mr. 
Mueller could expand on the cyber initiative. That is one of 
your largest initiatives. Could you talk a little bit about why 
that is so important? And obviously within the bounds of this 
room how you are going to be using all of these employees.
    Mr. Mueller. Well, cyber expands across a number of 
particular venues. It could be fraud schemes now moved to the 
internet.
    You have the capability of those who want to target our 
infrastructure, whether it be the energy infrastructure or the 
electricity infrastructure where you can utilize the internet 
to infect systems.
    You have a number of countries, as well as individuals 
seeking to extricate information from our banking system, from 
our commercial enterprises, either to gain intellectual 
property or obtain information that would enable them to 
undertake some fraudulent scheme. You have terrorists using the 
internet now to communicate, to train, to introduce persons of 
the same ideology to others.
    You have to develop defensive mechanisms within the United 
States to protect that information that is and flows on the 
internet.
    Our piece is the investigative piece. And we do it in 
conjunction with the NSA, with DOD and on a task force.
    The funds that we are seeking will help us both in terms of 
the training, in terms of the personnel, in terms of the 
computer capabilities that we need to be effective as the 
threat of-- in each of these areas grows in the years ahead.
    Mr. Frelinghuysen. You are tripling the staff. You are 
doubling the budget. The key people are your cyber intelligence 
analysts. Tell us a little bit about them?
    Mr. Mueller. Yes. Any one of them----
    Mr. Frelinghuysen. Who do you have out there? What does the 
landscape look like?
    Mr. Mueller. You have----
    Mr. Frelinghuysen. This is really one of your largest 
initiatives. And that is something that we want to be 
supportive of.
    Mr. Mueller. It is all part of the Administration's address 
of the cyber challenge in the future of which we play a 
substantial role. We need new persons in the organization who 
not only are knowledgeable of technology today, but can 
continuously keep up with the technology as it expands 
tomorrow.
    Mr. Frelinghuysen. You will bring on over 100 people here.
    Mr. Mueller. Yes.
    Mr. Frelinghuysen. I assume you are pretty confident you 
are going to meet that target?
    Mr. Mueller. Without a question of doubt.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Obey. Sure. Mr. Latham.
    Mr. Latham. I will pass.
    Mr. Obey. Okay. I have a whole series of questions I will 
submit to you for the record.
    Mr. Mueller. Okay.

                     INTELLIGENCE ANALYST STAFFING

    Mr. Obey. Let me just wind it up by asking you a question 
on two subjects. With respect to intelligence analysts, what 
were your hiring goals for analysts in fiscal year 2007? Did 
you meet them based on your end-of-the-year on board level? How 
close were you to the authorized level? Also what is the 
current attrition rate for intelligence analysts? And what are 
you doing to lower attrition?
    Mr. Mueller. Let me just ask for a second. Last year, I 
think we came within five percent of our goal. This year the 
hiring goal is 461.
    And as I said, we have an initiative addressing the 
recruiting and the hiring of the enhance analytical cadre this 
year.
    I would have to get back to you on the retention rate. We 
just had a survey that was actually a part of DOD survey in 
terms of the retention. And we did quite well. Not as well as 
others in the intelligence community, but we are always looking 
for ways to enhance the--our retention rate.

                     Intelligence Analyst Retention

    The Department is working expeditiously on this response and will 
transmit it to the Committee on Appropriations as soon as it is 
complete.

    There is tremendous competition out there in as much as a 
number of agents are looking or agencies are looking for 
analysts. I will tell you that almost all our agents like 
working with the FBI, enjoy the work that they do there, and 
want to stay.
    Part of it is for us it is building--as was alluded to by 
yourself or Congressman Ruppersberger is building up the career 
paths for analysts so that they replicate the career paths that 
other intelligence agencies and have been for a number of 
years. That is one of the things that we are working on hard.

                        INTERNATIONAL ACTIVITIES

    Mr. Obey. Okay. One last question on international 
activities. I am told that the NYPD's intelligence division 
established its own international program in 2002 and now has 
personnel in ten locations worldwide.
    Why does someone like NYPD have an intelligence or 
counterterrorism issue overseas that shouldn't be run through 
the FBI?
    Mr. Mueller. Well, Ray Kelly----
    Mr. Obey. Why do they think they have to establish another 
program?
    Mr. Mueller. Well, I think there are probably two reasons. 
I haven't talked to Ray Kelly about it. But I am not certain if 
I were in his position I wouldn't do the same thing if I had 
the resources to do it.
    First of all, their officers overseas intersect with their 
direct counterparts in terms of developing new ways of 
addressing terrorism. So it is a learning mechanism for NYPD to 
see what other police departments do where this would not be 
high on the list of our legal attache offices.
    Secondly, it gives him immediate return on a particular 
incident. Whereas ours would come through the security service 
or from our counterpart through our legal attache and through 
our New York office.
    So, in terms of speed of response and information as well 
as the opportunity to learn the best practices of other police 
departments, he has done that for a number of years. And I am 
not sure in his position I wouldn't be doing the same thing, 
again, if I had the resources.

                      STATE AND LOCAL PARTNERSHIPS

    Mr. Obey. All right. Let me ask you one last question. I 
know you are concerned about the state of budgets for state and 
local law enforcement. What are the impacts of a billion and a 
half dollar cut in state and local law enforcement funds? What 
are the negative impacts of that on local law enforcement? And 
do those impacts net back on you or the Justice Department in 
general in terms of your work in dealing with crime?
    Mr. Mueller. I think I would refer you to the state and 
local law enforcement about the impacts on their particular 
departments from those cuts.
    From our perspective to the extent that the police 
departments do not have the funding, we have fewer 
participating on task forces. For many communities in the 
United States, terrorism is not an immediate issue. But for the 
country as a whole, it is tremendously important that we 
integrate the capabilities of the Bureau and state and local 
law enforcement to understand if a Mohammed Atta is moving into 
the community or others who would undertake a terrorist attack.
    It does not give an immediate response or the capability to 
state and local law enforcement when they are facing their own 
budgets. What is primary for them is reducing violent crime and 
the like.
    Consequently, we see the impact in terms of fewer personnel 
participating in our Joint Terrorism Task Forces, which I think 
are tremendously important in addressing the threats of today. 
We have to do it together as partners shoulder to shoulder.
    Mr. Obey. Okay. Thank you for your time. We are out of 
time. But we will be submitting a number of questions for the 
record. Thanks.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
                                       Wednesday, March 12, 2008.  

                    DRUG ENFORCEMENT ADMINISTRATION

                                WITNESS

MICHELE M. LEONHART, ACTING ADMINISTRATOR, DRUG ENFORCEMENT 
    ADMINISTRATION

                            Opening Remarks

    Mr. Mollohan. The hearing will come to order. Good morning. 
I would like to welcome Michele Leonhart, Acting Administrator 
of the Drug Enforcement Administration, to discuss DEA's fiscal 
year 2009 budget request. We appreciate your testimony, Ms. 
Leonhart, and commend you for your services both as Deputy 
Administrator and Acting Administrator while the top position 
at DEA remains unfilled.
    The last few fiscal years have been difficult ones for DEA. 
Due to shifting priorities within the administration, we have 
seen less emphasis on criminal enforcement matters such as drug 
trafficking and violent crime. This lack of emphasis has been 
apparent in DEA's proposed budgets which have included offsets 
and other reductions, particularly in the area of State and 
local assistance. The committee has attempted to help where 
possible by rejecting or scaling back proposed offsets and 
providing funds to mitigate the impact of a longstanding hiring 
freeze, but we were not able to go as far as some might have 
liked.
    The President's fiscal year 2009 request for DEA is $1.9 
billion, an increase of 4 percent and includes 21 million for 
new enforcement operations and diversion control efforts. I am 
encouraged that this year's budget request does not include any 
harmful offsets to DEA's services, but I am also not entirely 
convinced that this budget provides everything needed to 
continue making progress in the fight against drug trafficking 
and related crimes. I am interested to hear your thoughts on 
the adequacy of your request and how you intend to get the best 
possible results through the initiatives you have proposed.
    Your written testimony will be made a part of the record 
and we will invite you to make your oral presentation, but 
first I would invite Mr. Frelinghuysen, the subcommittee's 
ranking member, for any comments he would like to make.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Ms. Leonhart, 
welcome aboard and your team this morning. At the onset I would 
like to commend you and your employees for the important and 
often dangerous work you do every day, both domestically and 
overseas, to protect American communities from the scourge of 
drug trafficking. You are also increasingly making yourselves 
indispensable in our counterterrorism efforts. So please pass 
along from all of our committee members this committee's thanks 
and the Congress' thanks. And congratulations on your 
apprehension of the merchant of death in Thailand, Viktor Bout. 
Just the name puts a chill in your blood.
    Overall you are requesting $1.94 billion, an increase of 
4.2 above the current year. For fiscal year 2008 the committee 
was able to increase your funding at least to the level where 
you were able to lift your hiring freeze. We were disappointed 
that we couldn't do more, quite honestly. I understand that 
during the freeze there was a considerable loss of agents. I am 
sure we will hear more about that in the course of our 
discussion and that you are reversing some of those losses. I 
will have questions about what resources are requested or 
required to fill those vacancies and bring you up to full 
strength, and again I welcome you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Ms. Leonhart, thank you.
    Ms. Leonhart. Chairman Mollohan, Ranking Member 
Frelinghuysen and members of the subcommittee, it is my 
pleasure to discuss the President's 2009 budget request for the 
Drug Enforcement Administration. I want to thank the 
subcommittee for its support, which has allowed DEA to resume 
hiring and restoring our Mobile Enforcement Team program. I 
have been a DEA Special Agent for almost 28 years and I have 
had the privilege to fight the drug war with some of the most 
talented, creative and courageous people.
    DEA agents work their whole career to inflict severe damage 
to the drug trade, and I am proud to report we are doing that 
kind of harm like never before. We know we have hurt 
traffickers because demand is at its lowest levels in years. 
860,000 fewer teenagers are using illicit drugs now than 6 
years ago.
    We are now experiencing a sustained period in which drug 
prices increased and purities fell, demonstrating that the 
illicit drug delivery system is under considerable stress and 
suggesting insufficient supply. During 2007, the average price 
for a pure gram of cocaine increased 21 percent and the purity 
decreased 20 percent. For meth the price increased 84 percent 
and the purity decreased 26 percent. Shortages of cocaine have 
been reported in at least 37 United States cities.
    Quest data released today further demonstrate this trend. 
In the last year, 19 percent fewer workers tested positive for 
cocaine and 22 percent fewer for meth than in 2006.
    We know what we are doing is working when we see that 
traffickers have been forced to delay or suspend their 
activities, divert their routes, change their modes of 
transportation, and even jettison their drug loads. We have 
achieved these tremendous successes as a result of a perfect 
storm of enforcement, working closely with Colombia and Mexico 
in a true tripartite environment to simultaneously launch drug 
enforcement and military action against the highest level 
traffickers and unprecedented attacks on the financial 
foundation of the drug trade, resulting in the amount of 
revenue DEA denies to drug traffickers going from $1.6 billion 
in 2006 to a staggering $3.5 billion in revenue denied just 
last year.
    I am happy to report that we are currently surpassing last 
year's record numbers, and it is the convergence of intense 
pressure placed on meth producers and traffickers thanks in 
part to national legislation passed by Congress, strong laws 
passed by many States and joint enforcement efforts. Seizures 
of domestic meth superlabs dropped 93 percent over the past 5 
years. Seizures of small domestic toxic labs dropped 73 percent 
from the peak in 2003. This success is due in large part to DEA 
designing and successfully implementing a revolutionary 
enforcement strategy, attacking transit zone routes in the 
Western hemisphere.
    The plan was devised by seasoned DEA agents who, using our 
agency's 35 years of experience, calculated innovative ways to 
cause traffickers to make mistakes. We then capitalize on those 
mistakes and disrupt their traditional transportation lines for 
drugs, money and chemicals. We force traffickers to change 
their operating procedures and put them into an uncertain 
reactive mode, which has resulted in unprecedented money and 
drug seizures and arrests of druglords.
    With our drug flow attack strategy, which we call DFAS, we 
went from playing checkers to playing chess. This perfect storm 
of enforcement has flooded traffickers with obstacles, 
resulting in a reduction in the drug supply across the country. 
But we are not claiming all out victory, many challenges 
remain, chief among them prescription drug abuse.
    What we are claiming is that innovative, sustained drug 
enforcement is working and to build on these efforts we look to 
you for help. I don't come to you with just a concept or an 
idea on paper that might work. I come to you with the proven 
strategy that has already yielded tremendous results and 
contributed to a decreased drug supply in neighborhoods across 
America.
    But we want to do more. With an additional $20 million 
investment in DFAS, we can address a critical missing piece, an 
end game capability. This is the enhanced ability to move law 
enforcement officers and resources to remote locations very 
quickly, to get cops to the fight when large amounts of drugs 
are moving by air, land and sea, and there is no time to lose. 
With that we will have the flexibility and mobility to beat 
traffickers at their own game.
    On behalf of the men and women of DEA, I thank you again 
for your unwavering support last year and ask for your support 
once again to help us achieve even more dramatic results in the 
fight against drugs.
    Thank you.
    [Statement of the honorable Michele M. Leonhart, Acting 
Administrator Drug Enforcement Administration follows:]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                      ADEQUACY OF FY 2009 REQUEST

    Mr. Mollohan. Thank you for the tremendous job you are 
doing, and your presentation there reflects that, and your 
record leading up to your testimony is clear that you are all 
doing a great job. The committee was pleased to support you all 
last year and understand the necessity for you to have adequate 
resources.
    As I mentioned in my opening statement, I was encouraged to 
see the DEA's fiscal year 2009 budget request includes new 
money for DEA without accompanying offsets, and we hope that 
these increases will allow you to build on the support that the 
Congress provided in 2008.
    With that being said, we know that the administration 
sometimes proposes budgets that don't provide enough base 
support to maintain the prior year's service level. Does DEA's 
fiscal year 2009 request contain all the necessary funding to 
sustain the level of operations that Congress provided in the 
2008 bill?
    Ms. Leonhart. Yes, Chairman, we are happy with the 
President's budget. It includes resources to maintain the 
hiring that we will do this year. That was our most important 
piece that will allow us to have agent and non-agent hiring. It 
also continues the funding Congress provided to restore a 
portion of our meth program.
    The base adjustments will ensure we keep pace with our 
increasing costs. And the one initiative we are asking for is a 
very small initiative, but it is our highest funding priority. 
So we are very satisfied with our budget request.
    Mr. Mollohan. What about balance between your major 
activities, international enforcement, domestic enforcement, 
State and local law enforcement, diversion control? Do you have 
a balance in your request?
    Ms. Leonhart. I am glad that you asked me that. As a 
seasoned agent looking at that budget and being involved in the 
budget, I can say it looks like it is heavy on international, 
but being a drug agent I can tell you that we cannot just look 
at the picture down here. We can't on the domestic end do 
damage to these cartels and take drugs off our streets without 
really focusing on the international front. So the balance is 
there. What we are asking for with our new threat on 
prescription drugs, what we are asking for in the diversion fee 
account, allows us--I will get into that later about what we 
are going to use that money for--that allows us to attack our 
biggest threat now domestically, which is prescription drugs.
    At the same time our budget request now is asking for a 
piece to help out our drug flow attack strategy. By having 
these resources we will be able to attack in the source zone 
and transit zones in the western hemisphere before cocaine and 
these drugs ever reach Mexico. This helps out every community 
in the United States. The loads that are sent by these cartels, 
Mexican and Colombia cartels, through the transit zone to 
Mexico are in the metric tons. The seizure you see down here is 
the world's largest seizure of cocaine. I will talk about that 
in a minute. This is how it arrives in Mexico. But when it 
comes across the border, it is coming in carloads with 40 to 50 
kilos at a time and going out to our cities. We need a defense 
in depth where we are attacking the cartels and we are doing 
what we can in the transit zone. We are protecting our borders 
by this strategy.
    So as a domestic agent who has worked all over the country, 
done a lot of undercover cases, and I consider myself a street 
agent, I can tell you that I could never round up enough police 
officers and task force officers to seize that much cocaine.
    Mr. Mollohan. We are going to stick to the 5-minute rule in 
the first round so all members have a chance in the first 
round, and then members can take more time in the second round.
    If other members don't ask about your career in the second 
round, I am going to ask about it because it sounds very 
interesting.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Chairman, I would like to yield to 
Mr. Rogers.

                        PRESCRIPTION DRUG ABUSE

    Mr. Rogers. I thank you for the courtesy. I have another 
hearing that I have to attend at Homeland Security, which is my 
main subcommittee, but I wanted to be sure and be here at least 
for the opening part of your testimony. And I want to thank my 
colleague for yielding me this time and being very courteous.
    Like the chairman, I think DEA does a fantastic job and you 
are leading this organization at a very critical time. I 
appreciate your focus; at least part of your focus is on 
prescription drug abuse. In my district in southern and eastern 
Kentucky we were ground zero for that; in the U.S. we lead the 
country in prescription drug abuse. In 2005, a story by a 
statewide newspaper gave rise to an organization which has been 
unbelievably successful. UNITE seeks to mobilize citizenry, 
church groups, and we have been able to get 35 undercover 
agents that so far have arrested nearly 2,500 pushers with a 98 
percent conviction rate. Therefore, counselors at schools, drug 
treatment centers, vouchers for poor people who can't afford 
treatment that have treated 1,100 people. There are drug courts 
in every county now and they have 1,470 people who have 
participated.
    But the big story was the amount of seized drugs, with 
DEA's help and all other law enforcement officials, has been 
phenomenally successful. So far they have taken out of 
circulation 9,000 grams of cocaine, 74,000 pills, 197 grams of 
marijuana, you name it. But I wanted to compliment DEA for the 
tremendous cooperation that we have between UNITE and the DEA 
agents.
    Once the FBI pulled out of law enforcement and entered 
anti-terrorism, something that I think all of us feared at the 
outset would be a problem, DEA stepped up on drug enforcement. 
Karen Engle, the Director of the UNITE operation, says, ``The 
DEA is our most supportive agency, they are the best Federal 
agency by far in terms of helping us get the bigger dealers.'' 
just a word of thanks for the great cooperative effort in my 
part of Kentucky.
    But I wanted to ask you about prescription drug abuse, 
which in my area is the biggest problem. I think you said 
nationally it is the same. These are deadly. We were having a 
death a week of kids in the emergency rooms of our hospitals 
because of prescription drug abuse, and it is still going on. A 
lot of these people are elderly citizens who have a legitimate 
prescription for painkillers, but who take a portion of their 
prescription and sell it off making tons of money.
    OxyContin still is one of the most abused drugs, a good 
drug for terminally ill patients for severe pain. But the FDA 
refuses to change the prescription rules under which OxyContin 
can be prescribed. It should be just for severe, terminally ill 
patients, severe pain, but FDA allows it to be prescribed for 
common pain. It is extremely addictive and extremely difficult 
drug to get off of once you are hooked. It has been a deadly 
problem in my part of country.
    But the biggest source I am told now by the agents of UNITE 
and your folks as well, investigative agents, is off the 
Internet by a few unscrupulous pharmacies and doctors. People 
get on the Internet and order a supply of whatever they want. 
The most dangerous job in my district a while back was not coal 
mining, although that is dangerous. You know what the most 
dangerous job in my district was? Driving a UPS or FedEx 
delivery truck, loaded with drugs ordered off the Internet. 
People will stop at nothing to get those drugs and they were 
hijacking these trucks. It is an incredible situation.
    So prescription drug abuse on the Internet is most severe 
issue. Kentucky ranks seventh in the Nation for per capita 
unintentional drug poisoning fatalities. But guess what State 
is first, Mr. Chairman.
    Mr. Mollohan. I was afraid you would ask me that.
    Mr. Rogers. West Virginia is number 1 in the Nation for per 
capita unintentional drug poisoning mortalities. Kentucky has 
11.6 per 100,000. I don't know what yours is, but it is higher.
    The number of Internet pharmacies selling controlled 
prescription drugs from 2006 to 2007 increased by 70 percent, 
342 went up to 581. Eighty-four percent of these pharmacies do 
not require a prescription to purchase drugs, and of those that 
do, 57 percent accepted a faxed prescription. So it is a major 
problem. I wonder what you might think about that, Madam?
    Ms. Leonhart. Thank you, Congressman, for recognizing the 
problem that we have with the prescription drugs. Let me start 
by saying a lot of what I have learned over the last 5 years on 
prescription drugs came from Mike Sapp from the Kentucky State 
police.
    Mr. Rogers. Yes.
    Ms. Leonhart. So I know exactly what you are talking about 
when you talk about the FedEx trucks. We invited him to sit on 
a committee for IAW, and at two meetings a year he tells us 
about what is happening in Kentucky. And I can tell you both 
West Virginia, which is leading the country, and Kentucky, we 
learn more from your local law enforcement about what is going 
to show up next around the country when it comes to 
prescription drugs. So let me tell you a little bit about what 
we are going to do about it and have been doing about it.
    This is a new area for law enforcement officers. You know 
most of us don't have a lot of experience on a computer. We 
spend our time going after drug dealers. So we have spent the 
last 4\1/2\, 5 years educating our agents on how to best combat 
this problem and how to go after these rogue Internet sites. 
You are absolutely right when you say it is a problem.
    I will give you an example. Rogue Internet sites, 95 
percent of what they sell is controlled substances. A real 
pharmacy, a brick and mortar pharmacy, in this country 
typically only sells about 11 percent. Their prescriptions for 
controlled substance only add up to about 11 percent. So we 
have had to look very hard at what we are going to do and very 
quickly bring our agent workforce and our task force officers 
we work with up to speed on this problem.
    What we have done is convert 100 vacant diversion 
investigator positions over to agents, to bring agents into the 
diversion program. They bring with them the law enforcement 
authority. So like a Mike Sapp, they can go out and investigate 
these. It is organized crime is what it is. We have already 
begun that.
    We also are asking for a $4 million increase for our online 
investigation for SOD to do wire taps on these pharmacies. We 
realize that we also need to look internationally and we need 
an extra diversion investigator in Guatemala. We have found 
that we have had cases coming out of Guatemala and Belize 
where, on the Internet, because they are uncontrolled when they 
are international, our citizens are buying drugs using a credit 
card. These drugs are coming in from these foreign countries 
illegally and nobody knows if they are counterfeit, nobody 
knows if they are really safe. So we have looked at it from the 
international standpoint.
    We also looked at what we are going to do domestically and 
we came up with a strategy. If you go on the computer and you 
type in hydrocodone no prescription, you will get about a 
thousand hits. And when you go through those websites you can't 
tell if those are tied to one person or one organization, but 
this is how they advertise. So we have done a couple of things. 
Instead of chasing the ants at the picnic we have decided we 
had to find out what the chokepoint was and use that and we 
found the perfect chokepoint about a year ago and we have had 
success.
    There are only a handful of major wholesalers that are the 
distributors to these pharmacies. So we have turned our cases 
against them and have had quite a bit of success. Not only are 
we able to stop the distributor who is supplying the drugs that 
someone is buying from these Internet pharmacies, but there is 
also a real pharmacy behind the Internet pharmacy. The Internet 
pharmacy is nothing but a broker, someone who goes out and buys 
doctors and buys a pharmacy and says I will pay you, doctor, 
$200 a script if you will sit there all day and push the button 
and approve these prescriptions. So it is big business and we 
have gone after the wholesalers, these distributors under our 
distributor strategy, and we are shutting down Internet 
pharmacies and brick and mortar pharmacies. And two of the 
wholesalers we just shut down are a part of Fortune 500 
companies and this has sent this message that you better know 
who you are distributing to.
    We are in the works now on some settlements and quite soon 
we will probably see one of the largest settlements civilly the 
DEA has ever had going after the wholesalers. We have taken a 
different look at it and we realized that our diversion 
investigators that do not have law enforcement authority can 
only investigate. They can't do search warrants, they can't do 
surveillance, they can't make arrests. They need to be side by 
side with agents and with intelligence analysts, and that is 
the way we are going to get ahead of this problem.
    Mr. Rogers. I appreciate the chairman and the ranking 
member's indulgence to allow me to go first here and I have 
used up my time.
    Mr. Mollohan. Do you have another one?
    Mr. Rogers. I wanted to quickly point out two things. One, 
I think there needs to be a new Federal law that grants DEA 
more authority to go after illegal Internet pharmacists. In 
Kentucky, UNITE took busloads of people to lobby this bill 
through the State. They passed a statute that says that no one 
can ship drugs to a patient without the patient having had a 
face-to-face meeting with the doctor who prescribed the 
medicine. If an Internet pharmacy ships drugs into the State 
without having done what I just said, we can seize the drugs. 
We have had raids on UPS and FedEx warehouses under that new 
law, and it really has had a big effect. I wonder what you 
might think about the need for a Federal statute that governs 
the same practice?
    Ms. Leonhart. You are absolutely right. There are 
loopholes, especially with the face-to-face doctor piece. I am 
aware that there is legislation right now addressing these 
Internet gaps, S. 980, and I hope that Congress will learn more 
about this and act on this legislation. That would 
significantly help our efforts.
    Mr. Rogers. Is there a need for such a law?
    Ms. Leonhart. Absolutely.
    Mr. Rogers. Do you think it would be effective?
    Ms. Leonhart. Absolutely.
    Mr. Rogers. Well, the biggest source of drug abuse in my 
area and I think probably the country is Internet prescription 
drug accessibility. Tons and tons of drugs have been coming in. 
We have made a dent in that with this new State law, but 
without an equivalent Federal law the States across the border 
from my State can get those Internet drugs in and they quickly 
come across the State line. There needs to be a Federal law 
that would do much of what I said Kentucky's new statute does.
    I want to thank you for your focus and I think one reason 
why you are being so successful is you have been a street agent 
and you know what is out there. It is not a pretty sight, and 
there is a lot of kids that are now orphaned by parents who 
have become drug abusers and they are the most pitiful people 
who are victims of these crimes.
    Thank you for your great work. I want to thank the chairman 
and the ranking member again for indulging me.
    Mr. Mollohan. Thank you, Hal. You are doing a great job 
down there in Kentucky.
    Mr. Rogers. Thank you.
    Mr. Mollohan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. I would think you might want to go to 
one of your members and I would like to go after one of your 
members, Mr. Chairman. Thank you.
    Mr. Mollohan. Mr. Aderholt.

                            METHAMPHETAMINE

    Mr. Aderholt. Thank you. It is good to have you here before 
the subcommittee today. When I walked in I was just noticing 
your chart here with methamphetamine and of course cocaine as 
well, but methamphetamine is an issue that probably more 
affects the area that I represent. I represent a district in 
northern Alabama, and methamphetamine has been an issue that we 
have dealt with a lot. We have seen a number of these mom and 
pop labs that have sprung up and have been on the increase here 
recently. Probably with my law enforcement, methamphetamine is 
the biggest issue they deal with, not only from a drug 
standpoint, but probably any issue that they deal with. I guess 
what I would like to talk with you about or get your thoughts 
on is how can DEA in particular trains or assists these local 
agents? I understand there are some parts of the country where 
methamphetamine is not the issue, there are pockets of the 
country that are worse than the others, but the part of country 
where you have a high rate of incidents with methamphetamine, 
it is a real problem and those of course are the ones that need 
the real work. So just in ways that you see DEA reaching out to 
those local drug enforcement officers on a local level, because 
a lot of them are not trained and, as you know, with 
methamphetamine it is not a cheap thing to deal with, 
especially when you have these labs that have been set up. It 
is rather expensive to go in and try to take down these labs.
    So just your thoughts on that and ways you could work with 
local law enforcement agencies on this issue.
    Ms. Leonhart. A couple of things. First, a good portion of 
my career has been spent on the West Coast in California. I 
remember the very first lab I ever hit in my career was in 1986 
in Festus, Missouri and I remember saying I never wanted to hit 
another lab again. I went out to California and it was a very 
regular occurrence that we took down meth labs. This is before 
we saw the introduction of Mexican traffickers into the 
methamphetamine business.
    But when you go back to the late eighties, DEA and the 
California Narcotic Officers Association and Bureau of Narcotic 
Enforcement were really the first to start training classes for 
State and locals. That has been going on since the mid-
eighties, and about 10 years ago it started to show up in the 
Midwest. Your area is saturated. I am aware of that. I have 
even been down to talk to the U.S. Attorneys in that region to 
try to find out what we can do.
    Taking from what those original training classes were, how 
to safely take down a clan lab, DEA has trained over 1,200 
State and locals and special agents over the past year. We are 
going to train about another thousand next year.
    What I talked to the U.S. attorneys about was, since you're 
being inundated with Mexican methamphetamine now, that we take 
some of these lab teams in the Southeast that have been taught 
how to attack a lab and all the safety issues and turn some of 
that training into basic investigations on Mexican trafficking 
organizations. Most of the finished product, even though you 
are still seeing labs in Alabama, is coming from Mexico. I also 
know in Alabama the good news is when I looked in the database 
129 clan labs were seized last year that were recorded to the 
database in 2006. In 2007 it was 69, so something has happened 
there. There was a shift on the small toxic labs, but I think 
we have to do all we can to train our State and local officers.
    The way the Mexican traffickers traffic meth is different 
than the way meth is trafficked by the Beavis and Butthead, the 
mom and pop lab operators. So we've identified it and we are 
going to do something about it and we have a clan lab facility 
that is opening up in July, and we will be able to do a lot for 
our State and local partners.
    Mr. Aderholt. Where will that be?
    Ms. Leonhart. In Quantico.
    Mr. Aderholt. One thing that would be helpful to us is just 
when you do have meetings with the U.S. Attorney or locals, let 
us know those are going on because a lot of times people don't 
realize that Washington is doing something about it and we want 
to let them know that, our local enforcement agencies, that 
Washington is very intuned to that issue. So do you foresee 
when this facility opens in the summer, do you foresee there 
will be programs where law enforcement can come up for 
training?
    Ms. Leonhart. Yes, we are planning on being able to train 
about a thousand State and local officers.
    Mr. Aderholt. Well, like I said, this is probably an issue 
that law enforcement deals with the most in north Alabama and 
has the most difficulty with. If your office could just contact 
our office and let us know so that we can make sure that our 
local enforcement knows how to tap into this resource, it would 
be very helpful.
    Ms. Leonhart. I will do that.
    Mr. Aderholt. Thank you.
    Mr. Frelinghuysen. I would like to if I could.
    Mr. Mollohan. Sure.

                        INTERNATIONAL OPERATIONS

    Mr. Frelinghuysen. I like your language. You know, perfect 
storm of enforcement. When you talk about drug flow attack 
strategy you are basically underlying the fact that this is an 
all out war. And should we say our enemies are in a variety of 
domestic and foreign. And even though some may be imbecilic, 
many are very well organized and I assume have the ability to 
move money around pretty quickly, and they use the Internet for 
more than prescription drugs. They use the Internet and their 
cell phones to communicate the same way. And I am sure there is 
interaction obviously between the terrorism and vast amounts of 
money that come from drugs.
    Could you talk a little bit about the degree of 
international cooperation? I know that is a big issue here. In 
some countries we seem to have some major investments. We were 
heavily involved or vested in Plan Colombia, some good things 
happened there. How would you characterize international 
cooperation? Are some countries in the state of denial? Who is 
stepping up the plate to assist you?
    Ms. Leonhart. Right away I have to say Colombia and Mexico. 
Being a drug agent for 28 years and having lost one of our 
partners, kidnapped and murdered in Mexico, and having worked 
on the southwest border in San Diego for a number of years, I 
would never have in my lifetime believed that we would have 
this kind of cooperation from Mexico that we have seen in the 
last year and a half. It started under President Fox, but under 
President Calderon we have really seen action. I say that 
because I also need to talk about Colombia. Over the last year 
we are a tripartite partnership; it is our three countries.
    DEA has met with Mexico over the last 4 years to explain to 
them what they are going to start seeing once we did so much 
damage to the super labs out West. We knew that there would be 
a shift. So we started working with our Mexican counterparts. 
And at that time we really didn't have anybody to share 
intelligence with. It was really on a relationship-to-
relationship basis. We had no true partners in Mexico, we 
didn't have anybody. It was hit or miss whether you could trust 
giving someone some information and working an investigation 
with you, but that has all changed.
    We have talked to Mexico about the Colombia experience and 
actually forged a relationship there. We had an executive forum 
and we brought in Colombia to sit down with the Mexican 
officials to talk about their experiences and the fight that 
they have had against these cartels. And it is amazing what has 
happened. Mexico and Colombia are learning from each other and 
it is funny because we got it together years after the 
traffickers did. In the mid-nineties, the Colombians and 
Mexicans hooked up and they knew they could make a lot of money 
and they could saturate our country with cocaine if they worked 
together. And here we are 2006, 2007 and 2008 and we are just 
starting to work together with Mexico.
    Mr. Frelinghuysen. So you have a degree of optimism?
    Ms. Leonhart. Absolutely.
    Mr. Frelinghuysen. The basic facts are these people are 
armed and dangerous. If you look at the Mexican political 
situation, they will take out anybody, including your people 
that stand in their way. The fear and intimidation hasn't gone 
away and obviously if a policeman is paid 50 bucks a month for 
their job and the cartel would offer them 2,000 bucks a week or 
something, it is pretty difficult to fight that. But you are, 
and through your testimony, commending both Colombia leadership 
and Mexican leadership for their full participation?
    Ms. Leonhart. Absolutely. What they are doing to attack 
these cartels that are all shipping drugs here is unbelievable. 
From the coke end they are making record seizures in Colombia, 
they are making record seizures in the transit zone.
    Mexico, that is a world record cocaine seizure that Mexico 
made last October.

                              AFGHANISTAN

    Mr. Frelinghuysen. We congratulate you for this. I know our 
members want to speak. Many members look at the poppy crop in 
Afghanistan and the inability for us to come up with a strategy 
to sort of control it and we know all the things that it has 
allowed terrorists to do. I don't want to shift gears here but 
in many ways we may be achieving some major things in our 
hemisphere. Obviously, there are other parts of the world where 
it has been pretty difficult to deal with an issue which is so 
visible. Would you like to comment? I know you have agents over 
there, FBI has people over there doing dangerous work.
    Ms. Leonhart. I would definitely like to comment on 
Afghanistan. In fact we have the largest law enforcement 
presence in Afghanistan, we have 8 agents, 3 analysts and 3 
pilots over there. But a lot of people look at Afghanistan and 
only think of poppy and think it is a bad news story. 
Afghanistan, if you hear it from our perspective, it is an 
amazing story. We are helping the Afghanistan country reduce 
drug trafficking and secure their country. Just several years 
ago there was no police force, there were no judges, there were 
no jails, there was nothing. And we got our boots on the ground 
there a couple of years ago and we have been standing up the 
police forces there, a narcotic police force to some day be the 
DEA of Afghanistan. And DEA's role is not eradication, but our 
role is going after the biggest and the baddest of druglords 
who are responsible for that poppy, and that money will fund 
the Taliban and terrorists.
    So we have looked over the last several years at all the 
successes there. Who would have thought we would already have 
an extradition of a druglord from Afghanistan? But we have had 
it. In fact we have four traffickers here facing U.S. courts 
and sitting in U.S. jails. We have also seen DEA and the 
Afghans go after the leaders, the infrastructure and illegal 
assets in Afghanistan. The only thing that prevents us from 
doing more over there is it is a war zone and it is hard for us 
to get around. We need the ability to get out to those other 
provinces and collect intelligence and bring the NIU, the 
National Interdiction Unit, out there with us. We are living 
with them, we are training them, we are mentoring them and have 
brought them on operations. There are seizures and arrests, 
there are actual convictions, and we are bringing defendants to 
the new court system and that is working. So it is not all 
about eradication.
    Mr. Frelinghuysen. Thank you for highlighting that. I was 
aware of some of it when I was over there. Somebody told me 
that, the indisputable fact that people view the poppy 
production and our inability to figure out how to eradicate it 
is sort of a failure on our part in terms of our work over 
there. But obviously your people have been doing good work. 
Thank you very much.
    Mr. Mollohan. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. How does it feel to be at the top; it is 
a lot tougher at the top, isn't it?
    Ms. Leonhart. I think it is every agent's dream to run 
their agency, but it is hard to believe.

                          DRUGS AND TERRORISM

    Mr. Ruppersberger. I just want to say before I start I have 
a lot of respect for the DEA. I think the agents are all very 
committed, they work hard, they go into a lot of dangerous 
places, but they get good results. So your whole agency does an 
outstanding job and you do it without a lot of resources. It is 
kind of what we are talking about here today.
    I would like to talk about the DEA's role in the war 
against terror. You mentioned some of the issues, but terrorism 
just isn't over in Afghanistan and Iraq. We have issues in 
South America with the FARC and issues with Thailand, 
Indonesia. By the way, I want to acknowledge DEA's role in 
taking down probably one of the top gun dealers. I guess the 
ATF were jealous, but you were out there.
    Do you want to explain a little bit before I get into some 
of these issues what happened there and why you were in a 
position to take down one of the top drug dealers in the world 
who was supplying guns and ammunition to a lot of our enemies 
and terrorists?
    Ms. Leonhart. A lot of people do not know that DEA plays a 
role in the war on terror. We are perfectly situated because we 
have the largest presence overseas. We are in over 80 offices 
in over 60 countries. In all of those country offices we are 
developing intelligence and working with informants on a daily 
basis. So it is interesting. We have had 2 cases where we have 
taken down some of the world's largest terrorists. You were 
talking about Viktor Bout, the one we just arrested last week. 
There is another one, Monzer al-Kaza, who we put the cuffs on 
in Spain this past June.
    Mr. Ruppersberger. Who is he?
    Ms. Leonhart. He is one of the world's largest arms 
traffickers.
    Mr. Ruppersberger. You are going to get a lot of complaints 
from ATF if you don't watch it. They have an inferiority 
complex sometimes anyhow, when they get less than you do.
    Ms. Leonhart. They are our friends. He was on Iraq's top 10 
list, because of what he was doing supplying arms to the prior 
regime. He was involved in the Achille Lauro and got away with 
it. He is an international trafficker that slipped through 
justice two or three different times. Both of these cases were 
done in the same way and they were done with old fashioned 
police work. Informants were developed and we had intel 
collection on both arms dealers that went way back. With the 
first one, Monzer al-Kazar goes back to the seventies and 
eighties. Both have had some dealing in the drug world and both 
are hungry and greedy for money. So with DEA's informants, 
DEA's plethora of informants, these were all undercover 
meetings, these were all undercover scenarios, both were the 
same. These two gentlemen were willing to sell to anybody for 
the right price. They had those shoulder missiles, they had 
weapons, and they believed that they were dealing with leaders 
of the FARC in Colombia, who were looking for arms.
    And one of the gentleman, even undercover, asks the 
informants posing as the FARC are you against America? And the 
undercover of course said, we are against America. He said 
then, I will deal with you. So both of these gentleman are not 
friends to our country and we were very, very proud of our 
agents that traveled all over the world, who just put together 
two amazing cases. Everybody is shaking their heads saying how 
did you do that, but this is just good old fashioned narcotics 
work.
    Mr. Ruppersberger. From the street up, informant sources 
and everything else?
    Ms. Leonhart. Yes.
    Mr. Ruppersberger. Throughout the years we have always been 
concerned about the drug cartels and drug organizations 
combining with terrorism. I just met this last Sunday with the 
head of your intelligence branch and the clear indication he 
gave us is we now have that issue going on, drugs are starting 
to fund terrorism. You are the only U.S. agency whose single 
mission is drug law enforcement. You have from what I 
understand a consolidated priority list of top organizations in 
the world that you are targeting that deal with narcotics; is 
that correct?
    Ms. Leonhart. That is correct.
    Mr. Ruppersberger. What characteristics do you use to 
evaluate these groups? If you can't say because of an 
intelligence point of view, let me know, but who generally are 
on that list? We have South America, you mentioned Colombia and 
Mexico, we have the Afghanistan issue, we have issues in 
Thailand and Indonesia. Where are you as it relates to that and 
try to make it quick because I don't know how much more time I 
have. I do want to get into your funding and also how you are 
dealing and what organizations you see are involved with 
terrorists.
    Ms. Leonhart. Yes, there is a list. We call it the CPOT 
list. It is the biggest and baddest, it is the kingpins around 
the world. You will find kingpins from the East and Middle 
East. You will find them from Asia, Colombia and Mexico. The 
majority are from Colombia and Mexico. It is an interagency 
process. The agencies under the OLDETF program get together 
twice a year. We bring in the intel community and we share 
intelligence. We nominate the biggest and the baddest. In fact, 
DEA is responsible for nominating over 90 percent of those 
CPOTs. Then by nominating them, we all agree as agencies that 
we will put our resources and our efforts towards them. Our own 
agents know that the number one case they can make, what they 
need to strive for is developing intelligence, sharing that 
intelligence, aiming their enforcement efforts at cases, 
domestic cells that are linked to those international----
    Mr. Ruppersberger. How many of those organizations that you 
have targeted are financing terrorist activities or terrorist 
groups themselves, such as the FARC?
    Ms. Leonhart. You would be surprised. Eighteen of the 46 
biggest and baddest on the list are linked to terrorism.
    Mr. Ruppersberger. What part of the world?
    Ms. Leonhart. All over.
    Mr. Ruppersberger. So Afghanistan?
    Ms. Leonhart. Not only those linked to the FARC and the AUC 
in South America, but a number are linked to the druglords in 
Afghanistan, and we have put some of them in jail.
    Mr. Ruppersberger. The last time I was in Kandahar, where a 
lot of this is occurring, I saw that the British were kind of 
taking command and control more than we were at that time. If 
that is the case, are the Brits working closely with you, do 
they understand the DEA role? When I was there it was the 
British military. Can you comment on that?
    Ms. Leonhart. Those relationships have gotten better.
    Mr. Ruppersberger. There was a problem for a while.
    Ms. Leonhart. It is a war zone and everybody is there. The 
country is split up and everybody has their own 
responsibilities and there was no coordination mechanism. There 
is now.
    Mr. Ruppersberger. Okay.
    Ms. Leonhart. We have all come together and we sit at a 
table and we bring our intelligence and we identify who the top 
targets should be, and those are what we call the HVTs.
    Mr. Ruppersberger. Your budget request is 2.6 billion. What 
part of your budget address is the CPOT and is that including 
your international enforcement budget of 400 million?
    Ms. Leonhart. Our budget has one major piece and that is 
the drug flow attack strategy. The drug flow attack strategy is 
all about the CPOT. It is all about doing damage to those 
organizations by stopping their flow of drugs, by making them 
change their behavior. Domestically, our agents work on 
priority targets and the CPOTs are the highest targets they can 
work. The DFAS is what goes down into the source countries in 
the transit zone and takes the intelligence it has developed, 
foreign and domestic, and goes after the transportation of the 
drugs by these organizations. We have domestic cases we can get 
U.S. indictments on those CPOTs and we are asking for a fast 
team for the Western hemisphere so----
    Mr. Ruppersberger. What countries in the Western 
hemisphere?
    Ms. Leonhart. South America, Central America, Mexico all 
the way to our southwest border. So it is actually to assist us 
in securing the border. We are making sure----
    Mr. Ruppersberger. In that regard you are making use of 
UAVs also? We had a discussion last year about UAVs.
    Ms. Leonhart. You did bring that up last year and we have 
had discussions about it. And at this point, we are in such 
need of a helicopter that we feel priority-wise----
    Mr. Ruppersberger. Why are you in need of a helicopter? 
Just to get your agents from one spot to another quicker?
    Ms. Leonhart. Our drug flow attack strategy requires us to 
be able to lift and shift. And you cannot do that without 
helicopters. It requires us to be on the ground where we need 
to be at a certain time to interdict the drugs, to make the 
arrests, to work with our foreign counterparts.
    Mr. Ruppersberger. How many do you have now, helicopters?
    Ms. Leonhart. We have five helicopters all being used for 
different things.
    Mr. Ruppersberger. Especially in the western hemisphere?
    Ms. Leonhart. Yes.
    Mr. Ruppersberger. Can you piggyback on the military?
    Ms. Leonhart. We have been assisted by military assets. And 
the interagency has been helpful, but the problem is we have 
too many instances where we are tracking a drug load and nobody 
is available to help us go out there.
    Mr. Ruppersberger. Right.
    Ms. Leonhart. So we are needing to look for that helicopter 
and a FAST team that we can dedicate to the western hemisphere 
just like we have our teams in Afghanistan.
    Mr. Ruppersberger. I am going to have one more question 
because my time is up and I will probably have to talk to you 
again.
    We know the Administration especially is acting and 
probably have more leverage over them than the Administration. 
My own personal opinion is that in this world, drugs is a more 
serious problem than terrorism. And, yet, it seems all of our 
resources are going into fighting terrorism.
    And I am on the Intelligence Committee, so I see where a 
lot of that money goes. But I just think that we have really 
underfunded the entire DEA budget. What you need to do is 
important and the fact that you do so well with what you have 
is great.
    Now, I know you have to stand up for your budget, but if 
you have an opportunity to let us know what your priorities are 
that are not in this budget, I do not know how you do that, a 
little secret note or something, but I think this Committee and 
I know the Chairman really feels strongly about trying to 
support and give the resources to DEA because of how serious 
the problem is to our country and our world, but also the fact 
that what you do get, you do it well.
    Thanks.
    Ms. Leonhart. Thank you.
    Mr. Mollohan. Thank you, Mr. Ruppersberger.
    Mr. Honda.

                          BUSINESS PARTNERSHIP

    Mr. Honda. Thank you.
    And thank you for your work. I know that law enforcement is 
very complicated and complex and global and where chemistry 
plays a big part of the manufacturing of drugs which differs 
from the production of the kinds of drugs that you are talking 
about, both of which need a lot funding, a lot of training, a 
lot of education, and support.
    And I agree with my colleague that if you do not take care 
of business, terrorism will find other sources. I am not on the 
Intelligence Committee, but it is common sense.
    I have had some experience in addressing some of these 
things that we look at in terms of meth labs and how 
complicated that gets and looking at over-the-counter kinds of 
drugs that can be used to create illicit drugs or even becoming 
aware that there are some over-the-counter drugs that you can 
ingest illegally, but your body converts that into the same 
reaction as the illicit drugs too. I guess some people call it 
date rape drugs and things like that.
    So it is a complicated area for law enforcement and for 
policymakers. And in the area of policymaking, I would like to 
just spend a little time here in terms of being precise because 
in a democracy, we want to get the bad guys and get rid of 
them. At the same time, we want to be able to protect our 
community and that is what makes law enforcement so like 
teaching. It is not as simple as it seems and you cannot write 
scripts for TV, TV consumption.
    So I just want to make sure that you knew that I understand 
the complexity of the breadth of your job.
    Having said that, some of the things that I get concerned 
about is terminologies. And I learned one today, choke point. I 
assume that that is a place where you look at where a lot of 
the activities are going on in internet traffic.
    And so, you know, being aware of that, then I guess those 
of us who are policymakers need to understand when we do policy 
here that we need to look at how technology can be misused, 
too, because I guess technology could be considered agnostic. 
It is the users that make it legal, illegal, or social or 
antisocial.
    And you mentioned how Fortune 500s are contributing to the 
problem. I suspect that it is unknowingly they are doing this 
or am I wrong?
    Ms. Leonhart. In one case where we are talking about 
supplying a pharmacy, DEA has even done training with the 
company on what they needed to look for.
    Mr. Honda. So initially they did not know, but they were 
selling their products to somebody who has an insatiable 
appetite for a certain product.
    And then you are saying that you are educating them and 
saying you got to be looking for these kinds of benchmarks. Ask 
yourselves, you know, why there is such a peak in the sales on 
some kinds of drugs. I think that is what you are saying.
    And so you get Fortune 500s that are being educated and 
that these are over-the-counter kinds of things, but they have 
to be watched.
    In California what we did, we have had statutes that said 
after a certain amount, you have to get, you know, some kind of 
a paper like prescriptions or something like that, so we can 
have a paper trail.
    Is that what you did also on this kind of a thing?
    Ms. Leonhart. We have a couple of things. I was a special 
agent in charge in your area, in San Francisco, and also Los 
Angeles and I know the controls that California came up with 
very early on methamphetamine.
    We have a number of controls. One of the things we do is we 
use technology. We call it the ARCOS database and it will show 
us what is ordered from pharmacies, pharmacies ordering from 
wholesalers. We are able to track that and from that, we are 
able to show where there are anomalies. And when there is a 
particular pharmacy that is ordering up more or a distributor 
who is ordering up more drugs than necessary----
    Mr. Honda. Kind of a diagnostic tool and it gives you some 
sort of information and----
    Ms. Leonhart. Yes.
    Mr. Honda. And I think that is smart. And I was the Chair 
of that Committee when we were working with you guys on that. I 
think that we have learned a lot, but we are still behind the 
curve because they seek to learn other things.
    But as we move through this process, we educate Fortune 
500s, we educate the pharmacist, and then what comes out of 
there is the bad guys. I mean, if pharmacists have knowledge 
that they are selling a certain kind of product over the 
counter that is an inordinate amount, you know, they should be 
made aware. And I think that is part of your education process.
    And then I guess the other products, too, like you said 
kitty litter, things like that, terminologies that are used to 
identify, certain kinds of products that are used to make 
methamphetamines.
    Where I am going with this, and you probably understand 
where I am going with this, is that we have watchdog groups in 
our communities, you know, watching our communities and making 
sure that they are getting a fair shake.
    And I think that one of the things that we found is that in 
the effort of law enforcement, sometimes businesses get 
targeted and this is the area that I want to know what is it 
that you do in terms of training your personnel in how to 
operate properly because that is what we require law 
enforcement to do, follow laws also.
    But also what do you do to engage the community to educate 
them as you do the Fortune 500s, the key things that they have 
to watch out for so that they do not get involved in 
unknowingly selling over-the-counter drugs, so that they can be 
part of the law enforcement process because we believe that 
policing is at least 50 percent community and 50 percent law 
enforcement where you guys get to carry the guns? But, you 
know, we have to have knowledge.
    Can you tell me what you do in the area of education in 
these communities and have you had problems in the past that 
you learned from that you could share with us?
    Ms. Leonhart. Well, I will tell you that the education that 
we are doing with Fortune 500 companies we are also doing with 
your neighborhood pharmacies, your neighborhood retail outlets, 
your mom-and-pop stores.
    And I think back with the, especially in California in your 
area, what we did early on with the meth epidemic when all of a 
sudden, it was pseudoephedrine that they needed out of the 
retailers. I remember we had citizen meetings to alert people 
that they could be living next to someone who is producing 
meth. We went around to store owners. We talked to them. We 
told them here is what to look for. You can be our eyes and 
ears.
    We have worked with community coalitions all across the 
country. So we have done what we can on the education piece. 
Even on the internet, we now try to help kids. Google and Yahoo 
have put banners on so that if someone is trying to buy drugs 
on the internet, they will get a banner that comes up. And it 
has happened a couple millions of times.
    Mr. Honda. Right. Excuse me for interrupting, but----
    Ms. Leonhart. Sure.
    Mr. Honda [continuing]. I guess I am looking for when we 
talk about educating the law enforcement agents on drugs 
because you are hiring 1,000 of them, you are training them in 
the area of enforcement. The flip side of that is educating the 
community and talk about mom and pops. In this country, we have 
a lot of language, ethnic folks who run these programs.
    What program and what curricula do you have within the DEA 
that requires you to make sure that your educational effort is 
also in the community whom you want to have your partners?
    Ms. Leonhart. Well, number one----
    Mr. Honda. Do you have one or you do not?
    Ms. Leonhart. We have----
    Mr. Honda. If you do not, do you need help with that?
    Ms. Leonhart. We can always do better at that, but we 
actually do have groups. I know when I was in Los Angeles and 
if there was an issue in a certain community, I knew who I 
could call to help us with that community. So that is something 
that our 21 field divisions' SACS use.
    Mr. Honda. So that is SOP? That is a standard that you 
have--is it institutionalized? I mean, I know I could trust you 
do to that, but not everybody is you. And so you have to 
convert that into some statute or some institutionalized 
practice so that it becomes SOP in terms of working in the 
communities.
    Ms. Leonhart. Well, actually, we have something called best 
practices where when we get together with our special agents in 
charge, some of these issues are brought up, how to deal with a 
certain type of store, how to deal with a certain type of 
retailer I remember when there was a big to-do about how to 
deal with tack and feed stores because they were actually 
supplying meth traffickers and did not know it.
    Mr. Honda. Yeah. Let me get a little more definitive----
    Ms. Leonhart. Okay.
    Mr. Honda [continuing]. And talk about language, culture, 
besides just the kind of store activities, you know, tack and 
feed stores, I understand. But then if it is owned by, say an 
Indo-American whose language is an Indian language.
    And if that is the only language that they have and they 
have a level of exchange and that is the level of their 
proficiency and someone comes in using street language and they 
do not understand what the language means, but they do know 
that they want a certain product, they will sell it. And they 
will sell it without knowing what it might be used for, but 
they, in many instances, they have been arrested for the sale 
because the agent used street language regarding purchasing the 
product.
    Those are the kinds of things I am most concerned about and 
if people are educated, then it is not entrapment. It is 
knowledge. But if they have no idea what they are talking 
about, but they want to make a sale, I think that that requires 
a lot more work with the community.
    We wrote a letter indicating that even when the agents had 
said that, you know, they were told to target a community and 
in that community, there was X amount of stores and of that X 
amount, the majority were run by Indo-Americans, and so they 
were pretty much targeted.
    Now, a community that gets hit like that cannot feel but 
say that they have been racially profiled. And I think that, 
like I say, in a democracy, as law enforcement agents, we still 
have to be cognizant of how we go about, you know, combating 
drugs and those kinds of things.
    And that is the community level. You have got the 
international level with the other kinds of drugs, but 
methamphetamine is probably one of those things that you can do 
it in your kitchen. And that is why this is so important.
    And the response I got was not satisfactory. I say that 
because it was dismissed by saying that the judge had dismissed 
the case and that there was no racial profiling involved, but 
the fact is that it was a procedural dismissal rather than 
based upon the facts.
    So I just want to let you know that as a policymaker, I 
support the mission and I want to help. But in doing so, I want 
to make sure that this becomes something of the past and that 
we make sure that racial profiling in a country that has so 
many diasporas that it makes it more complicated and it could 
be a source of help from us because we can count on them to 
help us. But I do not want them to feel targeted in a country 
that they came to with an expectation of due process.
    Thank you, Mr. Chairman.
    Ms. Leonhart. Racial profiling will not be tolerated at 
DEA. I now believe I know the case you are talking about. And 
we have done a number of things to include a video that is 
mandatory that our agents watch, not only agents, but diversion 
investigators and anybody that could be interacting with the 
community.
    Mr. Honda. Sure. And I appreciate that. That is half the 
coin. The other half is educating the community on making sure 
that is done and the community always stands ready to be a 
partner.
    Ms. Leonhart. Thank you.
    Mr. Mollohan. Thank you, Mr. Honda.

                           MEASURING SUCCESS

    Ms. Leonhart, I want to talk a little bit about how you 
measure results, what results you are achieving and what 
indicators we should be looking at.
    Statistics on drug abuse trends are often used as evidence 
of the impact of enforcement efforts. However, drug use data 
tells us more about the individual users than about traffickers 
and the overall market.
    Other than usage data, what do you believe are the best 
indicators of DEA's impact on drug trafficking into and within 
the United States?
    Ms. Leonhart. I guess you are asking me how does DEA self-
assess and what indicators do we look at? Because of our 
mission, it will always be what damage have we done to the 
traffickers. It will always be how many organizations did we 
identify, how many did we target, how many did we disrupt, how 
many did we dismantle, what were the arrests. It will always be 
about the money, the financial end.
    We cannot forget that drug trafficking is big business like 
a Fortune 500 company. And, in fact, it brings in more money 
than Bill Gates and Oprah and Donald Trump combined.
    So how do we define success? It is when we are stripping 
money away from those traffickers. And, in fact, we had a 
banner year in 2007 stripping $3.5 billion away from the 
traffickers, meaning we took that money so that could not go 
back to the traffickers to make their next cycle of drugs.
    I think success is spelled by what are you doing with the 
legitimate, the banking end. And we have had three cases this 
year that are just remarkable. Union Bank of California 
forfeited $21.6 million because we caught them not doing their 
part to prevent money laundering. The same with American 
Express Bank International. They forfeited $55 million. And at 
the same time, a case we had against the Segay Corporation, 
they forfeited $15 million.
    Bulk cash is the primary way that these, at least western 
hemisphere cartels, are getting money back. And this year, we 
seized a record amount of cash, $700 million was seized.
    So it is working with our international partners. It is 
being able to partner up and do Intel sharing. It is those 
kinds of partnerships that then lead to drug seizures. We had 
record drug seizures. Not only did we have $207 million cash 
seized in Mexico, but they followed up with this 23.5 metric 
tons that I brought the picture in on, the world's record 
cocaine seizure. Both those seizures were all done because DEA 
passed intelligence to them.
    Mr. Mollohan. Obviously we would all like to think that the 
supply side efforts, if you will, in some way impact the demand 
side by reducing drug use. And at the end of the day, 
collectively all of our efforts are directed at reducing drug 
use in the country. And that is a very elusive goal. That is a 
very hard thing to achieve.
    But I am interested in knowing, do you think about it in 
those terms? Do you think about it in terms of are we really 
reducing the availability of drugs on the street?
    I see that you measure it in terms of increasing the price 
and decreasing the purity, which is a supplier's response 
obviously to the lack of availability of the drugs.
    How does that translate, or does it translate, into a 
decrease in use? And what should happen in conjunction with 
your very impressive efforts to achieve that last result, a 
decrease in use? What needs to happen on the other end 
remedially and from a law enforcement standpoint or whatever, 
in your overall experience?
    Ms. Leonhart. Well, I can tell you the reason we call what 
we have just experienced the perfect storm is because all those 
things have converged for the first time, at least the first 
time in my career, where we can develop a strategy and 
operation and we did it out of hide. We wanted to test it out. 
We did it. And the first time we did it, we saw results.
    Since 2001, drug usage by teens has been going down, going 
down in every category. And now we have Quest data that shows 
that American workers' drug use is going down. And if you plot 
out the drug usage and you look at what DEA was doing, what our 
state and local partners were doing, we are priority targeting, 
we are doing a better job of not just taking this guy off the 
street and that guy off the street, but strategizing on how to 
affect the supply. And we have.
    In our drug flow attack strategy, the centerpiece of it is 
called Operation All Inclusive. We did it. The first time we 
did it, we saw that we had a change in price and purity. So we 
thought we would do it again, we would do it a little bit 
longer. We brought in more partners. We did it and we had 
substantially more significant change in price, change in 
purity at the same time we are seeing use rates go down.
    So that is why I brought this chart in, to really show that 
when we can have a--we, by our enforcement actions, by our 
partnering with Colombia and Mexico, with our domestic agents 
going after that money, attacking that money that is going back 
down into Mexico, when all those things converge, that we see a 
rise in the price. We see 37 cities like Boston who has a 60 
percent increase in cocaine----
    Mr. Mollohan. Say that again. When you take Boston who has 
had a 60 percent increase in----
    Ms. Leonhart. Price.
    Mr. Mollohan. Price of cocaine.
    Ms. Leonhart. Price of cocaine----
    Mr. Mollohan. Right.
    Ms. Leonhart. Eighty--I am sorry. Eighty-six percent 
increase in price in cocaine. When you take New York, whose 
price of a kilo of cocaine doubled.
    Mr. Mollohan. So you are able to associate your efforts and 
your strategies with a decrease in use directly through the--
and you think it is this scarcity that the suppliers or 
traffickers on the street translate into higher prices and less 
purity? And you do associate that with a depression of demand?
    Ms. Leonhart. Yes.
    Mr. Mollohan. And use?
    Ms. Leonhart. Yes.
    Mr. Mollohan. Really?
    Ms. Leonhart. It is not the only indicator, but if----
    Mr. Mollohan. But if----
    Ms. Leonhart [continuing]. All of those things together----
    Mr. Mollohan. Right.
    Ms. Leonhart [continuing]. And we watched it. We have 
sustained this over a year now because we have done those 
operations.
    Mr. Mollohan. Right.
    Ms. Leonhart. And every time we have done that operation, 
we have seen a change to the market.
    Mr. Mollohan. That is a very impressive linkage which I 
really would like to follow up with you some other time to 
understand it more clearly and to see what programs in or 
outside of DEA might complement that.
    This Committee funds a lot of efforts that interactively 
impact drug use in the country, which is the ultimate thing we 
want to decrease. I want to understand your perspective on that 
more clearly. But that is very impressive--your efforts, in and 
of themselves, are impressive, including the seizure, what you 
are doing and a number of other things.
    But how your effort translates into a decrease in the use 
of drugs and how you can measure that is something I would like 
to follow up on. I am going to have to go vote here in a couple 
minutes. But before I do, I want to talk a little bit about 
your efforts and your programs in Afghanistan.
    Our efforts in Afghanistan are effective and certainly 
laudable. And it sounds like you are prototyping strategies and 
techniques that you are interested in applying to the western 
hemisphere; is that correct?
    Ms. Leonhart. That is correct.
    Mr. Mollohan. Ten percent of the heroin consumed in 
America, in the United States of America, comes from 
Afghanistan; is that correct?
    Ms. Leonhart. We believe about 10 percent comes----
    Mr. Mollohan. About 10 percent?
    Ms. Leonhart [continuing]. From that region, yes.
    Mr. Mollohan. And where does the other 90 percent come 
from?
    Ms. Leonhart. Primarily Colombia and Mexico.
    Mr. Mollohan. Okay. What are you doing in Afghanistan now 
that you would like to apply to your enforcement efforts in the 
western hemisphere?
    Ms. Leonhart. We started what we call the FAST Program in 
Afghanistan, Foreign Advisory Support Teams. And these are 
teams of agents that in a new environment can go in, can mentor 
and teach our police counterparts on drug enforcement so that 
they can then be our partners while we are there and when we 
are no longer there. We need to do the same thing in the 
western hemisphere.
    I just came back from a trip to the Dominican Republic. And 
these are folks that are being killed on drug loads coming out 
of Colombia and Venezuela. And they do not have the resources 
and they do not have the ability to stand up without other 
partners.
    So we had an operation. We call it Operation Rum Punch. And 
we ran that operation using a FAST that we brought back from 
Afghanistan just to try it, brought them down to Hispaniola. 
They worked with these folks in Haiti which is difficult and 
with our folks in the Dominican Republic. And what they were 
able to accomplish was they ran one of these Operation All 
Inclusives. They were able to find a way to go after drug loads 
where before there was no end game there. There was no one 
there to interdict the drugs.
    Mr. Mollohan. I apologize. I have to go. Just continue with 
that answer, Mr. Frelinghuysen.
    Mr. Frelinghuysen [presiding]. Thank you.
    Just to get a little bit of clarity, the issue of purity, 
the seizure there, maybe I have been watching too much CSI 
Miami or whatever, but where do you measure the purity?
    You measure the purity when you make a seizure and then you 
might measure the purity when, let us say, you apprehend 
somebody on the street. I know you are doing the job which to 
some extent shows that things are less pure. If you could just 
briefly elaborate on the purity issue.
    Ms. Leonhart. I think I am going to have to explain how we 
do this. Obviously when we have the drug loads like that, they 
are coming up and they are basically pure.
    Mr. Frelinghuysen. They are pure? And then it goes into 
other hands and then because of the value, it is diluted?
    Ms. Leonhart. What we have been able to do is the two tests 
of what is happening with the market is to look at the universe 
of drug buys in the country, the retail drug buys on the 
street. Well, our laboratory gets all that information.
    Mr. Frelinghuysen. So you buy in LA, you know, Newark?
    Ms. Leonhart. All over the country.
    Mr. Frelinghuysen. I mean, anywhere?
    Ms. Leonhart. All over the country. So what we did is we 
started looking at those and we ended up with about 14,000 drug 
purchases that we could look at that were from all over the 
country. And we looked at those for price and for purity. And 
then our statisticians got it down to the pure gram. And they 
were able to show these shifts in price and purity.
    Mr. Frelinghuysen. And the conclusion is that because of 
your disruption and your major efforts that shall we say things 
are working in our favor because of the----
    Ms. Leonhart. Absolutely. When you run an operation and you 
do it three times and each time the longer you do it, the more 
results you get and on top of that, you have informants coming 
forward and saying the traffickers are having to raise their 
costs because you are making them go all the way out past the 
Galapagos Islands to come in, so their transportation costs are 
more. We know we have caused their behavior to change and----
    Mr. Frelinghuysen. And I think that is commendable. But the 
last time I checked, people are operating in the Dominican 
Republic and Haiti with somewhat impunity? I mean, those have 
always been points where drugs--is that not accurate or----
    Ms. Leonhart. That is accurate, but----
    Mr. Frelinghuysen. So I sort of want to build this into my 
whole question about your drug flow strategy because, actually, 
we are dealing with money here. You have requested an increase 
of $21 million, a portion of which would be for the hiring of 
30 special agents which I am sure you badly need, a new 
helicopter, but also the money would be used for one of the FAS 
teams that you referred to----
    Ms. Leonhart. That is correct.
    Mr. Frelinghuysen [continuing]. One for Afghanistan and one 
for this hemisphere. Would in working in this hemisphere this 
FAST be focusing on places like the Dominican Republic and 
Haiti where you already, I assume, have people on the ground?
    Ms. Leonhart. So I can clarify, both teams would be in the 
western hemisphere.
    Mr. Frelinghuysen. They would be? All right.
    Ms. Leonhart. Yes. If all of a sudden, especially with the 
threat from Colombia and Venezuela, all the drug loads are now 
going up to the Dominican Republic, that tells us we need to 
use a FAST team, go in and work with our partners in the 
Dominican Republic and we can do some damage to those drug 
loads.
    Mr. Frelinghuysen. We have partners or God only knows how 
you describe our relationship with what is going on in Haiti. I 
mean, is there anything being built there that we could see a 
light at the end of the tunnel?
    Ms. Leonhart. We need a FAST team so that we can work. 
Haiti was more difficult, but we did an operation there. We did 
Operation Rum Punch there. So we----
    Mr. Frelinghuysen. You are working there?
    Ms. Leonhart. We are working there.
    Mr. Frelinghuysen. I would like to sort of change the focus 
here relative to your hiring freeze that I mentioned earlier. 
Your fiscal year 2007 appropriations level required a hiring 
freeze. Obviously if you are not hiring, your workforce is 
shrinking.
    Do you know how many staff you lost during the hiring 
freeze?
    Ms. Leonhart. Yes. We lost about 600 people, 251 of them 
were special agents. And that is on top of about 1,000 
vacancies that we had when we went into August of 2006 before 
we even implemented the hiring freeze.
    Mr. Frelinghuysen. We provided money. I think parts of the 
Department of Justice got money and then you got sort of left 
off the list. We provided funding in the fiscal year 2008 
supplemental and about, I think, ten million this year 
specifically to lift the freeze.
    Maybe I already know the answer, but will the funding be 
sufficient to fill your vacant positions?
    Ms. Leonhart. That funding, and I have got to thank you all 
for that, was quite a morale booster for our folks when we 
could lift the freeze. That will still leave us about 52 agents 
short from where we were before the freeze.
    Mr. Frelinghuysen. So you are short?
    Ms. Leonhart. When we do the hiring and, in fact, we have 
an agent class going on right now, as we hire in 2008, by the 
time we get to the end of the year, we will still be about 52 
agents short.
    Mr. Frelinghuysen. How much money would you need? How much 
money would that represent?
    Ms. Leonhart. That is $4 million.
    Mr. Frelinghuysen. In order to hire the 52?
    Ms. Leonhart. That is one agent class and that costs $4 
million.
    Mr. Frelinghuysen. All right. Maybe I will yield, Mr. 
Chairman. Thank you very much.
    Mr. Mollohan [presiding]. Thank you.

                         AFGHANISTAN EXPANSION

    Let me pick up, and I do not know if Mr. Frelinghuysen 
picked up where I left off before I went to vote, but you are 
requesting additional support in Afghanistan. And before I 
leave Afghanistan, I want to ask you about that.
    You are considering the addition of up to 67 new DEA 
personnel in Afghanistan, but the proposal has not been 
finalized and transmitted? Is that under review in DEA and 
would you talk with us about that?
    Ms. Leonhart. If the Administration wants us to expand in 
Afghanistan, we are exploring ways to do that. We have 
determined that to do what we need to do to get out to all the 
provinces and to be able to work with and stand up the police 
capacity there with the NIU and CNP Alpha, it would take about 
67 agents.
    Mr. Mollohan. Well, what is the mission that we are 
fulfilling with that initiative or would we be fulfilling?
    Ms. Leonhart. Absolutely the organizational attack, going 
after the drug lords.
    Mr. Mollohan. We would be building Afghanistan's capability 
or----
    Ms. Leonhart. Well, these are drug lords that are also 
funding terrorism. So it is developing the police force there, 
but also we were out of that country for quite a while. We need 
to develop intelligence. We need to go after those drug lords 
because that money from the drugs being sold out of Afghanistan 
is funding terror.
    Mr. Mollohan. So this is a real anti-terrorism mission 
principally? I mean----
    Ms. Leonhart. It is drugs and terror. You cannot separate 
them.
    Mr. Mollohan. Hard to separate them. How much money are you 
associating with that initiative? Is that going to be a request 
of this committee? Is it in your request in any way?
    Ms. Leonhart. It is still being planned.
    Mr. Mollohan. Would we anticipate an amendment to your 
request for 2009?
    Ms. Leonhart. All I know is that we are going to have a 
plan and that will be worked through the NSC.
    Mr. Mollohan. Is there a time? Are you supposed to be 
responsive in some way within some timeframe?
    Ms. Leonhart. No. I just know----
    Mr. Mollohan. So it is not something the committee is going 
to expect to be asked of for fiscal year 2009?
    Ms. Leonhart. I do not believe so. I do not know----
    Mr. Mollohan. You do not know at this time?
    Ms. Leonhart. I do not know.

                   DRUG FLOW ATTACK STRATEGY REQUEST

    Mr. Mollohan. Okay. Your request for two new FAST teams to 
serve the western hemisphere, your budget request is $7 million 
for 20 positions. Does that achieve the goal of creating two 
FAST teams for the western hemisphere?
    Ms. Leonhart. Yes, it does.
    Mr. Mollohan. And does this request come--Mr. Ruppersberger 
asked you about helicopters there and had to go--does that 
request come with a request for a helicopter?
    Ms. Leonhart. It comes with the request for one Bell 412.
    Mr. Mollohan. Can you do all that for $7 million?
    Ms. Leonhart. It is $20 million.
    Mr. Mollohan. Okay.
    Ms. Leonhart. Twenty point six million, 40 positions, 30 of 
which are agents that would stand up two teams that would----
    Mr. Mollohan. Twenty agents?
    Ms. Leonhart. Thirty agents.
    Mr. Mollohan. Thirty agents.
    Ms. Leonhart. Two teams.
    Mr. Mollohan. Okay.
    Ms. Leonhart. I can run through what that package would be 
if you would like.
    Mr. Mollohan. Sure. Please.
    Ms. Leonhart. The $20.6 million would be for 40 positions, 
30 agents. It would cover the FAST expansion, which is seven 
million, which is two teams. That would be nine agents and one 
intelligence analyst per team. It would then give the operating 
money, $2 million, for us to do one of these operations that I 
just explained.
    It would also give us three agent pilots and a Bell 412 
helicopter to achieve that lift and shift I was talking about. 
It would also fund, with $2.5 million, it would give us 16 
positions for the southwest border. And that would be nine 
agents and two Intel analysts. And it would give us one analyst 
position to help work with the Intel community on an open 
source project.
    Mr. Mollohan. To what extent do you work with the military 
for your transportation needs, particularly your air 
transportation needs?
    Ms. Leonhart. It depends on what country. We depend on them 
pretty heavily, did early on in Afghanistan. They have supplied 
helicopters for the NIU. So now they have a way to lift there 
and we have our own aircraft there.
    Mr. Mollohan. In Afghanistan?
    Ms. Leonhart. In Afghanistan.
    Mr. Mollohan. And DEA employees operate those helicopters 
or does the military operate them?
    Ms. Leonhart. We have a King Air aircraft and one 
helicopter with a contract pilot.
    Mr. Mollohan. In addition to that, you rely upon military 
transportation for air transportation in Afghanistan?
    Ms. Leonhart. Right now if our agents need to get out to 
one of the other forward operating bases, one of the things 
they do is wait in line to go with the military unless we can 
fly. And we are also limited in how much we can fly there.
    Mr. Mollohan. So having your own equipment enhances your 
ability to do your mission because you do not rely upon 
availability from some other----
    Ms. Leonhart. Absolutely.
    Mr. Mollohan. And that is also true in the western 
hemisphere?
    Ms. Leonhart. It is definitely true in the western 
hemisphere because for instance, we are going to spend a lot of 
time with Guatemala working up their capabilities. We know 
there is a shift happening. They do not have all the resources 
to assist us.
    Having that one helicopter for these two FAST teams--the 
two teams are deployed one at a time, is what we would need. So 
we are not depending on--for instance, CBP to fly us. We have 
depended on other agencies and the military to help us with 
these operations.
    Mr. Mollohan. How much of this request is the helicopter?
    Ms. Leonhart. The helicopter is a part of that 8.9 million, 
the helicopter plus three agent pilots that go with it, with 
the operating and maintenance money and money for them to 
deploy.
    Mr. Mollohan. If you were to take the helicopter out of 
your request, how much money would that take out of your 
request?
    Ms. Leonhart. Seven.
    Mr. Mollohan. And to what extent would that degrade your 
capability to do your mission?
    Ms. Leonhart. That helicopter is key to these teams being 
able to move around.
    Mr. Mollohan. You would not be able to have that supplied 
by the military, for example?
    Ms. Leonhart. I think what would happen is what we saw over 
the last year where there are drug loads that we are tracking 
that we cannot follow because no one is available. There is no 
end game there without having our own lift.
    Mr. Mollohan. Would you propose to own this helicopter or 
rent it from a contractor?
    Ms. Leonhart. We would be buying this helicopter. It would 
be a part of our fleet.
    Mr. Mollohan. I am going to leave activities along the 
southwest border to Mr. Culberson. Let me ask you quickly about 
state and local assistance.
    The DEA's 2009 budget does not appear to include any 
program increases for state and local assistance. It is 
difficult to tell, however, because some programs that I would 
consider state and local assistance, such as MET and state and 
local law enforcement training, are no longer included in DEA's 
state and local assistance decision unit total.
    Can you quantify how much DEA intends to spend in 2009 on 
state and local assistance, to include training and MET, and 
compare that to DEA's spending in 2008?
    Ms. Leonhart. There is about $6.5 million in the state and 
local decision unit that would be funding for clan lab cleanup, 
state and local clan lab training, and the Domestic Cannabis 
Eradication Program.
    Mr. Mollohan. In your 2009 request?
    Ms. Leonhart. Yes.
    Mr. Mollohan. And how does that compare with 2008?
    Ms. Leonhart. Similar to what was enacted.
    Mr. Mollohan. Do you think the state and local request is 
sufficient?
    Ms. Leonhart. I think if I can explain what we do with 
state and local, you will see that while it may not show up 
here, it is showing up in other places.
    Mr. Mollohan. Sure.

                       STATE AND LOCAL ASSISTANCE

    Ms. Leonhart. Our state and local training, for instance, 
does not fit under this decision unit. It is in the domestic 
enforcement decision unit. And we have trained 42,276 state and 
locals in 2007 with that money. So we are giving a lot of 
assistance. It just does not show up in that decision unit.
    Through our State and local taskforce program we run 218 
State and local taskforces. We have got a program that is 
almost 35 years old. We have over 1,650 agents in that, but 
along with them 2,130 taskforce officers and we pay their 
overtime.
    We also have vetted 8,000 federal, State and local officers 
to have access by telephone to the El Paso Intelligence Center. 
So that is assistance that doesn't show up there. And 1,800 of 
those State and locals have web access now in our new web based 
epic portal system.
    Demand reduction provides assistance to communities and we 
have got nine positions for demand reduction that do a lot of 
work with the coalitions. And then thanks to you, you restored 
the MET Program. You restored not the full MET Program, but we 
have got at least a third of it back.
    Mr. Mollohan. Talk with us a little bit about how you value 
your State and local partnerships and how important you think 
it is for DEA to support State and local law enforcement. And 
then, my specific question was, whether you believe that your 
State and local assistance request in the budget is sufficient, 
however you would like to talk about that. You have made it 
clear that the DEA supports State and local through its budget.
    Having said that, is that enough and do you recommend more 
assistance? And if so, where?
    Ms. Leonhart. I would say that I can't imagine DEA doing 
their mission without the State and locals. I was a Baltimore 
police officer. I learned about DEA through the State and local 
program. I know we have got a strong State and local program 
that is doing wonders for our State and local partners.
    And what I didn't mention that I do need to mention is that 
we do a number of things for State and locals. They have worked 
more with us over the last couple of years on these bigger 
cases and we have attacked those assets and the revenue from 
these drug organizations. We stripped them of $3.5 billion last 
year. Seven hundred million of that was actual cash going 
south.
    We have shared in 2007 already $326 million with the State 
and locals. So they work a case with us, we share back. So that 
is another way that we share and that is an 18 percent increase 
over the year before.
    So we are giving back to State and locals. There is nothing 
that we do in DEA that isn't with our State and local partners.
    Mr. Mollohan. Okay. And my question is, do you see areas 
that you can increase support to State and local agencies and 
would that be useful to you? And where would you add if you 
were to recommend that?
    Ms. Leonhart. Well we think the President's budget is 
sufficient. It is a good budget for us.
    Mr. Mollohan. I know. But I am asking you, as a law 
enforcement officer, where is your relationship with State and 
local most important? And where could it be stronger? And where 
would you fund that if you were to enhance those relationships? 
Just forget a second about the President's request and answer 
as a law enforcement officer thinking operationally.
    Ms. Leonhart. I think it will hurt that we only have enough 
in the MET Program to stand up ten teams instead of 22. I think 
that is probably the best way for us to help the State and 
local. That being said, with the third of MET that you gave us 
we are trying to figure out how to get the best bang for the 
buck and be able to help as many people as possible.
    Mr. Mollohan. Where else?
    Ms. Leonhart. Allowing us to do our priority target cases 
helps State and local.
    Mr. Mollohan. How do we help you do that?
    Ms. Leonhart. They don't have the resources. They don't 
have the ability often times to go to those other jurisdictions 
and especially on the foreign side. So they often bring us 
cases----
    Mr. Mollohan. They?
    Ms. Leonhart. The State and locals bring us cases they have 
worked up to a certain point. And we partner with them and we 
bring their case further.
    Those are those multi-jurisdictional cases. So the money 
that is already in the budget helps and what we are doing 
domestically always helps State and locals. And that is why we 
can share more and more with them.
    Mr. Mollohan. Mr. Culberson.

                      SOUTHWEST BORDER OPERATIONS

    Mr. Culberson. Thank you, Mr. Chairman. Thank you very much 
for your work, Administrator Leonhart. I wanted to make sure I 
understood you. You said a moment ago that your agents have 
intercepted about, was it, $700 million in cash going south?
    Ms. Leonhart. Our cash seizures in 2007 were about $700 
million in cash.
    Mr. Culberson. That is extraordinary. And you, I know, 
share that with local law enforcement agencies when the arrest 
is made in cooperation with one of them. Whatever portion of 
that fund you kept for yourself you can then turn around and 
use for DEA operations, right?
    Ms. Leonhart. No. That is not correct, unfortunately.
    Mr. Culberson. What do you do with it? I know in Texas at 
least when a local agency picks up a load of cash, arrest 
someone with a nice boat or a car, you know the sheriff will be 
driving a new car.
    Ms. Leonhart. Yeah.
    Mr. Culberson. Do you guys get to keep that cash?
    Ms. Leonhart. All DEA can take is enough to do the 
processing of the asset. And then the rest of that money goes 
into the assets forfeiture fund.
    Mr. Culberson. You should be able to buy some helicopters 
with that. Maybe that is something we ought to look at and work 
on.
    You all do magnificent work. I am so impressed with what 
you do. And one of the requests that I submitted to you, if I 
could for someone on your staff to help expedite this for me. 
And I would really like to know of the people who are arrested 
by DEA agents along the Southwest border, if you could tell us 
by U.S. Attorney area, what percentage of those people arrested 
are actually prosecuted by the U.S. Attorney?
    And the reason I ask the question is because my colleagues 
will be dumbfounded to hear this. I mentioned it briefly to the 
Chairman and Mr. Frelinghuysen. But when I visited Tuscan in 
earlier February, I was dumbfounded to discover that if you 
are, you are not even going to believe this. You probably are 
aware of this. This is unbelievable.
    If you are arrested carrying a quarter ton of dope in the 
Tuscan sector by the Border Patrol, you have a 99.6 percent 
chance of being home in time for dinner and never being 
prosecuted. True fact. Unbelievable but true.
    The evidence room is wedged with loads of dope that are all 
under 500 pounds, of course. The U.S. Attorney actually sent 
out a memo to the Border Patrol stating that we will only 
prosecute a very narrow range of cases. And by the way, if a 
smuggler is carrying less than 500 pounds, a quarter ton, they 
will not be prosecuted. And I asked the Border Patrol how long 
it took the smugglers to start sending the loads in at 499 
pounds and less. And they said about 48 hours.
    It is a disturbing and just, I frankly, was just 
thunderstruck. And the U.S. Attorney there, frankly, won't do 
anything about it. And it is appalling, Mr. Chairman. It is 
something I want to pursue with the Attorney General quite 
vigorously. And I have been working on this and have some 
suggestions and ideas. I am already begun to work with the 
Border Patrol and the U.S. Marshals and opening up. And there 
is an administrative facility in the Tucson sector that the 
Border Patrol can open it up, literally, within 60 days and 
have a courtroom operating there and process up to 140 people.
    In the event, are you familiar with this problem in the 
Tuscan sector? I understand that it is not just the Border 
Patrol, but your agents. I have had reports from your agents as 
well as FBI and ATF at the U.S. Attorney in Arizona will not 
prosecute perfectly good arrests that your officers are just 
apoplectic over a very bad, bad problem with the U.S. Attorney 
in Arizona. Could you talk about that?
    Ms. Leonhart. What I would like to do, I have new staff in 
the area. I would like to discuss that with----
    Mr. Culberson. Okay.
    Ms. Leonhart [continuing]. Them and find out.
    Mr. Culberson. Please follow up because we will pursue it. 
I think we have the Attorney General before this Committee in 
early April, Mr. Chairman, I think. And I will be working with 
you and the staff and we are going to take this by the smooth 
handle as my hero Mr. Jefferson always said. Do this the right 
way. But we have got a bad, bad problem with prosecutions in 
Arizona. Your agents make good arrests and did you know, for 
example, I want to make sure you are aware of this one, put 
this in your notes. That a 1,000 pound load of dope was the 
Border Patrol's unmanned aerial vehicles tracked it. Saw it in 
Mexico. It comes across the border, a 1,000 pounds in a little 
convoy. The Border Patrol vectors agents out to intercept it. 
They make the arrest. The U.S. Attorney said, ``No, we are not 
going to prosecute.''
    Twenty-eight pounds of cocaine is sitting in the evidence 
room in the Tuscan Border Patrol Office. And they were 
prosecuted. In any event, this is an urgent problem and I bring 
it your attention, because it is something I know your agents 
are concerned with as well.
    Also let me ask, because we have got a vote and the 
Chairman's been always indulgent with his time with me. Your 
fast teams that you deploy to foreign countries, Afghanistan 
and elsewhere to take out, you know, drug lords. I asked last 
year about, and I am not sure if you are aware of this or not, 
but there is apparently anywhere between 50 and 100 manned 
observation posts in Southern Arizona manned by lookouts for 
the drug smugglers who tell the smugglers where the Border 
Patrol or DEA is about to intercept a load.
    I was told that you guys were going to make an effort to 
take those out. Can you tell us how many of those, have you 
taken those out? They have got repeater stations, satellite 
phones, night vision, binoculars. These guys are heavily armed 
and they are on U.S. soil, you know, semipermanent locations. 
They move around, of course, but can you talk to me about that? 
And what has been done to take those out?
    Ms. Leonhart. I would have to talk to CBP about that 
because it would primarily be their responsibility, however, in 
cases where in our investigations we come across counter 
surveillance, people that had a load and were vectoring it in, 
we have indicted them and made them a part of our case. I don't 
know if these are the same ones you are talking about, but they 
have been made a part of our investigation.
    Mr. Culberson. Thank you. You can follow up with me 
afterwards, because I know we are short of time.
    But on the asset forfeiture fund, is that money distributed 
by statute? Is that a statutory requirement, or is DEA entered 
into an agreement that just that money you seized, the $700 
million, the portion of it that does not go to the local agency 
or to some other law enforcement, it goes into the asset 
forfeiture. Is that by statute?
    Ms. Leonhart. I believe it is statutory.
    Mr. Culberson. Someone is nodding back there.
    Ms. Leonhart. I believe it is statutory that no more than 
20 percent can go to the federal agencies for processing.
    Mr. Culberson. Okay. That is something worth pursuing, Mr. 
Chairman. And cash only would help the agency, but I know that 
the drug smugglers--that really hurts them. They can regrow the 
dope or recreate it, but it's the money that really zings them. 
And congratulations, that is a magnificent number. And keep up 
the good work.
    Thank you.
    Mr. Honda. Thank you, Mr. Chairman. This whole hearing has 
been very educational and I appreciate it.
    We were talking about--and I will submit mine in terms of 
question, get a written response back on it. You talked about 
racial profile education. Then you must have a protocol that 
you have established. Could you share that with us--the 
protocol regarding profiling and working with individuals with 
limited English.
    And if there is any work being done on capturing 
information post arrest. What the demographics are of the 
groups that are arrested.
    And then if you have initiatives by your Department that 
increases the exposure to the different communities that are 
language communities and would love to be of some help also in 
that area.
    Thank you, Mr. Chairman.

                        ELECTRONIC PRESCRIPTIONS

    Mr. Mollohan. Thank you, Mr. Honda. Ms. Leonhart, does the 
DEA believe that there is a workable, secure way for physicians 
to prescribe controlled substance prescriptions electronically?
    I understand you are engaged in the rule making on this 
subject.
    Ms. Leonhart. Yes. And I can tell you we did come up with 
what we think would be a solution and we have sent that 
forward.
    Mr. Mollohan. Is the proposed rule published?
    Ms. Leonhart. No.
    Mr. Mollohan. When do you plan to publish the proposed 
rule?
    Ms. Leonhart. It went up the end of February for a 90-day 
review.
    Mr. Mollohan. Going up? What does that mean?
    Ms. Leonhart. OMB.
    Mr. Mollohan. Goes to OMB. For a 90-day review?
    Ms. Leonhart. Yes. And we can't, of course, publish it 
until it is approved by OMB.
    Mr. Mollohan. And when do you anticipate that happening?
    Ms. Leonhart. I think we sent it up about the 13th of 
February. So we would be expecting something within the 90 
days.
    Mr. Mollohan. From OMB?
    Ms. Leonhart. Yes.
    Mr. Mollohan. So you are talking about summer. Then you 
publish a 30 or 60-day comment period. And then you would 
anticipate----
    Ms. Leonhart. Right. There would have to be a comment 
period.
    Mr. Mollohan. So would you, and you may not know the answer 
to this, but would you anticipate the finalization of a 
promulgated rule by the end of this year?
    Ms. Leonhart. We don't know what OMB will say.
    Mr. Mollohan. You have no indication?
    Ms. Leonhart. We don't have an idea. And when we do go to 
publish and I have been surprised on other things, that the 
comments that come back sometimes cause to have to rework it.
    Mr. Mollohan. Well this is really important. I am following 
up on Mr. Rogers line of questioning. The experience he has had 
and the good work he has done down in Kentucky further 
impresses upon me just how important this is.
    Is there any way accelerate this initiative?
    Ms. Leonhart. What we can do is go back and see if there is 
any chance of getting it back earlier than the 90 days. But OMB 
does have 90 days to do it. And then there is that established 
period for the publication.
    Mr. Mollohan. Right.
    Ms. Leonhart. But we understand that you are looking for 
something pushed.
    Mr. Mollohan. Okay. Well great.
    Mr. Frelinghuysen. Before we conclude, I think we are 
headed in that direction. I want you to put in a plug for the 
mobile enforcement teams here. I mean we have seen a huge 
precipitous decline here. What do we have--ten?
    Ms. Leonhart. We had 22.
    Mr. Frelinghuysen. Twenty-two. I think members of Congress 
are keenly interested in seeing what we can do to restore that 
to that number.
    Mr. Mollohan. Well that was the area that----
    Mr. Frelinghuysen. We were in to that area a little bit, 
but I think we need to----
    Mr. Mollohan. No, I mean that is the area that she said 
needed more support, Mr. Frelinghuysen. Right?
    Ms. Leonhart. Right.
    Mr. Mollohan. Sort of. Indirectly. We could discern. 
[Laughter.]
    Ms. Leonhart. Hypothetical. [Laughter.]
    Mr. Mollohan. Hypothetically. I think we got it. And Mr. 
Frelinghuysen has been a champion for you on that topic.
    Ms. Leonhart. You all have. Thank you very much.
    Mr. Mollohan. Thank you. That is all the questions. Thank 
you to everyone who was here today and to your tremendous 
agents out there in the field. I can't imagine a more dangerous 
law enforcement activity. And I thank you for your time up here 
and we hope to be able to support you in every way that we can.
    And with that, we thank you.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
                                          Wednesday, April 9, 2008.

                BUREAU OF ALCOHOL, TOBACCO AND FIREARMS

                                WITNESS

MICHAEL J. SULLIVAN, DIRECTOR, BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND 
    EXPLOSIVES

                   Opening Statement of Mr. Mollohan

    Mr. Mollohan. The hearing will come to order. Well, good 
afternoon and I would like to welcome, again, Michael Sullivan, 
Acting Director of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives to discuss his agency's fiscal year 2009 budget 
request. We are very pleased to see you again, Mr. Sullivan, 
and thank you for your time. We would also like to thank you 
for generously loaning us one of your special agents, Scott 
Sammis. Scott is doing a great job. He is fitting in very well, 
and we appreciate your loaning him to us.
    We are used to seeing relatively modest budget requests 
from your agency so it is no major surprise to me that the 
administration's fiscal year 2009 budget has less than $1 
million in new initiatives for ATF. What I did find surprising 
was the fact that in addition to denying ATF any significant 
new growth, this budget request makes permanent at least $21 
million in cuts that are being carried forward from this fiscal 
year. It is not clear to me why the administration seems to 
place such a low priority on federal law enforcement, but that 
is the conclusion that I have to draw from proposed budgets 
like yours. There does not seem to be any other explanation for 
the lack of investment in our major law enforcement components. 
It certainly cannot be due to a lack of work waiting to be 
addressed by you. You cannot go more than a few days without 
hearing another story about violent crime and gang activity in 
our cities, or violence and criminal activity along our 
southwest border. ATF would have a role in addressing both of 
these problems, as well as attending to the regulatory needs of 
the firearms and the explosives industries. So it appears to me 
that we have plenty of need for additional resources at ATF 
rather than multi-million dollar cuts.
    I recognize that ATF does not control its own budget 
destiny so I am sure that decisions that went into this year's 
proposal were not the result of ATF's own recommendations. We 
are looking forward to hearing how you intend to manage your 
agency at the budgeted level, and to talking about alternatives 
that might better position you to meet the demand for your 
services.
    Before we begin, Mr. Sullivan, I would like to first offer 
the Subcommittee's Ranking Member, Mr. Frelinghuysen, an 
opportunity to provide his own opening statement. Mr. 
Frelinghuysen.

                 Opening Statement of Mr. Frelinghuysen

    Mr. Frelinghuysen. Mr. Sullivan, welcome this afternoon to 
talk about your 2009 ATF budget. I, or I should say we, would 
like to commend you and the men and women who stand behind you. 
You do a remarkable job. It is some very dangerous work every 
day to fight illegal arms trafficking and violent crime. We 
know you work very closely with agents of the FBI and DEA. You 
are all professionals. Quite honestly, I think in some of the 
budget deliberations you have been given the short end of the 
stick and as best we can we are going to try to remedy that. 
You are also playing a very important role in preventing and 
responding to terrorism. You are part of that comprehensive 
plan to attack terrorism. In particular, a critical role you 
are playing in Iraq relative to the IED problems.
    You are requesting an appropriation of a little over $1 
billion, an increase of about $43.7 million, or 4.2 percent. 
However, you are dealing right now with a fiscal year 2008 
appropriation that is basically frozen at the fiscal year 2007 
level, which is $37 million below a current services level. The 
Committee will be interested to hear what steps you are taking 
to absorb those cuts and what the impacts are on your staff and 
operations.
    In addition, I will have some questions about your 
operations in Iraq and the accompanying supplemental request 
which is being put together. I also want to ask about the 
important work you are doing to combat arms trafficking across 
the southwest border, which has fueled a horrifying increase in 
violent crime and drug trafficking in that part of our country. 
Again, I welcome you and thank you for your service and the 
dedication of the agents that work with you.
    Mr. Sullivan. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Sullivan, your written statement will be 
made a part of the record, and you can proceed with your oral 
testimony.

                  Opening Remarks of Director Sullivan

    Mr. Sullivan. Thank you very much, Mr. Chairman and Mr. 
Frelinghuysen. I have a very brief opening remark that I would 
like to make. And I want to start by acknowledging our 
appreciation for the work of this Subcommittee and for your 
support of ATF and for the comments you both have made today in 
support of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives and most importantly for the support of the people, 
the men and women that make up our Bureau. I mean, that really 
is the strength of ATF. It is our hardworking, dedicated men 
and women on the front lines as ATF agents, investigators, and 
support people.
    ATF's expertise in investigating firearms crimes, bombings, 
and arsons is a valuable asset in the federal government's 
efforts to keep our nation's citizens and our neighborhoods 
safe. As part of that effort, ATF has had a steady increase of 
prosecution referrals over the past number of years. And I 
think this is remarkable in light of the fact that our 
resources at ATF have been held relatively flat over the last 
number of years. But we have had a three-fold increase in 
matters being referred for federal prosecution.
    A couple of noteworthy examples of our efforts include a 
recent investigation and operation in Baltimore, Maryland, and 
in New Jersey. They both dealt with dismantling two Bloods 
street gangs engaged in firearms and narcotics trafficking. As 
a result of our operations conducted with the assistance of our 
state and local partners, over twenty-eight individuals were 
indicted in Baltimore City and twenty-five individuals were 
arrested in New Jersey. These are just two of countless 
examples throughout the country that reflect ATF's leadership 
in addressing violent crime.
    I would like to thank the Subcommittee for its support of 
ATF during the fiscal year 2008 budget process. ATF is acutely 
aware of the competing priorities that face the Subcommittee 
and appreciates the funding it received. However, as already 
mentioned, we received the exact same level of funding in 
fiscal year 2008 that we did in fiscal year 2007, resulting, as 
pointed out, in a shortfall of $37 million. And that has 
required us to make some difficult decisions, including the 
canceling of two of our new classes, one for investigators to 
support the regulatory side of our business and the other for 
new agent hires. We have also reduced the number of previously 
announced support positions, and we have had to limit the 
funding for our permanent change of station transfers. And that 
does have a long term impact on the Bureau as you are moving 
people for professional development, as well as the needs of 
the organization, moving folks from the field to headquarters 
and also moving folks from headquarters to the field.
    This shortfall of $37 million will have a direct impact on 
our operations, including reducing our violent crime task force 
participation as well as our major case funding, equipment 
replacement, purchase of evidence and information, and the 
services that we provide to our industry partners. On the 
operational side, we will not be able to fund at least two of 
our violent crime impact team expansions planned in fiscal year 
2008. A tracking center has reduced its contract of size, which 
could impact our turnaround time on firearm trace requests. As 
the year progresses it may become more challenging for us to 
sustain some of our complex investigations, such as those 
involving firearms trafficking conspiracies, and diversion 
activities that can require significant resources. We obviously 
have to prioritize ATF resources and expenditures in fiscal 
year 2008 a bit differently than we originally planned, based 
on our anticipated budget.
    A less than level service appropriation has reduced the 
amount of training we are able to provide to our state and 
local partners. For example, ATF's Explosives Detection Canine 
Training Program, which is internationally recognized and is 
also in significant demand, has been cut by nearly 35 percent. 
This will result in fewer state and local partners receiving 
canines than had been originally planned. Also, due to the 
current backlog of state and local partners requiring ATF 
trained canines, the time to delivery is also going to be 
extended from a range of two to three years to up to 
potentially five years.
    ATF also has reduced its Advanced Explosives Destruction 
Techniques course, which we offer for our state and local bomb 
technicians, by 50 percent. Currently, there are more than 
1,000 bomb technicians waiting for this training to safely 
handle and dispose of seized explosives. The training classes 
that ATF provides to state and local law enforcement agencies 
are not offered by other DOJ components and are both necessary 
and highly sought after by our state and local partners.
    But notwithstanding this $37 million shortfall, ATF stands 
at the forefront on addressing violent crime both here and 
abroad. For fiscal year 2009 ATF is requesting $1,027,814,000 
and 4,978 positions, of which just over 2,400 will be field 
agents. This request includes $948,000 and twelve positions for 
program improvements. The funding and the positions will allow 
ATF to continue to protect our neighborhoods from the horrors, 
the risks, and the victimization of violent crime, and 
safeguard our nation from the threat of terrorism. The program 
improvement funding of $948,000 will increase our ability to 
inspect and engage the firearms dealers and pawnbrokers along 
the southwest border, helping to reduce the illicit firearms 
trafficking and violence along the U.S./Mexican border.
    Mr. Chairman, Congressman Frelinghuysen, distinguished 
members of the Subcommittee, on behalf of the men and women of 
ATF I want to thank you and your staff for your support of our 
crucial work. With the backing of this Subcommittee, ATF, the 
federal law enforcement/regulatory agency whose primary mission 
is combating violent crime, can continue to build on its 
accomplishments, making our nation even more secure. The 
funding we have requested for fiscal year 2009, including the 
increase for operations on the southwest border, is an 
important investment in this cause. And we look forward to 
working with you and members of your Committee in pursuit of 
our shared goals. Thank you.
    [The information follows:]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>
    
                       ATF FY 09 BUDGET SHORTFALL

    Mr. Mollohan. Well, that is a sobering presentation. Did 
you make that case up through the agency and the Department and 
to OMB?
    Mr. Sullivan. In terms of 2008 I thought we made a pretty 
compelling case for the figure that was proposed by the 
administration and supported by both the House and the Senate. 
And I actually served in the Massachusetts legislature, so I 
felt reasonably confident of the number that would come out of 
a conference committee, believing that the range was somewhere 
between the low number and the high number. We felt pretty 
confident that we were going to do all the things that we 
originally planned for 2008. And when the final number came out 
of conference committee, it was $37 million short of our 
anticipation.
    So in terms of the impact of the $37 million, there was 
really no need to talk about those sobering comments as we 
anticipated our budget was being supported----
    Mr. Mollohan. Well, except that to restore that funding and 
those services in 2009, and then provide for sustainment of 
that into 2009 and beyond.
    Mr. Sullivan. Well, obviously there are the internal 
deliberations with regard to the budget process. And they ask 
for the components being looked at in terms of both level 
service as well as expansion opportunities in light of the 
significant challenges that we are all facing. We are pleased 
to get $16 million of the $37 million restored to our base 
budget. As I understood it, when the $37 million was cut out of 
the 2008 appropriations then the services would be expected to 
be cut by a corresponding amount. Otherwise, you would have a 
significant structural deficit. So the plan obviously for 2008 
is to spend $37 million less than we anticipated.
    Mr. Mollohan. And your request for 2009 carries that 
forward.
    Mr. Sullivan. Well, it does because the base number, 
obviously, is adjusted going forward as I understand it.
    Mr. Mollohan. Yes, based on that.
    Mr. Sullivan. Right.
    Mr. Mollohan. In other words, your 2009 request does not 
ask for a replacement of those funds and those services in 
order to build on that as a base into 2009. So I guess the 
question is, do you believe this is a sustainable budget for 
ATF going forward?
    Mr. Sullivan. Well, it is over $1 billion. With this year's 
budget just over $1 billion plus. We will manage to those 
budget numbers. But I suspect it is like every single component 
that comes before this Committee. With more funding we would be 
able to do more things. With less funding we are going to have 
to do fewer things. You know, identify in some general terms, 
the areas that we have to cut back on in 2008 because of the 
$37 million shortfall that we were not anticipating. But you 
obviously have infrastructure, probably the last thing that you 
would address in tough budget times, that you delay with the 
hope at some point in time there might be some funding to 
address it. So you make the adjustments in terms of your 
spending plan based on the areas where it is going to hurt the 
least in the short term.
    Now, maybe in the long term it is going to cost us a little 
bit more money at some point to get caught up. But we will have 
a budget number and hopefully the Committee would support the 
President's request. We would have a budget number that would 
allow us to restore some of those items we talked about in 
terms of cuts in 2008, with that $16 million increase the level 
of services in 2009 from 2008.
    Mr. Mollohan. Okay. Did you argue for more money to restore 
some of those services by increasing your 2009 request to 
accommodate the 2008 cuts and provide for that as a base into 
next year's funding and beyond?
    Mr. Sullivan. I am confident that we had put together a 
proposal that was significantly more than what ultimately came 
out of OMB. There were a lot of items that we put as areas that 
we felt should be a priority from a planning perspective. We 
also understand and appreciate that the pie is a fixed-size 
pie, and it is a matter of trying to determine competing 
priorities.
    Mr. Mollohan. Which pie is fixed?
    Mr. Sullivan. Well, the whole pie in terms of the whole 
appropriations for the Department of Justice. And I am looking 
specifically at the Justice pie. I will tell you, we have got 
great support from the administration. We have got great 
support from the Department.
    Mr. Mollohan. You think this is great support?
    Mr. Sullivan. Well, considering where we are at----
    Mr. Mollohan. Great. What would be tremendous support? 
Would tremendous be more than great?
    Mr. Sullivan. Well----
    Mr. Mollohan. If you get supported any more like this, you 
are not going to exist.
    Mr. Sullivan. Well, the increase from 2008 to 2009 is 
larger than the increase to sustain level services from 2008 to 
2009. So I believe that that is certainly a step in the right 
direction. You know, if we had the $37 million in our base 
budget for 2008, we would be in better shape in 2009. No 
question about it.
    Mr. Mollohan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Chairman. So OMB did give you a 
little more money, though? They did give you $16 million more. 
So there is a little bit of a, not much, of a cushion? But OMB 
gave you about half of that $37 million back, just so we get 
that clear for the record. But tell me, the canceling of 
classes, you have a class, how many people would be in a class 
for the investigators? How many would be agents? And when is 
the last time you have canceled classes? I assume every year, 
between you and DEA and FBI, you need to have a class, I mean--
--
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen. Is this the first time that there have 
been classes canceled?
    Mr. Sullivan. I believe that there were classes canceled 
back in fiscal year 2006 because of some of the budget 
challenges ATF was facing.
    Mr. Frelinghuysen. How many people in these classes?
    Mr. Sullivan. Twenty-four.
    Mr. Frelinghuysen. Twenty-four agents? And----
    Mr. Sullivan. Twenty-four investigators.
    Mr. Frelinghuysen [continuing]. Twenty-four investigators?
    Mr. Sullivan. Our class size, standard class size, is 
twenty-four.
    Mr. Frelinghuysen. I could not really figure out the 
transfers issue. That was a little bit convoluted.
    Mr. Sullivan. I am sorry about that.
    Mr. Frelinghuysen. How does that work?
    Mr. Sullivan. The cost of----
    Mr. Frelinghuysen. The ability, is that the ability to move 
people around?
    Mr. Sullivan. Yes. Yes, because it----
    Mr. Frelinghuysen. Could you explain that a little bit?
    Mr. Sullivan. I would be pleased to do so. Agents coming 
into, I think, all federal law enforcement agencies sign a 
mobility agreement. ATF, probably compared with most of our 
counterpart federal law enforcement agencies, does not relocate 
agents that frequently.
    But we think from an operational perspective, we have to 
move about a hundred agents or supervisors or managers a year. 
It is because of the needs of the individuals and the needs of 
the organization. The cost of moving people is very expensive. 
Because of the changes in our budget appropriation in 2008, we 
had to significantly reduce the number from somewhere; our goal 
was 140. We are going to be under 100 this year. We are going 
to reduce those moves by about forty. So for example, if you 
have an opening in a part of the country that can only be 
filled with an agent, that opening may stay open. I'm not 
talking about a brand new agent, but talking about transferring 
an agent because we just do not have the funds to do it, or a 
supervisory position.
    Mr. Frelinghuysen. So the transfer would be to add somebody 
with more experience? Or it would be just a transfer in order 
to fulfill the need in that part of the country?
    Mr. Sullivan. It could be because somebody was brought into 
headquarters in a significant position, and it has a domino 
effect in terms of trying to backfill for her replacement. And 
then from there, you know, his replacement.
    Mr. Frelinghuysen. You say there will be cuts to the 
Violent Crime Impact Teams. How many teams do we have and are 
the two losses in teams that would have been set up? Or are 
those existing teams?
    Mr. Sullivan. We have right now thirty. We have our thirty-
first planned, I think, for Memphis, Tennessee. Our plan was to 
have at least two additional ones rolled out in 2008 beyond the 
thirty-one that we will have in place this fiscal year. We have 
no funding to do it so two teams that had been planned, we are 
not going to be able to execute at this time.
    Mr. Frelinghuysen. Obviously needed. A little more 
information on the Arson and Post-Blast Training. That is 
integral with the ATF Trained Canine. I mean, that is a pretty 
devastating cut, 30 percent?
    Mr. Sullivan. On the----
    Mr. Frelinghuysen. And this is the whole issue of your 
partnering with local sheriffs, county prosecutors----
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen [continuing]. Local police departments, 
state police, your fellow federal agents?
    Mr. Sullivan. Yes. All of the above. ATF, at least within 
the Department of Justice, is the Department of Justice law 
enforcement agency that trains explosive detection canines for 
all the Department of Justice components, including the FBI, 
Marshals, DEA. Because of the expertise we have developed in 
the area of canine training, and because of the demand in a 
post-9/11 environment to do explosive detection work, the state 
and local partners have a real interest in acquiring explosive 
detection canines. Because they are internationally recognized, 
and the ATF-trained canines do such a proficient job, they are 
in demand. Our ability to meet that demand, obviously, has----
    Mr. Frelinghuysen. Has been severely----
    Mr. Sullivan [continuing]. Declined by 35 percent.
    Mr. Frelinghuysen. Well, that is pretty huge.
    Mr. Sullivan. Substantial.
    Mr. Frelinghuysen. Even within the freezes and reductions 
that you have had to make, you are increasing resources, and I 
assume that is as a result of congressional direction, on our 
southwest border. I guess it is fair to say as you increase 
that, there is a war going on there, and you are major 
participants on our side.
    Mr. Sullivan. Right.
    Mr. Frelinghuysen. You know, I assume there are going to be 
corresponding reductions around the country?
    Mr. Sullivan. Yes. I mean, there are going to have to be 
other position vacancies in other parts of the country left 
unfilled for a longer period of time. We have asked for 
volunteers within ATF, because of the fact that we do not have 
money available to transfer some folks. And I am proud to say 
twelve people volunteered to be permanently transferred to the 
border to try to help stem weapons being illegally trafficked 
into Mexico and the violence along the border.

                           PROJECT GUNRUNNER

    Mr. Frelinghuysen. Can you give us some statistics on 
Project Gunrunner? Obviously, drugs are being sent north. There 
are a lot of guns and money trafficked back and forth into 
Mexico. I have seen it reported that 90 percent of the 12,000 
crime guns confiscated in Mexico over the last three years were 
traced to the United States. Are those numbers accurate? Where 
have you found these guns coming from?
    Mr. Sullivan. The number of guns is accurate, but likely 
understated in terms of the percentage of crime guns recovered 
in Mexico being sourced out of the United States. I would say 
at a minimum it is 90 percent and in fact might be even higher 
than 90 percent. The weapons that are recovered in Mexico as 
crime guns can be traced to every single state, but 
predominantly are from Texas, Southern California, and Arizona. 
Those are the three principal source states for crime guns in 
Mexico.
    Now interestingly, you know, the more focus we put on the 
border and on those source states, and based on our 
relationships with the licensed dealers and pawn brokers on the 
border identifying weapons of choice, trace requests are now 
finding the source being further and further north. So these 
organizations that are principally drug trafficking 
organizations operating out of Mexico sending their drugs north 
are looking to send their cases and their weapons south, 
knowing that there is a great focus on the border in terms of 
the weapons trafficking piece. So they are using people to 
essentially acquire weapons further and further north hoping 
that they are going to stay under the radar screen. And that is 
where weapons trafficking groups become critically important, 
to link up the source and the demand.
    Mr. Frelinghuysen. And life is complicated even more by the 
lack of funding for the center that looks at this tracing data.
    Mr. Sullivan. We are actually investing our resources, or 
prioritizing our resources, on the border. There is no question 
about it. We think that that is really one of the hot spots, 
and we have several hot spots, but that is clearly one of them. 
And even in spite of the $37 million shortfall, from our 
perspective in terms of our planned operating budget for 2008, 
we continue to add more resources on the border. It is 
obviously at the expense of something else because our 
resources are not unlimited. But at the Intelligence Center at 
El Paso, we have actually staffed up additional analysts to 
help assist in the analytical work between what is being 
recovered in Mexico and what we have for investigative leads in 
the United States and in farming those leads out.
    Now the concern you have in terms of limited resources is 
making sure that those leads are followed up in a timely 
fashion. Fortunately, we have a great relationship with our 
counterparts in Mexico. They have been extremely helpful in 
terms of----
    Mr. Frelinghuysen. It is a lot better than it used to be.
    Mr. Sullivan. Absolutely.
    Mr. Frelinghuysen. Everything we have read and----
    Mr. Sullivan. They are committed.
    Mr. Frelinghuysen. Yes.
    Mr. Sullivan. They have come to appreciate the value of 
tracing the recovered crime guns. So we are getting great intel 
from our counterparts in Mexico, and we are getting great 
support with our state and local partners and our federal law 
enforcement partners on the border as well.
    Mr. Frelinghuysen. Just satisfy my curiosity, I know the 
Chairman wants to get back in here, are you using technology? 
That was unheard of five years ago to expedite your 
investigations and your analysis of this huge national problem. 
Particularly, what is coming across the border that is now 
coming in greater quantities than ever?
    Mr. Sullivan. We are using all the technology tools that 
are legally available to ATF to use to enhance our 
investigations. We are doing a much better job on the 
analytical side as well. On the tracing side we have gotten 
much more sophisticated in terms of being able to do that 
analytical work to really hone in on some of the areas that can 
be most troublesome. We are able to identify the weapons of 
choice, which is very helpful as we go out and meet with our 
licensed dealers and pawn brokers so that they can be helpful 
in terms of trying to stem the flow of weapons into Mexico and 
the crime that has erupted along the border. So, but we are 
also using good old shoe leather as well and getting out there 
and essentially acquiring----
    Mr. Frelinghuysen. That is why you need people.
    Mr. Sullivan [continuing]. People.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.

                    DOJ SOUTHWEST BORDER INITIATIVE

    Mr. Mollohan. Thank you, Mr. Frelinghuysen. The Department 
of Justice has requested $100 million for the Southwest Border 
Initiative, Department-wide, and your enhancement is $1 
million. Is that for the southwest border?
    Mr. Sullivan. It is. It is actually $948,000 and twelve 
positions.
    Mr. Mollohan. Your responsibility in all of that is to look 
at the gun running or illegal gun trafficking. Is that correct?
    Mr. Sullivan. Well, it is violent crime and obviously we do 
that by looking at what is going on on the weapons trafficking 
piece between the United States and Mexico. Obviously, 
trafficking those weapons into Mexico is a crime.
    Mr. Mollohan. Describe your responsibility----
    Mr. Sullivan. I am sorry?
    Mr. Mollohan. I am sorry to interrupt you. Describe ATF's 
responsibility in the Southwest Border Initiative.
    Mr. Sullivan. I think it is to address violent crime, what 
is contributing to violent crime, along the U.S. southwest 
border and recognizing Mexico as an important friend and ally. 
And if we are contributing to violent crime problems in Mexico, 
to see what we can do to assist them in addressing the violent 
crime problems. Now, what is contributing to that, obviously, 
is the weapons trafficking piece. And so it would appear that 
our biggest role is looking at what and who are responsible for 
trafficking weapons between the United States and Mexico. And 
the violence, as you know, is on both sides of the border. It 
is not just violent in Mexico, which is a significant enough 
problem. But it is also violence on our side of the border as 
well. So it is violent crime that is being triggered because of 
the weapons trafficking piece.
    Mr. Mollohan. So I am hearing that fulfilling your 
responsibilities pursuant to the Southwest Border Initiative is 
going to cost you in excess of $1 million, which is your piece 
of the $100 million initiative?
    Mr. Sullivan. Absolutely. And I think----
    Mr. Mollohan. That implies that you are going to be taking 
resources from other areas in the ATF to meet that 
responsibility. In other words, you are going to have the 
responsibility----
    Mr. Sullivan. Right.
    Mr. Mollohan [continuing]. Of the initiative.
    Mr. Sullivan. Right.
    Mr. Mollohan. The initiative is going to create additional 
activity for you on the southwest border in excess of the $1 
million that you are requesting for this enhancement, correct?
    Mr. Sullivan. Oh, no question about it.
    Mr. Mollohan. So where are those resources going to come 
from within ATF? What is going to suffer elsewhere in the 
fulfillment of your overall responsibilities?
    Mr. Sullivan. Well, as the head of ATF I think it is 
incumbent upon me, with the advice and input of my senior 
leadership team as well as the men and women throughout ATF, to 
establish the priorities in terms of how we are going to invest 
$1 billion of taxpayer money into supporting our mission. The 
southwest border is clearly a hot spot. It is incumbent upon us 
to make sure that we are giving as many resources as we can to 
address that problem. And I look at ATF as being the lead 
federal law enforcement agency to try to address that problem. 
And we are not doing it alone. We are getting some great 
support from DEA, FBI, ICE, state and local partners.
    The $1 million, the $948,000 and the twelve positions, is a 
program enhancement. We certainly welcome that additional 
funding and those additional positions. But I think I estimated 
that it is costing us, I think, at least $10 million a year 
more addressing the southwest border. So where does that come 
from? It comes from considering the other things we are doing 
as a lower priority compared to the southwest border. It comes 
from having to cancel a class of investigators. It comes from 
having to cancel a class of agents. It delays some investments 
in the infrastructure. It delays some of the investment I would 
be doing in the NIBIN Program, for example, in the ballistics 
imaging. I mean, there is a tradeoff, obviously. I could do 
less on the border and do more someplace else. But I have 
determined, and I think it is a good decision, that the 
southwest border needs, you know, significant attention on the 
part of ATF. And we have gotten great support from folks within 
ATF that recognize that the border really is the hot spot.
    Mr. Mollohan. Okay. What I am trying to get at is, for your 
2009 budget request, you are requesting $1 million in 
additional funds for the Southwest Border Initiative.
    Mr. Sullivan. Yes.
    Mr. Mollohan. But your activities are going to be 
considerably in excess of that. And are you telling us about 
$10 million?
    Mr. Sullivan. I think approximately $10 million. But I 
would be happy to try to get you a better number, Mr. Chairman. 
I will say this. In addition to all the resources we had on the 
border in fiscal year 2007, I am adding thirty-five additional 
agents on the border in fiscal year 2008. No additional funding 
to do that. I am adding fifteen additional investigators on the 
border in 2008. No additional funding to do that. So at a 
minimum, when I look at 2007 versus 2008, I am adding fifty 
additional agents and investigators and I think about six 
additional intelligence analysts. A few to be assigned to the 
El Paso Intelligence Center and one each for the field 
divisions that are located on the southwest border.
    Mr. Mollohan. I wish I had asked it like that.
    Mr. Sullivan. I am sorry.
    Mr. Mollohan. No, no. I am sorry. I appreciate your being 
forthcoming, and that is what I was trying to get at. So will 
you do that same analysis for 2008 versus 2009? How many more 
agents and how many more investigators you are adding in 2009 
in response----
    Mr. Sullivan. Sure.
    Mr. Mollohan [continuing]. To the need, whether it is the 
Southwest Border Initiative or not?
    Mr. Sullivan. Yes, I would be happy to do that. I do not 
have those numbers at the top of my head and at this point in 
time I am not sure that there is a plan to have that type of 
incremental increase on the border planned for in fiscal year 
2009 beyond the thirty-five, fifteen, and then the additional 
twelve positions that have been offered up.
    Mr. Mollohan. Okay. So----
    Mr. Sullivan. I would be happy to take a look at it to see 
whether or not a plan essentially has, in light of this budget 
and the other priorities, additional resources. But I can get 
back to you on that question.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. Okay. So part of the ramp-up for the 
Southwest Border Initiative has already either taken place or 
is in the planning process for 2008?
    Mr. Sullivan. It is in process----
    Mr. Mollohan. So you have already accommodated or plan to 
accommodate those budgetary impacts on other areas of your 
agency?
    Mr. Sullivan. That is correct. Now, some of that obviously 
does not happen on the first day of 2008.
    Mr. Mollohan. Yes.
    Mr. Sullivan. So some of those costs would be less than a 
twelve-month cost in 2008 but would be a twelve-month cost in 
2009. So there will be some further impact in the 2009 budget, 
to have all of those additional resources on the border in a 
full fiscal year in 2009 where we may not have had them on the 
border, actually on board, for the full fiscal year in 2008.
    Mr. Mollohan. Mr. Culberson? I will just bet he has some 
questions about the southwest border.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman. I really appreciate 
what you do, Director Sullivan, and all of the officers that 
work with you. And the Chairman and Mr. Frelinghuysen are 
right. This is an area of particular concern to my constituents 
and me. The lawlessness down there, you know, is rampant. The 
problems are legion, and your role is a very vital part of 
bringing stability to it. And I will do everything I can 
working with the Chairman and the members to make sure that we 
get you the funding you need to play that role. And it is, I 
know the million dollars, $948,000 and the twelve additional 
officers, that you are asking for is a good start. But it is 
kind of like one little brick in the wall.
    I am particularly concerned about a problem I discovered in 
a personal visit to the Tucson sector in early February as a 
part of an effort that we started in Texas. It is working very 
well, Operation Streamline, which is an enforcing effort, to 
enforce existing law with existing personnel, existing 
resources. The Border Patrol has been able to intercept and, 
with the help of the U.S. Attorney in those sectors, prosecute 
essentially 100 percent of everybody that they arrest. And the 
result has been a 76 percent drop in the crime rate in the Del 
Rio sector. The arrest rate in Del Rio is at the lowest level 
they have seen since they started keeping statistics in 1973. 
It is a remarkable program and the Hispanic community on the 
border there, 96 percent Hispanic, overwhelmingly supports it 
because the streets are safe.
    Now I know that you all have a role in that. I mean, as a 
piece of the puzzle. It is a team effort not only with the 
border patrol but the U.S. Marshals Service, the local 
sheriffs, God bless them, the judges, the prosecutors. It is a 
team effort and you are a key part of that.
    The problem that I encounter that I wanted to ask you about 
is the U.S. Attorney in the Tucson sector, I discovered, is 
systematically refusing to prosecute cases that are brought to 
her by the border patrol. In fact, of those arrests made by the 
border patrol in the Tucson sector, our U.S. Attorney has a 
policy that if you are caught carrying less than 500 pounds--
better way to say it. If you are caught carrying less than a 
quarter ton of dope in the Tucson sector by the border patrol, 
the U.S. Attorney will not prosecute you. You are going to have 
an excellent chance of being home in time for dinner, in fact. 
They do not; all they lose is the load and a little time.
    It is unbelievable. It had never occurred to me to ask 
whether or not they are being prosecuted. Any arrest that you 
officers make you assume is going to be prosecuted, whether it 
be a sheriff or city police or ATF. So I wanted to ask you, and 
obviously this may not be something you know right off the top 
of your head, but I would like to work with you or whoever on 
your staff can talk to me about the prosecution rate of when 
you make an arrest, or one of your officers makes an arrest, on 
the southwest border, what is the percentage of those arrests 
that are prosecuted, presented to a grand jury, or pursued, or 
just dropped. I mean, not even pursued by the U.S. Attorney?
    It is far more than just the Tucson sector. I understand in 
California the prosecution rate is near zero. In Tucson the 
prosecution rate is .4 of 1 percent of the people arrested by 
the border patrol. Obviously that puts the officers' lives in 
danger. The criminals are laughing at us. The smugglers 
actually have set up permanent observation posts in southern 
Arizona because of the lack of enforcement in that area. So it 
is a real concern. Are you familiar? Is this a problem with any 
of your, have you picked up reports from your officers in the 
field on the southwest border having trouble getting U.S. 
Attorneys to prosecute arrests that your officers make?
    Mr. Sullivan. No, Mr. Culberson, I have not. And I would 
think in terms of actual ATF arrests we would probably be 
pretty close to 100 percent of those cases being prosecuted.
    Mr. Culberson. Good.
    Mr. Sullivan. It is very rare to get a probable cause 
arrest. Typically it is by complaint or charged by indictment. 
We look at our declination prosecution rates by each of our 
field divisions. And nationwide they average somewhere between 
90 and 95 percent with matters that are referred by ATF for 
federal prosecution.
    Mr. Culberson. They use good judgment. They make an arrest, 
they are going to be prosecuted.
    Mr. Sullivan. Exactly. But that is hand in glove with 
working with the U.S. Attorney's Office as they identify and 
determine what their local demands are, and working with your 
state and local counterparts.
    Mr. Culberson. Right.
    Mr. Sullivan. And even in the areas of declination, it 
could be because somebody has determined it does not rise to a 
federal interest, or it could be counts, we have multiple 
counts----
    Mr. Culberson. Yeah, that is to be expected, 5 or 10 
percent.
    Mr. Sullivan. Yeah, so----
    Mr. Culberson. But actually in Tucson, and I brought this 
to the attention of the Attorney General the other day, it is 
literally .4 percent. They release everybody. They are all gone 
and they just laugh at us. So----
    Mr. Mollohan. Will the gentleman yield?
    Mr. Culberson. Yes, sir.
    Mr. Mollohan. Who released everybody?
    Mr. Culberson. The U.S. Attorney will not prosecute. Of all 
the arrests made by the border patrol in Tucson, they only 
prosecute .4 of 1 percent. So 99.6 percent of the people 
arrested by the border patrol no matter what----
    Mr. Mollohan. These are federal arresting officers----
    Mr. Culberson. Yes, sir.
    Mr. Mollohan [continuing]. And federal prosecutors?
    Mr. Culberson. Yes, the U.S. Attorney in Arizona declines 
prosecution of 99.6 percent. So everybody goes free. It is 
unbelievable and it is wide open. And they are pouring through. 
And the Border Patrol officers are going crazy, Mr. Chairman, 
as you can imagine. And I even found a way, in fact I want to 
work with you Mr. Chairman and the members, I think there is a 
way that we perhaps with Chairman David Price's help, maybe we 
can help with, he is giving me a look over there. I think I 
found a way maybe the Border Patrol can help with this 
prosecution problem because they might be able to help with 
administrative facilities, processing facilities. It is a 
terrible problem. I am glad you are not experiencing it. You 
can imagine how those Border Patrol officers feel.
    Mr. Sullivan. Sure.
    Mr. Culberson. I just got a DVD today that you guys ought 
to see of the smugglers coming across the border in Tucson like 
army ants. They actually look like those leaf cutter ants. They 
are all lined up, hundreds of them, coming over and none of 
them were arrested.
    Mr. Mollohan. A DVD?
    Mr. Culberson. It is a DVD that was taken by an unmanned 
aerial vehicle. And the officers are actually making arrests. 
There were 1,000 pounds of dope picked up by the unmanned 
aerial vehicle, tracked it all the way in from Mexico, the U.S. 
Attorney declined prosecution. It is an incredible situation 
that I am looking forward to working with you, Mr. Chairman, 
Chairman Price, there is I think a win-win solution to this.
    Mr. Mollohan. Will the gentleman yield again?
    Mr. Culberson. Yes, sir.
    Mr. Mollohan. Are any of those arrests turned over to state 
and local authorities for prosecution?
    Mr. Culberson. A small percentage are turned over. The 
local county jails are just full to the brim. They do not have 
any capacity to handle them. But everyone who is arrested 
carrying less than 500 pounds, they are released. They are just 
turned loose.
    Mr. Mollohan. Less than 500 pounds of what?
    Mr. Culberson. Marijuana. If they are picked up with less 
than a quarter ton of dope they are turned loose. The evidence 
room is full of loads that are 499 pounds or less. It took the 
smugglers about forty-eight hours to figure out the procedure. 
And it is a bad problem. You are right, the southwest border is 
key and you all are a key part of it.
    Mr. Sullivan. Thank you.
    Mr. Culberson. And I look forward to helping you, sir. 
Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Culberson. We have on the 
Subcommittee a person who has jurisdiction over some of that. 
Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. And I would agree with 
Mr. Culberson that there is a great deal of overlap between the 
subject matter of this Committee and that of our Homeland 
Security Subcommittee. In fact, my line of questioning comes 
out of that same realization.
    Mr. Director, I want to welcome you and thank you for the 
good work you and your agents do every day. I want to focus on 
your testimony regarding Project Gunrunner and the ATF's 
involvement in stopping the flow of illegal guns into Mexico, 
which is apparently the direction in which the guns flow, not 
the reverse for the most part. As you know, Congress is 
currently considering a request for the first installment of 
what will total $1.4 billion in assistance to Mexico to support 
its efforts against narco-trafficking and organized crime. For 
this so-called Merida Initiative to succeed it is essential 
that we enhance whatever efforts are needed on this side of the 
border to reduce demand and stop the smuggling of guns and drug 
precursors from the U.S. to Mexico. I realize this is not 
entirely your jurisdiction, but a good chunk of it may be, and 
that is what I want to concentrate on.
    I commend you for recognizing this imperative in your 
testimony and for the steps ATF has already taken to bolster 
its presence along the southwest border. I wonder, however, 
whether an additional sixty-two personnel, the twelve new 
investigators you are requesting in the 2009 budget and the 
fifty reassigned personnel you mentioned, are enough to 
sufficiently address the flood of weapons across the border 
which some of your agents have called ``an iron river of guns 
into Mexico.'' I would also like to learn more about your 
strategy for combating smugglers.
    So let me ask you three interrelated questions as briefly 
as I can. My understanding is that a great many of the guns 
trafficked come from gun shows, which according to the laws of 
the states along the border are less regulated than other gun 
sales. Now I understand you cannot change state laws, and I 
understand that federal laws are deficient in this regard. But 
what is ATF doing under its present authority to monitor guns 
purchased at gun shows, which apparently do end up in large 
numbers as part of this iron river of guns? Might you, for 
example, routinely station agents at these gun shows?
    Secondly, in addition to the support you provide to Mexico 
through the eTrace system, to what extent do you have the 
authority to coordinate and cooperate with Mexican law 
enforcement agencies in cross border investigations of gun 
trafficking networks? If this authority does not exist, should 
you seek such authority? If it does exist, to what extent is it 
working?
    And finally, regarding the so-called Tiahrt Rider, which as 
you know has been added to appropriations bills each year, to 
what extent are you prohibited from sharing gun trace data 
relating to cross border gun trafficking with state and local 
authorities, with public watchdog groups, or with other federal 
agencies? What measures are you taking within the confines of 
existing regulations to ensure that state and local authorities 
have access to trace data that might help identify and 
prosecute correct gun dealers involved in trafficking these 
weapons? Can you share with us how many gun traces you have 
performed at the request of the Mexican government in the last 
fiscal year?

                          GUN SHOW ENFORCEMENT

    Mr. Sullivan. Thank you, Mr. Price. In terms of the gun 
show monitoring, ATF obviously with limited resources tried to 
identify strategically if there was a particular gun show of 
concern based on intelligence, based on tracing information, 
based on source information. I think there were about 6,000 gun 
shows, if I remember correctly, last year. And we actively 
investigated somewhere between 2 and 3 percent of those gun 
shows based on intelligence information. So it was intelligence 
driven efforts at the gun shows. And we will continue to do 
that. As intelligence identifies the source of the guns coming 
from any particular gun show, or potentially people selling at 
the gun show, or even licensed dealers at the gun show, we will 
continue to operate investigations at those targeted gun shows.
    Mr. Price. And that is based on intelligence about gun 
trafficking in general? Or gun trafficking of the sort I 
described into Mexico?

                          MEXICAN GUN TRACING

    Mr. Sullivan. Well, gun trafficking into Mexico as well as 
gun trafficking generally. If the gun trafficking information 
leads us back into a particular location, obviously that would 
be reason to open up an investigation and to do some additional 
investigative work. It could be source information as well as 
purchasers who are identified to find out the circumstances in 
which they purchased weapons, for whom, and how. And it could 
be, you know, as a result of other cases it opens up in a 
particular investigation against a gun show.
    On the issue concerning eTrace, right now we have 
established eTrace in Mexico at, I believe, nine of the 
consulate offices. We also have a memorandum of agreement with 
the Attorney General's Office in Mexico to assist them on 
tracing guns. We recognize that we could be more effective 
within the country of Mexico in tracing guns if we had what is 
referred to as Spanish eTrace, eTrace in Spanish as opposed to 
English. We are successful in less than 50 percent of the trace 
requests coming out of Mexico, and we think part of the problem 
is language. If we can implement Spanish eTrace, it would 
significantly improve our efficiency in tracing weapons that 
are recovered in Mexico. I think around 7,000 weapons were 
traced last year in Mexico. Do you mind if I turn to see if 
somebody has a better number? Yes, it is between 6,000 and 
7,000 weapons that were traced out of Mexico.
    It has taken us a while to convince our partners in Mexico 
of the value of tracing. You know, from their perspective if 
you can stop the weapons coming into Mexico then there would be 
no need to trace. So they are encouraging us to put more effort 
on the interdiction of the weapons from the United States into 
Mexico. And I think over the last year they have come to 
understand and appreciate that the information from the trace 
actually leads to the source, and we can then shut down some of 
these weapons trafficking organizations. And we know that most 
of them are linked to the drug trafficking organizations. So we 
have a dual motive. We can address both the drug trafficking 
and the weapons trafficking with a number of these 
investigations.

                            TIAHRT AMENDMENT

    On the Tiahrt Amendment I guess that has been passed as 
language now, it is a permanent part. From my perspective as a 
former state prosecutor or serving as the United States 
Attorney in Massachusetts, it is important to have those types 
of restrictions in place that treat the tracing information as 
law enforcement sensitive information. So it is not subject to 
public information type of requests. There is nothing that 
limits my ability to share information that we have within ATF 
with our law enforcement partners. The language that was added 
in I think the last budget appropriation makes it clear we can 
share this information with our foreign law enforcement 
partners as well, like Mexico. And we think it that was 
important to make that clear so that there be no 
misunderstanding in terms of our ability to share this 
information with a foreign government, like Mexico or Colombia 
or Canada, where we are doing a lot of work on weapons tracing.
    So what do we do? We essentially promote the availability 
of this information. We trace about 250,000 crime guns a year 
in the United States. A lot of those have been requested by 
local law enforcement. In addition to just the information 
concerning that individual gun trace request in terms of who 
purchased it, from what FFL, we can what we refer to as 
aggregate analytical reporting information for a jurisdiction. 
For a municipality for a region for example, for a sheriff's 
department that has regional responsibilities, and statewide. 
Like within the State of New Jersey for the fusion center, they 
are able to essentially get statewide information concerning 
weapons that are recovered in New Jersey that are considered 
crime guns. We can complete the analytical analysis. And then 
it provides them, I think, some substantial leads to do state 
investigations. It certainly provides us some substantial leads 
to do federal investigations. So from my perspective there is 
no limitation with regard to the language. And the language, I 
think, was improved to make it clearer that we can share this 
information with foreign law enforcement agencies.
    Mr. Price. Mr. Chairman, I expect my time has expired. I 
will have a couple of additional questions for the record, but 
I thank the Director for his response.
    Mr. Sullivan. Thank you.
    Mr. Mollohan. If I might follow up on your testimony with 
regard to Tiahrt, and then respond to Mr. Price's question. You 
said something in words to the effect that treats information, 
and I guess that is trace data information, as law enforcement 
sensitive without restricting its ability to be shared in 
appropriate law enforcement cases domestically or with foreign 
law enforcement. Is that correct?
    Mr. Sullivan. Yes. That is my understanding. And that is 
the way that we have been interpreting the Tiahrt Amendment and 
that is the way we have been sharing information with law 
enforcement partners.
    Mr. Mollohan. So it is your testimony that you support the 
Tiahrt language that was included as a rider on our 
Appropriation Bill for 2008?
    Mr. Sullivan. Yes, absolutely.
    Mr. Mollohan. Mr. Ruppersberger.
    Mr. Ruppersberger. I am sorry I was late. I have a lot of 
hearings. First, I do want to say that I think that federal law 
enforcement both ATF and DEA, do a tremendous job with the 
resources that we have. I mean, the testimony that I did miss 
that was given stated that you are doing a lot with a little, 
and you are doing a great job.
    Mr. Sullivan. Thank you.
    Mr. Ruppersberger. I was a former prosecutor also and I 
tell you, you give me either an ATF or a DEA agent, or a city 
street cop, they can really do the job. So I know you are doing 
a lot with less.
    I wanted to discuss a couple of things. First thing, I also 
wanted to congratulate you on the investigation, I think using 
a Strike Force concept, you worked with state and local law 
enforcement in Baltimore on the Bloods gang. It was very 
successful. And so I think you asked somebody from my staff, 
who is behind me, to observe the operation with other staff, 
and I think that is good. Because we as Members cannot be 
everywhere, but our staff does a lot of good work, and it is 
good for their morale and for them to see, and they are working 
with you. So congratulations on that.
    Mr. Sullivan. Thank you.

               WEAPONS OF MASS DESTRUCTION AND TERRORISM

    Mr. Ruppersberger. Now all we have to do is make sure the 
prosecutors get the convictions, and we will go on with that.
    From an intelligence point of view, and you mentioned this 
a little bit, how much do you work with Department of Energy or 
maybe FBI on weapons of mass destruction? Are you focused at 
all in that area? Are they talking to you? Where are you with 
respect to those issues?
    Mr. Sullivan. I am not sure I am prepared to answer that 
question in terms of the Department of Energy.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Ruppersberger. Well, one of our biggest threats, 
especially terrorist threats throughout the world are weapons 
of mass destruction, nuclear bombs being made, smart bombs, 
that type of thing. And, you know, we are trying to get 
intelligence throughout the world before they leave a port of 
embarkation. But you also know, unfortunately we have the drug 
cartels combining now with the terrorist groups, especially 
coming from Mexico and places like that. Are you working at all 
in that arena? I do not know. That is why I am asking you.
    Mr. Sullivan. Well, to the extent that we----
    Mr. Ruppersberger. You do not have to answer. If you do not 
know the answer tell me.
    Mr. Sullivan. Well, I do know that we participate in the 
Joint Terrorism Task Forces. That, most of the FBI, you know, 
field division offices----
    Mr. Ruppersberger. By the way, let me stop you and I do 
want you to answer the question. I believe the Joint Terrorism 
Task Force is probably one of the best mechanisms we have right 
now to fight terrorism, because you have federal, state, and 
local all working together. Do you have an opinion on that?
    Mr. Sullivan. Oh, I agree with you. I think it has opened 
up the avenues of communication between the state and locals 
and the federal law enforcement agencies, in particular, the 
FBI. And prior to the expansion of the Joint Terrorism Task 
Forces, I think state and locals always saw the flow of 
information one way and never knew whether or not some of this 
information that was flowing was actually being exploited. Now 
they are sitting at the table and they can see exactly what is 
happening with that information. As is happening through fusion 
centers that are being set up throughout the country, typically 
state by state. So we have agents that are assigned to the 
Joint Terrorism Task Force.
    We have a significant investment in the TEDAC Program, 
which is a joint FBI/ATF effort to take a look at explosive 
devices. Most that are coming out of the theaters of Iraq and 
Afghanistan are IED type components as opposed to what you 
describe as weapons of mass destruction.
    I would say clearly if in the course of our investigation 
of weapons trafficking, if in the course of the investigation 
of a drug trafficking case connected to weapons, we uncovered 
any investigative or intelligence information concerning 
weapons of mass destruction, we would immediately engage the 
FBI as the lead law enforcement agency on national security and 
anti-terrorism efforts.
    Mr. Ruppersberger. Okay.
    Mr. Sullivan. I am not sure that we are engaged beyond that 
but I would be happy to find out for you.

                                 GANGS

    Mr. Ruppersberger. Well, let us get back to something that 
you do do and, I think, do it well. And that is the issue of 
gangs. We know we have a serious problem on the west coast, and 
it is starting to develop a lot on the east coast right now. 
The Chairman and I worked very closely on a project last year. 
We were able to fund a new pilot program from Philadelphia to 
North Carolina to focusing on gangs such as the Crips, Bloods 
and MS-13.
    Part of that program will be working with all those 
jurisdictions and using technology and software packages that 
will be just-in-time pictures. A lot of time there is a lot of 
movement in the gangs. And the ability to be able to 
communicate on a regular basis, between federal, state, and 
local law enforcers is important.
    And I guess you haven't been contacted yet. But I think the 
FBI is going to be the coordinating lead agency. Are you aware 
of that program that we have just----
    Mr. Sullivan. I can't say that off the top of my head. But 
obviously ATF has decades of experience dealing with gangs. You 
mentioned Crips, Bloods, and MS-13.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    The two most significant MS-13 investigations in this 
country, the ones that actually reached back to El Salvador, 
were both ATF-led investigations, including electronic 
surveillance in El Salvador.
    So we have significant experience dealing with gangs. And 
you look at the success in the Violent Crime Impact Teams in 
addressing gangs in some of those hotspot communities across 
the country, whether they are prison gangs, whether they are 
regional gangs, whether they are national/international gangs.
    You know I look at this as being the highest priority for 
ATF. I talk about ATF's highest priority being addressing 
violent crime. And gangs obviously significantly contribute to 
the violent crime challenges, especially in the urban 
communities around the country.
    Mr. Ruppersberger. Let me ask you this. What from a gang 
focus of what you do in specializing in gangs, what resources 
do you need to be able to effectively do what you need to do? 
And you don't have a lot now. I know that. But from a resource 
perspective, what do you need, wiretaps, money, more agents? 
Where are we with respect to gangs?
    Mr. Sullivan. Well certainly doing things like electronic 
surveillance is very expensive. It is labor intensive. The 
investigations are longer term. I don't have the numbers in 
front of me. But if you look over the last several years, ATF's 
participation with your prosecutor counterparts has 
substantially increased over the last several years, looking at 
principally gangs using all the sophisticated tools that are 
available.
    Gangs are becoming more and more difficult to infiltrate. 
We have done it historically. What we would consider to be 
long-term, undercover operations. And a lot of that experience 
was developed dealing with the outlawed motorcycle groups. And 
we have expanded that. We have folks that have gone undercover 
with MS-13. I am not sure there are a lot of other federal 
agencies that can say that.
    So we use all the tools that are available to us. But in 
terms of how do we address it, we address it I think----
    Mr. Ruppersberger. More about what resources you might need 
that we could look at as an Appropriation Committee.
    Mr. Sullivan. Well, we have 31 Violent Crime Impact Teams 
set up or nearly setup already. I mentioned earlier during my 
testimony we are going to do at least two more.
    Mr. Ruppersberger. Yeah. Let me ask you this, what was your 
funding last year for that?
    Mr. Sullivan. I am not sure if we actually get special 
funding for Violent Crime Impact Teams.
    Mr. Ruppersberger. Well, I will ask the question another 
way. What is the increase from last year's violent crime to 
this year as far as funding is concerned?
    Mr. Sullivan. Well we didn't get an increase in terms of--
--
    Mr. Ruppersberger. You didn't get an increase?
    Mr. Sullivan. In terms of violent crime, we get a level 
service budget, 2008 to 2009.
    Mr. Ruppersberger. Okay.
    Mr. Sullivan. So we didn't get an increase in terms of 
addressing violent crime.
    Mr. Ruppersberger. That is not a line item? That is not a 
direct line item that comes out of your general budget?
    Mr. Sullivan. Exactly. And it costs us I think somewhere 
between $2.5 and $3.5 million for each Violent Crime Impact 
Team that we set up. So we do that out of a direct 
appropriation in terms of prioritizing our resources.
    Mr. Ruppersberger. Do you feel that is your most effective 
tool in fighting the gang problem?
    Mr. Sullivan. I think it is extraordinarily successful when 
you look at the statistics in terms of the number of gang 
members that have actually been charged and prosecuted and the 
number of weapons that have been recovered.
    Mr. Ruppersberger. I would like to hear from you. You 
probably said this. Let me ask you this, if anybody behind you 
knows either, what is the increase from last year's budget to 
this year's budget or ATF budget?
    Mr. Sullivan. The total increase is $16 million that 
reflects the less-than-level service funding we had. We had 
level service and we had a level budget, from 2007 to 2008, not 
a level service budget. So that calculated to about a $37 
million shortfall in fiscal year 2008 based on a level service 
budget. Sixteen million dollars of that was included in the 
fiscal year 2009 appropriation, the total appropriation for a 
billion.
    Mr. Ruppersberger. Sir, I am not interested in the money as 
much as the increase. So really that money was put back in to 
make it whole?
    Mr. Sullivan. Sixteen of the thirty seven million.
    Mr. Ruppersberger. I mean this is pretty----
    Mr. Sullivan. Could I just mention the number of----
    Mr. Ruppersberger. Pretty bad.
    Mr. Sullivan. Could I talk about the success of the Violent 
Crime Impact Teams? We launched them in 2004. We have actually 
arrested over 13,400 gang members. These are card carrying 
members of gangs. Twenty-six hundred and fifty of them are what 
we refer to as the worst of the worst of these gang members. We 
recovered over 16,400 firearms. And that was done by a small 
number of Violent Crime Impact Teams.
    We have grown them from 2004 to 2008 up to 30. But the 
first time out I think we had six or eight cities that we 
considered for Violent Crime Impact Teams. We are not up to 31. 
These numbers I think are extraordinary considering the small 
presence.
    Mr. Ruppersberger. The bang for the buck, is that what you 
are trying to tell us?
    Mr. Sullivan. The return on investment I think is 
substantial in terms of the----
    Mr. Ruppersberger. It is substantial. It is just incredible 
what your budget is. You know, there is nothing we can do at 
this point. You have the President's budget. It is about 
priorities. But, you know, you have to take care of home base.
    And to not be able to expand when we have--drugs clearly in 
my opinion are the worst problem we have in the world as far as 
the impacts on people and crime. Terrorism is difficult. We 
have to deal with it. But it seems that all the money is being 
taken away from the enforcement of drugs and gangs. And most of 
the gangs are doing drugs. And that is part of where they are.
    But, you know, we have to deal with what we have to deal 
with. It is just from our perspective, if there was an increase 
in your budget, would you put--where would your priority be? 
Would it be in the gang task forces or the violent crime task 
forces we were talking about?
    Mr. Sullivan. Yeah. We----
    Mr. Ruppersberger. That would be your number one?
    Mr. Sullivan. Well, we would clearly expand the Violent 
Crime Impact Teams beyond what we have presently in place, 
because that is a very successful model to address violent 
crime.
    And as I travel the country, what I hear from, local chiefs 
and our counterparts in law enforcement is, that model is very 
successful.
    Mr. Ruppersberger. What is that?
    Mr. Sullivan. Law----
    Mr. Ruppersberger. I am teasing you. You flew out of 
Boston, right?
    Mr. Sullivan. How could you tell? The southwest border 
obviously could do with more resources. We would put more 
resources on the southwest border also.
    Mr. Ruppersberger. All right. Well it is--I think from 
where I am sitting, I mean, I think you have done a great job 
with the resources----
    Mr. Sullivan. Thank you.
    Mr. Ruppersberger [continuing]. That you have. You are 
getting good results. Your numbers are there. I just hope that 
hopefully maybe we can reevaluate where your budget is, where 
ATF's--I mean where DEA's budget is, because of the results you 
are getting with not a lot, which really shows good leadership 
at the top and the people working for ATF are doing a great 
job. Thank you.
    Mr. Sullivan. Thank you.
    Mr. Ruppersberger. That was a kiss up.
    Mr. Sullivan. Thank you.
    Mr. Mollohan. Mr. Frelinghuysen.

                      GUN DEALERS ALONG THE BORDER

    Mr. Frelinghuysen. I just wanted to get a few figures here. 
How many licensed U.S. gun dealers are there in the southwest 
border region?
    Mr. Sullivan. I think around 7,000 licensed dealers.
    Mr. Frelinghuysen. And I think related, the ATF conducts 
firearm seminars with a lot of the federal firearm licensees. I 
understand on an annual basis or at least in fiscal year 2007, 
about 3,700 industry members attended the outreach events.
    How many in that neck of the woods participate in those 
seminars? I am not sure there is a correlation. But I just 
wondered. Obviously, these federal licensees need to be 
protective of their licenses. They need to do whatever they 
need to----
    Mr. Sullivan. Right.
    Mr. Frelinghuysen [continuing]. Keep your full confidence 
so they can be gainfully employed. How would you take a look at 
those along the border that are U.S. gun dealers?
    Mr. Sullivan. We made a concerted effort over the last 
year. We have a plan to inspect all the licensed dealers on the 
border within three years.
    Mr. Sullivan. Exactly. It is----
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen. So we are making some progress.
    Mr. Sullivan. We ended up inspecting a third of those 7,000 
last year. The plan is another third this year and another 
third the following year. The reception we are getting from the 
licensed dealers on the border has been extremely positive. 
They are likewise concerned about somehow being used in the 
weapons trafficking problems between the United States and 
Mexico.
    So that much I think goes a long way for them to understand 
and appreciate some of the problems and challenges we face on 
the border.
    Mr. Frelinghuysen. Included in the Project Gunrunner is a 
presence of ATF personnel in diplomatic posts in Mexico. You 
have four in Mexico City.
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen. Two in Monterrey. Any others? We have 
consulates, don't we?
    Mr. Sullivan. I think that is it at this point. The two in 
Monterrey are actually new. That was something we did in, I 
believe, late 2007, early 2008. We did that obviously out of 
our direct appropriations.
    And you can imagine it is very expensive to put folks in a 
foreign country. But we thought it was the best way to 
continually develop our relationships with our counterparts in 
Mexico.
    Mr. Frelinghuysen. You are providing Mexican officials 
with--as we have discussed, accessed your eTrace weapons----
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen [continuing]. Tracing data. Is that 
information currently available to our consulates as well?
    Mr. Sullivan. Yes. Nine of the consulate offices are 
equipped for e-Tracing.
    Mr. Frelinghuysen. And is that information of value to any 
other of your ATF operations around the world, or is this just 
sort of southwest border concentrated?
    Mr. Sullivan. In terms of tracing?
    Mr. Frelinghuysen. I am sort of generally speaking about 
technology.
    Mr. Sullivan. Oh, the technology is----
    Mr. Frelinghuysen. You own the waterfront here.
    Mr. Sullivan. Right.
    Mr. Frelinghuysen. And we are hugely proud of what you do. 
I just wondered in the overall scheme of things. You know, 
you've obviously got a presence in Baghdad. And you are doing 
some things with IEDs.
    I know you have ATF representatives doing a great job in 
Bogota.
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen. I just wondered whether there is any 
value in information flow here.
    Mr. Sullivan. Yes. And in fact we are doing it. You know, 
out of Bogota, Colombia, we are doing trace requests for 
Central and South America. We recovered crime guns to see the 
source of those crime guns. We are doing it regularly in Canada 
as well, and also in Europe. You mentioned Baghdad. We are 
tracing weapons recovered in Iraq also.
    So the technology and the information that flows from 
tracing is being used worldwide.
    Mr. Frelinghuysen. I was reading the New York Times the 
other day. And I saw two pages in the advertisement section 
where the DEA is getting all sorts of money from asset 
forfeiture. I mean, they listed everything, houses and cars and 
things that had been confiscated.
    Where do you fit into the overall scheme of things? What do 
you get in terms of your fair share for all the work your 
people do when they put their shoulder to the wheel?
    Mr. Sullivan. I think there is a formula that is generated 
at least at the Department of Justice level and maybe beyond in 
terms of a piece of the asset forfeiture. I am not sure if it 
is referred to as a super surplus that they push back to the 
agencies. And you are obviously limited in how you can utilize 
those funds.
    You can't hire personnel for them. You can hire with them. 
You can hire contract services. You can use some of that money 
to enhance training and professional development to allow for 
further asset forfeiture types of claims.
    We are recovering significant assets through the forfeiture 
provisions. Obviously with these combined weapons in drug cases 
where there are cash, cars, and properties, but also in the 
whole tobacco diversion piece where we do significant 
sophisticated investigations, they sometimes yield very 
significant asset forfeiture recoveries. They go into a general 
fund. And then eventually we get some of those funds back. It--
--
    Mr. Frelinghuysen. I was interested whether you are getting 
your fair share. And you specifically are slated to receive 
$4.5 million from the assets forfeiture funds to translate your 
eTrace database----
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen [continuing]. Into Spanish.
    Mr. Sullivan. Yes.
    Mr. Frelinghuysen. Is that in the process of being done 
or----
    Mr. Sullivan. I understand it is pretty close to being 
done. I am not sure if at this time it is here for the Congress 
to authorize. I think that is part of that super surplus piece 
that may require Congressional approval.
    It is $4.5 million. I don't think that any objections have 
been raised to utilize the funds to develop the Spanish eTrace. 
So I think it is in the final stages of approval. But I would 
be happy to check on that and get back to you and let you know 
where it is.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                         ATF ACTIVITIES IN IRAQ

    Mr. Frelinghuysen. Moving over to Iraq, we appropriated $4 
million in emergency supplemental in fiscal year 2007 to 
support your presence in Iraq. Can you describe what you have 
been able to do with those dollars?
    And first of all, you have a dangerous job. Then you add in 
obviously being in a war zone.
    Mr. Sullivan. Right.
    Mr. Frelinghuysen. How are things developed there? And I 
assume you are partnering with should we say all the 
aforementioned.
    Mr. Sullivan. Yes. First and foremost, I am equally proud 
of the fact that ATF agents and others have volunteered for 
assignments in Iraq. And they typically rotate in for 90 days.
    They bring a certain expertise, you know, principally in 
the area of explosive devices and post-blast investigations. We 
have an MOU with the Department of Defense to train military 
personnel before they go into that theater to assist them in 
conducting a post-blast investigation.
    You can imagine they have a very short window of time to 
collect evidence in a war zone as a result of an IED. We have 
as much time as we want domestically. So they go in there. They 
try to recover the critical components.
    Mr. Frelinghuysen. Yes, before somebody contaminates it.
    Mr. Sullivan. Or somebody essentially decides that they are 
going to execute the people who are responding to an explosive 
device incident. So we train up the military. We train up the 
Iraqi police in explosive detection and post-blast 
investigation. We have done some work on explosive detection, 
principally with canines.
    We are also assisting in developing strategies to do 
criminal investigations with the Iraqi police in the military 
as well.
    So we are doing all the things we are doing with our 
domestic partners. We are dealing with the military, the United 
States military.
    Mr. Frelinghuysen. And you are doing it in Afghanistan as 
well?
    Mr. Sullivan. We are. Recently we were asked by the 
military to deploy resources to Afghanistan because of the 
great success we have had in this partnership with the 
military. We are also part of the group that is called LEXL, 
which is a group in Iraq and Afghanistan that is grabbing the 
explosive devices themselves, doing the forensic work there, 
and then sending it back here domestically to the TEPAC 
operation.
    Mr. Frelinghuysen. Been over there.
    Mr. Sullivan.[continuing]. At Quantico.
    Mr. Frelinghuysen. Yes. This is where they sort of examine 
the----
    Mr. Sullivan. The component parts.
    Mr. Frelinghuysen. And all the stuff.
    Mr. Sullivan. Exactly.
    Mr. Frelinghuysen. They are pretty amazing. It is an 
amazing process, mind boggling.
    Mr. Sullivan. What is amazing about it is that type of 
intelligence opens up significant investigative leads in terms 
of the types of components that are being developed, whether 
it's a new technology, but also importantly who might be the 
source of these IEDs.
    So it is important in terms of what is happening in Iraq, 
but it translates into important information domestically as 
well and as part of our role in having responsibility for the 
United States Bomb Data Center. This information, once it is no 
longer considered classified, will be available for our state 
and local law enforcement partners through our U.S. Bomb Data 
Center, our Arsons, Bombing, and Explosives Data Center.
    Mr. Frelinghuysen. Remarkable.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen.

                          GRADUATED SANCTIONS

    Mr. Mollohan. I know that you are interested in amending 
the law to give you greater options with regard to your 
investigation and sanctioning of licensed firearms dealers. We 
talked about that a little bit last year.
    Mr. Sullivan. Yes.
    Mr. Mollohan. Could you tell us if there are any statutory 
or regulatory initiatives underway to give ATF greater 
flexibility and a gradation of sanction with regard to 
violations or alleged violations committed by firearms 
licensees?
    Mr. Sullivan. I am not aware of any off the top of my head. 
And I will see if somebody might be able to whisper in my ear 
that there might be something. I know it was part of a more 
comprehensive bill last year to allow the sanction provisions, 
which would include suspension or fining for infractions we 
thought were less than those required for outright revocation.
    But I am not aware of a bill being pursued right now by the 
Department. If you wouldn't mind, Mr. Chairman, maybe I could 
just ask Mr. Ford.
    Mr. Mollohan. Please.
    Mr. Sullivan. Yes, I am told that last year's crime bill 
has not been reintroduced. And it was included in last year's 
crime bill by the Department of Justice.
    Mr. Mollohan. Do you support having a gradation of 
sanctions?
    Mr. Sullivan. Oh, absolutely. I think it would be a very 
useful tool. I mean presently it is all or nothing. I mean we 
get----
    Mr. Mollohan. What does that mean?
    Mr. Sullivan. Well, I mean, the choices we have right now 
are to continue to allow whatever violations are occurring, or 
to revoke the license.
    Now I will say this, that most of the FFLs, the licensed 
dealers, when they know that they are doing something that is 
outside the regulations, such as not collecting all the 
information that is absolutely necessary, work to be in 
compliance.
    When I look at the breakdown of our inspections, about 40 
percent of the licensed dealers that we inspect have no 
violations. That means that 60 percent have some level of 
violations. Not all 60 percent warrant revocation. And we don't 
revoke that 60 percent. We revoke somewhere around one to two 
percent of the licensed dealers that we inspect.
    That means that there are about 58 or 59 percent with whom 
we work very hard to get them into compliance. Now you might 
get a licensed dealer who just continues to ignore their 
obligations.
    So the only recourse you have as a regulatory agency is to 
either ignore it or to revoke. And it would be nice, if they 
weren't willing to essentially work with you, to at least have 
a tool to, say, suspend them or fine them. And maybe that would 
get their attention to change their behavior.
    Mr. Mollohan. Do you know how many firearm licensees there 
are across the country?
    Mr. Sullivan. Depending on the category of license in terms 
of collectors and dealers, I think the total number is about 
100,000. I think about 60 plus thousand are considered licensed 
dealers themselves.
    We inspected just over 10,000 of those licensed dealers 
last year. That is up substantially from two years ago. Two 
years ago we inspected about 5,000. Last year we inspected 
about 10,000. I think we are being much more efficient with 
regard to our inspection operations. We have done it with the 
same number of resources we had in fiscal year 2005 as we had 
in fiscal year 2007.
    Mr. Mollohan. So that would suggest you are inspecting on a 
six-year cycle every firearms dealer in the country.
    Mr. Sullivan. About. I just want to make sure I am accurate 
with the information. I think----
    Mr. Mollohan. If you are not you can----
    Mr. Sullivan. I want to correct it if I am inaccurate. I 
mentioned there are 100,000 that are considered collectors and 
dealers combined and about 60 plus thousand that are dealers 
alone. I am not sure if that 60,000 reflects that total 
population or just the dealers themselves.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    You know, the OIG looked at our inspection process a couple 
of years ago and suggested that we should be inspecting dealers 
every three years. That that is a good business practice. You 
have to make sure the dealers are in compliance. We were 
averaging about one inspection every 11 years based on the time 
table, the model, and the number of inspections that we were 
doing two years ago.
    I mentioned we were able to double. So it could be we have 
gone from 11 down to once every six years. So your numbers 
might be accurate in terms of where we are.
    Mr. Mollohan. Are you continuing to pursue a change in the 
law to allow you to have a gradation of sanctions for firearms 
licensees violations?
    Mr. Sullivan. Only to the extent that we have communicated 
to the Department of Justice that it is an important tool. I 
can't sit here and tell you we advocated it strongly.
    Mr. Mollohan. But you do support it----
    Mr. Sullivan. We do.
    Mr. Mollohan [continuing]. Personally.
    Mr. Sullivan. Yes, I do.
    Mr. Mollohan. And it is a position of ATF that they would 
support----
    Mr. Sullivan. Absolutely.

                         EXPLOSIVES RULEMAKING

    Mr. Mollohan. Are you having a problem promulgating rules?
    Mr. Sullivan. Yes, a serious problem. And, I think the 
facts speak for themselves. It is taking us far too long to 
address these issues. And I believe this came up the last time 
we met.
    At that point in time, we either had one or two writers at 
ATF. We have doubled those resources. We have two right now. We 
have two in the pipeline. We are on the verge of hiring both of 
those, one person refused. Long story short----
    Mr. Mollohan. I am sorry, one person what?
    Mr. Sullivan. One person refused the position. So we will 
have three compared to I think one that we had a year ago. But 
the process takes far too long.
    And I can't sit here and suggest that it has been a 
priority on the part of ATF to invest the necessary resources. 
There is a commitment going forward clearly to make sure that 
they have sufficient resources to address this in a much 
shorter period of time.
    And my goal, absent some extraordinary circumstances, is to 
complete the process in terms of ATF's involvement within the 
matter of two years. Some of these, obviously, are less 
technical, have much less impact, amd could be done in a 
shorter period of time, but on average it would be two years. 
That would be a substantial improvement over where we are at 
presently.
    Mr. Mollohan. Last year when we finished our hearing with 
ATF, I felt confident that you were really going to address the 
rule making backlog issue. Why did I feel confident in that?
    Mr. Sullivan. Because I think I expressed my own confidence 
in getting this done as well. And my frustration is how long it 
takes us to get qualified individuals recruited and hired at 
ATF. And it is an internal ATF challenge. I am not sure if----
    Mr. Mollohan. These are lawyers you are hiring, aren't 
they? Do they process your rule making?
    Mr. Sullivan. I don't believe that they are all lawyers.
    Mr. Mollohan. See there is the problem. You need to hire 
lawyers.
    Mr. Sullivan. Well, that point was actually----
    Mr. Mollohan. We are out there begging for jobs.
    Mr. Sullivan. Well, that point was actually made to me in 
the last couple of days when we were looking at this issue that 
they need a lawyer as part of this process. And we are not 
going to go outside and hire a lawyer. We have a counsel office 
at ATF. And we made a commitment that we were going to take 
somebody from our counsel's office. And their exclusive 
responsibilities are going to be in the rule making part of our 
business. And that is all they are going to have on their 
plate.
    So I was confident, Mr. Chairman. And I am embarrassed to 
tell you that we have not been successful in terms of getting 
this done in the last year. But there is a commitment.
    Mr. Mollohan. When you walked out of here did you just 
forget about it for 12 months?
    Mr. Sullivan. No. We actually advertised the positions. We 
are going to double the size of the resources we had. People 
shared with me that that would essentially resolve the 
problems, and it didn't. I have nobody to fault by myself. I am 
the Director of ATF. And----
    Mr. Mollohan. I am not trying to do that. All I am trying 
to do is reaffirm a commitment to work with you to seriously 
get it done.
    Mr. Sullivan. Right.
    Mr. Mollohan. It is my fault as well, because I didn't 
follow up with it and ask you how you were doing two months 
later. If you don't mind, I would like to follow up and ask you 
two months from now or two weeks from now how you are doing 
with it.
    I want to know how we can help you or if we can 
specifically direct money. I think it is a really serious 
issue.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Sullivan. Yes.
    Mr. Mollohan. You have got serious industries out there. I 
know pretty well that they want to cooperate with you and want 
to work with you. They just want to get the rules finalized. 
Once they get them finalized, they can work with them.
    Mr. Sullivan. I would welcome the inquiry two months from 
now, because I think it would make it clear, if it has not 
already been clearly communicated, that this is a priority 
internally and externally as well.
    Mr. Mollohan. Well let us know if you need additional 
resources specified for this function or dedicated to it from 
the Committee.
    But thank you for your candor. I do look forward to working 
with you on that.
    Mr. Fattah.

                           NFA REGISTRATIONS

    Mr. Fattah. Thank you, Mr. Chairman. This half a million on 
National Firearm Act Registrations, is that up or down, you 
know, how would you characterize that relative to your past 
performance?
    Mr. Sullivan. Excuse me for one second.
    Mr. Fattah. Yes.
    Mr. Sullivan. I am going to have to--I apologize. I don't 
know whether or not that number----
    Mr. Fattah. That is fine.
    Mr. Sullivan. We will make sure we get back with a response 
to that question.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

            REGULATION OF POTENTIALLY EXPLOSIVE COMMODITIES

    Mr. Fattah. On the explosive detection canine teams, there 
has been some concern. I also serve on--the Subcommittee on 
Homeland--Defense. The use--of items in the past we would not 
have thought about being utilized for explosion, some of them 
are readily available at your neighborhood store.
    Is that concern shared by ATF? I mean, I know you are doing 
what you can on the kind of normal stuff. But----
    Mr. Sullivan. Sure. Well, I think we share a concern about 
readily available components that could be utilized in some 
type of explosive device.
    Mr. Fattah. Is there anything more that we can do through 
your agency in terms of that issue, or is that not easily done 
given the fact that these are easily purchased items?
    Mr. Sullivan. Well I think your point is well taken. It is 
a difficult thing to grapple with, because these are regular 
commodities that are available. And how do you regulate regular 
commodities independent of one another?
    Mr. Fattah. Yeah.
    Mr. Sullivan. I do know that there is a study that 
hopefully is going to be published and available to Congress in 
which we participated. It is an old study. And I am even 
uncomfortable raising it at this time.
    Mr. Fattah. Mm-hmm.
    Mr. Sullivan. It really talks about the other components 
that are readily available and the potential impact to be 
utilized. But that might provide at least some direction----
    Mr. Fattah. Right.
    Mr. Sullivan [continuing]. From ATF's perspective and some 
of the researchers' perspective on a range of options that are 
available.

                      FIREARMS ACOUSTIC DETECTION

    Mr. Fattah. I am from Philadelphia. But Mayor Menino in 
Boston has been--looking at this issue of--I think it is called 
Shot Stopper. But it is essentially a camera system that in 
some way identifies in some acoustic system--identifies where 
shots are fired and communicates that to police so that when 
there is a shot in a particular area, and a lot of different 
people tell the police it came from five different directions, 
then this technology helps the system identify exactly where 
when we deal with neighborhood crime where shots are being 
fired from and it helps direct the police.
    Is that something ATF is aware of? Do you have an opinion 
about it? Do you think other cities should look at it? Do you 
have any comment now or later on the record?
    Mr. Sullivan. I am familiar with it. And I actually had a 
demonstration. I can't remember exactly which city it was. It 
wasn't Boston.
    Mr. Fattah. Okay.
    Mr. Sullivan. It was through our efforts in Project Safe 
Neighborhoods, where they actually acquired it through a 
vendor. I think there are several vendors that offer this type 
of technology. It is almost virtual, real-time identification.
    It is a fairly expensive technology to utilize, especially 
if you are going to keep it hard wired to certain locations, it 
becomes very expensive. But it is a very useful tool.
    In some instances you get false reports in terms of the 
location of the firing. In some instances, you don't get 
reports at all. And the shots fired technology allows law 
enforcement to quickly respond. And as a result of that, 
ballistics evidence is recovered. Witnesses are identified. And 
cases potentially are opened and investigated, and suspects are 
successfully charged.
    So the technology I think has a great deal of promise. And 
I know ATF, at a number of locations around the country with 
state and local partners, has utilized that technology. And I 
know at least one location where through Project Safe 
Neighborhoods, they actually funded the acquisition of the 
equipment itself.
    Mr. Fattah. Thank you. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. Mr. Director, I would 
like to return to this area of cross-border trafficking and 
some of the possible intersections with our homeland security 
concerns.

                SHARING AGGREGATE FIREARMS TRACING DATA

    First just briefly to go back to this question of the 
Tiahrt Amendment and the effect it has on the sharing of gun 
trace data. I just want to check this impression with you.
    My understanding is that this data, the use of which is 
law-enforcement specific as you stressed, that state and local 
law enforcement offices of course involved in an investigation 
are--have access to this data. My understanding is though that 
the restrictions have had more to do with efforts to gain the 
bigger picture or efforts to establish patterns, trends in 
trafficking and in other-- in other gun crimes.
    So I wonder what kind of aggregate data are available and 
to whom. Is that where these restrictions kick in? And is that 
of any concern to you? I am aware, of course, that this data 
could be misused or could be mischaracterized.
    But a kind of blanket prohibition, which is apparently what 
we have in place, may also shut off, for example, legitimate 
academic researchers or for that matter state and local law 
enforcement personnel who might want to be gaining this bigger 
picture. For example, on the pattern that we are talking about, 
cross border gun trafficking.
    So that is the concern I think some have raised. And I 
wonder if you would care to reflect on it?
    Mr. Sullivan. Sure. I think there is a clear perception out 
there that it is a misunderstanding of the restrictions of the 
Tiahrt Amendment. The points that you made in terms of how 
important this aggregate tracing information could be to law 
enforcement----
    Mr. Price. Mm-hmm.
    Mr. Sullivan [continuing]. Are not lost on me. I think 
somewhere along the line we lost the public debate about 
whether or not this restriction prevented law enforcement from 
getting access to critical information that affected public 
safety in communities.
    Mr. Price. Mm-hmm.
    Mr. Sullivan. We lost the debate, but it is not because 
they can't get access to the information. And it may be helpful 
at some point to share with the Committee the types of reports 
that we make available to local law enforcement.
    And I will give you one example, the State of New Jersey. 
And I use New Jersey, because Colonel Fuentes decided he was 
going to set up a fusion center. And as part of his fusion 
center, he wanted the capacity to do each trace in the State of 
New Jersey. He had statewide jurisdiction. That means state 
police in New Jersey can conduct an investigation about any 
place in New Jersey.
    We provide for every crime gun that is recovered in New 
Jersey, it is traced through the fusion center using eTrace. 
And he can generate as a result of his efforts, or we can 
generate on his behalf, a wide range of aggregate information, 
including the information that shows weapons being sourced from 
outside the State of New Jersey.
    So, for example, he will know where those guns are coming 
from, including which FFLs were the source of those guns. Now 
he also understands as a law enforcement agent that that in and 
of itself doesn't necessarily imply that that FFL has done 
anything wrong.
    Mr. Price. Right.
    Mr. Sullivan. But if you have multiple sales coming from an 
FFL, it may at least make you curious in terms of what is 
happening there. If you are looking at multiple purchases with 
regard to an individual in that state and the guns are showing 
up in another state, then there could be an interest in opening 
up an investigation targeting that individual.
    Mr. Price. Certainly. That is the sort of inference I am 
talking about. Well I just speak for myself. I think that kind 
of assessment would be very useful. And I would be very 
grateful if you could furnish that to us, because as you say, 
there is a debate about this, which sometimes is pretty arcane.
    And so I think the kind of--the kind of gun trace data in 
law enforcement specific instances and in the aggregate, the 
way you utilize and share that data, and with whom, and what 
kind of restrictions apply to you, and whether there are any 
instances in which you think that it is undesirable or hinders 
you, I think that sort of assessment would be very, very 
useful.
    So I appreciate your clarification.
    Mr. Sullivan. Congressman, you mentioned researchers as 
well. You know, beyond that information we think is law 
enforcement sensitive. We have a lot of information we collect 
that we don't believe is law enforcement sensitive.
    Mr. Price. Well, that would be--there are, of course, 
legitimate academic researchers, public policy analysts who may 
or may not feel that they are not getting the data they need.
    But there too, what kind of limits you observe, what kind 
of limits you understand the law to impose, would be--would be 
helpful I think to clarify where you draw the line and what--
and then compare that with what some of the other users of this 
data and some of the analysts of this particular provision of 
the law have said.
    Mr. Sullivan. Yes. We publish annually on our website 
aggregate tracing information state by state.
    Mr. Price. Mm-hmm.
    Mr. Sullivan. So, for example, people in Massachusetts who 
are curious about crime guns recovered in Massachusetts can go 
on the ATF website and look at crime guns recovered in 
Massachusetts, the numbers which law enforcement agencies are 
tracing crime guns in Massachusetts, the type of weapons that 
are being recovered as crime guns, and the sources, the source 
states, of those crime guns.
    There was a period of time where that information was not 
being publicly shared with the non-law enforcement community. 
But it wasn't because Tiahrt Amendment prevented us from doing 
it.
    Mr. Price. Mm-hmm.
    Mr. Sullivan. It was almost a perfect storm. It was at a 
time when our budget was challenging. And we decided instead of 
spending the money for developing those types of reports on an 
annual basis, that we would put those monies someplace else.
    But, obviously, it became apparent to me that there was a 
great deal of public interest and a lot of misinformation out 
there in terms of what we could and couldn't do under the 
Tiahrt Amendment. It was important to get the information to 
the public that had an interest in knowing what was going on 
with recovered crime guns as quickly as we could. And beyond 
that, making sure that we are pushing out aggregate-- 
analytical reports to our law enforcement partners.
    Mr. Price. Thank you. We will look forward to your 
assessment of that.

                 COORDINATION WITH DHS ALONG THE BORDER

    Let me move on and ask. You testified, as I understood you 
earlier, that you were having some increased success in getting 
the Mexican authorities to deliver confiscated firearms. And I 
think you used the term six to seven thousand weapons traced 
with Mexican-supplied information. Over what period of time is 
that?
    Mr. Sullivan. That was last year.
    Mr. Price. Last year, that is what I thought.
    I would also be interested to learn what discussion you 
have had with other agencies. And this gets into the homeland 
security angle, other agencies regarding cooperation in 
addressing this cross-border gun trafficking.
    For example, I understand the Bureau of Customs and Border 
Protection focuses cargo inspections more on cargo entering the 
country, obviously, than the cargo leaving the country.
    Have you had any conversations with CBP about that 
regarding the need for enhanced inspection, in some cases, of 
outgoing cargo? What coordination exists between ATF and the 
FBI in terms of targeting organized crime rings involved in 
this activity? Are there other examples of successes or gaps in 
interagency coordination that you would want to cite?
    Mr. Sullivan. Let me start with CBP. And Mr. Basham to his 
credit very early on called a meeting of all the federal law 
enforcement agencies that had assets on the southwest border to 
make sure that we were not unnecessarily duplicating effort. We 
have a great partnership with CBP. We are both using the El 
Paso Intelligence Center to point in intelligence and obtain 
intelligence reports.
    We are working very closely with CBP on strategic efforts 
for the outbound traffic, the traffic going to Mexico. There is 
a big difference between the traffic coming into the United 
States and the traffic going into Mexico. The traffic coming 
into the United States has been stopped. For the traffic going 
into Mexico, it is an exception for those vehicles to be 
stopped.
    So we are working with CBP to do targeted enforcement on 
the border itself based on the intelligence and investigative 
leads we have. We are using our explosive detection canine dogs 
in conjunction with CBP.
    ICE, obviously, has significant assets on the border as 
well, principally to address immigration-type violations. They 
have the best teams on the border. We have taken ATF agents and 
embedded them with the best teams on the border as well to 
ensure that we are not unnecessarily duplicating effort or 
conflicting with one another.
    We have a great partnership with DEA. Obviously, as I 
mentioned earlier, the weapons trafficking organizations are 
tied into the drug trafficking organizations and with the FBI 
in the work on violent crime.
    Obviously, we do a lot in the area of gangs and guns on the 
border. The FBI has some assets and resources as well. We 
partner with the FBI.
    So I think we are all trying to work as cooperatively as we 
possibly can on the border. That is not to say on occasion we 
don't have a dust up or a misunderstanding on how some of these 
matters should be addressed. But all in all, I think there is a 
concerted effort to work together.
    Mr. Price. Any gaps you would direct us to?
    Mr. Sullivan. I can't think of any off the top of my head 
in interagency relationships. I want to get back just to Mexico 
for a second.
    It did take us a while to educate and inform Mexico on the 
value of tracing. But clearly they understand it. A couple of 
years ago I think we traced about 2,000 weapons out of Mexico. 
And last year we were up to 7,000.
    It is a little bit confusing in terms of who gets ownership 
of these weapons in Mexico from the local police, to the 
national police, to the military. And we are trying to work 
through some of those issues as well. We are working with 
Mexico to get imbedded officers or agents from Mexico that have 
the proper security clearance to work on the teams with ATF 
agents to make sure that there is an immediate sharing of 
investigative leads and intelligence information.
    We are taking the intelligence we learn from the EPIC, the 
El Paso Intelligence Center, in daily, giving briefing reports 
to Mexico as well.
    I will tell you, our relationship with Mexico, Mexico law 
enforcement and the Attorney General of Mexico, couldn't be 
better.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Getting back to Mexico, staying on 
Mexico for a minute. There was a statement. I read the 
Department of Justice summaries on the that is--war that is 
going on in that border. The use of what they call the FN-57s, 
these Belgian weapons, the ``cop killers.'' I mean, obviously, 
from everything I have read, they have an infinite amount of 
money.
    But I was staggered by what was attributed to the Mexican 
ambassador. And I quote, it says here, he ``Has said that as 
many as 2,000 weapons enter Mexico from the U.S. each day.'' Is 
that an accurate or is that an exaggeration?
    Mr. Sullivan. Well I can't say it is an exaggeration. I 
can't say it is accurate. I think the challenge that is we just 
don't know. And, you know, until we know exactly how many crime 
guns are being recovered in Mexico, it may be very difficult 
for us to estimate the number of weapons that are being 
trafficked into Mexico.
    We do know that 7,000 does not reflect all the crime guns 
that are trafficked into Mexico. And it doesn't reflect all the 
crime guns that are actually recovered in Mexico. We are moving 
in the right direction.
    Mr. Frelinghuysen. How would you characterize the Calderon 
campaign against, these cartels?
    Mr. Sullivan. I would say heroic, heroic. I think they are 
doing a phenomenal job at great cost. Human lives are being 
lost because of the extraordinary efforts of the Mexican 
government.
    Mr. Frelinghuysen. Certainly that is my opinion. And 
lastly, whatever happened to the Merida Initiative? This was to 
provide Mexico with 500 million in equipment and training. But 
whatever happened to that?
    Mr. Sullivan. I can't speak----
    Mr. Frelinghuysen. It went off the radar screen or----
    Mr. Sullivan. I can't speak to that. I do know that we are 
training counterparts in Mexico. We are training in the area of 
post-blast investigations. They have an interest in explosive 
detection canines. They are looking to set up a canine training 
center. We are training them on weapons tracing information as 
well.
    So at ATF without any direct funding in our budget, we are 
utilizing our expertise with our counterparts in Mexico.
    Mr. Frelinghuysen. And lastly, I want to thank you for 
setting up a new field division in New Jersey. And just in case 
the record shows that it is because I served on this Committee 
it did not happen as a result of that. It was in the works long 
before I got on this Committee. But I want to thank you for 
your efforts in the New York and New Jersey region and in 
particular for the new office.
    Mr. Sullivan. Well, thank you for saying that. And that 
effort started before I arrived as well. There were a lot of 
people who worked very, very hard. We set up two additional 
field divisions in 2008, in Denver, Colorado, which is a four-
division state, and in New Jersey.
    Prior to that New Jersey was supported by the New York and 
Philadelphia field division offices. Clearly with a population 
of I think around nine million and some of the challenges, it 
was very apparent to me that a field division in New Jersey was 
critically important from a strategic perspective.
    And there is a cost associated with that. And that cost 
originally was planned out of that $37 million level service 
budget. And it was still a high enough priority from our 
perspective to make sure we got it done. We had great support, 
you know, from our colleagues in New Jersey.
    Mr. Frelinghuysen. Good. Well we thank you and recognize 
you and the people that stand behind you.
    Mr. Sullivan. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you. Mr. Director, we very much 
appreciate your good work in leading this fine organization. 
And we appreciate the good work of everybody who is in it, both 
those sitting here and those who are all over the place 
representing the best interests of the country, sometimes in 
very dangerous jobs.
    We want you to know we appreciate that. We understand how 
lean your budget is and how lean your request is given your 
responsibilities. We want to be as sympathetic as possible.
    You have got really good advocates. You have got Dennis 
Dauphin whose services considerably benefitted this 
subcommittee last year, and you have Scott Sammis here right 
now. So I know you are all positioned very well. We will see 
how it all turns out. Want to be responsive.
    Again, thank you for your testimony here today.
    Mr. Sullivan. Thank you, Mr. Chairman. And Dennis played a 
role in preparing for this hearing. And I will tell you, he was 
a lot tougher than you were. And I thank you for that. Thank 
you for your courtesies.
    Mr. Mollohan. I don't know what that means.
    Mr. Sullivan. Thank you for your courtesies, and your 
interest in ATF, and your support for our mission.
    Mr. Mollohan. Thank you, Mr. Director.
    Mr. Sullivan. Thank you.
    Mr. Mollohan. There will be some questions for the record. 
Thank you.
    Mr. Sullivan. Thank you.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
                                           Tuesday, March 11, 2008.

   OFFICE OF JUSTICE PROGRAMS, COMMUNITY ORIENTED POLICING SERVICES, 
                    OFFICE ON VIOLENCE AGAINST WOMEN

                               WITNESSES

JEFFREY SEDGWICK, ACTING ASSOCIATE ATTORNEY GENERAL, OFFICE OF JUSTICE 
    PROGRAMS
CARL PEED, DIRECTOR, COMMUNITY ORIENTED POLICING SERVICES
CINDY DYER, DIRECTOR, OFFICE ON VIOLENCE AGAINST WOMEN

                    Opening Remarks of the Chairman

    Mr. Mollohan. This hearing will come to order. Good 
morning, everyone. Thank you all for being here. We welcome our 
panel of three Department of Justice witnesses to the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies, the first hearing this year on justice matters.
    Today we will examine the Administration's fiscal year 2009 
budget request for the State and Local Law Enforcement Grant 
programs of the Office of Justice Programs, the Office of 
Community Oriented Policing Services, and the Office on 
Violence Against Women.
    Two years ago, Americans were taken aback to learn that 
violent crime had spiked across the nation in 2005 and 2006 for 
the first time in more than a decade. The FBI's recent 
preliminary uniformed crime report findings may indicate some 
good news for jurisdictions where the number of violent crimes 
reported has declined in the first half of 2007 as compared to 
the same period in 2006. However, it is not all good news. 
Violent crime is still rising in many areas, including in many 
medium-sized cities and small towns.
    In the face of a shaky economy and tremendous state and 
local law enforcement and crime prevention needs, it is as 
important now as it ever has been to ensure that every federal 
dollar is spent wisely.
    The President's budget slashes state and local law 
enforcement and crime prevention grant programs by more than 
$1.6 billion below the fiscal year 2008 funding level of $2.7 
billion.
    The Administration proposed roughly $1.1 billion for four 
ill-defined consolidated grant programs. It is the same plan 
essentially that Congress rejected last year except that the 
funding level requested now is $400 million less than the 
President asked for then.
    Our first witness is Jeffrey Sedgwick, who was named Acting 
Assistant Attorney General for the Office of Justice Programs 
on January the 3rd, 2008. Dr. Sedgwick also continues to serve 
as Director of the Bureau of Justice Statistics within OJP.
    As head of OJP, Dr. Sedgwick is responsible for providing 
federal leadership to develop the nation's capacity to prevent 
and control crime, improve the criminal and juvenile justice 
systems, increase knowledge about crime and related issues, and 
assist crime victims.
    Carl Peed is Director of the Office of Community Oriented 
Policing Services. A career law enforcement officer, Mr. Peed 
is charged with ensuring that the COPS Program advances 
effective community policing practices to improve public safety 
across state, local, and tribal law enforcement agencies.
    Our final witness is Cindy Dyer, the new Director of the 
Office of Violence Against Women, confirmed to this post on 
December the 19th, 2007. Ms. Dyer is responsible for providing 
federal leadership to develop and support the capacity of 
state, local, tribal, and nonprofit entities in preventing and 
responding to violence against women.
    You had a lot of support on the floor of the House last 
year and in this Committee, I might say.
    We look forward to your testimony, all of you. Your written 
statement, I understand it is combined, will be made part of 
the record. And I now call on Mr. Frelinghuysen before we ask 
that you make your oral presentations.

              Opening Remarks of Congressman Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I join the chairman in welcoming you all this morning.
    Overall, the Chairman has said the budget request for state 
and local assistance programs represents a pretty dramatic 
reduction from current and historical levels. Not counting 
rescissions in emergency funding, the fiscal year 2009 request 
is a billion dollars, a reduction of 1.5 billion or 60 percent 
below the current level.
    Like last year, you are proposing to consolidate the 
remaining funding into four new unauthorized multipurpose grant 
programs. We look forward to hearing today about what you are 
proposing to cut and eliminate and why you think such dramatic 
reductions are appropriate.
    And, again, welcome. Thank you.
    Thank you, Mr. Chairman.
    Mr. Sedgwick. Good morning, Representative Ruppersberger. 
Good morning, Dutch, and Ranking Member Frelinghuysen.
    [The information follows:]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>
    
          Opening Remarks of Acting Assistant Attorney General

    My name is Jeff Sedgwick, and I am the Acting Assistant 
Attorney General for the Office of Justice Programs. I 
appreciate the opportunity to testify before this Subcommittee 
regarding the Administration's fiscal year 2009 budget request 
for OJP.
    OJP works in close partnership across the criminal justice 
spectrum, including state and local governments, tribes, 
national law enforcement organizations, victim advocates 
researchers, and many more. Together, we identify the most 
pressing challenges confronting the justice system. Together we 
provide leadership in developing the Nation's capacity to 
prevent and control crime, improve the criminal and juvenile 
justice systems, increase knowledge about crime and related 
issues, and assist crime victims.
    We are and continue to be committed to providing our state, 
local and tribal criminal partners with the knowledge, tools, 
and abilities they need to make America's communities safer for 
our citizens. But, we also recognize the need for spending 
restraint and that we must make tough choices. Resources are 
limited and we must adopt an approach that allows us to be 
adaptable and flexible.
    The President's fiscal year 2009 budget request for OJP is 
$1.4 billion. The proposal outlined in the budget submission 
will allow OJP and its bureaus and program offices to more 
effectively target resources to the areas with the greatest 
needs and where they can do the most good.

                      PROPOSED GRANT CONSOLIDATION

    One of the most significant proposals in this year's budget 
request is the consolidation of more than 70 existing programs 
into three distinct, multipurpose, and highly-competitive grant 
programs. These are the Violent Crime Reduction Partnership, 
the Byrne Public Safety and Protection Program, and the Child 
Safety and Juvenile Justice Program.
    Due in large part to the hard work of local law 
enforcement, the Nation's crime rates are well below historical 
levels and lower than during the previous decade. Despite these 
positive trends, many challenges still exist. Some regions and 
communities continue to experience increases in violent crime.
    As Attorney General Mukasey recently said, the nature of 
crime varies not only from one city to another but even from 
one block to the next. So, it is at the block level that much 
of the work has to happen.
    The Department is following through on the Attorney 
General's commitment. We are working with our state and local 
partners to identify problems and develop meaningful strategies 
to reduce and deter crime.
    Through the Violent Crime Reduction Partnership Initiative, 
we have provided funds to states and localities for violent 
crime task forces to tackle the areas of greatest need. These 
task forces bring together state and local law enforcement 
agencies to address specific violent crime problems with 
focused strategies, including intelligence-led policing. In 
fiscal year 2007, OJP awarded $75 million to 106 sites in 37 
states through this program.
    The President's fiscal year 2009 budget requests $200 
million for the Violent Crime Reduction Partnership Initiative. 
Funding would continue to be used to help communities address 
high rates of violent crime by forming and developing multi-
jurisdictional law enforcement partnerships to disrupt criminal 
gang, firearm, and drug activities.
    The President's budget proposal also includes $200 million 
for the Byrne Public Safety and Protection Program. This 
initiative consolidates most of OJP's state and local law 
enforcement assistance programs into a single flexible, 
competitive discretionary grant program.
    OJP will continue to assist communities in addressing a 
number of high-priority concerns such as reducing violent crime 
at local levels through the Project Safe Neighborhood 
initiatives, addressing criminal justice issues surrounding 
substance abuse through Drug Courts, and methamphetamine 
enforcement and lab cleanup.
    Through the new Byrne Program, we will also focus on 
promoting and enhancing law enforcement information sharing, 
improving the capacity of state and local law enforcement to 
deal with DNA evidence and analysis backlogs, addressing 
domestic trafficking in persons, improving and expanding 
prisoner reentry initiatives, and improving services to victims 
of crime.
    The President is also requesting $185 million for the Child 
Safety and Juvenile Justice Program. This initiative will allow 
OJP to assist state and local governments in addressing 
multiple child and juvenile justice needs, such as reducing 
child exploitation and abuse, including those facilitated by 
the internet, improving juvenile justice outcomes, and 
addressing school safety needs.
    Mr. Chairman, the fiscal year 2009 budget request and the 
proposed grant programs I have discussed today will enable OJP 
to more effectively target assistance to areas with the 
greatest need and allow for adjustments in funding priorities 
in response to emerging trends in crime and justice issues.
    The new grant programs will also provide state, local, and 
tribal governments with increased flexibility and using grant 
funds to best meet the unique needs of their communities.
    We are confident that our proposed budget reflects these 
priorities and will strengthen our mission.
    Mr. Chairman, thank you again for the opportunity to 
testify today and I am happy to answer any questions.

                    Opening Remarks of Director Peed

    Mr. Peed. Mr. Chairman, members of the Subcommittee, my 
name is Carl Peed. I am the Director of the Office of Community 
Oriented Policing Services or better known as COPS.
    I am very pleased to appear before you today on behalf of 
the Department of Justice's Office of Community Oriented 
Policing Services.
    As a 25-year veteran of law enforcement, I am proud to lead 
an organization whose mission is to support state and local law 
enforcement in their efforts to reduce crime through community 
policing.
    The Administration's proposed budget for fiscal year 2009 
includes $4 million for community policing development. The 
Department will use these funds to work closely with law 
enforcement executives and other leaders in the field to reduce 
crime by developing and implementing community policing 
strategies.
    These resources will enable DOJ to build upon and further 
leverage the resources that COPS has for law enforcement over 
the past 13 years.
    Examples of how we use community policing development funds 
to support the field exists in two executive sessions that we 
have supported within the past month. One session addressed a 
stop snitching phenomenon and the other addressed campus public 
safety issues.
    The stop snitching phenomenon of the past years poses a 
significant challenge to law enforcement because it actively 
undermines the ability of police to prevent and solve crime and 
it encourages public distrust of police.
    Unfortunately, understanding the damage that this 
phenomenon is creating, the COPS Office awarded a grant to the 
Police Executive Research Forum to conduct this session which 
attracted law enforcement executives from California to Texas 
to Florida to up and down the east coast, including D.C., 
Baltimore, Philadelphia, some jurisdictions in New Jersey, and 
Boston. And we also had the U.S. Attorney's Office from 
Baltimore there as well as faith-based organizations.
    The lessons learned during the session were combined to 
create a White Paper that will help law enforcement agencies 
and communities throughout the country respond to the stop 
snitching phenomenon.
    The executive session on campus safety was convened so that 
federal agencies and campus law enforcement executives can 
develop strategies that effectively address the public safety 
concerns of our Nation's colleges and universities.
    As high-profile events such as Virginia Tech, Northern 
Illinois University, Delaware State, or even Pepperdine where 
you have wildfires, the need for coordinated efforts such as 
these is to develop national campus public safety standards and 
strengthen partnerships between federal agencies and campus law 
enforcement. This is critical.
    And I might just advise you that the Department of Justice 
has not been immune from these very tragic events. The 
Department of Justice lost an attorney on the University of 
South Carolina campus at the National Advocacy Center several 
years ago, as well as a former colleague of ours in the 
Department of Justice in the COPS Office was gunned down at the 
Appalachian Law School down in southwest Virginia.
    In all, COPS has invested more than $1.3 million in campus 
safety initiatives that have convened campus law enforcement 
executives to develop best practices and establish campus 
safety partnerships and provide training and technical 
assistance to campus law enforcement officials.
    Community policing strategies which include partnerships, 
problem solving, and organizational transformation have helped 
American law enforcement agencies reduce crime by engaging 
their communities and building partnerships to meet new and 
existing challenges.
    I look forward to continuing to support the Nation's law 
enforcement agencies by advancing community policing with the 
community policing development funds in the 2009 budget.
    So thank you very much for allowing me to be here and I 
look forward to answering questions.
    Mr. Ruppersberger [presiding]. Ms. Dyer.

                    Opening Remarks of Director Dyer

    Ms. Dyer. I am honored to be here today with my colleagues 
to testify before the Subcommittee regarding the 
Administration's proposed fiscal year 2009 budget request for 
the Office on Violence Against Women, OVW.
    My name is Cindy Dyer and I currently have the privilege of 
serving as the Director of OVW. The mission of OVW is to 
provide federal leadership to reduce violence against women and 
to administer justice for and strengthen services to all 
victims of domestic violence, dating violence, sexual assault, 
and stalking.
    Since 1995, OVW has awarded over $3 billion in grants and 
cooperative agreements to enable communities to enforce 
protection orders, provide legal assistance, and other services 
to victims, provide intensive training to police officers, 
prosecutors and judges, and support local efforts to respond to 
violence against women.
    During this Administration, OVW has presided over an 
unprecedented expansion of the types of services funded and the 
level of funding awarded.
    Since the reauthorization of VAWA in 2000, our programs 
have enabled communities to increase their efforts to help some 
of the most vulnerable victims, including the elderly and those 
with disabilities and to provide supervised visitation centers 
for victims and their children.
    In addition, in the 2008 ``Omnibus Appropriations Act,'' 
Congress has appropriated funds for the Department to implement 
another six new grant programs which will enhance services for 
victims of sexual assault, young victims, children exposed to 
violence, and victims with culturally and linguistically 
specific needs.
    As OVW administers these programs, we are also working to 
address ongoing challenges in the field, such as expanding 
efforts to assist victims of sexual assault and better 
responding to the critical problem of violence against women in 
Indian Country.
    We know our funds are making a difference and are reaching 
victims. In the six-month reporting period from January to June 
of 2006, OVW's discretionary program grantees reported that 
they served more than 119,000 victims of domestic violence, 
dating violence, sexual assault, and stalking.
    In calendar year 2006, subgrantees of our Stop Violence 
Against Women Formula Grant Program reported serving over half 
a million victims.
    Before coming to OVW, I served for 14 years as the chief 
prosecutor of the Family Violence Division of the Dallas County 
District Attorney's Office.
    In addition, in that position, I managed several OVW 
grants, one directly to Dallas County from OVW's Arrest 
Program, and three subgrants from the State of Texas from OVW's 
Stop Violence Against Women Formula Grant Program.
    From this experience, I know how vitally important these 
funds are to local communities. With the Arrest Program grant 
to Dallas County, we were able to form an effective, 
coordinated community response involving the District 
Attorney's Office, the local women's shelter, the Dallas Police 
Department, and a nonprofit provider of civil legal services 
for victims.
    Because of this coordinated community response, which was 
made possible as a result of VAWA funds, I can personally tell 
you that the way domestic violence cases are managed in Dallas, 
Texas has improved dramatically.
    The fiscal year 2009 President's budget requests $280 
million for OVW, a significant reduction from the amounts 
sought in recent years. I know that this year's budget 
recommends reductions to OVW grant programs that our sister 
agencies have been experiencing for the past several years.
    I can assure you that OVW will leverage its resources so 
that it can continue to support programs that keep victims safe 
and hold batterers accountable.
    Thank you for allowing me this opportunity to testify and I 
welcome any questions from the Committee.

             Opening Statement of Congressman Ruppersberger

    Mr. Ruppersberger. Thank you. I will start and then we will 
go back and forth.
    I said this last year and I will say it again this year, 
that I think the cuts or the budget requests from the President 
for Office of Justice, the COPS Program, and Office of Violence 
Against Women are unacceptable.
    We have a lot of priorities out there. We know it. We have 
issues that are out there with Iraq and Afghanistan and all the 
areas that we are dealing with, but we also have to remember 
home base.
    I also understand that you are here on behalf of the 
Administration and, if I was the President, I would want you to 
support my budget. But I am going to ask you these questions 
anyhow for the record.
    You know, the federal government plays a significant role. 
I was a prosecutor for close to ten years, and the Office of 
Domestic Violence might not be as funded as it is in a lot of 
other jurisdictions because you have murders, rapes and 
robberies, and you need to fund those special areas. This is 
where the federal monies really do help. And I think when the 
monies are there, and as you just pointed out, Ms. Dyer, that 
those monies have helped and have really made a difference.
    You know, we are shortchanging our local law enforcement. 
We have had a lot of successes recently. I am from Baltimore. I 
mean, just last week we had ATF and state and local agencies 
working together on a gun, and gang case. Last year we had a 
project request make it out of this Committee that to have a 
focus on gang violence from Philadelphia to North Carolina. I 
mean, this is where the federal government really needs to step 
in.
    I am also concerned about the President's cuts. I think the 
grants go from funding levels from 2.6 billion to a little over 
one billion. That is totally unacceptable to continue what we 
need to do. We have issues in our streets also.
    The other thing that concerns me, and then I will get to my 
questions, in addition to the reduced amount requested, we have 
concerns about consolidating all the grants into a few larger 
grant programs.
    Now, this is going to result in potential grantees 
competing against programs that are dissimilar. So you are 
pitting good intentions against each other. You know, we are 
going backwards in our communities instead of forwards. And as 
we know, security and safety is a high priority.
    All right. Attorney General Sedgwick.
    Mr. Sedgwick. Sedgwick. You can call me Jeff.
    Mr. Ruppersberger. Well, with a name like Ruppersberger, I 
have got to get it right.

                  EFFECT ON OJP OF DECREASE IN FUNDING

    How do you expect, and I kind of know where your answer is 
going to be, but I have got to do it for the record, how do you 
expect state and local law enforcement agencies to be as 
successful as they have been in the past with less than half of 
the resources available to them in 2008? It is going to be 
interesting to hear your answer to that one.
    Mr. Sedgwick. It----
    Mr. Ruppersberger. Fiscal year 2008, one billion reduced to 
.4 billion, a difference of $601 million. Good luck.
    Mr. Sedgwick. If the question----
    Mr. Ruppersberger. Oh, yeah. Could you use the microphone 
too?
    Mr. Sedgwick. Yes. If the question is will state and local 
law enforcement be able to do as much as they have in the past 
with appropriations or funding cuts to OJP, I think the answer 
is pretty obvious no, they are not going to be able to.
    However, I would call your attention--but, I mean, 
obviously we all know what the impact of shifting priorities 
is. The thing that I would point to, there are two things that 
I would point to here.
    One is that the budget for the Department of Justice 
reflects a conscious choice on the part of leadership in the 
Department to protect core functions of the Department of 
Justice that include, as you mentioned in Baltimore, work by 
ATF, DEA, FBI, and so on, are important in terms of affecting 
local law enforcement problems.
    For example, the ability of the federal government to 
protect borders and to prevent drugs from being brought into 
the country across, for example, the Mexican border has a 
direct impact on the state and local law enforcement.
    Similarly, the ability of the Department of Justice, 
through a core function of it like the Bureau of Prisons, to 
incarcerate persons for drug or gun or gang offenses that 
otherwise would fall on state and local budgets is an important 
support for local law enforcement.
    So I think part of what you are seeing here is a conscious 
decision on the part of Department leadership, which I support, 
that says the Department must do the core functions of the 
Department of Justice because those impact or cascade down to 
the state and local government.
    And then the second part of it is, with the reduced funding 
that we have, is the Department making sure that its core 
functions are properly supported. Our obligation then is to 
take the amount of money that we are given and the Department 
prioritizes its funds and makes sure that those funds are spent 
well. And that is the whole logic behind seeking to combine 
programs into broader categories that are flexible and also 
competitive.
    One of the things that we know in the Department of 
Justice, and I was lucky enough to participate in the 18 city 
tour a little over a year ago where we went around and looked 
at and toured a variety of cities to ask questions about the 
increase in crime that was reported in the 2005 UCR.
    One of the things that we learned is needs differ from 
community to community. And their violent crime increase that 
was measured in 2005 was confined largely to murder and 
robbery, not to rape and assault. It varied by region of the 
country. It varied by city size. Even within cities, the crime 
problems could be identified to hot spots, particular blocks.
    And so we think, you know, with the kind of strained 
financial times that we are in, the appropriate response to 
that is to be able to target funds to where they will do the 
most good, recognizing we are not dealing with a national crime 
wave. We are dealing with hot spots that are distributed across 
the country in different sorts of ways.
    So that is the logic behind the budget.

                        IMPACT OF DRUGS ON CRIME

    Mr. Ruppersberger. Well, good try. Do you feel that drugs 
have a major impact on crime in the country?
    Mr. Sedgwick. What we are seeing is drugs, guns, and gangs.
    Mr. Ruppersberger. And it seems to me that, and I can say 
this in the intelligence community also, that the issue of 
terrorism is really something we have to deal with. No 
question.
    But if you really want to look at what is probably the 
largest problem that we have as it relates to crime, it is 
drugs. Drugs throughout the world and the impact that it has on 
crime, on victims, and that type of thing. But we will move on 
with that.
    Mr. Peed, where were you in law enforcement?
    Mr. Peed. Fairfax County, Virginia.
    Mr. Ruppersberger. Okay. What was your job?
    Mr. Peed. I served 25 years there, ten as the Sheriff of 
Fairfax County.
    Mr. Ruppersberger. Okay. Did you take advantage of the COPS 
Program when you were----
    Mr. Peed. Yes, sir. We had some fingerprint technology or 
the AFIS System is one of the things that we had.

                         RISE IN JUVENILE CRIME

    Mr. Ruppersberger. One of the things I have noticed, we 
have again another cut in the COPS Program. And I do not want 
to put you in a bad position, but one of the things that we 
also have to deal with now which has become very prevalent is 
juvenile crime.
    Would you agree that juvenile crime has started to escalate 
and that we are having some serious problems with respect to 
that?
    Mr. Peed. I think that any time you have young people, I 
think you are going to have those issues. So as the population 
of young people increase, I think you are going to have those 
issues.
    Mr. Ruppersberger. Are you aware of the fact that you are 
having a lot of issues as it relates to gang violence? 
Actually, we have juveniles recruited in middle school, and 
this has gotten to be a pretty serious issue.
    Mr. Peed. As Dr. Sedgwick said, it is guns, gangs, and 
drugs.
    Mr. Ruppersberger. Which is unfortunate because child 
safety and juvenile justice grants in this budget is down by 
more than half. Right now fiscal year 2008, and it was, which 
is not a lot to begin with, $383 million, and right now we are 
down to 185 million.
    Where would you put that money?
    Mr. Peed. Are you talking about the OJP?
    Mr. Ruppersberger. Since we are cutting it in half and you 
talked about priorities, to which jurisdiction are we going to 
cut half of this money that would go to juvenile crime in this 
country? If you cannot answer it, that is fine.
    Mr. Peed. I cannot answer. I think that would fall under 
the Office of Juvenile Justice.

                          TARGETING OF FUNDING

    Mr. Ruppersberger. Just trying to prove a point. I know the 
position you are in, so I am trying to be nice. Just trying to 
make a point.
    One other thing. Ms. Dyer, how many grants do you expect 
your office to provide in fiscal year 2008? Do you have any----
    Ms. Dyer. I honestly do not know.
    Mr. Ruppersberger. Okay. Has violence against women gone 
down significantly in the last year?
    Ms. Dyer. No.
    Mr. Ruppersberger. And, yet, we are getting a cut? Okay. No 
further questions.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. So we understand, the reason we have 
these massive cuts, the rationale behind it is that we are 
trying to protect core programs. Is that what you said?
    Well, for many of us in Congress, the Office of Justice 
Programs, the office of Violence Against Women programs, and 
the COPS programs are pretty important. We regard that as the 
core and you are proposing a major consolidation and you are 
cutting basically 60 percent of the budget for these programs. 
Would you agree?
    Mr. Sedgwick. Yes.
    Mr. Frelinghuysen. You raised the issue of money being well 
spent. Is there any problem with the way the dollars have been 
spent in any of your programs? Has there been any audit that 
has pointed up the fact that some of these programs are not 
well managed, that there is some lack of accountability?
    Mr. Sedgwick. The question of whether or not money is well 
spent by a particular grantee is different from the question 
whether or not the existing structure allows us to target 
resources to the areas that have the greatest needs. It is 
slightly different.
    Mr. Frelinghuysen. But just targeting resources to those 
who have the greatest need, you do not feel that the Office of 
Justice Programs and the COPS programs and the Office of 
Violence Against Women program are not areas of the greatest 
need?
    Mr. Sedgwick. No. Quite to the contrary. I believe that the 
Office of Justice Programs addresses areas of great need. And 
there are other needs that the Department of Justice's Office 
of Justice Programs also addresses.
    So the question is really saying, are the needs that are 
addressed by the Office of Justice Programs greater in terms of 
their priority of importance than the needs that are addressed 
by the FBI, the Bureau of Prisons, the Executive Office of U.S. 
Attorneys, the U.S. Marshals, the DEA, ATF, and so on. Okay?
    I can vigorously advocate for the programs in the Office of 
Justice Programs.
    Mr. Frelinghuysen. Please do.
    Mr. Sedgwick. But I also understand that Department 
leadership has a broader range of responsibility than I do as 
Assistant Attorney General for Office of Justice Programs and 
they may see things differently than I do because, quite 
frankly, I do not really worry much about the Bureau of Prisons 
or the FBI or the Executive Office of U.S. Attorneys. I have my 
hands full with the programs within the Office of Justice 
Programs.

                   FUNDING UNDER GRANT CONSOLIDATION

    Mr. Frelinghuysen. Indeed you do. It is not in your budget. 
Can you give us an idea of how much of a reduction we can 
expect in money for the Drug Courts, victims of human 
trafficking, grants, gang prevention, child abuse, prosecution, 
southwest border prosecution, or any of the other programs that 
have always had separate budgets?
    Mr. Sedgwick. If the President's budget is accepted, the 
proposal to consolidate 70 odd grant programs into a small 
number of broader, more flexible programs, no, I will not be 
able to tell you that because essentially those particular 
programs, how much is allocated to each of those needs will 
depend on the quality of the proposals and the prioritization 
of the proposals that are received under each of these three 
broad categories in OJP.
    So, quite frankly, I mean, this is a different way of 
thinking about the problem. You no longer will be able to say, 
okay, how much will go to, say, Drug Courts or human 
trafficking. We will not actually know that until we run the 
solicitations and get the proposals from state and local 
governments saying in my jurisdiction, this is the greatest 
need that we have and this is what we propose to do about it.
    So we will not know in advance how much will be allocated 
to each of those. The allocation will be based on the quality 
of the proposals that are received from State and local 
government as they identify what are the greatest needs in 
their jurisdiction.
    Mr. Frelinghuysen. So underlying your view that you are 
leaving open the possibility that under a newly-devised 
competitive process some of these programs could possibly be 
eliminated?
    Mr. Sedgwick. Funding for those particular purposes might 
not occur if state and local governments do not apply and say 
this is the most significant need in our jurisdiction.
    Mr. Frelinghuysen. I do not think there will be any problem 
with anybody. Everyone is eager to apply and these are still 
identifiable needs that are in the community.
    Mr. Sedgwick. But it will depend on each state and local 
community saying this is the most significant need in our 
community. It is at least conceivable to me, unlikely, but it 
is conceivable to me that, for example, no jurisdiction might 
write an application and say the most important project in my 
particular or the most important need in my particular 
jurisdiction is a Drug Court. That is conceivable. All right?
    And if no one says this is the most pressing need in my 
jurisdiction to have a Drug Court----
    Mr. Frelinghuysen. But all in all, the Drug Courts have 
been enormously successful and the issue of human trafficking, 
if anything, may be not true in all congressional districts, is 
a huge issue. Gang prevention, is often associated with urban 
areas, but in reality, is out in suburbia big time.
    Mr. Sedgwick. I do not disagree with you saying each of 
these programs----
    Mr. Frelinghuysen. One of the issues, of course, is the 
ability of some degree of stable funding. You really cannot 
fight on these problems unless law enforcement has some feeling 
that there is going to be financial stability.
    That is why whenever annually this budget comes up, the 
Administration proposes and we dispose, and I think we are 
probably inclined to do what we have done in the past. I think 
that is the way it should be.
    Thank you, Mr. Chairman.
    Mr. Mollohan [presiding]. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    I guess I just do not envy you right now. A couple of 
reasons. It sounds like you are supposed to perform a mission 
and you have an important mission, and you do not have enough 
money to do it; is that correct?
    Mr. Sedgwick. If your question is, could I do more good 
with more money, absolutely. But there is not a single person 
in the Executive Branch who would answer that question the same 
way.

                        ALLOCATION OF OVW FUNDS

    Mr. Honda. And so you approach eliminating programs under 
for example the ``Violence Against Women Act,'' some of the 
funding for which was put together to direct money to minority 
communities? And given that directive to eliminate programs 
plus what you call your core directive, how are you going about 
allocating the funds?
    Ms. Dyer. The ``Violence Against Women Act,'' you are 
correct that currently there are several grant programs within 
the ``Violence Against Women Act'' that our office administers. 
All of those grant programs will remain. They will remain as 
eligible purpose areas within the new broader, competitive 
program.
    And so they are still there. Communities can still request 
grant funding focusing on those eligible purposes areas. So 
nothing that is currently available for funding will not be 
available under the new competitive program.
    Mr. Honda. Say that last part again.
    Ms. Dyer. None of the grant programs, for example, those 
that specifically address culturally and linguistically 
specific populations, there is a grant program just for that 
area. That grant program will remain in the new competitive 
grant as an eligible purpose area. Communities can still 
request a grant with that specification.
    Mr. Honda. How much money is in their pot?
    Ms. Dyer. There is not a specific amount of money per grant 
program as there is now.
    Mr. Honda. How much money is in that collective pot?
    Ms. Dyer. Two hundred and eighty million dollars.
    Mr. Honda. I think it is ten percent set aside. Was there 
not a specific percentage that was supposed to be set aside for 
that?
    Ms. Dyer. Currently under the current grant program, there 
is a specific amount of money in, for example, the culturally 
and linguistically specific grant program. I do not know how 
much money it is. There is not a specific set aside----

                  OVW TIMELINE FOR GRANT DISBURSEMENT

    Mr. Honda. What I hear from the community is that they are 
not able to access it, access any of those funds. And they are 
having difficulty, I guess, getting any kind of response. What 
is going on there?
    Ms. Dyer. Tell me which community are you referring to that 
is not able to access the funds.
    Mr. Honda. In general, the minority community who are 
applying for those funds are not getting any responses. So what 
is being told of these folks who are applying for these grants?
    Ms. Dyer. Well, every grantee that submits an application, 
the Office on Violence Against Women does not determine who is 
awarded the grant funds. It is done by a peer review team of 
experts within the field of domestic violence and sexual 
assault. They get all the applications for funding and they 
rank them based on need and based on their proposal and the 
likelihood of success.
    Mr. Honda. So you are telling me that when they apply for 
the grants, the applications are accepted and there is a 
process that you are following and they have a timeline that 
they are given so that they have time certain that they can 
count on?
    Ms. Dyer. There is a scoring process that----
    Mr. Honda. There is no time definite by which time they can 
be told, you know, whether their grant is going to be awarded 
or not?
    Ms. Dyer. Yes.
    Mr. Honda. There is?
    Ms. Dyer. Yes, there is. Everybody is notified of whether 
or not their grant application was awarded or not after the 
peer review process has occurred.
    Mr. Honda. And when does that start or has that started?
    Ms. Dyer. Each grant currently is posted. Generally 
speaking, they are going to go online January, February. Some 
of them will go online even earlier than that.
    And grantees like me when I was down in Dallas will write 
our application and submit it and then as soon as the budget is 
finalized by Congress and we know how much money, OVW knows how 
much money they have to give out in grants, then they fund 
those that scored the highest. And the notices go out that your 
grant application was accepted or was denied. And those notices 
go out in my experience as a grantee in around August.
    Mr. Honda. So last year's grants have been allocated and 
this year's are being----
    Ms. Dyer. Yeah. Right now there are still applications 
being sifted and----
    Mr. Honda. They will know by August whether they have been 
granted?
    Ms. Dyer. Well, I just became the Director in January. My 
experience as a grantee was that we got notice of whether or 
not we got our grant in about August.
    Mr. Honda. In spite of the fact that we are not sure 
whether we are going to have a budget or not?
    Ms. Dyer. Well, that is one of the reasons that I think the 
notices were not sent out to the grantees earlier because the 
Office on Violence Against Women or other grant-making offices 
cannot make definite determinations about which grants are 
going to be funded until they know how much money they have to 
give out.
    Mr. Honda. But could you not operate based upon an 
assumption that at the minimum we look at the President's 
budget?
    Ms. Dyer. Well, no. We do not make promises about grants 
going out until we know how much money we have to give.
    Mr. Honda. So, actually, nothing happens then?
    Ms. Dyer. I am sorry?
    Mr. Honda. Nothing happens. I mean, you ran a program.
    Ms. Dyer. Yes.
    Mr. Honda. And you have to meet deadlines. You have to meet 
payroll. You have to meet programs. If you do not know any of 
those information, how do you run a program?
    Ms. Dyer. Well, you do not start the grant until you find 
out whether or not your application was funded.
    Mr. Honda. Well, you have to submit it before----
    Ms. Dyer. Right.
    Mr. Honda. Right?
    Ms. Dyer. Yeah. You submit it.
    Mr. Honda. I assume they are all submitting them now and 
they have to wait until August, right?
    Ms. Dyer. Yes. You know, they will find out whether or not 
their grant was accepted usually in the summer. We found out in 
about August.
    Mr. Honda. What is the fiscal year that those programs run 
on?
    Ms. Dyer. Well, some programs run on calendar year and some 
run on a fiscal year. My program in Dallas ran on a fiscal year 
starting in October.
    Mr. Honda. Okay. Do you understand where I am going with 
this? You ran a program.
    Ms. Dyer. Yes.
    Mr. Honda. I am sure you must have wrung your hands.
    Ms. Dyer. Oh, sure. I wish I would know much earlier, but 
generally the granting agencies, they could not tell us whether 
our grant was going to be funded until they knew how much money 
they had to give out.
    Mr. Honda. Okay. It just seems like with the experiences 
all of you have in the field that there is some sense that or a 
process that you can address some of the concerns that they 
have out in the field in terms of meeting their deadlines and 
at least give some sense of minimum funding. And then if there 
is more, then you add to that. But it sounds like nothing is 
occurring right now until you find out whether you have a 
budget or not.
    Did we have a budget last year?
    Ms. Dyer. Yes. And when the budget was announced, that is 
when the grant notices, that is when I found out, for example, 
in Dallas that we had gotten a grant application.
    Mr. Honda. I forgot. When was that? Do you remember the 
date that was announced?
    Ms. Dyer. No, sir. I do not know. I was in Dallas at the 
time. I really do not know when the budget was announced last 
year, no.
    Mr. Honda. Okay. Thank you.
    Mr. Mollohan. Mr. Fattah.
    Thank you, Mr. Honda.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.

                      GRANT CONSOLIDATION PROPOSAL

    So let me just see if I understand. You want to consolidate 
70 existing grant programs.
    I guess my first question is that given that there are just 
a few months left in this Administration, why would you think 
it useful to spend a lot of energy in this consolidation 
process versus just trying to fairly administer the programs as 
they exist now? We are rearranging the deck chairs in the last 
few months of a two-term Administration.
    Mr. Sedgwick. I think the impetus behind this proposal is 
based on what we learned looking quite closely at crime trends 
in the United States.
    You all may remember that when the first uptick happened in 
2005 that there were reports from various organizations that, 
you know, this is a gathering storm, this is, you know, a new 
crime wave.
    I mean, one of the advantages of working in the Office of 
Justice Programs is it contains both the Bureau of Justice 
Statistics and the National Institute of Justice. And we 
operate very much on a knowledge-to-practice model.
    So we have access in the Office of Justice Programs to the 
people who have devoted their entire lives to benchmarking 
crime trends in the United States and looking at key indicators 
of crime and criminal justice across the board.
    And so one of the things that we did when this uptick 
occurred in 2005 which came as a shock because we had grown 
used to approximately 12 consecutive years of crime decreases, 
so this all came as a shock, and we went out and said, okay, 
let us first of all look at the crime data, UCR data from the 
FBI based on administrative records, let us look at the data 
from the National Crime Victimization Survey administered by 
the Bureau of Justice Statistics that talks directly to 
victims, and let us see if we cannot understand, let us drill 
down into this and see if we cannot pick up indicators of what 
is going on out there, and if we can understand, is this a 
reversal of a long-term trend that has lasted for more than a 
decade?
    That is to say are we launched upon an increasing trend now 
that is going to go out for several years? Is this just a minor 
blip?
    Mr. Fattah. My question is a simple one and it is not a 
trick question. It is just that you have only a few months 
left.
    Mr. Sedgwick. Sure.
    Mr. Fattah. And this Administration is going to be exiting 
and a new Administration is going to be coming in. These 
existing programs have been authorized by the Congress, you 
know, in the women against abuse area, and very specific 
focused efforts.
    And so I am trying to figure out why you would spend your 
energy, and I am sure there is a good reason, but in trying to 
kind of rearrange the structure of things now. That is the kind 
of work normally done at the beginning of an Administration.
    Mr. Sedgwick. Well, the crime increased actually in 2005, 
in the second term of this Administration, and basically we are 
recommending this based on what we learned from that 
experience.
    We continue to think that for this Administration and for 
Administrations to come in the future, so long as the crime 
pattern in the United States continues the way it is now, where 
you have, you know, some regions experiencing increases and not 
others, some city sizes experiencing increases and not others, 
some blocks in a particular city increasing, you know, 
experiencing increased violent crime and not others, a 
flexible, broad-based competitive process that allows state and 
local governments to come to us and say in my jurisdiction, 
this is the most important problem, I want to ask for funds for 
this particular problem, is a smarter way to approach things 
rather than to present an array of 70 odd programs and say to 
local jurisdictions irrespective of what your problem is, the 
only way you can get money is to come ask for money within one 
of these categories----

                        APPLICATIONS FOR FUNDING

    Mr. Fattah. Let me ask you a different question before my 
time runs out. For the Committee, which ones do you receive too 
few applications versus the resources that are available?
    Mr. Sedgwick. Not off the top of my head.
    Mr. Fattah. And there were not any programs against 
domestic violence? Were there programs where money went 
languishing because there were no applications for them?
    Ms. Dyer. No, not that I am aware of.
    Mr. Fattah. All right. Are you aware of any?
    Mr. Peed. No, sir.
    Mr. Fattah. Throughout the array of 70 programs?
    Mr. Sedgwick. Actually, I can think of one example.
    Mr. Fattah. Okay.
    Mr. Sedgwick. Okay? The Bureau of Justice Statistics 
administers a program helping state and local governments build 
criminal history records of stalking and domestic violence. For 
the past several years, we have had money available in that 
particular grant program and we have not had a sufficient 
number of requests for that money to be able to give it away.
    So we have been carrying over a couple of million dollars 
every year in the Bureau of Justice Statistics because state 
and local governments are not submitting proposals for that 
particular purpose even though we have money available.
    Mr. Fattah. And is there any understanding about why? Is it 
something about the design of the program? Is the money too 
limited? Is the need not great enough?
    Mr. Sedgwick. I would have to go back and look at and talk 
to the unit head that administers that particular program. I 
know he has been very aggressive at trying to market this.
    In fact, we have even, when states submit requests for 
criminal history improvement projects and we have not enough 
money left in that category to fund them, we suggested that 
they rewrite their proposals for this other pot of money. And 
we still have not been able to give it away.
    Mr. Fattah. One last question on the COPS Program in 
particular. The 12-year decline seemed to correlate with the 
advent of the federal government assisting cities and local 
communities through the COPS Program with putting 100,000 
additional police officers on the street.

                  BENEFITS OF MORE COPS ON THE STREETS

    And then the Administration decided to go in a different 
direction that somehow left COPS for better, I guess. In the 
analysis that has been done looking at the uptick, did we look 
at whether there was a correlation with the decline in officers 
on the street?
    I know in my own city there was a definite downturn when we 
had the help of the COPS Program. And when that help moved 
away, we had an uptick. So if you would comment, that would be 
helpful.
    Mr. Peed. We all know that crime is a very complex issue. 
And, of course, along with the advent of the creation of the 
COPS Office in 1993, also there were a lot of other things that 
happened at the same time, the truth in sentencing, three 
strikes and you are out, you know, no parole, those kind of 
initiatives which led to higher incarceration rates.
    With regard to an evaluation, there have been 12 studies 
that I know of the COPS Office, including two think tanks in 
Washington, universities such as Yale, Nebraska, University of 
Maryland, as well as the GAO. So there is at least 12 studies I 
know out there. And some come up with different responses in 
terms of their, you know, having an impact on crime.
    So the GAO came up and said for every dollar spent, there 
has been some correlation. I have forgotten the exact number, 
but if you are interested, I can get it to you.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Fattah. If you would supply that to the Chairman.
    I think my time has run out, Mr. Chairman. Thank you very 
much.
    Mr. Mollohan. Thank you, Mr. Fattah.
    The President's budget slashes state and local law 
enforcement and crime prevention grant programs by more than 
$1.6 billion below the fiscal year 2008 funding level of $2.7 
billion.
    Mr. Sedgwick, in your testimony, you state that your agency 
will, ``Provide leadership in developing the nation's capacity 
to prevent and control crime,'' and, ``Improve the criminal and 
juvenile justice systems.''

                 EFFECT OF FUNDING DECREASE ON OJP/COPS

    And I am skeptical about how effectively that can be done 
with a proposed cut of 66 percent below the current year 
funding level for OJP and the COPS Program when there are a 
number of studies, which I want to talk with you a little bit 
about, who looking over the hill say that we need additional 
resources in these areas.
    Could you respond to that?
    Mr. Sedgwick. Will we be able to do less with the fiscal 
year 2009 budget than we are going to be able to do with the 
fiscal year 2008 budget? Sure. Yes.
    Can we still demonstrate leadership? Can we still target 
those monies? Can we still leverage fewer dollars, work smarter 
with the money we have? Sure, we can. And that is basically the 
structure of this budget request.
    What we are asking for, and, actually, we had an experience 
with this in fiscal year 2007 with the continuing resolution, 
where we were able to run several very competitive 
solicitations that targeted money to areas of demonstrated 
need. We think that experience was a success.
    Mr. Mollohan. But----
    Mr. Sedgwick [continuing]. I agree with that, that it was a 
success.
    Mr. Mollohan. I think you all did a responsible job under 
those circumstances. But there is a matter of scale here, is 
there not?
    Mr. Sedgwick. Sure, there is.
    Mr. Mollohan. Reaching every community; is there not?
    Mr. Sedgwick. Well, yes, there is.
    Mr. Mollohan. Which, otherwise, you are really just 
developing a series of pilot projects for which state and local 
folks do not have enough money to implement.
    Mr. Sedgwick. Well----
    Mr. Mollohan. Let me give you a chance to respond.
    Mr. Sedgwick. Well, you know, it can be phrased that way 
and I certainly understand----
    Mr. Mollohan. Is that accurate or inaccurate?
    Mr. Sedgwick. Well, the way I would phrase it is to say, 
look, what is the federal leadership role? Is it to assume 
responsibility for state and local law enforcement or is it to 
leverage federal dollars to fund promising best practices and--
--
    Mr. Sedgwick [continuing]. Then put a spotlight on those 
and say to other jurisdictions if you have a gang problem, you 
should look at this model.

                              DRUG COURTS

    Mr. Mollohan. Right. But let us be fair here. Given the 
request that the President has in 2009 or given the amount of 
money that the Congress came forward with in the 2008 Omnibus, 
we are not taking over state and local law enforcement.
    You allude to the notion that with any one of these budgets 
we are taking over state and local law enforcement, that is not 
at issue. The level at which we are going to try to fund these 
programs will not take over state and local law enforcement. It 
will actually just support some prototype programs to ramp them 
up. And Drug Courts is an excellent example, I think. You were 
talking about that program a little earlier, how wonderfully 
effective some of the statistics suggest that program has been. 
Well, under this budget request, drug court programs would 
receive precious little support across the nation than there is 
now.
    Mr. Sedgwick. Well, I am not sure it is fair to say that 
there would be precious little support for Drug Courts because, 
like I said, if state and local governments are writing grant 
applications or proposals and saying a Drug Court responds to 
the most pressing law enforcement need in my jurisdiction----
    Mr. Mollohan. Well, you know, I am glad we are talking 
about Drug Courts because I heard you say that in response to a 
couple other questions. I do not know a community in the 
country that that is not a problem.
    Now, it may be some community that the judges are not 
temperamentally inclined to and committed to the time and 
effort that it takes to do a Drug Court Program. There may be 
lots of those. But I think there are very few communities 
where, some alternative approach to treating the problem of 
drugs and recidivism and the crime that is associated with it 
is not needed.
    So I think that is really good. I like us talking about 
that because I think that makes a really good case.
    Mr. Sedgwick. May I----
    Mr. Mollohan. Please.
    Mr. Sedgwick [continuing]. Because I think this is an 
important issue. I think it is also important to say, and we 
heard this certainly when we were out talking to the 18 cities 
that we toured, in many cities, they would talk about how 
problems of staffing and, you know, time in U.S. Attorneys' 
offices, bounced cases that had been handled by the U.S. 
Attorney----
    Mr. Mollohan. I am not following that. Say that again.

               RANGE OF ADMINISTRATION FUNDING PRIORITIES

    Mr. Sedgwick. In many cities that we visited, we heard that 
cases that had been handled by U.S. Attorneys, for example, gun 
cases, are no longer being handled by U.S. Attorneys' offices 
because of resource problems. Shortages in U.S. Attorneys' 
offices then bounced those cases back into State courts where 
in many cases, gun laws were less stringent, penalties were 
less stringent. Word went out on the street and guns came back. 
The feds are no longer prosecuting gun cases. Guns came back.
    We heard of cases where because of limitations in the 
capacity in the Federal Bureau of Prisons individuals were not 
going to federal prison anymore. They were winding up now being 
prosecuted and incarcerated at the State level imposing costs 
on state and local government.
    So a piece of this whole proposal that is in front of you, 
if you look just at OJP's budget, what you see are dramatic 
cutbacks. But if you then step back for a second and say, well, 
wait a second, part of the reason why there is less money in 
OJP is because there is more money going to U.S. Attorneys, 
there is more money going to U.S. Marshals, there is more money 
going to the FBI, there is more money going to the DEA, the 
ATF, and so on, so that just as an example, right now there is 
about one and a half billion dollars being spent by the Federal 
Bureau of Prisons to incarcerate persons for crimes that would 
otherwise wind up being incarcerated in the state prisons. That 
is a direct benefit to state and local government that should 
be added on top of what is in my mind in the budget we are 
looking at. So----
    Mr. Mollohan.
    Mr. Sedgwick [continuing]. Part of this is a question of 
are state and local governments better served by giving money 
directly to state and local government at the risk of starving 
core functions of the Department of Justice, whether it is U.S. 
Attorneys, Bureau of Prisons, the FBI, the DEA, or is shifting 
money to those core functions alleviating pressures that would 
otherwise fall on----
    Mr. Mollohan. See, we are having a different debate here, 
however. This is the debate that you get from OMB and I do not 
know what, your pass back is from them. You ought to be 
advocating as we would be inclined to advocate for more 
dollars.
    This is the OMB argument you are giving us. You have got a 
smaller pie, so, you know, do not expect to spend the money 
unless the Congress gives it to you in ways that you did last 
year.
    But because you are advocating for fewer resources does not 
make it right and it does not mean that the federal government 
should not be involved in these programs more as a matter of 
fact. And the argument you are making suggests from my 
standpoint that we ought to be working ahead of these problems 
with some preventive and remedial programs with additional 
resources.
    I know you have advocated for these program changes. Your 
predecessor did last year. Your testimony reflects it and 
supports it. I want to give you every chance to justify your 
recommendation. I think there is precious little support for 
it, if any, on this Subcommittee, so I am not sure we need to 
spend a whole lot of time on that issue.
    So I would like to yield at this time, to Mr. Schiff who 
has just joined us.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                             DNA INITIATIVE

    Mr. Sedgwick, I want to ask you a couple questions about 
our DNA efforts. First, as a former prosecutor, I have been a 
strong proponent of our expanded use of DNA. I think it is one 
of the most powerful tools that we have.
    The President some years ago touted the DNA initiative as 
one of his hallmark criminal justice measures. He originally 
proposed over $230 million in federal funding for the 
initiative in 2004 and called for continuing this level of 
funding for five years.
    Both last year and this year, however, the President has 
not requested any funds for the DNA initiative. The program 
instead appears to be rolled into the Byrne Public Safety and 
Protection Program, and the President has only asked for $200 
million for the entire program. It appears that he has either 
zeroed out the DNA initiative or made a dramatic reduction in 
the amount of resources by forcing it to compete with 
everything else in the Byrne Grant Program.
    How much of the $200 million for this one grant program do 
you believe should be devoted to DNA backlog elimination and 
how did you arrive at that number?
    I also wanted to see if you have any updated estimates on 
the national backlog. I know when it was last done in 2003, the 
numbers were very substantial. I think it was then estimated 
between 500,000 and a million convicted offender samples that 
were owed but not yet collected.

                   TIMELINESS OF DNA SAMPLE ANALYSIS

    Finally, one of the issues that I am researching right now 
is that a lot of states and cities that are having trouble 
getting their samples analyzed in a timely way are using 
private labs at great expense.
    There was a requirement, however, by the FBI, that crime 
labs perform in-house technical reviews of a hundred percent of 
database samples from contract labs. We are trying to find out 
whether this is still necessary or wise.
    In a 2005 memo from the NIJ Director to the Deputy AG, the 
memo confirmed that the burden of these requirements has 
increased the backlog of convicted offender samples, costing 
millions of dollars, and forced crime labs to remove staff from 
analyzing rape kits and other forensic samples.
    I wonder if you could comment on whether we might eliminate 
or revise those requirements to assist local communities in 
getting timely analysis of DNA.
    Mr. Sedgwick. Okay. So you had three questions. One on 
funding and one on the size of the backlog and one on, kind of, 
states turning in frustration to private labs because of its 
inability to----
    Mr. Schiff. Right, and whether we should, like in Los 
Angeles, as I understand it, if you use a private lab, you 
cannot upload into the system. However, the Sheriff's 
Department in L.A. uses private labs for its overflow that are 
uploaded into the system.
    So if you are a city that works with the county, you can go 
to the same lab that the county uses for its overflow and it 
gets uploaded in the system, but you cannot upload your samples 
in the system. That does not make a lot of sense.
    If you could comment on those requirements and whether we 
ought to consider revising or eliminating them.
    One thought I had was we could license these labs at an 
expense that the labs themselves would pay so that the FBI or 
DOJ would certify that a lab uses the correct practices and 
then allow those labs to upload into the system.
    Mr. Sedgwick. Let me take your questions in the order that 
you posed them.
    First of all, the funding question is, you are entirely 
correct. The DNA program gets folded into the Byrne Public 
Safety category under the President's proposed budget.
    What level of funding will go to DNA projects and 
particularly the elimination of the backlog would depend on how 
many jurisdictions apply for funding under that particular 
category and say this is the project that we want to fund. This 
is our highest priority. It is at the state and local level. 
Okay?
    So I cannot tell you how much money would be devoted to DNA 
in any particular year. It would depend on state and local 
jurisdictions identifying that as their need and asking for it, 
requesting it.
    In terms of the size of the backlog, with your agreement, 
can I get back to you on that because I want to give you 
accurate figures?
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Schiff. That would be great.
    Mr. Sedgwick. I would like to talk to the Director of NIJ 
and see what our backlog looks like.
    On your third question, the issue of kind of the problem of 
using private labs and whether or not the findings from a 
private lab can be uploaded into the system, as you were 
describing that, I am thinking, well, I do know and, you know, 
we have talked about this problem of only recognized law 
enforcement agencies with ROI numbers are able to upload DNA 
results into the database which would explain, you know, why 
the Sheriff's Office can do it, but the lab cannot directly do 
it.
    But I am puzzled by the argument or by the, and I take what 
you are----
    Mr. Schiff. Well, it----
    Mr. Sedgwick [continuing]. Mentioning to be true, I am a 
little perplexed why it would be that the Sheriff's Office can 
upload results from a private lab, but the LAPD cannot, because 
my understanding of the restriction on who actually can enter 
things into the database is that you have to have an ROI, that 
is you have to be a recognized law enforcement agency.
    Mr. Schiff. Well, we will follow-up with you on it. I just 
sat down with the City of Glendale, they are working on 
developing their own regional DNA lab, but they work through 
the county of Los Angeles. When they cannot get samples back 
quick enough from the county, they to considerable expense to 
themselves, contract with a private lab. It is the same private 
lab that the county uses for its overflow.
    Mr. Sedgwick. Right.
    Mr. Schiff. When the county uses that as the overflow lab, 
they can still upload their samples. They will not allow the 
samples that Glendale contracts with the same lab to be 
uploaded by them or by the City of Glendale because they were 
analyzed by a private lab.
    Even though it is a law enforcement agency that would be 
uploading them, not the lab itself, because they were analyzed 
by a private lab, not at the county lab, they are not permitted 
to do it.
    Mr. Sedgwick. That sounds very strange to me. So I would be 
happy to work with you and figure out what is going on there 
and, you know, if there is an appropriate tweak in the 
legislation that would eliminate that problem.
    Mr. Schiff. Do you understand the issue and I do not know 
if this is a separate issue, of the crime labs being required 
to perform in-house technical reviews of a hundred percent of 
the database samples from the contract labs? Do you know what 
is involved with that?
    Mr. Sedgwick. No.
    Mr. Schiff. Okay.
    Mr. Sedgwick. But I can look into that as well.
    Mr. Schiff. Okay. All right. Well, I will follow-up with 
you on both of those.
    Mr. Sedgwick. Be happy to work with you on that.
    Mr. Schiff. I want to thank the Chairman for his strong 
support of the DNA Program and his restoration of funds last 
year to the full level of the House authorization. I thank you, 
Mr. Chairman. I yield back my time.
    Mr. Mollohan. Thank you, Mr. Schiff.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.

                             SCAAP PROGRAM

    Mr. Sedgwick, can we talk a little bit about the SCAAP 
Program?
    Mr. Sedgwick. Sure.
    Mr. Frelinghuysen. Once again, you propose to eliminate all 
the money. I think we put in 410 million last year. In your 
budget materials, you say the finding of ``results not 
demonstrated.''
    Can you comment about that? Does the Administration have a 
basic objection to the program or its execution? I mean, we are 
going to have it.
    Mr. Sedgwick. Right.
    Mr. Frelinghuysen. So if there are some basic objections, 
what would you do to perhaps modify it and change it to be 
somewhat more in line with the Administration's views?
    Mr. Sedgwick. I think at this point, the Administration's 
proposal not to seek funding for the SCAAP Program is based, 
first of all, as you correctly note, on an OMB finding that 
results were not demonstrated from the program. So there is a 
question of the recipients of the money being able to 
demonstrate results from that money, that is that----
    Mr. Frelinghuysen. What are your views of the results not 
demonstrated?
    Mr. Sedgwick. At this point, I have no reason to disagree 
with the assessment that was done by OMB. I think part of the 
problem here is that the program currently is structured as 
essentially a revenue sharing program.
    Mr. Frelinghuysen. Which reflects the reality?
    Mr. Sedgwick. Right. Well, here is part of the problem with 
a revenue sharing program from our point of view. This is 
separate from the issue of how broadly funds are distributed.
    If a program is competitive, all right, and recipients need 
to show results, which is typically an expectation when you 
have a competitive grant program, okay, you need to say up 
front what you are going to do with the money, what results you 
anticipate, and then it is the function of our grant monitors 
and our program assessment office to make sure that grantees 
receiving money do, in fact, achieve the results and do spend 
the money for the purposes they said they were going to spend 
it for.
    Revenue sharing programs travel down a rather different 
trajectory. You can look at it as, okay, this is almost like a 
Block Grant. I get this money and I do not really----
    Mr. Frelinghuysen. So that the Administration knowing we 
are going to restore this money, are you coming up with some 
sort of realistic way other than the manner you have described? 
In other words, if we are going to give the money, what would 
you suggest are the possible modifications?
    Mr. Sedgwick. I would----
    Mr. Frelinghuysen. I am going to wade into the whole issue 
of best practices in a few minutes, but----
    Mr. Sedgwick. Sure.
    Mr. Frelinghuysen [continuing]. If you know Congress feels 
that this program is important, what would the Administration 
suggest to modify it other than just annually go out there to 
try to scrap it?
    Mr. Sedgwick. I think if it were changed from a revenue 
sharing model to a competitive discretionary award process, 
that would enhance the quality of the proposals that we get and 
it would also enhance our confidence that the grantees were 
achieving the results that we wanted to see and you wanted to 
see when you initiated the program. I think that would be 
number one.
    The other purpose is, as I understand it, the SCAAP Program 
was originally designed with the intent, the legislative intent 
of the program was to defer correction related expenses that 
were incurred by state and local governments as a result of 
incarcerating illegal aliens.
    As the program is currently designed, any law enforcement 
purpose is sufficient justification for use of the SCAAP funds, 
not corrections. So, again, this may be a matter of taking, you 
know, the legislation authorizing the SCAAP Program and 
tightening the eligibility to make it clear that these funds 
are only available for incarcerating illegal aliens, not any 
law enforcement purpose.
    So I think, you know, if it is the will of the Congress to 
continue the SCAAP Program, then I would suggest that, first of 
all, it be very clear that this is a competitive process and 
the legitimate use of the funds that are appropriated under 
SCAAP must be confined to a narrower range of activities, 
particularly incarceration expenses for illegal aliens.
    Mr. Frelinghuysen. Fair enough. On the issue of best 
practices, last year, we had a substantial discussion with your 
predecessor. A lot of money has gone out of the door, billions 
of dollars for state and local law enforcement. We really never 
developed a single national nationwide repository of 
information about what works.
    What have you been working on in this area?
    Mr. Sedgwick. Certainly within the OJP, one of the 
divisions of labor, I earlier mentioned in answering an earlier 
question, that OJP works a knowledge to practice model. So we 
take very seriously the notion of best practices as well as key 
indicators of benchmarks.
    Kind of the dividing line between benchmarks and best 
practices which sometimes can be kind of hazy is best practices 
are what NIJ does through its research agenda that identifies 
best practices.
    For benchmarks, that is primarily what the BJS does. Now, 
both BJS and NIJ have very aggressive dissemination programs. 
We are working on and we right now make available and 
disseminate through the National Criminal Justice Research 
Service or the Reference Service, NCJRS, access to all of the 
research that is done by the National Institute of Justice, as 
well as all of the statistical studies that are produced by the 
Bureau of Justice Statistics in addition to research reports 
that come out within the Office of Juvenile Justice and 
Delinquency Prevention, BJA, and so on.
    So we do currently have a central clearinghouse. We are 
working very aggressively to make sure that they reach out, 
market more effectively to our stakeholder groups. That has 
been a consistent theme of my tenure as Director of the Bureau 
of Justice Statistics and I am pushing that to OJP as well.
    Mr. Frelinghuysen. Does your budget request include funds?
    Mr. Sedgwick. Yes.
    Mr. Frelinghuysen. What sort of funds specifically?
    Mr. Sedgwick. The specific for NCJRS, we would have to get 
back to you with how much we are spending on that.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Frelinghuysen. I assume we are spending more as a 
result of your attention to this----
    Mr. Sedgwick. We will be making----
    Mr. Frelinghuysen [continuing]. Issue?
    Mr. Sedgwick [continuing]. Sure that there is adequate 
funding----
    Mr. Frelinghuysen. We had substantial discussion about this 
last year.
    Mr. Sedgwick. Right. And like I said, the notion of 
reaching out, being more aware of our stakeholders and what our 
stakeholder information needs are and how they can best be met, 
not simply in terms of the means of dissemination, but also, 
you know, the content of dissemination.

                              RISS PROGRAM

    Mr. Frelinghuysen. One of the needs of sharing information 
is your RISS Program.
    Mr. Sedgwick. Correct.
    Mr. Frelinghuysen. But----
    Mr. Sedgwick. Right.
    Mr. Frelinghuysen [continuing]. You are proposing a 15 
percent reduction.
    Mr. Sedgwick. Well, RISS is, you know----
    Mr. Frelinghuysen. Well, I understand that, yes.
    Mr. Sedgwick. RISS is really designed to be a law 
enforcement information sharing.
    Mr. Frelinghuysen. Yes.
    Mr. Sedgwick. So in terms of a kind of a broader 
dissemination of best practices, I doubt many of our 
stakeholder groups would think of going to RISS.
    Mr. Frelinghuysen. Yes, I realize that. But why is RISS 
funding reduced?
    Mr. Sedgwick. Well, RISS is folded into one of the other 
larger programs, I believe. Let me check that. Oh, actually, 
you are right. RISS is a separate----
    Mr. Frelinghuysen. It is not only a separate, but in 
addition, you are about to roll out an index, a national data 
exchange. What is the difference between the----
    Mr. Sedgwick. Between RISS and index?
    Mr. Frelinghuysen. Yes.
    Mr. Sedgwick. Index is a national information exchange 
system administered through the FBI. RISS is a regional 
information sharing system that operates on a regional basis 
and has been funded and run primarily through BJA.
    So they are slightly different in the sense of whether or 
not both in terms of who administers it and who the line item 
would show up, in whose account the line item would show up. 
But they are also different in the sense of being a national 
index versus a regional.
    Mr. Frelinghuysen. How are both of those systems different 
than what is available off the shelf commercially that police 
and law enforcement can access?
    Mr. Sedgwick. Okay. As I understand it in both the case of 
index and RISS, these are law enforcement information sharing. 
We would probably call them law enforcement intelligence, okay, 
which is rather different from what a best practice is.
    Best practice is okay if you want to address this 
particular problem in your jurisdiction, what is likely to be 
the most effective strategy for doing that. Okay?
    Our stakeholders looking for best practices would gravitate 
to one of three places. They would either be headed toward the 
Bureau of Justice Statistics----
    Mr. Frelinghuysen. One of the issues of best practices, 
obviously they have the best information----
    Mr. Sedgwick. Sure.
    Mr. Frelinghuysen [continuing]. And intelligence.
    Mr. Sedgwick. Right. I absolutely agree with you. But they 
would also gravitate to the web site of the National Institute 
of Justice or if they wanted a central clearinghouse that had 
all of the research reports and all of the program reports that 
grew out of any OJP funded program, they would be gravitating 
toward NCJRS.
    Mr. Frelinghuysen. Will the local law enforcement people be 
fed into Index?
    Mr. Sedgwick. Yes.
    Mr. Frelinghuysen. That is state and local?
    Mr. Sedgwick. Yes. My understanding is that the Index 
Program is being built very much as a replacement to the old 
Miber system.
    Mr. Frelinghuysen. Will it cost them?
    Mr. Sedgwick. What?
    Mr. Frelinghuysen. Will it cost them? Will there be costs 
to local law enforcement for their participation?
    Mr. Sedgwick. That is a question that is best directed to 
the FBI----
    Mr. Frelinghuysen. Yes.
    Mr. Sedgwick [continuing]. And Director Bush, Assistant 
Director Bush.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.

                             SCAAP PROGRAM

    Mr. Mollohan. Thank you, Mr. Frelinghuysen.
    Mr. Sedgwick, You have described a very different program 
than I understand SCAAP to be. And so, first of all, I would 
like to ask you do you know just sitting right there without 
referencing the statute what the criteria for SCAAP 
reimbursement is?
    Mr. Sedgwick. No, I do not.
    Mr. Mollohan. Okay. So in your testimony before, you 
described the reimbursement and the purposes of SCAAP, as far 
more than a correctional reimbursement program. You described 
it as almost a, I think you did use the words an entitlement 
or----
    Mr. Sedgwick. No. I said it was----
    Mr. Mollohan. Revenue sharing.
    Mr. Sedgwick. It is a revenue sharing program.
    Mr. Mollohan. Okay. But not necessarily or exclusively tied 
to corrections--expense reimbursement?
    Mr. Sedgwick. Correct.
    Mr. Sedgwick. The way that program has been administered to 
this point, and I believe the program is administered 
conformable to the statute, is that it has allowed 
reimbursement to go out to jurisdictions for law enforcement 
purposes that go beyond narrow correctional.
    Mr. Mollohan. Reimbursement?
    Mr. Sedgwick. Yes.
    Mr. Mollohan. Reimbursement. Well, it is my understanding 
that actually states and locals submit for reimbursement under 
SCAAP, only for correctional purposes.
    And really my question is, are you someone who can 
definitively answer this question and testify to that point? 
And if not, maybe there is somebody behind you that can. It is 
fine if you cannot. No witness can answer all questions. So are 
you?
    Mr. Sedgwick. Can you answer the question?
    Can you repeat the question, please?
    Mr. Mollohan. Are you as a witness here capable of telling 
the Committee what is the criteria based upon which the federal 
government reimburses state and locals under the SCAAP Program?
    Mr. Sedgwick. I can tell you that prior to fiscal year----
    Mr. Mollohan. No, no. I am asking if you are the person who 
can definitively testify on this point, because I just do not 
want to spend time on it if you are not----
    Mr. Sedgwick. Okay.
    Mr. Mollohan [continuing]. Because we can submit it. We can 
get it for the record. I just think you are----
    Mr. Sedgwick. If you would prefer, I would be happy to get 
back to you with answers.
    Mr. Mollohan. It is not my preference. It is your level of 
comfort and whether you can do it or not. Of course, I want to 
know. I want to know what is the criteria upon which the 
Department of Justice reimburses state and locals for under the 
SCAAP Program. And it is a big program. It is an important 
program. There is a huge demand for it.
    If you think we are not going to fund SCAAP, believe me, I 
can tell you we are going to because we experienced a little 
revolt on the floor of the House of Representatives last year, 
so----
    Mr. Sedgwick. If you want very detailed----
    Mr. Mollohan. I just want----
    Mr. Sedgwick. If you want a very detailed----
    Mr. Mollohan. Okay. Let us get it for the record.
    Mr. Sedgwick. We can get it for the record.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. Okay. Fair enough.
    Mr. Sedgwick. I can tell you that prior to fiscal year 
2006, there was no requirement for recipients to use SCAAP 
funding to address law enforcement or correctional issues. 
Beginning with fiscal year 2006, Section 1196 of the ``Violence 
Against Women and the Department of Justice Reauthorization 
Act'' requires that SCAAP funds must be used for correction 
purposes. That is a relatively recent----
    Mr. Mollohan. Okay. All right. Well, so the 2006, the 
2007----
    Mr. Sedgwick. Beyond that----
    Mr. Mollohan. No, no, no.
    Mr. Sedgwick [continuing]. I can get you all the detail you 
would like.
    Mr. Mollohan. So you are saying that indeed under SCAAP, 
the federal government can now, regardless of what happened 
pre-fiscal year 2006, that now can only reimburse for 
correctional related expenses?
    Mr. Sedgwick. Right.
    Mr. Mollohan. So your test----
    Mr. Sedgwick. Mr. Chairman----
    Mr. Mollohan. So it is not revenue sharing?
    Mr. Sedgwick. It is going towards direct costs. It means it 
is going toward direct costs.
    Mr. Mollohan. Well, it is at least part sharing.
    Mr. Sedgwick. Revenue sharing has a whole different 
implication.
    Mr. Mollohan. I appreciate the gentleman raising the issue. 
Has the Administration recommended under this request 
elimination of the SCAAP Program?
    Mr. Sedgwick. Yes.
    Mr. Mollohan. Well, that is a really big hole that we are 
going to have to fill. It goes along with a number of other big 
holes.

                       SOUTHWEST BORDER INITIATIVE

    Also, you are eliminating funding for the Southwest Border 
Prosecutors Initiative; are you not? This is a huge issue, 
illegal immigration and the federal government addressing 
illegal immigration. And it creates huge strains upon state and 
local law enforcement and corrections people.
    Is the Administration taking the position that securing the 
border and apprehending and processing criminal aliens is not 
in part at least a federal responsibility?
    Mr. Sedgwick. No. Actually, quite to the contrary. I am 
glad you brought that up because----
    Mr. Mollohan. Well, thank you. I am----
    Mr. Sedgwick. No. It is actually a wonderful opening to, 
you know, reinforce a point that I made earlier. The Southwest 
Border Protection Initiative is defunded in this particular 
budget.
    If you will look at the larger Department of Justice 
Budget, you will see there is a Southwest Border Enforcement 
Initiative that has been added. It, though, is funded through 
and operated by----
    Mr. Mollohan. Do we have a ``not invented here'' problem? I 
mean----
    Mr. Sedgwick. The what?
    Mr. Mollohan. The one border initiative is a congressional 
initiative and the other is an Administration initiative and it 
does the same thing or----
    Mr. Sedgwick. No. Actually, it shifts the focus. The new 
enforcement initiative is actually a joint cooperative project 
of the Executive Office of the U.S. Attorneys, ICE, and a 
variety of other federal agencies.
    So essentially what has happened is rather than funding 
border enforcement through grants to state and local 
government, that money is now being shifted to federal 
officials to take greater responsibility, Mr. Chairman.
    Mr. Mollohan. Okay. We will look at that distinction 
carefully.

                             SCAAP PROGRAM

    Let me just come to a little closure on the SCAAP Program. 
Now that you understand and we understand that SCAAP is 
dedicated to reimbursement for correctional expenses incurred 
by state and local jurisdictions because of the criminal alien 
burden that they have had to assume, do you take the same 
position with regard to SCAAP, that it should be eliminated?
    Mr. Sedgwick. I think the case for continuing SCAAP would 
be stronger if we are able to demonstrate results from SCAAP.
    Mr. Mollohan. What results?
    Mr. Sedgwick. Well, we have an existing part evaluation----
    Mr. Mollohan. I mean, they are incarcerating people. I 
mean, this is a reimbursement program. It is not a remedial 
program. This is a straight out, you are incurring expenses 
because the federal government is failing its responsibility 
along the border to control illegal immigration. Therefore, we 
recognize that is a burden you are assuming because it is a 
federal failure. We are going to reimburse you to that extent. 
You cannot get around that logic, right? That is great. What a 
victory. Wonderful. All right.
    Well, there are a lot of people. One of them is probably 
sitting right over--all right.

                              VIOLENT CRIME

    Violent crime trends, we have, as you pointed out, a mixed 
result with regard to the violent crime statistics. We have a 
decrease in some number of violent crimes and then we have an 
increase in a subset of crimes related to medium-sized cities 
and small towns of less than 25,000. I really just want to get 
that on the record.
    Mr. Sedgwick. Absolutely. You are completely correct.
    Mr. Mollohan. What is going on there; do you know?
    Mr. Sedgwick. That is a really good question and it is 
something that we spend a lot of time in the Department of 
Justice working on. Whether or not what we are looking at is 
differential effects of kind of professionalization of law 
enforcement because one of the----
    Mr. Mollohan. I am sorry. Say that again.
    Mr. Sedgwick. Differentials in the professionalization of 
law enforcement.
    Mr. Mollohan. Differentials in the----
    Mr. Sedgwick. Yeah.
    Mr. Mollohan. What does that mean?
    Mr. Sedgwick. One of the things that we are looking at is 
the larger cities have been more quick to adopt policing and 
some of the new techniques. COMPSTAT and so on, you know, are 
more solidly entrenched in larger cities----
    Mr. Mollohan. So some of the strategies and technologies 
are more implemented in the larger jurisdictions? Is that your 
testimony?
    Mr. Sedgwick. That is a hypothesis. Okay.
    Mr. Mollohan. Is that one being looked at? I mean, is that 
one you subscribe to?
    Mr. Sedgwick. Absolutely.
    Mr. Mollohan. And so----
    Mr. Sedgwick. Not that I subscribe to. Is it one that we 
are looking at? Absolutely.
    Mr. Mollohan. One that might have validity?
    Mr. Sedgwick. I would tell you right now that this is a 
topic of great interest to the Department and great interest to 
folks in, you know, the kind of research and statistics parts 
of the Department of Justice because many of the trends that we 
are seeing break with past trends. That is to say you are not 
seeing the same things that we have seen in the past.
    Mr. Mollohan. So we are doing a good job at law enforcement 
in these jurisdictions that you just described, typically 
larger, more sophisticated in the sense of having better 
equipment, technology, and maybe strategies, and perhaps that 
is pushing crime over to the smaller jurisdictions?
    Mr. Sedgwick. It may be a displacement effect.
    Mr. Mollohan. Displacement, yes.
    Mr. Sedgwick. That is another hypothesis that is out there. 
There are speculation and hypotheses about the kind of social 
controls in small towns versus large cities. I would have to 
tell you at this point we have not reached any conclusions.
    Mr. Mollohan. Who is looking at that?
    Mr. Sedgwick. The Bureau of Justice Statistics is certainly 
looking at that. The National Institute of Justice is certainly 
looking at that. In fact, I can tell you right now that there 
is a joint initiative between the National Institute of Justice 
and the Bureau of Justice Statistics, in both agencies, to 
significantly increase the emphasis that they are putting on 
law enforcement, precisely because we are aware of the fact 
that our knowledge base in law enforcement is not what it 
should be----
    Mr. Mollohan. Do you anticipate reaching any conclusions 
before we mark up this bill or before the end of the fiscal 
year?
    Mr. Sedgwick. The end of the fiscal year?
    Mr. Mollohan. We ought to be sensitive to that and to the 
extent you can advise the Committee and update the Committee, 
that would be very helpful as we mark up our bill.
    Mr. Sedgwick. Certainly what we are seeing.

             IS THERE A CRIME WAVE AND WHERE DOES IT EXIST

    Mr. Mollohan. Mr. Peed, can you comment on the crime wave 
and where it exists, where it does not exist, and your thoughts 
about it.
    Mr. Peed. I think as Dr. Sedgwick said, it is not across 
the country in its entirety. It is in certain communities 
across the country, not just in certain communities, but 
certain neighborhoods within communities.
    An example is, you know----
    Mr. Mollohan. Now, what is the ``it'' you are describing?
    Mr. Peed. The it? Crime patterns, crime transfer within 
certain communities, violence in particular.
    Mr. Mollohan. And crime increases?
    Mr. Peed. And crime increases in certain communities, yes.
    Mr. Mollohan. Fair to call it a crime wave in certain 
communities?
    Mr. Peed. Yes, indeed. It is not necessarily in your larger 
metropolitan areas like Los Angeles, Chicago, or New York City, 
but it is sometimes those more, as you were saying earlier, 
some of those more mid-sized cities.
    Mr. Mollohan. I had the Mayor of LA come up here with his 
Chief of Police, made some very compelling arguments in a 
meeting with him about the crime wave in LA.
    Mr. Peed. They just had a resurgence in violence that they 
could not explain and they primarily attribute it to the gangs 
there.
    Mr. Mollohan. So LA is an anomaly in this trend?
    Mr. Peed. It is a very recent phenomenon just in the last 
two months or so, three months.
    Mr. Mollohan. So LA has had an uptick in violent crime?
    Mr. Peed. Yes, LA did which under Chief Bratton, he had had 
successes and declines for about five consecutive years and all 
of a sudden, he saw this trend within about a two-month period 
of time.
    Mr. Mollohan. Are you working with them?
    Mr. Peed. With LA? We work with all the jurisdictions 
across the country on----
    Mr. Mollohan. I know you do, but are you working with LA?
    Mr. Peed. We are working with them on some issues, yes.
    Mr. Mollohan. What issues are you working in LA?
    Mr. Peed. Internal Affairs, ethics in law enforcement. 
Internal Affairs is one of the issues.
    Mr. Mollohan. How about their gang problem?
    Mr. Peed. We have worked with their Mayor out there. We 
held a Gang Conference out there with their Mayor and we 
produced a gang tool kit. We produced a gang reference card for 
parents, one of our most popular documents, so we are working 
on that issue.
    Mr. Mollohan. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    And I do want to follow-up on the Chairman's questions on 
the SCAAP Program. But before we leave the subject of DNA, 
which I raised earlier, I just want to make one comment in 
terms of the budget for DNA analysis.
    I understand the point you were making, Mr. Sedgwick, 
about, I guess, how much of the funds ultimately go to law 
enforcement for DNA will depend on how much they prioritize it 
among the requests. But by forcing the departments to compete 
or have the priorities for overtime, compete with 
communications equipment, compete with backlogged DNA, they are 
in a lose-lose situation.
    And I think we have seen unfortunately a number of times 
the Administration wants to cut something, it consolidates it 
in a single program and the cut is invisible. You cannot say 
how much is DNA being cut. You could tell it has been cut 
because it was being funded more than all of the Byrne Grants 
put together, but it does not have the same accountability 
because you cannot say that, in fact, it is being cut 50 
percent or 75 percent until after the fact.
    And I just hate to put our departments in the position of 
having to try to prioritize whether they have interoperable 
communications equipment or whether they can timely analyze 
rape kits.
    And I do not know, Ms. Dyre, if you have a sense of where 
we are in terms of the backlog of rape kits. When there were 
last some published figures a few years ago, the backlog was 
169,000 rape cases. Do you have any sense of where we are with 
that now?
    Ms. Dyer. No. I understand your question, but I do not know 
the answer to it.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Schiff. Okay. Well, we will follow-up with you on that 
as well as on the issue of the hundred percent technical 
analysis of the private labs.
    In terms of SCAAP, last year, I was very concerned about 
some severe delays in the SCAAP reimbursement process. As you 
may know, it took 16 months from the application deadline for 
reimbursements before states and localities received the 2006 
funds. That meant that costs that were incurred during the 12-
month period ending in June of 2005 were not reimbursed to 
states and localities by the federal government until August of 
2007.
    When we inquired about this delay, I heard, you know, 
directly from people at OJP and DHS very conflicting 
explanations, each blaming the other for the mess, one saying 
that they were waiting for data, I think OJP saying they were 
waiting for data from DHS, DHS telling us they sent the data, 
then OJP telling us that, well, oh, actually, yes, we did get 
the data, it turns out after all, but it was not the data we 
really needed, DHS then telling us that, in fact, the data that 
they said that they needed is data they do not need. And the 
long and the short of it is it took an eternity to get 
reimbursed.
    Now, the following fiscal year happily, the 2007 
reimbursements almost went out before the 2006 ones. They went 
out in December of 2007. It only took five months. And I wanted 
to ask in a hopeful way, was the 2006 issue a one-time 
occurrence? Do we have it down? Can we rely on a quick 
turnaround?
    As the Chairman says, there will be enormous pressure to 
restore the SCAAP Program. The question is, how much of it can 
we expect that the communication between OJP and DHS has now 
improved so that you know what you need from them, they know 
what they need to provide you?
    Mr. Sedgwick. Yes. It has improved dramatically. I happen 
to know the circumstances in 2006 quite well because one of my 
staff members in BJS is responsible for cleaning and analyzing 
the data to turn over to BJA to run the formula to distribute 
the funds. So I am intimately aware of the circumstances that 
produced the bill in 2006. I think it is safe to say, I would 
be very surprised if those circumstances were occurring. You 
can say a one-time horror show. We do not need to go into the 
details up here. It was quite an exercise.
    Mr. Schiff. Well, I am glad that that has been corrected. I 
am going to hold you to it, as you might imagine.

                   INTELLECTUAL PROPERTY ENFORCEMENT

    One other area I wanted to raise with you all is an issue 
of great importance to my constituents and many others around 
the country and that is the issue of intellectual property 
enforcement.
    And I was in the U.S. Attorney's Office for six years. I 
know, you know, if you get a lot of competing priorities, it is 
hard to prioritize intellectual property when you have got 
violent crime and you have got gang issues and you have got 
drugs.
    One of the things that we have been exploring is trying to 
get the local law enforcement authorities involved to try to 
help. There are certain aspects of the IP enforcement they can 
do.
    And we worked on some language last year to try to 
establish or incentivize a grant program where the federal 
government could incentivize localities to investigate and 
prosecute IP.
    And I wanted to ask what your thoughts are with that? Is 
that something that we can pursue? Is that viable? How are you 
keeping up with the increasing proliferation of piracy cases 
and what more can we do about it?
    Mr. Sedgwick. I have to say at this point, that has not 
arrived in the Office of Justice Programs as a priority issue. 
It is a good example of new challenges that arise periodically, 
whether it be identity theft, human trafficking, and/or cyber 
crime. Intellectual property theft, I think, is an excellent 
example.
    We have, at this point, I have to confess, not addressed 
that issue at all.
    Mr. Schiff. Well, I would like to work with you and 
Commerce to see what we can do to step that up to make sure it 
is very much on your plate.
    You know, we are constantly coercing our trading partners 
to crack down on IP theft.
    Mr. Sedgwick. Sure.
    Mr. Schiff. And it is becoming more difficult to do that 
when they can point at the IP theft going on in our own 
country.
    I had a meeting recently with some parliamentarians in 
Mexico who were talking about how, yes, there are a lot of 
pirated DVDs being sold in Mexico, but they are actually 
imported in California from China and brought across the 
border. And if you can stop them from getting into the U.S., we 
can stop them from getting into Mexico.
    So we will follow-up with you, but----
    Mr. Sedgwick. We would be happy to work with you on that.
    Mr. Schiff [continuing]. We would like to try to step up 
those efforts.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Ms. Dyer----
    Ms. Dyer. Yes, sir.

                         OVW RECENT STATISTICS

    Mr. Frelinghuysen [continuing]. How are you? When I meet 
with my local prosecutors, they tell me the reports of rising 
numbers of domestic violence cases. Could you talk a little bit 
about what you see out there, the statistics? I know it is an 
issue of better reporting. How would you characterize your 
analysis of some of the pretty startling and disturbing 
statistics?
    Ms. Dyer. With regard to the----
    Mr. Frelinghuysen. Obviously, with the backdrop being your 
budget.
    Ms. Dyer. I understand the context. I am aware of the 
increasing numbers. People often ask me, both when I was a 
prosecutor and now that I am up in DC, is there more crime? Is 
there more reporting? I think that there is a little bit of 
both. There is a number of things going on.
    Number one, I do think that there is a piece of this that 
there is more violence in our society overall. It is more 
reported, and I do think that in some respects that can 
actually increase the amount of violence. But I don't think 
that that is the sole reason for the increase in reports.
    I think that a lot of the reason for the increase in 
reporting is actually for a good thing. And that is because 
there is more talk about it. It is more acceptable to talk 
about it, and there are more resources out there for victims.
    We encourage victims to report. And now we say you should 
report and help will come.
    Mr. Frelinghuysen. The police have to--at least in New 
Jersey. I am not sure other jurisdictions. The police have to 
report and don't physicians?
    Ms. Dyer. That varies by state.
    Mr. Frelinghuysen. It does?
    Ms. Dyer. Yes. Texas, for example, does not have a 
mandatory reporting for doctors. And that is actually--many 
states do and many states do not. In all states, it is 
encouraged for physicians and police officers to arrest or 
report. And I do think that because of the increase in services 
that are available, because help is available, more victims do 
reach out and accept it. And that is a very good thing.
    Mr. Frelinghuysen. You currently run a discretionary 
program to encourage state, local, and tribal governments and 
courts to treat domestic violence, dating violence, sexual 
assault, and stalking as a serious violation.
    Do you have statistics on this specific program?
    Ms. Dyer. The discretionary grant?
    Mr. Frelinghuysen. On the number of arrests and 
prosecutions?
    Ms. Dyer. The----
    Mr. Frelinghuysen. And what happens, given your budget's 
scenario to this program and to the STOP Grant Program?
    Ms. Dyer. Well, what we have is in each of those programs, 
every grantee has to turn in a progress report every six 
months. And those progress reports are collected, and stored, 
and analyzed by the Muskie School in Maine. I gave some of 
those numbers in my brief opening.
    So, yes, we do have accessible to us the number of victims 
who are served and the number of arrests that are made, the 
number of prosecutions, and number of convictions that we get.
    Mr. Frelinghuysen. Do you have any general comments in 
regard to those statistics? What do those statistics show?
    Ms. Dyer. The statistics show?
    Mr. Frelinghuysen. What you said earlier.
    Ms. Dyer. That OVW is definitely benefitting communities. A 
lot of victims are receiving services, and a lot of defendants 
are being arrested and prosecuted.
    Mr. Frelinghuysen. Your largest program is your STOP Grant 
Program?
    Ms. Dyer. Yes.

                          GRANT CONSOLIDATION

    Mr. Frelinghuysen. You are proposing to eliminate it in 
your budget.
    Ms. Dyer. It is consolidated with the other discretionary 
grant programs.
    Mr. Frelinghuysen. Well if you eliminate it, what do you 
plan to replace it with?
    Ms. Dyer. Well, it is not eliminated in that states could 
not apply for a large sum of money. What is eliminated is the 
formula that automatically sends a certain amount of money to 
the states.
    Mr. Frelinghuysen. The formula, correct me if I am wrong, 
25 percent goes to law enforcement, 25 percent to prosecutors, 
5 percent to courts, and 30 percent to victim services.
    Ms. Dyer. Yes. But----
    Mr. Frelinghuysen. Is there another formula?
    Ms. Dyer. Yes.
    Mr. Frelinghuysen. Would you comment on that formula, and 
what happens? What would you replace it with? Assuming that the 
formula that I described does have some merit, I assume people 
made a judgment call.
    Ms. Dyer. The formula that I am referring to was the 
formula that determines how much money each state receives. 
That they are then able to turn around and give out in sub-
grants.
    The formula that you are talking about is the amount of 
money that when those states are turning around and giving them 
out in sub-grants, that they have to focus the money towards.
    Mr. Frelinghuysen. So if we cut this--cut your budget----
    Ms. Dyer. Yes.
    Mr. Frelinghuysen [continuing]. The formula that gives 
money out to the states, the present formula----
    Ms. Dyer. Yes.
    Mr. Frelinghuysen [continuing]. For each of the battered 
women's shelters, I mean, they are crying the blues right now.
    Ms. Dyer. Yes.
    Mr. Frelinghuysen. So your----
    Ms. Dyer. Yes. This would prevent----it is true. Under the 
consolidated, flexible program, that the President's budget 
requests, there would not be a definite number going out to the 
states.
    Mr. Frelinghuysen. Not only not a definite number, but a 
much lower number, dollar number.
    Ms. Dyer. A lower dollar number due to the reduction in the 
overall budget. I would anticipate that most states, Texas, 
California, and most states, are going to apply to OVW, because 
that formula program becomes a----
    Mr. Frelinghuysen. They will be applying, but they will be 
waiting in line with other----
    Ms. Dyer. That is correct.
    Mr. Frelinghuysen. It is?
    Ms. Dyer. That is correct. It would be competitive, and 
they would be competing against other.
    Mr. Frelinghuysen. Right. It is pretty difficult to run a 
program and have some degree of stability in that type of 
environment.
    Ms. Dyer. That is correct. There would not be that formula 
percentage that they currently have.

                           RESTRAINING ORDERS

    Mr. Frelinghuysen. The last question, and since you have 
devoted a good portion of your career, would you comment on the 
whole issue of restraining orders? You know, to me at times, I 
am not a lawyer, it seems that they don't work.
    And would you comment on the whole issue of people who 
abuse--husbands who abuse, men who abuse, fleeing to other 
jurisdictions? And our inability to find out where they are.
    Ms. Dyer. I----
    Mr. Frelinghuysen. And prosecute them. What are you doing 
in that area? And what is the Department of Justice doing? We 
have a lot of constituents.
    Ms. Dyer. Yes, sir.
    Mr. Frelinghuysen. And it makes me explosively angry. I 
just wondered if you would comment.
    Ms. Dyer. Yes, sir. With regard----
    Mr. Frelinghuysen. Just on the general issue of restraining 
orders----
    Ms. Dyer. Okay.
    Mr. Frelinghuysen [continuing]. Not restraining.
    Ms. Dyer. I----
    Mr. Frelinghuysen. And are there statistics that people--
that the Department of Justice collects relative to situations 
like this?
    Ms. Dyer. With regard to the issue of protective orders or 
restraining orders, we usually call them protective orders, and 
whether or not they are effective, they are effective for most 
victims. They are absolutely not effective for all victims, and 
they are not bullet-proof vests.
    For most victims who have abusers who have something to 
lose, an abuser who has a job, an abuser who has, you know, a 
house or some sort of, you know, rent, it is very effective for 
him, because that abuser does not want to get picked up, and go 
to jail, and risk losing his job and risk not being able to pay 
his mortgage or his rent. So for those victims, restraining 
orders are very, very effective.
    We did a study in Dallas, not a OVW study, a study in 
Dallas. And 85 percent of victims who obtained a protective 
order through the DA's Office said that their lives were 
markedly improved. And that they were safer once they got it. 
So that is good, but it is not 100 percent.
    For victims whose abusers are just complete losers, who 
have no job, no house, or who have terrible criminal records to 
begin with, protective orders frequently are not very 
effective, because these people do not have anything great to 
lose by being arrested and put in jail. They get low-bid 
bologna and warm Kool-Aid. It is not that bad for them.
    For these people who have terrible previous criminal 
records, they say, ``Look, I got a misdemeanor violation of 
protective order. I am improving.'' I am getting--you know, so 
for those people, those victims are not. And that is why every 
victim who comes in to get a protective order, we say, ``Good 
for you. This is going to help you, but you need to do other 
things to keep you safe as well.''
    The other thing I will say is that protective orders are 
very good at stopping harassment, calls, misdemeanor assaults. 
They are not good--they are not very good at stopping murders, 
because I haven't had a defendant yet say, well, I would kill 
you dead if it weren't for that violation of a protective order 
I could get on my record. I am willing to commit felony murder, 
but I am not going to do it, because I don't want to get a 
violation of a protective order.
    Well, that doesn't make any--as you can see, it is very 
effective at stopping stalking, misdemeanor assaults, 
harassment. It is not that effective at stopping murder. And 
that is why those victims need to get a protective order, but 
also go to shelters.
    Mr. Frelinghuysen. The ability to pursue people, you know, 
into----
    Ms. Dyer. Yes.
    Mr. Frelinghuysen [continuing]. Other jurisdictions.
    Ms. Dyer. Very good----
    Mr. Frelinghuysen. Just very briefly. My time is up.
    Ms. Dyer. I can talk faster.
    Mr. Frelinghuysen. Please, go right ahead.
    Ms. Dyer. Yes. That is a big problem, because right now 
communities are supposed to put all of their protective orders 
on NCIC. Many communities have access to NCIC, but they just 
simply cannot agree as to who is the one to do it. And I don't 
have the staff. And I don't have the time. And I don't want to. 
And many communities do not put their protective orders on NCIC 
as they should.
    Now some communities have a very good reason for not 
putting their protective orders on NCIC. Those in tribal 
communities that don't have access to it. They have a good 
reason.

                   NATIONAL PROTECTIVE ORDER REGISTRY

    Now one thing that we have considered is, you know, should 
we have some sort of a national protective order registry that 
would be more Internet based, as opposed to NCIC based. And 
that would be more easily accessible by the police officer at 
2:00 in the morning who is responding to the scene of a 
domestic violence case. I think that there is great interest in 
that.
    I personally have a great interest in that, because that is 
a very big problem, not only in places like this where people 
live in Virginia, work in Maryland, and go to school in DC. 
That is a huge problem. But even in Texas. I live in Dallas, 
but I work in Tarrant County. And even those two things don't 
often communicate. And so there is a huge problem with that. 
And I think that we should look into the possibility of a 
national registry that is more internet based.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen.
    Mr. Sedgwick, are you familiar with the think tank, Third 
Way?
    Mr. Sedgwick. Yes.

                      REPORT--IMPENDING CRIME WAVE

    Mr. Mollohan. Are you familiar with their report ``The 
Impending Crime Wave: Four Dangerous New Trends and How to Stop 
Them''?
    Mr. Sedgwick. Yes. I have it sitting on my desk.
    Mr. Mollohan. Well good. And the report cites as evidence 
of this new crime wave looming, surging youth population more 
vulnerable to the internet age, large number of ex-offenders 
being returned to the communities.
    Mr. Sedgwick. Pardon?
    Mr. Mollohan. Is there a new crime wave coming?
    Mr. Sedgwick. Will crime rates churn up again some time in 
the future?
    Mr. Mollohan. No, no, no. I am asking more specifically. 
You deal with these statistics. You look at these reports. You 
know, you are the expert. Do you anticipate a new crime wave? 
Are these analyses and conclusions valid? To what extent are 
they valid or not valid?
    Mr. Sedgwick. We would--the Bureau of Justice Statistics, 
which I also direct, we don't make predictions. In part because 
the track record for making predictions in criminal justice is 
pretty poor to be blunt with you.
    I will tell you that, one of the issues that if I were to 
say of the things that we look at and we see in the data in the 
Bureau of Justice Statistics that give us pause, I would 
probably point to three things that are issues that we have 
called to the attention of Department leadership. And said 
these things need to be monitored very carefully.
    Mr. Mollohan. With regard to future crime?
    Mr. Sedgwick. Future crime rates.
    Mr. Mollohan. Okay.

                OJP STUDIES ON CRIME RATE AND RECIDIVISM

    Mr. Sedgwick. One is there is 2.2 million persons in 
confinement in the United States, incarcerated. Okay? Ninety 
five percent of them will be released and will return to their 
communities. Okay? We know a fair amount about the recidivism 
rate for persons who have been incarcerated. And it is 
uncomfortably high.
    We don't know as much about what works in terms of 
rehabilitative services as we would like to know. This has been 
one of the toughest topics in criminal justice to solve.
    Mr. Mollohan. You are going to enumerate these, aren't you? 
And you have them in your head, so you won't forget them.
    Mr. Sedgwick. Yes. I
    Mr. Mollohan. I asked you----
    Mr. Sedgwick. Sure.
    Mr. Mollohan. With regard to the recidivism issue----
    Mr. Sedgwick. Pardon?
    Mr. Mollohan [continuing]. Are you all looking at that?
    Mr. Sedgwick. Absolutely. In fact, one of the things that 
we just did in the Bureau of Justice Statistics is reorganized 
the way we are structured to put greater emphasis on three 
topics.
    One is law enforcement, one is adjudication, and one is 
recidivism and reentry. So this is a major emphasis for us, 
because we know that, you know, we have a huge number of 
persons coming back to communities.
    Mr. Mollohan. Who is looking--specifically what office or 
what individuals are looking at this in the department?
    Mr. Sedgwick. Well, the Bureau of Justice Statistics is 
certainly looking at it. The National Institute of Justice is 
certainly looking at it.
    Mr. Mollohan. That is looking at to determine if we are 
going to have such a resurgence based upon----
    Mr. Sedgwick. No. This----
    Mr. Mollohan [continuing]. Recidivism.
    Mr. Sedgwick. I thought you were asking about what agencies 
within the Department of Justice are looking at this problem of 
recidivism and reentry.
    Mr. Mollohan. I did.
    Mr. Sedgwick. Okay.
    Mr. Mollohan. What you told me I thought sounded like a 
statistical analysis. And I was going to ask you is there 
somebody looking at it from a programmatic perspective?
    Mr. Sedgwick. Not only the National Institute of Justice 
but also the National Institute of Corrections.
    Mr. Mollohan. Are looking at that programmatically?
    Mr. Sedgwick. Yes. Now this is an important issue for the 
Department.
    Mr. Mollohan. Yes. And we want you to share your concerns 
with us.
    Mr. Sedgwick. Sure.
    Mr. Mollohan. And your knowledge about it.
    Mr. Sedgwick. Sure.
    Mr. Mollohan. But my question is is somebody looking at it 
in the sense of what should we do about it programmatically?
    Mr. Sedgwick. Oh, absolutely. What----
    Mr. Mollohan. Who is looking at that part of it?
    Mr. Sedgwick. Well, what should we do about it?
    Mr. Mollohan. No, no. I am saying who is looking at that 
issue programmatically in the Department of Justice?
    Mr. Sedgwick. Well, you mean what offices are looking at 
it?
    Mr. Mollohan. Yeah, exactly.
    Mr. Sedgwick. Where would we go to say----
    Mr. Mollohan. No, I mean you say--you say you are looking 
at it. I mean, statistically you are saying boy we are looking 
at this. You know, 95 percent are going to be out in so many 
years. And we have a certain recidivism rate. That suggest that 
we are going to have a bump increase in crime.
    Mr. Sedgwick. Certainly. We will be----
    Mr. Mollohan. Okay. So that is the statistical analysis. 
And that is the warning.
    Mr. Sedgwick. Right.
    Mr. Mollohan. So my question is okay, we are looking at 
that. And we are warning----
    Mr. Sedgwick. So the next question is what works to offset 
those pressures.
    Mr. Mollohan. Yes, sir.
    Mr. Sedgwick. Okay.
    Mr. Mollohan. And who is looking at----
    Mr. Sedgwick. The National Institute of Justice.
    Mr. Mollohan. Okay.
    Mr. Sedgwick. Okay? And also the National Institute of 
Corrections.
    Mr. Mollohan. Okay. You threw me off here.
    Mr. Sedgwick. Do you want me to finish my other two points 
that we were----
    Mr. Mollohan. No. I want to explore that. And I want you to 
remember your other two points.
    Mr. Sedgwick. Okay.
    Mr. Mollohan. That is why I asked you if you would remember 
that, because I won't. And if you give them to me. And I can't 
write down.
    But I think it is really important. And it is wonderful 
that you all have that expertise over there. So what should we 
do with that? What preventive programs are out there? Are we 
looking at it from a preventive standpoint?
    Mr. Sedgwick. Absolutely.
    Mr. Mollohan. Okay. Well who tells us that?
    But who comes up and tells us? We ought to be looking over 
the hill here. And I don't want to ask it that way. I just want 
to know who is looking at it? And what should we be doing about 
it?
    Mr. Sedgwick. Well----
    Mr. Mollohan. I am just looking for the advice.
    Mr. Sedgwick. All I am saying is, if you hold hearings on 
the topic, we will come.
    Mr. Mollohan. Okay.
    Mr. Sedgwick. If you were to hold a hearing and say we want 
to know what you all are thinking about in terms of----
    Mr. Mollohan. Fair enough.
    Mr. Sedgwick. We will come.
    Mr. Mollohan. And we should do that. Okay.
    Mr. Sedgwick. But----
    Mr. Mollohan. Do you have any thoughts on, short of our 
holding a specific hearing on that? And I think that is a 
really good suggestion.
    Mr. Sedgwick. The other option is----
    Mr. Mollohan. It is a huge issue.
    Mr. Sedgwick [continuing]. We could always have your staff 
contact the Office of Communications, the Office of Public----
    Mr. Mollohan. Okay. Well we will do----
    Mr. Sedgwick. And say these are things that we are 
interested in. Can you send people up to talk to us about them?
    Mr. Mollohan. Well, we will do that too. And maybe you are 
not prepared to talk about it specifically here.
    Mr. Sedgwick. About recidivism?
    Mr. Mollohan. Yeah. And the programs that you all are 
looking at to address the potential recidivism or the 
recidivism that your statistics suggest we are going to be 
looking at.
    Mr. Sedgwick. If you want to talk about recidivism, I would 
much prefer to send up to you----
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. Okay, fair enough.
    Mr. Sedgwick a table----
    Mr. Sedgwick [continuing]. To understand folks from the 
National Institute of Justice and the National Institute of----
    Mr. Mollohan. Okay. Well you have told us--you told us 
where to go. Fair enough. Okay, the other two----
    Mr. Sedgwick. I hope I didn't tell you where to go.
    Mr. Peed. Can I take the question?
    Mr. Mollohan. Yeah, please Mr. Peed.

                        COPS ON RECIDIVISM ISSUE

    Mr. Peed. Recognizing that about--the recidivism rate is, 
of course----
    Mr. Peed. Recognizing that recidivism, of course, is over 
60 percent, what we did was work with the IACP. In prior years, 
the probation--it was--it basically said this was a probation/
parole problem or somebody else's problem.
    Chiefs did not necessarily see it as their issue. We 
thought that chiefs should take it as their issue, because if 
there is additional crime in their communities as a result of 
reentry, the 600,000 or so people coming back that they should 
be aware of it. And should be taking some response, have a 
response to that.
    So the IACP has been able to convince all of their 18,000 
agencies out there, at least they are trying to convince them, 
that reentry is an issue that all chiefs across the country, 
chiefs and sheriffs, should be aware of.
    Secondly, the Urban Institute has done some research on 
this. And the Urban Institute did some work to try to look at 
targeting where offenders return to, if they return to like the 
hot spots. If they return to the same communities they came 
from.
    So the Urban Institute has done some work. And the Police 
Foundation did the same thing. The Police Foundation did some 
research looking and trying to convince law enforcement 
organization across the country that they needed to map, crime 
map, where offenders were returning. So that they could see if 
crime statistics are starting to go up in those communities. 
They had some areas where--if crime starts to occur, they would 
say is it because of all the people heading back into that 
community.
    So that is just a thought. Just to take a little pressure 
off Dr. Sedgwick.
    Mr. Mollohan. No, no. I don't want to put any pressure on 
Dr. Sedgwick. What I am hearing with that testimony is that we 
are putting the local police--we are saying you better be on 
high alert, because there are going to be a lot of folks. But 
that is still policing. That to me is not really addressing 
the----
    Mr. Sedgwick. The root causes?

                          ROOT CAUSES OF CRIME

    Mr. Mollohan. The root causes of the problem. Are we 
looking at root causes?
    Mr. Peed. Actually, the----
    Mr. Mollohan. That is candid. Well, we will forget you. We 
are back to Mr. Sedgwick. [Laughter.]
    Mr. Sedgwick. I should also mention that OJP also 
participates, many of our agencies. For example, BJA funds a 
fair amount of programming in prisoner relocating. So there are 
a number of different OJP agencies that are involved in this 
particular issue quite deeply.
    But also OJP participates in the Administration's Prisoner 
Reentry Initiative, which is a collaborative effort between the 
Departments of Education, Labor, Health and Human Services, and 
Housing and Urban Development, as well as the Department of 
Justice, to address exactly this problem, because quite frankly 
what we know about successful reentry and the elimination of 
recidivism leads to the kind of pushing back of the time to 
failure. So that people stay in the community longer before 
they go back to crime if in fact they do.
    It requires some pretty simple things, you know, literacy, 
a job, housing, healthcare. I mean one of the things that was 
shocking to us when we were looking at prison populations was 
the very high levels of mental health problems among persons 
incarcerated in the United States.
    So, you know, if you think about all of the kind of factors 
that go into enhancing the likelihood that a released inmate 
will come back to the community successfully and stay clean as 
opposed to go back to the old habits that got them incarcerated 
in the first place, this is really a multi-disciplinary kind of 
across the department effort that is currently under way.
    And we would be happy to kind of share----
    Mr. Mollohan. Well, and maybe we want more specifically. 
But just to get on the record, there is a new national study 
released last month by the Pew Center. It found for the first 
time in U.S. history more than one in ninety-nine adults is 
currently in jail, which is more than 2.3 million people.
    Mr. Sedgwick. Right.
    Mr. Mollohan. Boy, is that sobering. That is in and of 
itself, a statement of failure--as a society.
    The report said that, ``Fifty states spent more than $49 
billion on corrections last year, up from $11 billion 20 years 
earlier. Furthermore, the recidivism rate remains basically 
unchanged. About 95 percent of all incarcerated individuals 
will eventually leave prison. And the Bureau of Justice 
Statistics,'' which you are close to, ``estimates that two-
thirds of all released prisoners will commit new offenses 
within three years.''
    Is that statistic accurate?
    Mr. Sedgwick. Yes, that is true. That particular statistic 
you see across research projects.
    Mr. Mollohan. Well doesn't that just drive you to say, 
there is something systemic going on here? And we are not 
addressing it? And we are warning police chiefs that there is 
going to be this wave. But we are really not addressing it. And 
we have programs in this Committee that address this.
    But the President's budget request zeros out funding for 
existing offender reentry, for drug courts, for state drug 
treatment program grants. That is not a good thing, is it?

                          GRANT CONSOLIDATION

    Mr. Sedgwick. Well, again, you are saying it zeros out 
funding for programs. Programs are being consolidated. So your 
ability to tie a certain amount of money to a set program under 
the President's proposed budget, right? It breaks that--but 
that is different from saying it zeros out, right?
    It is still possible for state and local agencies to apply 
for funds for reentry programs. So it is not that no money will 
go to reentry anymore.
    Mr. Mollohan. No. But it is substantially less in that 
consolidation.
    Mr. Sedgwick. Right.
    Mr. Mollohan. There are substantially less funds available 
for those programs.
    Mr. Sedgwick. I can't dispute that.
    Mr. Mollohan. Yeah. And you don't like that. You want more 
funds. I know you do. I know you do. I am not testifying for 
you. I am going to give you a chance to answer that. Should we 
have more resources in these remedial areas? This is your one 
chance to testify in the United States Congress what you really 
believe about this.
    Mr. Sedgwick. Well, you know, as I said, my charge is to--
--
    Mr. Mollohan. Support the President's budget.
    Mr. Sedgwick. Well, yes.
    Mr. Mollohan. I know. But I am asking----
    Mr. Sedgwick. I am part of the Administration.
    Mr. Mollohan. Let me ask you----
    Mr. Sedgwick. But also I will go back to an answer I gave 
you previously, Chairman Mollohan. And I appreciate what you 
are asking.
    Could I do more good with more money? Absolutely. Can I 
with confidence say I can do more good with those additional 
funds than any other office of the Department of Justice? No, I 
can't say that, because I don't sit in that chair.
    The leadership has to make----
    Mr. Mollohan. I am going to accept your first answer as 
satisfying my question, because I think you went as far as you 
feel comfortable going. And you clearly said that we need more 
money. And I think those are things we do want on the record 
here. Not as I got you, but we really want it on the record. It 
is, you know, a problem here.
    Let me go through some things here. Juvenile justice and 
missing children's programs, lot of support for that up here. 
The budget proposes to eliminate existing missing children and 
juvenile justice programs and replace them with a new $185 
million consolidated program. Here is another case of 
consolidation and cutting funds.
    Congress appropriated $434 million for these programs, $50 
million for missing children and $384 million for juvenile 
justice programs, including Secure Our Schools, Victims of 
Child Abuse Act Programs, Title V Gang, and Alcohol Prevention 
Programs, and the new Competitive Youth Mentoring Grants 
Program.
    Your budget represents a $240 million cut in addition to 
the consolidation. What will not be funded if Congress were to 
approve the President's proposal, as I just summarized?
    Mr. Sedgwick. What will not be funded is any existing 
program for which the state and local government does not 
submit an application and say this is our highest need. If 
nobody asks for something. You know, look, the whole idea of 
this approach, and you are exactly right.
    Mr. Mollohan. Well, then----
    Mr. Sedgwick. This is applied consistently across----
    Mr. Mollohan. But you are not going to be able to fund 
everything that is requested.
    Mr. Sedgwick. We want to.

                           UNFUNDED PROGRAMS

    Mr. Mollohan. Obviously, you are not going to fund things 
that aren't requested.
    Mr. Sedgwick. We won't fund things that aren't requested. 
And we won't be able to fund everything that is requested.
    Mr. Mollohan. Yes.
    Mr. Sedgwick. So we will have to make tough decisions. And 
that is what we get paid for, in this format people apply. They 
say this is our need. They demonstrate. They document the need. 
They demonstrate an awareness of what best practices are and 
address that need. And are willing to adopt those best 
practices.
    And based on the quality of their analysis of the problems 
they have and their ability and willingness to adopt best 
practices to address that, we will fund the proposals until our 
money runs out.
    Mr. Mollohan. Let me ask you about
    Mr. Sedgwick. Sure.

                    BEST PRACTICES SERVING GRANTEES

    Mr. Mollohan [continuing]. Communicating best practices. 
How does OJP, your bureau's offices, coordinate to serve 
grantees? For example, if I were the mayor of a town and I had 
a growing gang problem, how would I get advice? Would I have to 
go hunting around for the programs? Is there a one-stop office 
clearinghouse that would give me advice and give me direction?
    Mr. Sedgwick. There are actually links on the OJP website. 
And to each of our programmatic office websites--that steer 
people to grants and to the way in which to apply for those 
grants.
    Mr. Mollohan. And that was plural, right?
    Mr. Sedgwick. Yes.
    Mr. Mollohan. There are different--well----
    Mr. Sedgwick. There are----
    Mr. Mollohan [continuing]. Last year we talked a little bit 
about one-stop shopping and one-stop assistance. So someone 
wouldn't have to go through and guess. Is there such a thing? 
Are you developing a one-stop shop?
    Mr. Sedgwick. There is grants.gov. Okay, which is a one-
stop shop for all federal grants. Which is a searchable 
database that allows you to go in and enter keywords. And you 
get back from the search engine all of the federal grant 
programs that are out there that address that particular 
problem, irrespective of what department those programs are 
housed in.
    I think equally important for grantees is not simply to 
know that there is a grant program out there that has an open 
period for submission. But also to know that there are staff in 
the appropriate office that are prepared to pick up the phone 
and, you know, answer a question, counsel an applicant on how 
best to put together a proposal, prepare to discuss funding 
priorities and so on, and to share insight into what have 
constituted successful applications in past cycles.
    One of the things that we are really proud of in OJP is the 
willingness of our staff to deal with stakeholders and 
applicants in a spirit of, we want to help you get this money.
    Mr. Mollohan. Is there this one-stop shop clearinghouse 
resource?
    Mr. Sedgwick. Well, there is--like I said, there is 
grants.gov, which is one stop for the entire federal government 
and a searchable database.
    Mr. Mollohan. But there is not for Office of Justice 
Programs?
    Mr. Sedgwick. To the best of my knowledge----
    Mr. Mollohan. Do you think that would be helpful?
    Mr. Sedgwick. I am not sure whether--what the value added 
of having one for OJP when there is already one that is 
searchable for the entire federal government.
    Mr. Mollohan. I don't know the answer to that. But----
    Mr. Sedgwick. Yeah. I mean, it----
    Mr. Mollohan [continuing]. Your answer is you don't have 
it. I would think it would be a higher level of expertise, an 
expertise in depth to be able to refer people. But you don't 
have it so.
    Mr. Sedgwick. We certainly have links to grants in each of 
the program offices that do make grants.
    Mr. Mollohan. Well, that is the question actually I wanted 
to ask of Ms. Dyer and Mr. Peed.

                COORDINATION BETWEEN OJP, COPS, AND OVW

    How do the Office on Violence Against Women and COPS Office 
coordinate with one another and OJP? What steps are being taken 
to ensure better collaboration across the agencies and with 
grantees? Are you all looking at that?
    Ms. Dyer. Well, we have biweekly meetings with the 
Associates Office where not only does Jeff come on behalf of 
OJP, but each of the directors of his individual components are 
there too, so NIJ, SMART, Carl is there. So every two weeks we 
get together.
    Additionally, in the Office on Violence Against Women, we 
have another federal interagency counsel that--where we get 
together with other people, even outside of the Department of 
Justice, who deal with violence against women issues, most 
notably Health and Human Services. We end up partnering with 
them on several things.
    And so we do try to get together to make sure that we are 
aware of what the other agencies are doing. And that we can 
work collaboratively.
    Mr. Mollohan. Mm-hmm. Mr. Peed, do you want to respond to 
that?
    Mr. Peed. Yes. We do meet every two weeks. And as a matter 
of fact, we have got a meeting this afternoon after we conclude 
this meeting.
    But I think we know--at least I know about our--we work 
very close with all our partners over in the Office of Justice 
Program. It is not unusual for me to call up Domingo and 
partner on an issue or NIJ. We are partnering with NIJ now on a 
potentially DNA initiative that wants to shift--you talk about 
in terms of the policy issues that--the privatization of labs. 
So we want to look at it from a research policy, best practices 
approach.
    And we have a resource information center, a RIC that we 
call it, where people can go to that site and order products 
all the time. So they can go there and look and see what 
products are available. And order products that will address 
their issue that is most concern to them.
    We also, at least in----
    Mr. Sedgwick. Isn't that a one-stop shop resource?
    Mr. Peed. I think for our office it is. Yes. For all our 
guidelines, all our products like the ones I brought here 
today, they can order any of those products. Go into that 
resource information center.
    But I also reach across government agencies. We reach over 
to the Department of Homeland Security and work well with DHS. 
We had a great project last year working with the Office of 
Information out of the White House and the Department of 
Homeland Security on an intelligence summit with IACP. So we 
were able to bring together about 130 people from state and 
local government, federal government, working across agencies.
    So I think it is basically a lot of good relationships. You 
know, I don't hesitate to call Dr. Sedgwick or anyone over in 
BJA or NIJ or OJP to sit down and talk about an issue. It has 
been, from my perspective, it has been very successful. They 
have been good partners.

                        COPS COMMUNITY OUTREACH

    Mr. Frelinghuysen. Following up, I am all for good 
relationships. Where do we stand relative to interoperability 
issues? What are we putting out on the street that 
realistically can communicate with a neighboring town or city? 
What are you doing?
    Mr. Peed. With our appropriations, we have had grant 
solicitations by major statistical areas of the country, the 
MSAs. We have provided grants for people who are willing to 
work with multi-disciplinary groups, as well as multi-
jurisdictional groups, to bring about interoperability for 
those regions.
    To date, we have invested probably about $250 million in 
interoperable solutions.
    Mr. Frelinghuysen. So would your--with this budget 
scenario, what you have been doing would be less under this 
budget scenario, considerably less.
    Mr. Peed. Well, the Department of Homeland Security has 
picked up on many of those initiatives as far as 
interoperability.

                   NATIONAL INSTITUTE OF CORRECTIONS

    Mr. Frelinghuysen. Just for the aforementioned National 
Institute of Corrections is funded under the Bureau of Prisons; 
is that right?
    Mr. Sedgwick. Right.
    Mr. Frelinghuysen. For $22 million. Isn't it proposed to be 
eliminated under the President's budget?
    Mr. Sedgwick. It is actually proposed for the programs of 
the National Institute of Corrections to be moved into OJP.
    Mr. Frelinghuysen. So this is another one of these issues 
here where everybody has to go out there and compete? So the 
National Institute of Corrections would have to be out there 
competing with another similar institute, which you head up?
    Mr. Sedgwick. No. Well----
    Mr. Frelinghuysen. Yes.
    Mr. Sedgwick. Ask that question again.
    Mr. Frelinghuysen. Well, the National Institute of 
Corrections, the money for it is going to be zeroed out under 
your budget. Is it proposed to be eliminated?
    Mr. Sedgwick. The functions of the National Institute--as I 
understand it, the National Institute of Corrections is being 
moved from the Bureau of Prisons into the Office of Justice 
Programs. And its functions absorbed by other agencies within 
OJP that currently do very similar work.
    Mr. Frelinghuysen. So what does that tell us? So the view 
is that there is another statistic gathering?
    Mr. Sedgwick. Or research. There are other groups----
    Mr. Frelinghuysen. Groups that could absorb what they are 
doing, which is a nice way of saying they are being eliminated?
    Mr. Sedgwick. Well it is saying that their functions are 
being absorbed into other agencies that are doing similar work. 
So there is a consolidation.
    Mr. Frelinghuysen. I think I like my take on it.
    Mr. Sedgwick. Okay.

                            SEXUAL PREDATORS

    Mr. Frelinghuysen. Back to Mr. Peed. Our fiscal year 2008 
funding bill included money for a new program that related to 
arresting, prosecuting, and managing sexual predators. Where do 
we stand on that program? And where is this program going to go 
under this budget scenario?
    Mr. Peed. Congress authorized $15.6 million to start this 
new program. And it is basically three parts. One part was to 
transfer funds, $850,000 over to the Sex Offender Register. The 
other part was to transfer $4.1 million to support the Adam 
Walsh Act. Those two funds would go to the Office of Justice 
Programs.
    The other, remaining fund, $10.6, in our authorizing 
statute, it asked us to develop a program to address those 
issues that you just said, to address, prosecute sex offenders.
    And in doing so, Congress asked us to do two things. One 
was to meet and coordinate with the National Center for Missing 
and Exploited Children. We have already completed that. We have 
already met with them to talk about the program. And they are 
very excited about it.
    The second thing was they asked us to do was to work with 
U.S. Attorneys. We have already made some contacts with a 
number of U.S. Attorneys on that issue.
    And so we will be developing, as soon as our spending is 
approved, grants for state and local law enforcement, to 
address that issue.
    Mr. Frelinghuysen. What will happen to your spending plans 
under the scenario we have been discussing here?
    Mr. Peed. I don't know. And maybe we will get something--I 
don't think it will address it in its entirety. It may 
address--there may be a small percentage of it that might 
having some bearing on small part of it. I don't know.
    Mr. Frelinghuysen. I am not sure that answers my question.
    Mr. Peed. Oh.
    Mr. Frelinghuysen. Given the budget scenario here.
    Mr. Peed. I think it pretty much remains intact.
    Mr. Frelinghuysen. It does?
    Mr. Peed. I think so. There might be some rescission or 
some----
    Mr. Frelinghuysen. I am looking towards this fiscal year.
    Mr. Peed. In 2009?
    Mr. Frelinghuysen. Yes, that time frame.
    Mr. Peed. We would be managing the 2008 grants during the 
2009 time frames. So I don't think there is any funding in that 
particular program for 2009.
    Mr. Frelinghuysen. So there is no money in there?
    Mr. Peed. Not that I am aware of.

                              RESCISSIONS

    Mr. Frelinghuysen. On the area of rescissions, our fiscal 
year Appropriations Bill handed you a pretty large rescission 
of your prior year balances. Between OJP and COPS, over $185 
million was rescinded. In the past, these recisions were 
intended to scoop up money that was left unspent. And be 
obligated after grants to terminate it.
    I understand that you have only deobligated about $10 
million in the first quarter of this year. Do you anticipate 
being able to recover enough funds from the old grants to meet 
these rescission targets? And if you are unable to find the 
money in the old grants, how will you meet the rescissions that 
were enacted into law?
    Mr. Sedgwick. Okay. If you are talking about the rescission 
for fiscal year 2008, we did----
    Mr. Frelinghuysen. Yes, I am.
    Mr. Sedgwick. We currently have sufficient carryover 
balances to meet the $87.5 million rescission that we have in 
OJP.
    How we will meet the $100 million rescission for fiscal 
year 2009, I can't really tell you until we get later into the 
fiscal year. But at this point, yes, we do have sufficient 
carryover balances to meet the fiscal year 2008 rescission.
    Mr. Frelinghuysen. But we could then potentially have much 
deeper cuts here.
    Mr. Sedgwick. In?
    Mr. Frelinghuysen. Going forward here with these 
rescissions.
    Mr. Sedgwick. Well right now the only two rescissions I 
know of are fiscal year 2008. And that is $87.5 million that we 
do currently have the funds to cover. For fiscal year 2009, the 
$100 million proposed rescission, we don't really--we are going 
to have to continue to evaluate our available balances during 
the rest of this fiscal year before we make a final decision.
    Mr. Frelinghuysen. Well is it your intention that you would 
use these rescissions to reduce the appropriated levels for 
state and local programs if Congress adds to your request?
    Mr. Sedgwick. Well, add to our request for fiscal year----
    Mr. Frelinghuysen. If you don't have enough money from the 
terminated grants----
    Mr. Sedgwick. Right.
    Mr. Frelinghuysen [continuing]. Would you possibly take 
that sort of action?
    Mr. Sedgwick. We might have to. I mean, quite frankly to 
meet a rescission----
    Mr. Frelinghuysen. Well, in the interest of full 
disclosure, this is obviously part of our----
    Mr. Sedgwick. We really only have two places to go. One is 
unobligated carryover funds. And the other is the obligations. 
And one of the things that I think people should know is that 
we have made dramatic progress in eliminating the backlog of 
unclosed out grants.
    So historically, meeting rescission was not particularly 
challenging, because we had a lot of unclosed out grants that 
we could close out, deobligate the funds, and meet rescission 
amounts out of those close outs.
    Due to some very hard work within OJP to come current on 
grants and to do a better job of managing grants, particularly 
in light of the Inspector General's report that kind of grant 
monitoring was one of the top ten management challenges for the 
Department of Justice, we took that very seriously. We have 
closed out about 16,000 grants out of our backlog.
    That means that, the amount of money that is going to be 
there in deobligation, going out into the future, is going to 
be less than the standard. So this is for us a serious 
management challenge that we do worry about.
    You know, the rescission amounts keep staying at a high 
level. And deobligations fall off as we eliminate our backlogs. 
And more closely monitor our existing grants to make sure that 
grantees are spending the money at an appropriate rate so that 
they spend everything they ask for and achieve the goals that 
they ask for during the period of the grant. We are not going 
to have any deobligations. And we won't have a lot to carry 
over. And that will cause some problems.
    Mr. Frelinghuysen. So it is important to have this matter 
out on the table.
    Mr. Sedgwick. Oh, yeah.
    Mr. Frelinghuysen. And we appreciate the clarification.
    Mr. Sedgwick. Absolutely.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.

                   OJP MANAGEMENT AND ADMINISTRATION

    Mr. Mollohan. Mr. Sedgwick, with the exception of the $12.7 
million request for crime victims fund management and 
administration, the President's fiscal year 2009 budget does 
not present direct costs for management and administration for 
OJP programs.
    And we need to understand those requirements to determine 
proper funding levels. And I want to ask you if you would 
commit to working with the staff in a very transparent way so 
we can work through these issues. And so that we can understand 
these numbers.
    Mr. Sedgwick. Yes. We are more than happy to work with you 
to the best of our ability to clarify those issues.
    Mr. Mollohan. Okay. Please tell us about the progress in 
the schedule for awarding Congressionally directed Byrne and 
juvenile justice grants.
    Mr. Sedgwick. For this fiscal year?
    Mr. Mollohan. Yes, for 2008.
    Mr. Sedgwick. Yes. Right now what we are waiting for in 
terms of processing grants, we obviously can't process any 
grant until we get a spend plan approved.
    So we are in many cases for very many of the competitive 
grant programs, solicitations have already been issued. Grant 
proposals have been received. We are simply waiting to see 
whether or not the spend plan that we have proposed is 
accepted. At which point we can begin processing grants.
    Mr. Mollohan. The spending plan as you have submitted here?
    Mr. Sedgwick. Yes. I believe it came up last week.
    Mr. Mollohan. And the COPS program as well? Byrne juvenile 
justice grants, and COPS program.

                     CONGRESSIONALLY DIRECTED FUNDS

    Mr. Peed. The COPS programs, again, when the spending plan 
is approved, we will--we have about--if you are referring to 
the directed--the congressionally Directed Fund?
    Mr. Mollohan. That is precisely what I am talking about.
    Mr. Peed. You have 683 Congressionally directed funds. We 
have $205 million in technology and $61 million in 
methamphetamine. And so we have already reached out to the 
sponsors of those grants. As soon as the spending plan--the 
spending plan is approved, we will be reaching out to the 
grantees.
    Mr. Mollohan. And you are not waiting for the--for approval 
of the spend plan in order to reach out to the grantees in 
these other programs, are you, Mr. Sedgwick?
    Mr. Sedgwick. Not at all.
    Mr. Mollohan. So you are reaching out to them?
    Mr. Sedgwick. Oh, yeah.
    Mr. Peed. Same as here. We have already reached out to 
grantees too.

                           COMMUNITY POLICING

    Mr. Mollohan. Yeah, okay. Mr. Peed, community policing, you 
have had vast experience. Just for the record, tell us what 
community policing means. What is it?
    Mr. Peed. Community policing, if you ask different people 
across the country, you would come up with different terms. We 
have narrowed our definition. I think it is what we refer to as 
the umbrella of community policing, because there are lots of 
good tactics and strategies out there that fall under the 
definition of community policing.
    Our definition basically includes three things. The basic 
is partnerships, partnering with your community members, or 
other stakeholders within your community, problem solving 
skills, working on problem solving, identifying the problem of 
working with your community to solve it, and organization 
transformation, which means you hire the right people, you 
train them correctly, you would employ them correctly.
    Mr. Mollohan. The local law enforcement agency does all of 
this?
    Mr. Peed. Right. And you empower those people to make 
decisions at the lowest level possible.
    Mr. Mollohan. How do we know it works?
    Mr. Peed. We have--again, getting back, we have had 12 
evaluations. And some have suggested that it may. And some have 
come up with mixed results. But there is also one by GAO--by 
the GAO.
    But I think if you talk to the professionals in the field, 
they like many of the strategies that they use. Whether it is 
working in task forces, whether working with partners, whether 
working with hot spots.
    So I think if you talk to professionals in the field, if 
they can identify what works for them. And sometimes it may be 
a little bit different. But it also usually has some component 
of that problem solving and partnerships.
    Mr. Mollohan. Well you have a unique perspective. You have 
been to state and local level.
    Mr. Peed. Mm-hmm.
    Mr. Mollohan. Right? Where was that?
    Mr. Peed. In Fairfax County, Virginia.
    Mr. Mollohan. And you have been the Director of the COPS 
program.
    Mr. Peed. I have been there for six and a half years.

                 COPS PERSPECTIVE ON COMMUNITY POLICING

    Mr. Mollohan. I was going to ask how long you were there, 
six and a half years. So that is really great experience. What 
is your perspective?
    Mr. Peed. Oh, I think the community policing does work at 
the local level. Again, getting back to I think any community 
that partners with any law enforcement organization that 
partners with their community, they have got to have their 
community support in many cases to go and solve problems.
    I like the definition that Dean Esserman out of Providence 
uses. And basically when he is trying to solve issues in that 
community, he wants to go and meet with that community rather 
than do a sweep or some other things. You know, where he is 
going to go and do an enforcement effort without going to the 
community and identifying the problem and helping that 
community agree and solve that issue for them. So I think it 
works.
    Mr. Mollohan. Not to make a long answer out of it, but if 
you were to, for the record, state some lessons learned from 
your experience, total experience, regarding community 
policing, what would be some of those lessons learned?
    Mr. Peed. I think public hearings in the communities of 
interest. And I would share with you one of our examples is 
back following the Rodney King incident in L.A., I worked with 
our Circuit Court Judge and our prosecutors to go into minority 
communities to hold public hearings on that particular incident 
so that they wouldn't lose trust in their law enforcement 
organization.
    Mr. Mollohan. Sounds like engaging the community.
    Mr. Peed. Yes, sir.
    Mr. Mollohan. Genuinely engaging the community. What are 
some of the significant unmet needs of state and local law 
enforcement?
    Mr. Peed. After a 25 year history or career in law 
enforcement, I can always tell you that you won't find many law 
enforcement organizations in the country that don't say they 
need more resources. So they always will tell you they need 
more resources, whether it is technology, or----
    Mr. Mollohan. You know, I am really not asking what they 
would tell me. I mean, we will probably have some of them in 
here telling us.
    I am respecting your background. And I want to know what 
you--how you personally and professionally answer that 
question. Sort of as an expert witness.
    Mr. Peed. Okay. I have been an expert witness before. And 
it is difficult.
    Mr. Mollohan. Well you are right here too. And this is easy 
so.

                      LAW ENFORCEMENT UNMET NEEDS

    Mr. Peed. Yes. So you are asking me what I think the needs 
are of law enforcement?
    Mr. Mollohan. Mm-hmm. I am asking you what you think are 
the most significant unmet needs, however you define that.
    Mr. Peed. One is employable personnel. According to the 
standards that have been set by the majority of law enforcement 
organizations in this country, they are having difficulty 
finding the people that they feel that they need to hire.
    Mr. Mollohan. Training, socialization, cultural, attitude?
    Mr. Peed. Yes, sir.
    Mr. Mollohan. All those?
    Mr. Peed. All those.
    Mr. Mollohan. Really? We are having trouble filling law 
enforcement at the state and local level with those kinds of 
people.
    Mr. Peed. As a matter of fact, one of the questions that 
when I have asked--on a new LIMA study is to look at the issues 
of how many vacancies there are in the country and their 
ability to fill positions. It takes sometimes ten months to 
hire a position.
    Mr. Mollohan. Does that suggest that there is a need in our 
community educational institutions?
    Mr. Peed. I think----
    Mr. Mollohan. Let me just finish asking. I mean, I know you 
are ahead of me. But for criminal justice programs particularly 
in the personnel training area?

               CRIMINAL JUSTICE PROGRAMS IN HIGH SCHOOLS

    Mr. Peed. I believe that criminal justice programs in high 
school would be very, very----
    Mr. Mollohan. High school?
    Mr. Peed. In high school.
    Mr. Mollohan. Wow.
    Mr. Peed. Because many times those kids are going to get in 
trouble before they turn 21. And you have got to get to them 
earlier on before they turn 21.
    Mr. Mollohan. You have got to let them know if you want to 
work in law enforcement, you need not to get in trouble. Is 
that a course, or just the police going in and saying, hey 
look? Or maybe colleges that have such programs going in and 
say if you are interested in getting into our criminal justice 
program, it is not only how smart you are and how dedicated, it 
is what your record looks like.
    Mr. Peed. I think----
    Mr. Mollohan. That is a really good suggestion.
    Mr. Peed [continuing]. The high schools, the Cadets, the 
Explorer Scouts, all of those programs, I think, are helpful 
for law enforcement.
    Mr. Mollohan. And what is another significant need for 
state and local law enforcement?
    Mr. Peed. Besides hiring?
    Mr. Mollohan. Mm-hmm. Besides the right personnel, as I 
understood you just testified.
    Mr. Peed. Let me think about it.
    Mr. Mollohan. Sure, yes. This is your opportunity to tell 
us.
    Mr. Peed. I think turnover is another issue for law 
enforcement. I think there is more turnover in law enforcement 
than the law enforcement groups would like.
    Mr. Mollohan. What is the solution to that?

           SALARY AND BENEFITS FOR LAW ENFORCEMENT PERSONNEL

    Mr. Peed. Again getting back to hiring and training the 
right people. Maybe it is just our era of what this particular 
group that we are hiring.
    Mr. Mollohan. Say that again.
    Mr. Peed. This era. The generation Xers, the generation 
Yers. Those kind of folks that change jobs every four years or 
so. So I think that is a challenge for law enforcement.
    Mr. Mollohan. Well, how do you address that is what I am 
asking?
    Mr. Peed. Again, getting back to hiring, and training, and 
maybe even looking at salary and benefits across the country.
    Mr. Mollohan. Maybe?
    Mr. Peed. Maybe.
    Mr. Mollohan. That is in question in your mind?
    Mr. Peed. Some jurisdictions are better than others.
    Mr. Mollohan. And do jurisdictions that pay more--pay 
higher salaries, do they have less of a problem with turnover?
    Mr. Peed. I am sure that----
    Mr. Mollohan. Is it that straightforward?
    Mr. Peed. Probably. And they probably will jump from a 
lower paying jurisdiction to a higher paying jurisdiction.
    Mr. Mollohan. Yes. I have seen that when our federal jobs 
come into our area. There is a pretty discernable move to go 
work there, federal prisons or federal institutions.
    Any other significant unmet needs?
    Mr. Peed. Not that I know of.
    Mr. Mollohan. Just for the record, I really would like you 
to respond to that. And then what is the appropriate federal 
role? Your opinion, if you can give it to us.
    Mr. Peed. Getting back to the poll, I think for small 
amounts of discretionary spending, we can have a huge impact on 
the field. And so in our situation, we have got--in the 2009 
budget, $4 million. And I don't look lightly on that $4 
million, because I think we can do a tremendous job with that 
$4 million. We can work with the IACP, and the Major City 
Chiefs, and the Major County Sheriffs, and the International 
Association of Campus Law Enforcement Organizations. We can 
work with them on significant projects that will impact the 
field. So that is an area I would like----

                           COPS HIRING GRANTS

    Mr. Mollohan. I am going to have a number of questions for 
you for the record, methamphetamine, technology, training. But 
two questions I would like to ask you. In 2008, we reinstituted 
the COPS hiring grants program. How will the 2008 hiring grants 
be dispersed?
    Mr. Peed. We intend to follow our requirements of making it 
a national program. We intend to follow the population split of 
150,000 above and 150,000 below so that 50 percent of them. So 
we will be going out to small and rural areas. So every state 
will have an opportunity to apply. Small and rural would be 
able to apply.

                         TRIBAL LAW ENFORCEMENT

    Mr. Mollohan. Okay. And I have some other questions 
associated with that question I would appreciate you answering 
for the record. I have to ask the question about tribal law 
enforcement, which is something I think we need to pay more 
attention to their needs. Tribal governments have some of the 
highest needs of any law enforcement agencies.
    And please tell us how existing OJP and COPS programs meet 
the unique needs of these police forces?
    Mr. Peed. In the--on the----
    Mr. Peed. In our 2008 budget, we have $15 million for 
tribal. And we expect to make grants directly to our law 
enforcement--
    Mr. Mollohan. Are you sure about that?
    Mr. Peed. Fifteen million dollars in--maybe 14.7 or 14.8. 
But----
    [The information follows:]

               FY 2008 Tribal Funding for the COPS Office

    In FY 2008, the COPS Office was appropriated $15.040 million to 
assist with Tribal law enforcement efforts.

    Mr. Mollohan. If that is not accurate, then correct it for 
the record, please.
    Mr. Peed. Right. And so we will be making grants to tribal 
law enforcement organizations.
    Mr. Mollohan. That is your request.
    Mr. Peed. In 2008. In 2008 that is our appropriation.
    Mr. Mollohan. That is your appropriation. What is your 
request?
    Mr. Peed. For 2009?
    Mr. Mollohan. Yes.
    Mr. Peed. We will be merged into the broader core programs. 
And they will be able to apply the tribes for grants.
    Mr. Mollohan. Yes, okay. Dr. Sedgwick.
    Mr. Sedgwick. Yes.
    Mr. Mollohan. Do you have an answer to that question?
    Mr. Sedgwick. Tribal?
    Mr. Mollohan. Tribal----
    Mr. Sedgwick. On tribal grants?
    Mr. Mollohan. Yes.
    Mr. Sedgwick. A couple of things that we tried to get in 
OJP to address the demonstrable needs in tribal country. One 
is--and actually these are kind of parent organization. We have 
a Tribal Justice Advisory Group. It has now met twice. That 
advises us and consults with us on outstanding need in tribal 
country. And also concerns that they have about difficulties 
applying for funding through OJP programs.
    Paired with that is a Justice Program Council on Native 
American Affairs that is made up of representatives of each of 
the OJP program offices, where we meet and discuss on a regular 
basis the concerns that have been raised by the Tribal Advisory 
Group.
    We are very pleased that we have just instituted a tribal 
grants policy that is applicable to all of the program offices 
in OJP. So we are actually moving pretty aggressively on the 
direction of meeting the needs in tribal country.
    Again, within the structure of the fiscal year 2009 budget, 
you do not see set-asides for tribal. However, given our 
awareness of the needs in tribal country, within any one of 
these broad funding categories, proposals received from tribal 
country, would be entertained very seriously, because of our 
recognition that in many cases they are lagging far behind non-
tribal.
    Mr. Mollohan. Yes, they sure are. And we are not doing 
enough. And I know you agree with that. But just for the 
record, your request would not only consolidate these programs, 
they would also cut the funding that would be available for 
them.
    Mr. Sedgwick. They cut the overall funding. That is true.
    Mr. Mollohan. Yes.
    Mr. Sedgwick. Whether or not that would mean a real 
decrease in funding----
    Mr. Mollohan. In any particular program remains to be seen. 
But what is true is it will--it will result in a decrease 
somewhere.
    Mr. Sedgwick. Right.
    Mr. Mollohan. Significantly. Yes, thank you.
    Ms. Dyer, regarding violence against women programs on the 
House floor last year. I don't know that we had any area of the 
bill where there were more amendments seeking to increase the 
funding.
    But there is a lot of support, because there is a lot of 
demand and need out there. My issue is how we impact, with the 
resources we have, how we actually impact every single 
community in America, because I don't think we do.
    I am out there holding office hours. And I remember office 
hours I held in Preston County, West Virginia, which is a rural 
county. I met with a group, a non-profit group that was 
attempting to establish a home. And some of the stories they 
told just really emphasized--gave back up to the statistics.
    For when I get back, I would like for you to think about 
this question:
    How do we with the federal resources we have impact 
violence against women in all jurisdictions, in all areas of 
the country?
    And I am going to go vote. Mr. Frelinghuysen.
    Mr. Frelinghuysen [presiding]. Thank you, Mr. Chairman.
    While you are writing down the Chairman's request, let me 
just put my oar in the water too. Do you connect to the 
Veterans Administration?

         COORDINATION WITH DOD, VETERANS ADMINISTRATION AND OVW

    Ms. Dyer. With the what?
    Mr. Frelinghuysen. The Veterans Administration and the 
Department of Defense, relative to the whole issue of soldiers 
coming home?
    Ms. Dyer. Yes.
    Mr. Frelinghuysen. Do you have a connectivity?
    Ms. Dyer. Yes, we do. In fact----
    Mr. Frelinghuysen. These issues?
    Ms. Dyer. Yes.
    Mr. Frelinghuysen. Where is it at? How does that exist?
    Ms. Dyer. Specifically with the Department of Defense, we 
work with--we actually met with them recently. And one of my 
friends from when I was a prosecutor, who worked at APRI, is in 
charge of their sexual assault unit. Her name is Teresa Scalzo.
    And we have an ongoing relationship. We have even talked 
about doing some specific trainings, what we call 
``institutes.'' That would be specifically toward military 
bases, victims of domestic violence whose husbands have 
returned from overseas. And so we do have a contact there. And 
we do have a good connection there.
    Mr. Frelinghuysen. The statistics have obviously those 
that--because they are serving abroad, have--their marriage is 
totally broken or pretty staggering--added obviously issues 
that they bring back with them.
    Ms. Dyer. Yes.
    Mr. Frelinghuysen. You know from the battle field. I know 
the VA has set up in some veterans hospitals some units to deal 
with those that have been victims of sexual violence.
    But on the larger issue of spouse battering, wife 
battering, you are connected to both the VA and the Department 
of Defense?
    Ms. Dyer. I know of our connection to the Department of 
Defense. I have met with them. I know the names of the people 
there. I do not know about the VA. And I am not aware. I would 
be happy to look into it. But I do not know if we have a 
contact there, or if we meet with them.
    Mr. Frelinghuysen. It would be worthy of your 
consideration. There is supposed to be ``a seamlessness'' 
between active duty and then there are Guard and Reserve who 
obviously go back to being citizen soldiers.
    I think there are some huge problems there. Not that you 
don't have enough on your plate, but maybe you would add 
another.

                      JAG GRANTS AND IMPACT OF CUT

    We have not discussed something which is pretty important 
to all of us, the Members of Congress, the JAG grants. The 
fiscal year 2008 Omnibus Bill cut the JAG grants by $340 
million, not a process that didn't involve a lot of pain. They 
basically cut the program by two thirds.
    By any definition, JAG is the flagship grant program that 
supports probably the broadest range of criminal justice 
activities and distributes funds based on population, crime 
statistics.
    We have gone over the crime statistics issue. Every member 
of Congress has heard from a broad coalition of groups seeking 
to restore this funding.
    What do you see, Mr. Sedgwick, particularly as the impact 
of the cut, particularly on the work of multi-jurisdictional 
operations related to drugs and gang task forces?
    Mr. Sedgwick. In fiscal year 2009?
    Mr. Frelinghuysen. Yes.
    Mr. Sedgwick. This fiscal year? Obviously, you know, the 
reduction in the appropriated amounts for the JAG Program is 
going to have a significant impact. Interestingly enough, it is 
a little difficult to say where the burden is going to fall.
    The JAG cutback, in part because I know Domingo Herraiz who 
heads our office of the Bureau of Justice Assistance has been 
looking at how Justice Assistance grants that are typically 
given over to state assistance agencies or to state planning 
agencies are then in turn distributed to local government.
    And I know he has been concerned that the money that is 
distributed through Justice Assistance, in many cases, is going 
to places other than local law enforcement. In some cases, it 
is going to victims assistance centers that are also eligible 
for funding through the Office for Victims of Crime. And in 
some cases, to other actors in the criminal justice community.
    But I think the----
    Mr. Frelinghuysen. There are, in fact, a lot of purpose 
areas for which this money is spent.
    Mr. Sedgwick. There are indeed.
    Mr. Frelinghuysen. And there may be some victims centers, 
and that may be good. But there is, obviously, ongoing----
    Mr. Sedgwick. Right.
    Mr. Frelinghuysen [continuing]. Work that is being done 
relative to drug operations
    Mr. Sedgwick. Sure. No, I----
    Mr. Frelinghuysen [continuing]. Gangs. I mean, what is your 
take on what it all means?
    Mr. Sedgwick. Well----
    Mr. Frelinghuysen. And more importantly, if you aren't 
going to fund it in your budget, what is going to replace what 
we have now?
    Mr. Sedgwick. Well, in fiscal year 2008----
    Mr. Frelinghuysen. Yes.
    Mr. Sedgwick [continuing]. We can only spend what we were 
appropriated. So, you know----
    Mr. Frelinghuysen. Well, going forward.
    Mr. Sedgwick. Well, going forward, you know, our 
recommendation is if we are now in an environment of--you know, 
if we are in tightened circumstances with less money to spend, 
our position is the country is best served by a flexible 
approach that allows us to target the reduced areas of greatest 
need.
    I think our concern is that----

                             OJP PRIORITIES

    Mr. Frelinghuysen. So which of the purpose areas would you 
classify as the greatest need?
    Mr. Sedgwick. Well, this kind of gets back to a question 
that Chairman Mollohan answered or asked me. And I answered 
one-third of it.
    Mr. Frelinghuysen. Well, let us maybe hear the other two-
thirds.
    Mr. Sedgwick. The record will--within the other two----
    Mr. Frelinghuysen. He will be happy to have the response, 
even in his absence.
    Mr. Sedgwick. Here are the other two-thirds----
    Mr. Frelinghuysen. Yes. [Laughter.]
    Mr. Sedgwick. I mean, the things that I will be looking at 
very clearly as priorities would be prison reentry. We would 
certainly be looking at gangs, drugs, and guns, and the 
intersection of all those three things.
    One of the two things that we picked up that significantly 
concerned us when we started looking at the violent crime 
picture in some detail in 2005 was an earlier onset of violence 
of juveniles.
    I mean it used to be the case that you could typically--if 
you mapped out the typical criminal career, what you would see 
is juveniles would start at a fairly young age, typically in 
the property crimes. And wouldn't graduate into or cross over 
into committing their first violent crime until much later in 
their teen years.

                             JUVENILE CRIME

    One of the things that we picked up in our 18-city tour was 
in jurisdictions that were having violent crime increases, they 
spoke over and over again about an earlier onset of violent 
crime and the inability of the unpreparedness of state juvenile 
justice systems to deal with violent felons. In one case in 
particular in Norfolk, they were taking about a juvenile in 
Norfolk who at age 11 had already committed two homicides.
    They simply said at that point, the difficulty that they 
are facing in Norfolk is the state juvenile justice system is 
simply not prepared to deal with an 11 year old who has 
committed two murders, understandably.
    That is certainly something that, you know, kind of raised 
our eyebrows both, because we could see it in the statistics as 
well as in anecdotes.
    The other thing, quite frankly, is the greater willingness 
of the increased propensity to use a firearm in the course of a 
violent crime. Even in communities where there were fewer 
violent crimes, people were seeing a greater percentage of 
violent crimes involved the use of a firearm, which, of course, 
means a greater potential for a fatality. You know, for a 
really damaging outcome.
    So, you know, if I were to kind of say priority areas that 
are----
    Mr. Frelinghuysen. You you are going to be replacing the 
old JAG program with something new, which falls under the 
consolidated umbrella. You are suggesting that those would be 
several of the areas, which you would put----
    Mr. Sedgwick. Absolutely.
    Mr. Frelinghuysen [continuing]. At the top of your list.

             VIOLENT CRIME REDUCTION PARTNERSHIP INITIATIVE

    Mr. Sedgwick. Yes. One of the new, kind of broad categories 
in the fiscal year 2009 budget, is a $200 million commitment to 
a violent crime partnership initiative or an anti-violent crime 
partnership initiative, which is really an expansion of 
something that we have run in fiscal year 2007.
    We had $75 million to distribute. I referred to this in my 
opening statement to create partnerships, to leverage federal 
dollars, to use federal dollars to leverage state and local 
dollars, create partnerships across jurisdictions to address 
communities that had significant violent crime problems.
    Mr. Frelinghuysen. Have you taken a look at some of the 
proposals of the State Attorney Generals that have put forward 
as their priority list? And are they similar to--are they 
similar to yours?
    Mr. Sedgwick. I actually have not had an opportunity to 
look at their priorities.
    Mr. Frelinghuysen. I would suspect that very few State 
Attorney Generals haven't reached out to the Members of 
Congress over the last----
    Mr. Sedgwick. Right.
    Mr. Frelinghuysen [continuing]. Few months. I mean, every 
conceivable law enforcement organization----
    Mr. Sedgwick. Sure.
    Mr. Frelinghuysen [continuing]. Has. And I hope that some 
of their recommendations will fall into your inbox.
    Mr. Sedgwick. I am sure they will. Thank you, Mr. Chairman. 
I will get them into my inbox.
    Ms. Dyer. Excuse me, may I take a quick break?
    Mr. Mollohan. Absolutely, let us take a ten-minute break.
    Ms. Dyer. Thank you very much.
    Mr. Mollohan. I apologize.
    [Recess.]

                     ASSISTANCE TO VICTIMS OF ABUSE

    Ms. Dyer. I think that the best way to do it is in two 
different ways. One you would directly, and number two you 
would do it indirectly. We do it directly by providing grants 
to communities. And it is important to get into what I call the 
cracks and crevices of the community. That is where we are 
actually giving money to shelters and giving money to 
prosecutor's offices and various agencies.
    Mr. Mollohan. No. But that doesn't get us to all.
    Ms. Dyer. Well, that is why I kind of have my thought 
broken down into the direct help in the form of those grants. 
Indirectly, we can help victims by increasing training to 
officers. Also, we can train the trainer, where the trainer can 
then go out and train further within their communities.
    Mr. Mollohan. Who are the trainers?
    Ms. Dyer. We will have experts in the field, from different 
service providers like the Justice Project, the Prosecutors 
Research Institute, and the National District Attorneys 
Association. They will then do the training and train the 
trainers training.
    Mr. Mollohan. Is that happening?
    Ms. Dyer. Yes.
    Mr. Mollohan. For example, in West Virginia or some other 
state, how does it get down to the county level?
    Ms. Dyer. Well----
    Mr. Mollohan. And is it?
    Ms. Dyer [continuing]. I will give you a personal example. 
I was a trainer for the American Prosecutors Research 
Institute. They do a very small program where they would bring 
in 50 prosecutors at a time from around the country. They would 
really give these guys lots of information, PowerPoints. Then 
those people could then go back out into their communities and 
be trained within their county or within the neighboring 
county.
    Mr. Mollohan. You are talking about state and local 
prosecutors?
    Ms. Dyer. Yes, I am. Because the vast majority of domestic 
violence crimes are prosecuted by state and local prosecutors 
not the federal prosecutors.
    Mr. Mollohan. Okay. And that is a natural perspective for 
you to have, given your background. What about the service to 
the victim part of it, the resources to the victim and the 
expertise in the programs available at the local level for the 
victim in addition to the punishment of the offender?
    Ms. Dyer. Those are crucial. In fact, for nine years, one 
night a week I met and worked as a volunteer at my local 
women's shelter. For nine years I was there. When the victims 
would call in I would tell them, this is the room you will be 
in. This is the color of the comforter. The soup is going to be 
good, because I made it myself.
    Mr. Mollohan. Where was that?
    Ms. Dyer. Genesis Women's Shelter at Dallas, Texas.
    Mr. Mollohan. Do you know where west Dallas is?
    Ms. Dyer. People also say, ``Do you know where west Dallas 
is?''
    Mr. Mollohan. I spent a summer there one year.
    Ms. Dyer. And so we--that is the crucial part. You can't 
just depend on law enforcement. You can't go it alone. And you 
have to fund. You have to do a dual thing where you have to 
fund. I am a proponent of, to some extent, funding the pilot 
programs. These really best practices to allow places like 
Brooklyn or Chicago to have a good program for victims. And 
that is good. But we also need to make sure that down in Texas 
has some service for victims. I am not proponent of putting all 
of the money that we ever get, whether it is 280 or 400 million 
into just the certain programs. We need to do just some core 
services too.

                              RURAL GRANTS

    Mr. Mollohan. Well, rural America has this problem in 
spades. I can only imagine that in some ways these women are 
more distant to the help.
    Ms. Dyer. Yes.
    Mr. Mollohan. Maybe that is not right. But I know they are 
distant from the help. I mean, they are isolated. They are in 
the country literally.
    Ms. Dyer. They don't have as many access to----
    Mr. Mollohan. Are you focusing on that population?
    Ms. Dyer. Absolutely. One of our current grant programs and 
in the new President's request, it would remain a purpose area 
is specifically the rural program.
    Mr. Mollohan. Okay. Just take that grant program, that is a 
new proposed program?
    Ms. Dyer. No. It is one that you have been funding.
    Mr. Mollohan. Okay. What is the name of it?
    Ms. Dyer. The Rural Program.
    Mr. Mollohan. Oh, sorry. Okay. How much money is in that? I 
can tell you.
    Ms. Dyer. Forty million dollars in 2008.
    Mr. Mollohan. Okay. Forty million four hundred and twenty 
thousand dollars, right? Yeah. Okay. So that program is 
available for rural----
    Ms. Dyer. That one is just available for rural.
    Mr. Mollohan. Yes.
    Ms. Dyer. Of course, many rural places to apply for other 
grants.
    Mr. Mollohan. What is the demand on that program?
    Ms. Dyer. It is very competitive. That particular grant 
program is very competitive.
    Mr. Mollohan. So there are a lot of applications you turn 
down?
    Ms. Dyer. Yes, for rural areas.
    Mr. Mollohan. And there are so many more that don't even 
apply to them. We have got to develop a strategy to actually 
get to--I don't know how you get the people that aren't even 
applying, which is most people, most areas, most jurisdictions. 
How do we get to them?
    Ms. Dyer. We have been trying to do a good job. We take 
advantage of any opportunities to speak.
    Mr. Mollohan. I know, but that----
    Ms. Dyer. I was out at midnight the other night.
    Mr. Mollohan. And you would do a terrific job. But I will 
tell you, I don't know how you do that. The programmatics, 
maybe you get a----
    Ms. Dyer. Well we try to--we do as much as we can. Let 
people know that, you know, the program is out there. As a 
community, it is very important. My coworker, Becky, and she is 
our coordinator. She is out in the country all the time, you 
know, saying there are programs.
    The other thing that we are doing is we are doing a thing 
with the Ad Council. It is kind of a public service 
announcement. The idea is it is going to be directed really 
towards teenage violence, because, number one, teens are more 
likely to be abused than adults are. Our daughters are more in 
danger than we are.
    And, number two, so that we can get to them before it 
becomes a situation where they have children with this person, 
and they are married to this person, and they are really stuck 
trying to get out. So that is one thing that we are doing.
    I know from working at the shelter, I am telling you, 
whenever Oprah did a program on domestic violence or, whatever 
it was, if there was a CBS special or a Hallmark, or whatever, 
our calls would be up.
    Mr. Mollohan. Yes, that is a way to get to it.
    Well, I have a number of questions here, which I am going 
to submit for the record. And many of them are directed for 
you.
    We are very appreciative of the appearance of the witnesses 
today. I thought it was a really good hearing from our 
standpoint. And we do appreciate the good work you do.
    You are all doing great work with not enough resources. So 
we look forward to working with you in the future. And if you 
would be responsive to the staff this week.
    Ms. Dyer. Yes, sir.
    Mr. Mollohan. We would appreciate it. Thank you for 
everything.
    Ms. Dyer. Thank you.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                                       Wednesday, March 12, 2008.  

    BUREAU OF PRISONS; U.S. MARSHALS SERVICE; OFFICE OF THE FEDERAL 
                           DETENTION TRUSTEE

                               WITNESSES

HARLEY G. LAPPIN, DIRECTOR, BUREAU OF PRISONS
JOHN F. CLARK, DIRECTOR, U.S. MARSHALS SERVICE
STACIA A. HYLTON, FEDERAL DETENTION TRUSTEE, OFFICE OF THE FEDERAL 
    DETENTION TRUSTEE

                Opening Remarks by Congressman Mollohan

    Mr. Mollohan. The hearing will come to order. Good 
afternoon to everyone. We welcome a panel of three Department 
of Justice witnesses to this hearing on the fiscal year 2009 
budget request for the Bureau of Prisons, the U.S. Marshal 
Service, and the Office of the Federal Detention Trustee. We 
will begin with testimony from Mr. Harley G. Lappin, the 
Director of the Bureau of Prisons, and proceed then to other 
agencies in sequence.
    Mr. Lappin, first of all I want to begin by expressing my 
personal and the Subcommittee's condolences to you upon the 
passing of your dad. That is a very difficult thing. And it is 
a great testament to you and to him that you are here 
fulfilling your responsibilities in this circumstance. My dad 
died when we were considering a bill, a very important bill. I 
believe it was a Steel Loan Guarantee Bill on the floor, and I 
was carrying it, Senator Byrd had carried it on the Senate 
side. And we were doing it that night. And I know, I know your 
feeling about that and how it really is an honor to your father 
that you fulfill those responsibilities under those 
circumstances. So especially welcome to the hearing today.
    Mr. Director, lately it is hard to open the newspaper 
without seeing a news article or a commentary on recent studies 
on the explosive growth of prisoners incarcerated in federal, 
state, and local prisons and jails over the last twenty years. 
As in the states, the Bureau of Prisons is faced with rising 
inmate populations and rising fixed costs and aging 
infrastructure. We look forward to working with you to address 
these challenges and we want to compliment you and your staff 
on the tremendous job you are doing in the face of scarce 
resources. And we want you to know that we look forward to your 
testimony to see where those places are that you need special 
help and timely, and so that we can be responsive.
    Your written statement will be made a part of the record. 
We look forward to your oral testimony. And before calling upon 
you to deliver that I would like to call upon our fine Ranking 
Member Mr. Frelinghuysen for any comments that he might have.
    Mr. Frelinghuysen. No comments other than to echo the 
sentiments and sympathy of the Chairman, and thank you for your 
good work and all those who stand behind you each and every day 
doing some very tough work on behalf of our nation. Often 
unrecognized, underappreciated, and that not only goes to you 
but to those who follow behind you to testify today. Thank you 
very much, Mr. Chairman.
    Mr. Mollohan. Mr. Lappin.
    Mr. Lappin. Thank you both for your sympathy for my Father, 
I appreciate that very much, and certainly for the fine 
comments recognizing the wonderful staff who work in the 
Federal Bureau of Prisons who do a great job each and every 
day. But good afternoon to both of you and the other members 
who I am sure will arrive over the course of time.

                 OPENING STATEMENT OF HARLEY G. LAPPIN

    Chairman Mollohan, Congressman Frelinghuysen and other 
members of the Subcommittee. I am pleased to appear before you 
today to discuss the President's 2009 Budget Request for the 
Bureau of Prisons. Let me first begin by thanking you for your 
support of the Bureau of Prisons. We particularly appreciate 
the new construction resources provided in the 2008 Omnibus 
Bill, which allow us to move ahead with three much needed new 
prisons. I look forward to continuing our work with you and the 
Subcommittee.
    Last year, in reference to your article that you mentioned, 
the inmate population in the Bureau of Prisons increased by 
7,400 inmates. We expect a net growth of 5,000 to 7,000 inmates 
per year over the next several years. Our current population is 
over 201,000 inmates. The Bureau facilities are operating at 37 
percent above rated capacity system-wide.
    Our highest priorities continue to be filling staff 
positions that have direct contact with inmates and bringing on 
new beds to reduce crowding to assure that federal inmates 
continue to serve their sentences in safe, secure, and humane 
environments. In 2007, the Bureau of Prison's inmate to staff 
ratio was 4.92 inmates to one employee. The average of the five 
largest state systems was 3.33 inmates to one employee, based 
on the latest comprehensive data available from the states.
    During the past three years we have implemented a number of 
initiatives to streamline operations and reduce costs. These 
actions involved permanent changes to BOP operations and 
reduced costs about $270 million over the three-year period. We 
eliminated over 2300 positions, closed four federal prison 
camps, restructured medical care levels, and consolidated 
inmate designation and sentence computation functions as well 
as human resource functions at a central location in Texas. In 
addition to these permanent actions, we have reduced travel, 
equipment, vehicles, and training expenditures. These 
reductions average more than $100 million per year and continue 
in 2008. Unfortunately, the rising cost of healthcare remains a 
serious issue, comparable to what is occurring in the private 
sector despite our efforts to contain costs.
    Almost all federal inmates will be released back into the 
community. We have released an average of 50,000 inmates per 
year back to U.S. communities over the past few years, a number 
that continues to increase as the inmate population continues 
to grow. Our goal is to ensure that prior to their release, 
these inmates receive needed job skill training, work 
experience, education, counseling, and other assistance. 
Federal Prison Industries, one of our most important 
correctional programs, provides inmates with job skill training 
and work experience thereby reducing recidivism and avoiding 
undesirable idleness during the inmate's incarceration. We 
expect Section 827 of the recently enacted Defense 
Authorization Bill to result in a decline in sales for the FPI 
program and potentially result in the loss of up to 6,300 jobs.
    The 2009 Budget Request is $5.436 billion for operations in 
our Salaries & Expenses (S&E) budget, and $95.8 million for our 
Buildings & Facilities (B&F) budget. For S&E, a total of $67 
million in program increases is requested to contract for new 
private beds for low security criminal aliens, and to provide a 
marginal cost adjustment for some additional inmates. The 
increases are offset by a proposal to eliminate $28 million in 
funding for the National Institute of Corrections and other 
expenses.
    For B&F, this budget continues base level funding for new 
construction at $25.2 million and a Modernization and Repair 
program at $70 million. One-third of our 114 institutions are 
over fifty years old and present significant modernization and 
repair costs that we must prioritize and address each year.
    Mr. Chairman, our goal is to continue to run safe and 
secure prisons. This requires adequate front line staffing in 
our prisons and adding prison beds to reduce overcrowding. We 
believe the 2009 request will better help the Bureau to meet 
these requirements. The inmate population will continue to 
increase and so will our challenges to provide for their safe, 
secure, and cost effective incarceration.
    Let me thank you again, Mr. Chairman, and members of the 
Subcommittee, for your continued support. I look forward to 
working with you and the Committee on the significant 
challenges facing the BOP and our Budget Request. Thank you.
    [Written statement of Harley G. Lappin, Director of the 
Federal Bureau of Prisons]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                             FY 2008 NEEDS

    Mr. Mollohan. Thank you, Mr. Lappin. Mr. Lappin, this 
hearing is about the Bureau of Prisons' fiscal 2009 request, 
however, you have some immediate needs for this year, for 2008, 
and I would like to talk with you a little bit about that. I 
would like for you to tell us about that situation. How 
immediate is the Bureau of Prisons' need and is the $240 
million reprogramming that the Department has sent up here 
sufficient to solve your current problems?
    Mr. Lappin. We appreciate your recognition of the challenge 
we face, and it is significant. We currently, as you have 
learned from the reprogramming request, have a need for an 
additional $240 million to carry out our responsibilities for 
the rest of this fiscal year. If you look at how this could 
happen and why it happened, you will find a variety of issues. 
If you look at the increase from 2007 to 2008, at the end of 
the day it was about $55 million which wouldn't cover the pay 
increase. Again, there are lots of priorities in the government 
and many needs. Decisions were made based on those priorities, 
but at the end of the day we feel as though we are going to 
need an additional $240 million.
    Mr. Mollohan. What are the biggest cost drivers? Can you 
talk about that?
    Mr. Lappin. Staff and salaries, salaries and expenses. I 
mean nearly 70 percent of our expenses are for salaries and 
benefits for employees. The $240 million would cover the number 
of employees we currently have employed, the overtime 
associated with their responsibilities, some of the operational 
costs, especially medical, and a few others. It is my opinion 
that $240 million will get us very close. We will do our best 
to live within the $240 million that is added to the budget.
    We will monitor closely and we are working very closely 
with the Department of Justice staff. They are listening very 
well to our concerns and issues, and have recognized the need 
for the reprogramming request. We are taking other initiatives 
in the Bureau to reduce costs. We have reduced overtime 
funding. We have reduced equipment funding and vehicle funding. 
We have delayed a couple of programs. We have reduced the 
relocations associated with staff transfers. We have reduced 
some training. We have then assumed some other salary savings 
through staff vacancies.
    Mr. Mollohan. Let me back up a little bit.
    Mr. Lappin. Sure.

                                STAFFING

    Mr. Mollohan. Talk to us in more detail about the staff 
situation. More inmates, less staff? I know from my visiting 
with employees in West Virginia on several occasions, just 
hearing them anecdotally talk about it. They talk about being 
on call every week, twice a week for overtime. They are tired, 
and they also have been associating that with incidents that, 
in their minds, are associated with the overtime and the 
understaffing. But if you would, in your opening remarks you 
talked a little bit about ratios. And I did not get all that, 
but the feds are four-point-something to one employee?
    Mr. Lappin. Yes, right now. And again, let me just say that 
I continue to believe that we are running a safe, secure prison 
system, and not without its challenges. And it is because of 
those great folks out there in the field, each and every day, 
sacrificing, by working additional overtime, by coming in when 
there is a need to come in when we have concerns, disruptions, 
so on and so forth. They just do a great job and we continue to 
fare well. But there is a limit.
    Mr. Mollohan. Let us look at the numbers first.
    Mr. Lappin. Our ratio right now is 4.92 inmates to every 
employee.
    Mr. Mollohan. And what was it last year or the year before? 
Do you know?
    Mr. Lappin. Oh, last year we were at about 4.91. The year 
before, 4.87. In 1997 we were at 3.57.
    Mr. Mollohan. That was in when? 1997?
    Mr. Lappin. In 1997 we were at 3.57 inmates per employee.
    Mr. Mollohan. There must be some ratio that the 
correctional experts identified, the textbook ratio. What is 
the textbook ratio?
    Mr. Lappin. Well, I am not sure. There is not really a 
ratio. We have been asked, ``Help us define a ratio.'' And why 
it is so difficult is it depends on the designs of your 
institutions and what posts you consider absolutely necessary. 
Because the vast majority of correctional organizations, the 
majority of our staff are run on rosters. You identify what 
work you want done, you tie to that a number of assignments 
posts, and based on the number of posts it drives the number of 
employees.
    Mr. Mollohan. And modern corrections, new facilities, you 
ought to be able to do them more efficiently?
    Mr. Lappin. Yes, new institutions you can manage safely--
more efficiently.
    Mr. Mollohan. So you would expect this number to, I do not 
know whether you talk about this increase or decrease, but you 
would expect the ratio to involve fewer employees?
    Mr. Lappin. Without a doubt, some of the increase has 
resulted from newer design facilities that are more efficient 
and more effective in watching more inmates with fewer people.
    Mr. Mollohan. Yes. So in the modern prison system, or the 
mixed prison system that you operate, can you tell us what the 
correct ratio should be?
    Mr. Lappin. I really cannot. We were working on an 
evaluation of how to come up with the number for us, and it 
might vary from system to system. I do not want it to get any 
larger. I can tell you that. I think we are at our limit. I 
would like to see that level come down, and that is why----
    Mr. Mollohan. Whoa, whoa, what level come down?
    Mr. Lappin. I would like to see the ratio come down.
    Mr. Mollohan. The ratio come down?
    Mr. Lappin. From 4.92 to a number less than that. That is, 
I want to add more staff.
    Mr. Mollohan. Okay, well we have to put dollars to need 
here, and so we need, I would love to have a little more 
guidance than that.
    Mr. Lappin. We will certainly provide that. Again, we are 
working on an evaluation as to how we come to a number.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. Yes. Because while it is anecdotal for my 
constituents to come in and say, you know, ``This is too 
much,'' and they are not whiners, really, that suggests to me 
that it is too much. And they can talk about it in the terms 
they can talk about it, but to be able to translate that into a 
budget, for you, and into appropriations for us, it needs to be 
a little more tangible. And if we had help on that that would 
give us backup and you as well. The states are operating at 
3.33. Did I get that right?
    Mr. Lappin. Yes, what we do, we look at the five largest 
states, California, Texas, Florida, New York, and Michigan.
    Mr. Mollohan. Is that a relevant, are you making a 
comparison here?
    Mr. Lappin. Well we are just trying to help put it in 
perspective, how we compare to other similar systems.
    Mr. Mollohan. Okay, but I want to know what to do with 
these numbers. Am I to look at this and say, ``Well, 4.91 
employees, okay we are operating a modern prison system, or a 
mixed prison system, it is not all modern, in federal, and the 
states are 3.33 on an average.'' Am I supposed to look at that 
and say, ``Gee, we ought to get to 3.33?''
    Mr. Lappin. Let me answer that. I do not think we need to 
get to 3.33. In fact, I think we can operate at a level higher 
than the 3.57 in 1997, because we have had a lot of newer 
prisons over the course of that time.
    Mr. Mollohan. Right.
    Mr. Lappin. So let me kind of help put it in perspective. 
For us to get to 3.57, where we were ten years ago, we would 
have to add 9,000 employees. I do not think there is a need to 
do that. But you are correct, you need some guidance. Where do 
we fall on this range? And we will continue to provide to you 
that information as we conduct this evaluation to see if we can 
come up with some more accurate assessment of where we think we 
need to be.
    Mr. Mollohan. Okay.
    Mr. Lappin. And without a doubt, I am concerned at this 
ratio. I still think we are doing a great job, but certainly on 
the backs of the great employees we have. There is a limit. And 
that is why one of our priorities is to continue to fund those 
positions at the local level for direct, for staff having 
direct contact with inmates to try to bring that ratio down.
    Mr. Mollohan. Yes, well for the record, I think you are 
doing a great job. And I think the members of this Subcommittee 
think you are doing a great job, and there needs to be some 
advocacy for appropriate funding. Mr. Frelinghuysen?

                           INMATE POPULATION

    Mr. Frelinghuysen. We know you are doing a difficult job. 
You have given us some of the staggering figures in terms of 
the increase in the federal inmate population. Could you just 
talk for a couple of minutes about some other characteristics 
of that population? Age, different characteristics that make up 
the overall mix in terms of ethnic background, race, what are 
some of the figures that are out there?
    Mr. Lappin. Age, race, ethnicity is pretty much similar.
    Mr. Frelinghuysen. And have they shifted?
    Mr. Lappin. Those have not shifted significantly.
    Mr. Frelinghuysen. They are?
    Mr. Lappin. Let me give you an idea. About 56 percent of 
the federal inmate population is white, 40 percent is black, 
1.7 percent Asian, 1.8 percent Indian. Of that it is 31 percent 
Hispanic, so a combination of some folks who are African 
American, black, Hispanic. Age has really not fluctuated much. 
You know, we are around a thirty-five average age.
    Mr. Frelinghuysen. Thirty-five years of age?
    Mr. Lappin. I think that is what it is. It is pretty close 
to that. What has changed, though, the characteristics that 
have changed are--let me back up to types of offenses. We 
continue to see the majority of the offenders coming in for 
drug related offenses. About 52 percent to 53 percent of the 
offenses are drug related. And then followed by weapons at 
about 14 percent.
    Mr. Frelinghuysen. That drug related figure is a pretty----
    Mr. Lappin. I am sorry?
    Mr. Frelinghuysen. That drug related is a pretty----
    Mr. Lappin. 53.9 percent drug related.
    Mr. Frelinghuysen. And that is, let us say ten years ago 
that might have been considerably lower, or?
    Mr. Lappin. Well, that was probably in the middle of the 
whole War on Drugs. That is when we were ramping up, getting a 
lot of folks. But you know, if you go back fifteen years, it is 
much larger. We have seen a significant increase in weapons. 
Offenders coming into us with weapons violations, that is up to 
14 percent followed by immigration.
    Mr. Frelinghuysen. What percentage, for instance, would be 
involved in----
    Mr. Lappin. For weapons?
    Mr. Frelinghuysen. No, in let us say Bloods, Crips, and MS-
13?
    Mr. Lappin. I am going to jump to that in just a second.
    Mr. Frelinghuysen. Okay.
    Mr. Lappin. I just want to mention one other, one huge 
increase in the number of sex offenders. In fact, we today have 
about 14,000 sex offenders in prison. So that has really been 
an emphasis of the Department of Justice, besides drugs, 
firearms, sex offenses. And then of course, immigration has 
been for some years with INS originally, now BICE, so on and so 
forth, border patrol.
    The inmates themselves we are seeing, we continue to see a 
younger, more aggressive, more violent, more gang oriented 
offender coming to the Bureau of Prisons. Which couples with 
our need, I think, to look closely at this ratio of staff to 
inmates. More inmates, fewer staff, more aggressive inmates, 
you know, that does not, more----
    Mr. Frelinghuysen. That could translate into a potential 
disaster.
    Mr. Lappin. Yes, I mean I think there are some challenges 
there.
    Mr. Frelinghuysen. Yes.
    Mr. Lappin. Without a doubt, we recognize that. So we are 
seeing those types of offenders. Without a doubt, gangs are 
quite a challenge. Between disruptive group members and 
security threat group members, which we categorize the gangs 
into, it is quite a challenge at most all locations, if not 
all. This is complicated somewhat by the emergence of the 
Hispanic gangs, especially from the Mexican nationals where 
they play by different rules and can be very disruptive.
    Mr. Frelinghuysen. So in the prison system, and I have read 
about it, there is a unity of purpose when you are in there 
with somebody who is part of your gang.
    Mr. Lappin. There is.
    Mr. Frelinghuysen. Yes.
    Mr. Lappin. So what we try to do is thin them out, control 
them by size, by structure, by control. But what we have seen 
emerge over the last few years, unlike I think fifteen, twenty 
years ago, is the emergence within institutions of these little 
cliques. You know, a group of folks from Baltimore or a group 
of people from Little Rock, who if they are not associated with 
other gangs might just join together. And those fall more into 
the security threat groups on occasion, just run of the mill, 
makeshift associations that can tend to be a challenge.
    Without a doubt gangs are one of our bigger challenges. We 
are currently reevaluating the management of gangs in our 
institutions. We believe that we have got to do a better job of 
balancing those gangs among the 114 institutions. In doing so 
it is going to disrupt a long and steadfast philosophy of 
trying to put all the offenders as close to home as possible. 
To do that, to balance them, it is going to result in some 
offenders being further from home than they were before. And so 
we had to compromise there a little bit. First and foremost, we 
have got to run safe prisons.

                            BUDGET SITUATION

    Mr. Frelinghuysen. Your budget situation, obviously, has 
been somewhat complicated. While you have a pending 
reprograming seeking $240 million we shorted you about $100 
million somewhere along the line. So it is a good reason we 
have a reprogramming. I live in the New York-New Jersey 
metropolitan area. I must say I hear quite a lot of ads on the 
local radio station, 1010, for the New York Department of 
Corrections. So, obviously, you are in the job field out there. 
There are, should we say, competitors. As tough as the work is, 
maybe that is a sign that other institutions are competing for 
good people to take impossible jobs.
    Mr. Lappin. It is. I think in the long term for the Bureau 
of Prisons, you know, when I look, when people ask me, 
``Director, what is one of your greatest concerns for the 
Bureau in five, ten, fifteen years?'' I think it is our 
continued ability to hire, recruit, and retain qualified folks. 
Because there is going to be more competition for those folks. 
But we still do very well in most locations. It is very much a 
challenge in the higher cost areas, New York, Brooklyn, San 
Francisco, San Diego, Chicago. We have more turnover there than 
elsewhere. Fortunately, the system as a whole is kind of 
misleading; because as a whole we have relatively low turnover. 
But if you separate out those high cost of living areas, you 
will find that those areas, greater turnover, more of a 
challenge to continue to keep the rolls filled. California is a 
huge challenge. Competing with much higher wages in the State 
Department of Corrections in California and the issues they are 
facing there, we are struggling there filling just the base 
positions at certain locations. That is one reason why we 
increased their pay a little bit, just to try to recruit and 
retain more staff.
    Mr. Frelinghuysen. Thank you for that overview. It has been 
valuable. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen. Mr. Aderholt.

                         PRISON CHAPEL LIBRARY

    Mr. Aderholt. Thank you for being here today. I know that 
in your job you get a lot of questions and a lot of complaints 
and many things, as I know in my job I do from time to time. 
But I want to just take a minute and express my appreciation to 
you for your leadership on the Prison Chapel Library Project. 
That was, I understand an issue, and I know that you stepped in 
and resolved that issue very quickly and very effectively. I 
know several people that were greatly concerned about that, and 
I believe that you handled that in an excellent manner. So let 
me just say the word is getting around that you had done an 
excellent job in that. In that instance I know of, and I am 
sure in many other instances, but I did want to point out that 
it has been an issue that was a very big concern to a lot of 
people. So thank you for your work on that.
    Mr. Lappin. Thank you, sir. We apologize that it happened 
in the first place. There were competing priorities. But I 
wanted to ensure the public and the Department, that we had 
appropriate materials in those libraries. And over the course 
of seventy-seven years some of those libraries have grown to 
great size. And through the course of those years maybe not 
quite as much oversight as we would like. I am pleased that the 
folks that had concerns approached the Department of Justice, 
approached the Bureau of Prisons, raised those issues. We sat 
down with them and resolved the issue. I think to everyone's 
satisfaction. I appreciate you recognizing that.

                       INQUIRY FROM A CONSTITUENT

    Mr. Aderholt. Well, thank you again. It did not go 
unnoticed, so thank you for that. As you can imagine, as a 
member of Congress, I get contacted from time to time from 
constituents that have all types of concerns. Sometimes it is 
concerns that I can help them with and sometimes there are 
concerns that are completely out of my hands. But sometimes 
they feel like their Congressman is the person that they 
elected to reach out to federal agencies, in particular, and to 
be an advocate for them. And I do think that is a large part of 
the job that we have here in Congress, that we are an advocate 
for a lot of people that sometimes do not know where to go for 
answers and questions.
    I received an email, well actually a phone call and then I 
asked her to follow up with an email. It is regarding a 
situation with a prisoner that, and I will just read it briefly 
to you and I just want to ask your response, and maybe how 
would be the best way we could respond to her and what the 
policy is in this case. It says, ``Per our conversation 
yesterday, my husband is due to be released to Alabama on June 
20, 2008. His caseworker has informed me that his time will be 
rounded up nine days and he will not be in Alabama until June 
29, 2008. This is a new rule that the caseworker in Manchester, 
Kentucky has started since she became the new caseworker. We 
are asking that you help us get my husband back to Alabama on 
June 20th, not the 29th. He will have served his perfect time 
on the 20th.'' She just called me very demoralized. He had been 
there a year at the time of our conversation. Of course, nine 
days does not sound like a whole lot to me or you but, I know 
this particular family has a ten year old daughter, and it has 
been sort of an easy case in the beginning but that is beside 
the point. But in a situation like that, do the individual 
prisons have the discretion to release him at a different date? 
Or what could you tell me about that?
    Mr. Lappin. First of all, we appreciate your involvement. 
And we welcome you to call us, send us emails, and let us 
assist you with responding to your constituents.
    Mr. Aderholt. Well, Tom Kane knows that I call from time to 
time.
    Mr. Lappin. Is that right?
    Mr. Aderholt. Yes, so----
    Mr. Lappin. Well, we ought to bring Tom up here. Seriously, 
the caseworker locally does not have the authority to make that 
adjustment. That work is done by our sentence computation staff 
who have the background, the experience, the expertise, to 
adjust a sentence computation and to determine the day the 
individual should get out. If you give me the email with the 
person's name, we will go right to the sentence computation 
center, ask them what if any changes were made and why, as 
related to applicable law. It could be that somebody 
miscalculated, made an error on some some good time or some 
jail time. But if you give it to us we will get back to you----
    Mr. Aderholt. That would be great. And like I said, you 
know, sometimes they may have been given wrong information as 
well. But again, like I say, nine days does not seem like a 
whole lot to me or you but for someone who has been away from 
their family and they have served the appropriate time, that 
can be very demoralizing. And they just have some questions 
about the system, and they feel the unfairness. And we 
understand when a sentence is handed down and they have to 
serve the appropriate time. But beyond that we, I thought it 
was only fair to check into that. So after today I will get you 
the contact information on this. And if you could please help 
me try to find out some information, my constituent would be 
very happy.
    Mr. Lappin. I will give you my card, or you could send it 
to Tom Kane.
    Mr. Aderholt. Well, either one of you. So----
    Mr. Lappin. Because you are right. Nine days is nine days. 
We want them out on the day the law says they should be 
released from prison.
    Mr. Aderholt. Okay.
    Mr. Lappin. Our goal is to have 100 percent of them 
released on that day. We would be more than happy to look into 
it.
    Mr. Aderholt. Thank you, I appreciate that. That is all I 
have.
    Mr. Mollohan. Mr. Rogers.

                      RATED CAPACITY/OVERCROWDING

    Mr. Rogers. Thank you, Mr. Chairman. Mr. Director, welcome 
to you and to all your staff. I have been told that you are 37 
percent overcrowded. Is that an accurate figure?
    Mr. Lappin. We are 37 percent over rated capacity.
    Mr. Rogers. Over what?
    Mr. Lappin. Over rated capacity.
    Mr. Rogers. Do you mind if I call that overcrowded?
    Mr. Lappin. Okay.
    Mr. Rogers. What would be your target?
    Mr. Lappin. 15 to 17 percent. That is our target.
    Mr. Rogers. Over your rated capacity?
    Mr. Lappin. And so, let me kind of put it in perspective. 
What does that mean? What does 17 percent mean over rated 
capacity? That means that every cell in the entire Bureau of 
Prisons has two inmates in it, and we believe in that goal. It 
may be a long term goal, there is no way we are going to get 
there overnight, but our goal would be that we get to the point 
where cells that were built of a certain size, which is a 
standard size--you have got a couple new prisons in Kentucky, 
they are a standard size--for a cell of that size it is 
appropriate for two inmates to be housed in those cells long 
term. At 17 percent, every cell in the Bureau of Prisons would 
have two inmates in those cells.
    Now realize there are some inmates that cannot be housed 
with anyone. So for those that require single cells, it is 
going to push into other cells three inmates. We are okay with 
that. There are certain inmates that we could temporarily house 
in that manner. Our target is 17 percent.
    Mr. Rogers. Well, if you are 37 percent over now and you 
want to be at 17 percent, that is a 20 percent difference.
    Mr. Lappin. Yes.
    Mr. Rogers. That is not insignificant. That is a huge, huge 
undertaking, correct?
    Mr. Lappin. Well, it is. And we have faced this over a 
number of years. And believe me, the Congress, the 
Administration; let us go back a bit. In 1980, 26,000 were 
inmates in the federal prison system. Today, 201,000 inmates. 
The Administration and the Congress have provided for us very 
well through the majority of those years. Provided funding, 
provided positions, as the prison system grew. And so we have 
been very fortunate. But then again the population continues to 
grow. And without a doubt, we have to continue to decide, how 
are we going to absorb those additional inmates? Do we continue 
to build prisons? Are there other ways to offset some of that 
growth? And so, you are right, it would be a long term plan. 
But again, that is our target.

                                STAFFING

    Mr. Rogers. Well, that spans the time I have been in 
Congress. And I have been on this Subcommittee I think twenty-
three or four years of that time, and I have watched the 
population grow. And have watched directors over the years 
wrestle with that problem as inmate population kept growing and 
growing. And it is not getting any better. You say your inmate 
to staff ratio is 4.92, that is the highest ever, is it not?
    Mr. Lappin. Well, you know, at least in my tenure we know 
what it is back to 1997. We were at 3.57 in 1997, we are 4.92. 
So my guess is this is probably the highest ratio we have had 
in modern history.
    Mr. Rogers. And how many employees short of the minimum 
number required for safe operations are you?
    Mr. Lappin. How many, what is the minimum number for safe 
operation?
    Mr. Rogers. Yes, how short are you of people?
    Mr. Lappin. Well, it kind of relates to the question that 
the Chairman asked a few minutes ago. Yes, what is the right 
ratio? And again, we are working on what the right ratio is. 
Our target this year is to have about, 35,400 employees 
employed, or the compensation and overtime to the equivalent of 
about 35,400 employees. So if we do not have full-time 
positions, we are probably going to extend the equivalent of 
what is not filled in overtime to accomplish the work. Because 
we are really at the point where if someone does not come to 
work, we must fill that post with someone.
    Mr. Rogers. I want you to make it simple for me.
    Mr. Lappin. Okay.
    Mr. Rogers. Do you have the minimum number of employees for 
safe operations? Do you have enough employees for safe 
operations?
    Mr. Lappin. This year the number we have identified is 
35,400.
    Mr. Rogers. For safe operations?
    Mr. Lappin. That is the number we want, yes. I mean, we do 
not have that number right now. Let me explain. We do not have 
that number right now. We are about 1,200 shy of that. However, 
we compensate for that through overtime, so technically, we 
have got that many employees. Therefore, we believe we continue 
to run safe and secure operations. We do not want to see that 
ratio increase any more. And that is why we have drawn, or 
targeted, that number of employees. If you know the equivalent 
in overtime----
    Mr. Rogers. If you do not have overtime, if you disregard 
overtime, and you are paying people straight pay, how many 
people short of safe operations would you be?
    Mr. Lappin. Again, we do have the overtime so we continue 
to run.
    Mr. Rogers. If you did not have it?
    Mr. Lappin. I think we are staffed at about 34,100. Is that 
about right?
    Mr. Rogers. I will ask you a real simple question. I want a 
simple answer. With no overtime, if you did not pay overtime, 
and you are paying people straight pay----
    Mr. Lappin. 1,200.
    Mr. Rogers. Short?
    Mr. Lappin. Yes.
    Mr. Rogers. For safe operations?
    Mr. Lappin. Well, I would not say for safe. We make 
adjustments internally. Certainly I can take more risks, for 
example, at minimums and lows. So what we will do is we will 
run shorter at minimums and lows where the inmates are less 
risky and we will staff up at medium and highs to make sure 
that those institutions run and have the adequate number of 
people they need. So we have that flexibility. But if you ask 
what is the number, the minimum number we want this year? I am 
1,200 short of that number.

                           STUN/LETHAL FENCES

    Mr. Rogers. Well staffing or budget shortfalls have led 
several prisons, including McCreary County, Kentucky, the 
newest one in my area, to install what they call stun fences in 
lieu of managed central surveillance towers. Some people 
believe that tower surveillance is preferable with eyes on----
    Mr. Lappin. Sure.
    Mr. Rogers. And I assume you agree with that?
    Mr. Lappin. I believe the stun lethal is the direction we 
should go.
    Mr. Rogers. Is what?
    Mr. Lappin. Is the direction we should go. Let me just say, 
let me give you an example of why I think that. One, stun 
lethal or lethal fences have been in operation in corrections 
for twenty, twenty-five years. There was resistance in the 
Bureau to moving in that direction. But when we looked at our 
cost savings initiatives, we went and assessed those locations, 
looked at the operations that occurred there for fifteen, 
twenty years, and realized they could provide the same level of 
security at those locations without manning the towers. Many of 
the staff in towers that are operated cannot see inmates 
because many of the rec yards are internal now. So the staff in 
towers cannot see into the rec yards because the buildings are 
in their way. Unlike the old prisons where the rec yard was 
more open to the public, or more open to the fence.
    So, you know, we could have a long debate, and I am sure 
there will be many discussions. We believe that if the funding 
is available it would be wise of us to. Again, technology 
changes all the time. And this is a technology advancement that 
we think has merit, that we think we will continue to run safe 
and secure prisons and not jeopardize the community. And so we 
are firmly behind the stun lethal fences, whether we have the 
funding or not because we think it is a more efficient way to 
operate the prisons.
    Mr. Rogers. Mr. Chairman, I have other questions that I 
will defer to a later time.

                       ACTIVATION OF FCI POLLOCK

    Mr. Mollohan. There will be other rounds. For those who may 
not have voted, there are forty-five seconds on this vote. Mr. 
Lappin, if, again, we have a $240 million reprogramming 
request. If additional funding is provided at the Department's 
request level, will the new medium security prison FCI Pollock 
in Louisiana be activated in the year 2008?
    Mr. Lappin. We are currently activating Pollock. It will 
not have inmates in 2008. But we are currently planning on 
ramping up, slowly, the staffing for Pollock.
    Mr. Mollohan. Okay. So the answer is, even if you do not 
get this reprogramming, even if you do not get this infusion of 
$240 million, Pollock will be activated?
    Mr. Lappin. If we do not get the $240 million we will do 
the most we can at Pollock to begin the activation. I will not 
deny that activation will be slowed significantly if we do not 
get the $240 million.
    Mr. Mollohan. Okay, I am going to step back then. What is 
activation in your definition so that we can operate off the 
same understanding?
    Mr. Lappin. Once we begin an activation it takes us about 
six to eight months, depending on some variables, to get to the 
point where we begin accepting inmates.
    Mr. Mollohan. Okay, and what is the moment of activation? 
When you start accepting inmates? Or when you start getting 
administrative people in the prison----
    Mr. Lappin. Well we begin to, I guess that is a good point. 
When we begin hiring people in my mind is when the activation 
begins. Opening the prison with inmates is when you begin 
taking inmates. So that period between activation and bringing 
on inmates is about six months in most cases. If we get into a 
community where we are struggling hiring locally, then 
sometimes it is extended somewhat.
    Mr. Mollohan. Okay, well I am trying to tie this to your 
request, or the Department's request, for reprogramming of $240 
million which you have received. And I am trying to understand, 
if additional funding is provided at the requested level, will 
Pollock be activated in fiscal year 2008 or will it be 
activated anyway, and what do you mean by that?
    Mr. Lappin. If we get the additional funding, obviously 
that activation will go much faster. By the end of fiscal year 
2008 my guess is we could be very close to fully staffed.
    Mr. Mollohan. And if you do not get it what----
    Mr. Lappin. Then we can begin to bring inmates in soon 
thereafter. If we do not get it, it is going to slow down the 
staffing.
    Mr. Mollohan. But you will still staff it?
    Mr. Lappin. We will still staff it as high as we can given 
the other limitations. Again, obviously if we do not get the 
$240 million we are going to be struggling to continue other 
operations. It will slow, I am not going to ramp up as fast a 
prison we are not using----
    Mr. Mollohan. Well, let me ask you this. If you are on the 
brink, and I know you are so that is not the debate here, if 
you are on the brink of operating a safe prison system or not 
operating a safe prison system, or on the margins of that, if 
you activate a new prison which will result in, I do not know, 
another thousand, 1,200, 1,500 employees?
    Mr. Lappin. 1,500? I am sorry.
    Mr. Mollohan. I am talking about----
    Mr. Lappin. 1,500 inmates, about 300 employees.
    Mr. Mollohan. 300 employees?
    Mr. Lappin. 300 employees.
    Mr. Mollohan. Okay, so if right now you are on the edge 
with regard to funding S&E, how can you activate a prison 
without this infusion and bring on 300 employees more?
    Mr. Lappin. You are correct. I mean, it is a very good 
point and that is why I say we would slow that activation. We 
would not hire as many. If we do not get the funding without a 
doubt it is going to be later in the year, or next fiscal year, 
before we actually begin to bring on inmates.
    Mr. Mollohan. I feel like I am trying to help you here, 
but----
    Mr. Lappin. I know you are----
    Mr. Mollohan [continuing]. I feel like I am having a hard 
time doing it. It is probably my----
    Mr. Lappin. No, you are absolutely correct. We are in a 
financial dilemma. We are cautiously moving forward. We are 
being very careful in what we spend. We are not aggressively 
pushing Pollock given the fact we are in this dilemma. If our 
sense is we are going to get the funding then we will certainly 
speed that up.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                         FUNDING/REPROGRAMMING

    Mr. Mollohan. Okay. I do not think I have to do anymore on 
that. I think I understand. I have some information from the 
employees, the employee representatives, that if you were not 
to receive this additional money, $240 million, $280 million, 
$300 million, that you would have to actually cut correctional 
staff in 2008. Do you agree or disagree with that statement?
    Mr. Lappin. Well, I have two choices there. If we did not 
get the additional funding, obviously, if we do not get 
additional funding there is no way we could save that amount of 
money in operations. So given that, for us to live within the 
mark that we currently have, we would have to eliminate staff. 
That is one choice. The other choice is to go deficient.
    Mr. Mollohan. I'm sorry?
    Mr. Lappin. The other choice is to go deficient.
    Mr. Mollohan. Oh, go deficient.
    Mr. Lappin. Deficient.
    Mr. Mollohan. So you are up against it here. The fiscal 
year 2009 request of $5.436 billion for salaries and expenses 
represents an increase of 7.6 percent over the current year. 
Given the current year's shortfall, is this request adequate to 
meet basic BOP requirements in fiscal year 2009?
    Mr. Lappin. As I expressed earlier, the increase from 2007 
to 2008 was about $55 million. So clearly, this is a much 
larger increase from 2008 to 2009, which is going to serve us 
extremely well. And hopefully we can get that or close to that 
mark. However, it will continue to be a challenge for us. I 
think it will serve us well. I think we will be in a better 
situation, certainly, in a much better situation than we are 
this year. It will still, I think, require us to act very 
cautiously, look for efficiencies, prioritize our 
responsibilities and focus on the highest priorities.
    But yes, I think if we can get that mark we are going to be 
in a much better situation than we are this year. It may still 
require some strategies to gain efficiencies, but I think we 
could get through that----
    Mr. Mollohan. Does the 2009 request take into account the 
possibility of this reprogramming request being granted? In 
other words, would the reprogramming request, say you were to 
get $240 million, be annualized in the 2009 request?
    Mr. Lappin. I do not believe that will happen. What I think 
is----
    Mr. Mollohan. No, no, ``will happen.'' The question is----
    Mr. Lappin. It is not built in.
    Mr. Mollohan. Okay, so the answer is no.
    Mr. Lappin. That is correct.
    Mr. Mollohan. So if you were to, if the Justice 
Department's reprogramming request at $240 million were 
approved then would we anticipate receiving an amended budget 
request for 2009 to annualize the approval of that request? Of 
the 2008 supplemental request?
    Mr. Lappin. On behalf of the base for 2009. Although there 
was a $100 million 2008 reduction through the Congress.
    Mr. Mollohan. I am going to forget that big long question I 
just asked. Are you answering it?
    Mr. Lappin. I am going to answer it. I just want to make 
sure that the base in 2009 is $100 million more than what we 
actually got in 2008. Because when the 2009 budget was built 
they added back in the $100 million.
    Mr. Mollohan. Okay, what about, all right, you are telling 
me $100 million----
    Mr. Lappin. That is right.
    Mr. Mollohan [continuing]. Would be accounted for in the 
base, and it would be annualized for 2009 in your 2009 request?
    Mr. Lappin. One hundred million more.
    Mr. Mollohan. Okay, so there would be $140 million that 
would not be taken into account and would not be annualized in 
your 2009 request? Correct?
    Mr. Lappin. Correct.
    Mr. Mollohan. So for that amount would we expect an amended 
budget request for 2009? If we were to approve the $240 million 
would there be a request for--well, let me ask it.
    Mr. Lappin. We do not anticipate that, no.
    Mr. Mollohan. You do not anticipate what?
    Mr. Lappin. An amended request for another $140 million.
    Mr. Mollohan. Well then, how are you going to pay for, in 
2009, the increased funding, which is basically for S&E----
    Mr. Lappin. Sure.
    Mr. Mollohan [continuing]. Which will occur in 2009, how 
are you going to pay for it in 2009?
    Mr. Lappin. Well, one we could work within the Department 
to identify other funding, possibly. But the other thing is, we 
may not see as many inmates. We anticipate some reduction in 
the number of inmates because of the crack amendment impact, 
the guideline amendment. Let us take an example currently.
    Mr. Mollohan. But you are so far down on employees right 
now if you let every adjusted sentence adjust and release 
early, you would still be short of employees, would you not?
    Mr. Lappin. But again, there are other things----
    Mr. Mollohan. What is the answer to that question? And then 
you can elaborate.
    Mr. Lappin. Would we still be short of----
    Mr. Mollohan. Yes, sir. Of employees?
    Mr. Lappin. Not necessarily.
    Mr. Mollohan. Oh boy, I am really confused.
    Mr. Lappin. Well, it is actually $140 million. In the way 
you calculated it----
    Mr. Mollohan. Did I ask the right question here?
    Mr. Lappin. You did ask the right question.
    Mr. Mollohan. Okay, thank you.
    Mr. Lappin. We believe that with the higher number, the 
President's number----
    Mr. Mollohan. Right.
    Mr. Lappin [continuing]. And the fact that the base started 
a little higher than what was actually enacted, okay?
    Mr. Mollohan. Okay. All right.
    Mr. Lappin. You would assume we would be about $140 million 
short.
    Mr. Mollohan. Okay.
    Mr. Lappin. What we can not gain through, continue to gain 
through efficiency in operational areas for some of that $140 
million. If not, we will work with the Department to identify 
what funding we might need beyond that. If it requires a 
reprogramming request, we would certainly submit one. But 
certainly starting off from this point we do not anticipate 
that, in hopes that we can gain those efficiencies through some 
of the strategies that we have. We will work with the 
Department. And if there is a need, we would ask for more 
funding. Obviously, we are not shy about that. We forwarded a 
$240 million reprogramming to you this time. We would make the 
same assessment once we got into 2009.
    Mr. Mollohan. You may not be shy but I would say the, the 
Department is reluctant. Thank you. Boy, I tell you, Mr. 
Frelinghuysen, saved by the bell.

                               RECIDIVISM

    Mr. Frelinghuysen. Mr. Lappin, I just wanted to pick up one 
more figure. The number of people who come through your 
operation that have been in prison before or have come up 
through the juvenile system and had some degree of 
incarceration?
    Mr. Lappin. The number of people?
    Mr. Frelinghuysen. Yes. In other words, of the population--
--
    Mr. Lappin. Not prior records?
    Mr. Frelinghuysen. With prior records, yes.
    Mr. Lappin. I do not know that number off the top of my 
head. I may be able to find that number for you through our 
research department. I can tell you our recidivism rates----
    Mr. Frelinghuysen. Yes.
    Mr. Lappin [continuing]. Are about 40 percent in the 
federal prison system. So we are releasing 62,000, 63,000 
inmates a year, of 50,000 of those returning to the United 
States we are seeing a return of about 40 percent. Which 
really, in my opinion, is significant. I mean, we would love to 
see it lower. We have seen that number come down over the last 
few years. If you look at the states, they have about 65 
percent recidivism rates. We attribute the difference to the 
many, many BOP programs that are offered. The inmates are 
improving their skills in educational and vocational work, and 
more important are going home better prepared to face reality. 
But I will work with our research folks----
    Mr. Frelinghuysen. Right.
    Mr. Lappin [continuing]. To see if we can give you a 
number, the number of inmates coming into our system with prior 
records.
    [The information follows:]

                       Inmates With Prior Records

    Of the 77,804 inmates designated during calender year 2007, 54,807 
(70%) had a prior record, as indicated by U.S. Sentencing Commission's 
Criminal History Score.

                       CRACK SENTENCING AMENDMENT

    Mr. Frelinghuysen. You started down this path, the impact 
of the crack amendment?
    Mr. Lappin. Yes.
    Mr. Frelinghuysen. Just briefly, because I want to get into 
where you stand relative to the counterterrorism unit and 
things like that.
    Mr. Lappin. As of, this week, Tuesday, we had processed 
1,522 orders to reduce sentences. Of those, 793 were immediate 
releases. 729 shortened the sentence, but not to an immediate 
release so those inmates have some time remaining. I do not 
know exactly how much. Now that we have started the process our 
sense is that this fiscal year, between now and the end of 
September, we will probably release about 1,500 to 2,000 more 
inmates than we would have without the adjustment. We believe 
next year will probably be around 2,500 to 3,000. So there are 
19,500 offenders who are potential candidates for reduction.
    Mr. Frelinghuysen. Well you said that in terms of drug 
related you gave us a figure of 14,000 earlier.
    Mr. Lappin. No, that was sex offenders.
    Mr. Frelinghuysen. Oh, excuse me, sex offenders.
    Mr. Lappin. And 52 percent of our offenders are drug 
offenders.
    Mr. Frelinghuysen. Okay.
    Mr. Lappin. But many of those offenders have convictions on 
things other than crack--powder cocaine, methamphetamine, 
marijuana. So of the 52 percent of the offenders, there are 
about 19,500 who may fall into the category of being eligible 
for a sentence reduction. We anticipate, at least the 
sentencing commission's projections reflect, that about 12,000 
of those could be released over the next five years, earlier 
than they would have been. The other 6,000 or 7,000 are going 
to be spread out over the course of about fifteen or twenty 
years. So it is going to slow down significantly over the first 
five years.
    Mr. Frelinghuysen. And they will be monitored after their 
departure?
    Mr. Lappin. My assumption is the majority of them have 
supervised release. And my guess is we have some statistics of 
those that do not. But the vast majority of the offenders come 
into our custody and then have supervised release. So they do 
not lose that when they release early, it just picks up a 
little earlier. They continue to be supervised.

                            COUNTERTERRORISM

    Mr. Frelinghuysen. Okay. Could we focus for a few minutes? 
We provided you with $17 million last year to establish the 
counterterrorism unit. Where do we stand? How is the effort 
going? I know you have a pending supplemental of, what, $9 
million? Is that right? Update us on it.
    Mr. Lappin. I am very pleased with the progress we have 
made, not just on the counterterrorism unit but on our 
management of terrorist offenders. Last year when we spoke 
there were some concerns over the monitoring of mail, phones, 
and so forth. The ramp up of the counterterrorism unit is going 
quite well. We are doing a better job of monitoring mail and 
phones given that mandate. The other thing we have done is we 
have----
    Mr. Frelinghuysen. You may have to direct that to the 
Chairman.
    Mr. Lappin. I will do that. We have ramped up 
communications management units. Now that we know we are going 
to have these folks long term, a lot of the more serious 
offenders, terrorists, were housed at ADX Florence. We found 
that some of those, although they needed closer monitoring, did 
not need the security requirements at Florence. So we are 
ramping up two communications management units that are less 
restrictive but will ensure that all the mail and phone calls 
of those offenders are monitored on a daily basis.

                       CRACK SENTENCING AMENDMENT

    Mr. Mollohan. The new sentencing, or some decisions 
impacting the sentencing guidelines, would impact the length of 
the sentences for crack cocaine convictions and incarcerations? 
If that happens, you are going to be releasing drug addicted 
offenders more quickly, correct? Addicted offenders.
    Mr. Lappin. Yes.
    Mr. Mollohan. Does that suggest that somebody is going to 
have to take care of that problem on some percentage basis? I 
mean, they are not all going to walk out and stay clean.
    Mr. Lappin. Right.
    Mr. Mollohan. So what should we be anticipating? What 
should you be anticipating programmatically, or planning for 
programmatically? And what should we be anticipating in the 
treatment area? Should we be increasing the treatment 
intensity? The after care? The halfway house? How should we be 
doing this, particularly since folks are being released early?
    Mr. Lappin. Well these folks that are being released 
immediately, unfortunately some of them will return to the 
community without treatment. That is unfortunate.
    Mr. Mollohan. Well, that is really unfortunate.
    Mr. Lappin. Very unfortunate. And given that, I would 
certainly be working with, we need to be working with 
probation, the folks that are supervising those folks. Some of 
them will release, unfortunately, without halfway house 
opportunity. Now this is a very small percentage of the entire 
group. It will only affect those that are releasing right now, 
and that we anticipate releasing with in eighteen months.
    Mr. Mollohan. Are you releasing people right now that you 
were anticipating releasing in eighteen months?
    Mr. Lappin. That we were anticipating?
    Mr. Mollohan. Yes.
    Mr. Lappin. Absolutely.
    Mr. Mollohan. So this policy is in effect immediately?
    Mr. Lappin. In November the Sentencing Commission made a 
decision, actually December, to adjust by two levels the crack 
guidelines, crack sentencing guidelines, and postponed its 
implementation until March 3. It asked judges to please wait 
until March 3, give the prisons and other probation, marshals, 
other folks, time to prepare for what could be a wave of early 
releases. And so there was kind of a waiting period. But some 
of these folks may be in drug treatment now, because they were 
nearing the end of their sentence. A few of them may not have 
gotten into drug treatment yet. And their sentence was 
shortened to the point that they are releasing with either only 
a portion of that treatment completed, or possibly none. But 
again, it will only affect those that are releasing right now.
    Mr. Mollohan. Not only, though. I am all for a 
reconsideration of our sentencing guidelines. But is it 
mandatory that you release from the prison prisoners who fall 
into this category even if they have not received drug 
treatment? Or have----
    Mr. Lappin. We have no choice. The judge reduces their 
sentence, we must release them.
    Mr. Mollohan. Can they be released contingent upon their 
staying clean after they are released and going through a 
program that requires testing?
    Mr. Lappin. I assume the court could put conditions on that 
release.
    Mr. Mollohan. And when you say ``the court?''
    Mr. Lappin. The court.
    Mr. Mollohan. You are talking about federal courts? The 
individual courts? It would be up to the discretion of the 
individual judge?
    Mr. Lappin. Correct. Now, again, hopefully after this first 
wave, as I mentioned of the 1,500 we have received orders on 
729 of them did not release. So what we will do with those, 
729, we will immediately look at their new release date. And if 
they are recommended for drug treatment and they are 
volunteering for drug treatment, we are going to put them at 
the top of the list, and we will immediately put them in drug 
treatment.
    Mr. Mollohan. Doing these things individually like that, is 
not the way to do it. We ought to be looking at what are the 
consequences of this action, however well intentioned. And I am 
totally in favor of more sympathetic treatment to people who 
are in jail because of drug use offenses. But it needs to be 
looked at in the context of the different situations we are 
putting people in and the likelihood of their being successful 
or failing in those situations.
    Mr. Lappin. Well, without a doubt, it was a negative 
consequence of the decision. Because some of these folks will 
leave----
    Mr. Mollohan. Well, they will be right back in.
    Mr. Lappin [continuing]. Without completion of treatment. 
And just let me say, I mean, we are struggling a little bit in 
the drug treatment area. We unfortunately----

                         DRUG TREATMENT PROGRAM

    Mr. Mollohan. Well, I want to get that. What about the 
needs, additional resource needs, to intensity the treatment 
for those who are still going to be in long enough to 
experience treatment? Do we need to think about the 
supplemental, increasing your funding in that area? 2008-2009?
    Mr. Lappin. Let me get the number for you here. This was 
the first year since the requirement was imposed, that we treat 
100 percent of the inmates who require drug treatment, and 
volunteer for drug treatment, that we were unable to treat all 
of the offenders. We treated probably 18,000 offenders this 
past year. We needed to treat 22,000. So we----
    Mr. Mollohan. And that is because of lack of resources?
    Mr. Lappin. We did not have enough drug treatment 
specialists to increase the number of classes to accommodate 
that.
    Mr. Mollohan. Okay, is that a problem you face, you are 
describing a 2008 problem?
    Mr. Lappin. We still have that problem.
    Mr. Mollohan. Were you describing 2007? Just when you said 
that was the first year? Okay. What about 2008? What is your 
circumstance in 2008?
    Mr. Lappin. We still have a 7,000 inmate backlog for drug 
treatment.
    Mr. Mollohan. Okay. Does the Department of Justice request 
for the $240 million reprogramming include funds for adequate 
drug treatment of all the inmates that require it?
    Mr. Lappin. I have to go back and check exactly what was 
included in that $240 million?
    Mr. Mollohan. So you are not sure you can answer that 
question?
    Mr. Lappin. I will answer that. What we have done is, 
getting back to what we need----
    Mr. Mollohan. Would you get back to the Committee for the 
record?
    Mr. Lappin. I will do that.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. Soon? Before we do our supplemental? And 
before we address your reprogramming request?
    Mr. Lappin. I will do that.
    Mr. Mollohan. I really want to know the answer to this. 
Your testimony indicates that 40 percent of inmates entering 
the BOP system have a drug use disorder and require residential 
drug abuse treatment. Do you agree with that?
    Mr. Lappin. That is pretty close.
    Mr. Mollohan. In fiscal year 2008, BOP was only able to 
provide treatment to 80 percent of eligible inmates instead of 
the 100 percent requirement established by the Violent Crime 
Control and Law Enforcement Act of 1994. Do you agree with 
that? Treated 80 percent instead of 100 percent that were 
mandated under the authorization?
    Mr. Lappin. That is probably pretty close.
    Mr. Mollohan. How much additional funding is needed to be 
in compliance with this law?
    Mr. Lappin. We need about another eighty positions. And 
about $10 million in funding to work off the backlog and treat 
100 percent. The eighty positions are included in the $10 
million.
    Mr. Mollohan. Now have you followed these individuals in a 
way that would allow you to tell us what percentage of the 
participants succeed in remaining drug free after treatment and 
after release?
    Mr. Lappin. Yes.
    Mr. Mollohan. Well, what is----
    Mr. Lappin. Well, as I indicated our recidivism rate is 
about 40 percent. We have recidivism research on all of our 
programs. Our drug treatment, vocational training----
    Mr. Mollohan. Well, that was not exactly my question.
    Mr. Lappin. And we see a reduction of about 16 percent, 
from our 40 percent----
    Mr. Mollohan. My question was how many remaining drug free? 
Do you have a kind of follow up program----
    Mr. Lappin. Yes.
    Mr. Mollohan [continuing]. That would allow you to say how 
many remain drug free?
    Mr. Lappin. Well, I do not know the exact number. I can 
tell you what percent, which the percent coming back is 
probably about 30 percent of those folks coming back versus 40 
percent without treatment.

                          INMATE MEDICAL CARE

    Mr. Frelinghuysen. One of your biggest cost drivers in your 
S & E account is inmate medical care. We sort of touched on it. 
I think the last couple of years you have needed reprogramming 
to cover those costs. And you have a large increase for fiscal 
year 2009. Now what is the total amount budgeted in the package 
before us today for medical care?
    Mr. Lappin. Medical care?
    Mr. Frelinghuysen. Yes.
    Mr. Lappin. We spent about $730 million last year. I think 
we got close to $800 million in requirements this fiscal year.
    Mr. Frelinghuysen. Why the increase?
    Mr. Lappin. The rising cost of healthcare----
    Mr. Frelinghuysen. Right.
    Mr. Lappin [continuing]. And aging. You know, although the 
average age remains about the same, we have a lot more older 
inmates. It is also because we tend to get a lot more younger 
inmates. So the average age stays about the same, but we have 
more older inmates, more care issues, more needs, and 
healthcare costs continue to increase.
    Mr. Frelinghuysen. I cannot imagine a more difficult 
environment to provide inmate medical care. How much of it is 
provided in the institution and how much of it is related to 
being placed in other settings? I obviously assume these people 
are armed or not necessarily. They may be dangerous, but they 
obviously have to be guarded to protect other patients.
    Mr. Lappin. Our goal is to perform as much of that care as 
we can in our institutions. But without a doubt, we cannot 
provide the full range of services. We have a break down of 
inside and outside healthcare. We will get that to you for the 
record. I do not have the exact number. But our goal is to 
provide as many of those services in our institutions. We have 
done a number of things to be more efficient. For example----
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Frelinghuysen. And those who provide it are MDs?
    Mr. Lappin. Oh, absolutely.
    Mr. Frelinghuysen. Yes.
    Mr. Lappin. Our healthcare structure, includes medical 
doctors, PAs and nurses, with their support staff. But it is 
really a combination service. We provide the base level 
staffing to perform the basic functions necessary in medical. 
We oftentimes have contracted at each location with hospitals 
surrounding the facility to assist us with needs that we cannot 
provide there. What we have done is we realized, we finally 
realized, that we could not provide the same level of 
healthcare at all 114 prisons, given the fact that some were in 
very rural locations. Some were in locations where we really 
could not get very good deals at the local hospitals. So we 
basically went to structured care level facilities. So we have 
institutions now that have very healthy inmates. We have 
institutions that have less healthy, we have institutions with 
more ill inmates, and we have those that need hospitalization. 
So there was a couple things there. One, we could not get good 
contracts at local hospitals. Two, we could not hire the people 
we needed. We were in rural area. It was difficult to get the 
professional staff. And so we tried to put more healthy inmates 
there so you have less of a need.
    Mr. Frelinghuysen. So the bottom line is you are doing your 
utmost to control the cost?
    Mr. Lappin. I would be happy to provide for the record the 
strategies we deployed over the last three or four years to 
control costs. But even with that, our costs continue to 
increase.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                            CROWDING ISSUES

    Mr. Frelinghuysen. Getting back to the issue of 
overcrowding, I understand you recently completed a study tying 
increases in crowding and inmate to staff ratios to increase in 
serious assaults. Can you tell us a little bit about, share the 
results of that study?
    Mr. Lappin. We did do an evaluation of the impact on 
crowding and staffing on violent incidents. And let me give you 
an example. Let me explain a serious assault. A serious 
assault, is oftentimes when somebody has to go to the hospital. 
They need medical care. They could die, or they are very 
seriously injured. So you have got varying levels of assaults 
in the institutions. You have serious assaults, and you have 
less serious assaults. So the study was relevant to serious 
assaults.
    Mr. Frelinghuysen. There are assaults, prisoner to prisoner 
and there are assaults prisoner to the prison staff. Make the 
distinction, if you could, in your response.
    Mr. Lappin. Currently, we do it by rate per 5,000. Without 
a doubt, if you look at the actual numbers from year to year to 
year, the numbers are increasing but primarily driven by the 
fact that you have more inmates. So you would expect the number 
to go up. But if you look at it by rate, right now our rate of 
serious assaults on staff is 1.8 per 5,000 inmates. And on 
inmates, inmate on inmate serious assaults, is 10 assaults per 
5,000 inmates. What that study reveals, is if you increase 
crowding by 1 percent, you should expect, I think, 4 or 4.09 
more assaults per 5,000 than if it remained at the original 
level. If you increase the ratio of inmates to staff by one 
inmate, you are going to see an increase of assaults by about 
4.5 per 5,000. If you lowered the ratio we would assume that 
there would be some lowering of that. So we know that crowding 
and level of staffing has an impact on the number of serious 
assaults. Obviously that's why we are monitoring very closely 
that ratio, of inmates to staff as well as crowding.
    Mr. Frelinghuysen. So are there certain institutions that 
have historically had the most serious assaults between inmates 
and prison staff? Are there some that are up there 
historically?
    Mr. Lappin. We monitor that very closely. You are right. It 
kind of goes in waves. It fluctuates. But there are a couple of 
locations where we have had more serious incidents than others. 
Let me give you an example. I just recently responded to the 
Chairman, specifically on homicides and assaults at certain 
penitentiaries. In that response, excuse me----
    Mr. Frelinghuysen. I am glad you have quite a lot of water 
provided.
    Mr. Lappin. But you know what? If I run out of water----
    Mr. Frelinghuysen. All that water, it looks like it is from 
the spring but it is actually from the Anacostia.
    Mr. Lappin. But if we run out of water and I am done, just 
give me a second, I will be done here in a second.
    Mr. Frelinghuysen. Okay.
    Mr. Lappin. One particular institution was USP Beaumont. 
And without a doubt we have got concerns at that particular 
institution. And it has gone on several years. The staff there 
have done a wonderful job in very challenging circumstances. I 
give them enormous credit. On the other hand, I am concerned 
about their reaction to some of the training that is provided, 
some of the direction. And this goes to all of the staff. I am 
not talking about just management, I am talking about all of 
the staff. So given that, we are going to make an adjustment 
there, temporarily. We are going to bring down the security 
level. We are going to give them a break, and we are going to 
bring down the level of high security inmates there. We are 
going to reduce the number of inmates then we are going to do 
some training. We are going to ensure that the folks are 
properly trained, ready to go, and then we will begin to 
transition back.
    So certainly when we see those incidents, let me give you 
the whole story. His other question was these newer 
institutions, you are seeing some serious assaults there. And 
we are. And that, I guess, certainly is the challenge of 
opening a high security institution with your most risky 
inmates and lots of less experienced people. So we have gone 
into those locations and done additional training. We are very 
pleased with the reaction of those staff. We are confident that 
level of incidents will come down and be more consistent with 
other penitentiaries. But without a doubt, when we see this 
increase occurring over time, we try to intervene and do what 
we can to reduce those levels of incidents and concerns. That 
is a great question.

                     PROGRAMS TO REDUCE RECIDIVISM

    Mr. Mollohan. Thank you, Mr. Frelinghuysen. Well, we have 
talked about inmate substance abuse treatment. And I would like 
for the staff to be able to follow up with you and your staff, 
Mr. Director, about that so that we know exactly what the 
situation is and what appropriation demands would be to make it 
better. Offender recidivism, as we talked about, is at a 40 
percent rate. Other than drug treatment, what programs does the 
Bureau of Prisons offer, which you think have an impact in 
reducing, recidivism and what more should we be doing in those 
or other areas?
    Mr. Lappin. Yes. Without a doubt, Prison Industries is one 
of these programs. Of the inmates who participate in Prison 
Industries, we see fewer of them coming back than the run of 
the mill inmate. Also inmates who get a GED, and inmates who 
get vocational training. And to be quite honest with you, even 
though we do not yet have the results of other specialty 
programs that improve social values, improve decision making, 
we anticipate that we are going to see similar results in those 
programs as well. So too other psychology programs, we have 
some other specialty programs, and we have faith-based 
programs. The bottom line is, those inmates are volunteering 
for those programs. That is the first step towards improving 
their skills and abilities. They are acknowledging, ``Hey I 
have issues. I need to deal with those issues.''
    Mr. Mollohan. Yes, I get the feeling we have a very 
progressive management in the Bureau of Prisons. For all of 
these programs, we do not have enough resources to implement 
the programs that we need and certainly to run them at a scale 
that makes them available to all eligible, willing prisoners.
    Mr. Lappin. We monitor our waiting lists in all these 
areas. We are managing the GED waiting list very well. We are 
managing the vocational training waiting list well. Obviously 
we have already talked about drug treatment and the backlog we 
have there. It is unfortunate that there are thousands and 
thousands of inmates who release from prison never 
participating in Prison Industries where they learn, work 
skills, that is a trade. They learn what it means to get up on 
time and be at a certain assignment and be held accountable for 
the work that you do. Work skills that many of them lack when 
they come to prison.
    Mr. Mollohan. Mr. Lappin, I would like you to submit for 
the record references which discuss this matter. Academic 
references, case study references, which talk about all of 
these, I call them remedial programs, and to the extent they 
are available what impact they have on recidivism.
    Mr. Lappin. We will do that.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. And also the quality of life of incarcerated 
people. And then I would like to follow up, perhaps at a 
hearing, or otherwise, and understand those issues. So I have a 
lot of questions in those areas. Some of them we will submit 
for the record. But I do want to mention, or give you an 
opportunity to talk about the importance of the Prison 
Industries Program. I understand that is particularly effective 
at providing skills for inmates when they are released and 
works to reduce recidivism. Is that accurate?
    Mr. Lappin. That is accurate. This was reflected by the 
research we have done on inmates who participate in a Prison 
Industries Program for as little as six months.
    Mr. Mollohan. How many inmates in the federal prison system 
ever participate in a Prison Industries Program?
    Mr. Lappin. Today there are 23,000 inmates working in 
Prison Industries.
    Mr. Mollohan. What is the percentage of your population?
    Mr. Lappin. 18 percent of the eligible inmates who could be 
in Prison Industries.
    Mr. Mollohan. 18 percent of the eligible inmates?
    Mr. Lappin. 18 percent of the eligible inmates.
    Mr. Mollohan. Yes.
    Mr. Lappin. Our goal is 25 percent.
    Mr. Mollohan. Why? Does that reach all of them?
    Mr. Lappin. It does not.
    Mr. Mollohan. Well why is that your goal? Why is your goal 
not to reach 100 percent of those who are eligible?
    Mr. Lappin. I am confident if we ever reach that goal, we 
will set a new goal. But it has been the goal for many years. 
Our proposal would be that all eligible inmates----
    Mr. Mollohan. And that is a factor, really, of resources, 
that also the push back you get from the private sector with 
regard to Prison Industries, is that correct?
    Mr. Lappin. And some legislation that has been passed that 
has limited our ability to continue to grow and provide 
additional work opportunities in Prison Industries.
    Mr. Mollohan. Yes, I think that is very shortsighted 
because the cost to society is real and the savings to society 
would be, I think, equally or more real if we did engage 
inmates in more skill----
    Mr. Lappin. I mean, we recognize the concern. The concern 
is we are taking jobs away from law abiding citizens and 
businesses. We do not want to do that.
    Mr. Mollohan. Yes.
    Mr. Lappin. We are more than happy to explore work 
opportunities that have less, if any, impact on businesses in 
the United States. Let me give a quick example, call centers. 
Most of that work has been done in other countries. We have 
brought some of that work back and inmates are now answering 
411 calls for information, all public information. It is a 
wonderful area. They work in shift work. In advance of going 
into that program they receive education where we help them 
eliminate slang from their language----
    Mr. Mollohan. Yes, I do not want to go into too much of 
that but you have certainly affirmed the usefulness of the 
program and I would like to follow up for the record, and to 
follow up otherwise.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                            HEALTHCARE COSTS

    Quickly on healthcare costs, because we have not included, 
and Mr. Ruppersberger has not had a chance to question and Mr. 
Rogers wants an additional chance. But I do want to talk about 
healthcare cost increases. The budget includes large increases 
for healthcare, $40 million just for healthcare inflation and a 
requested increase for population adjustment. 32 percent is for 
medical care and supplies, I understand. What is the total 
amount budgeted for prison healthcare in 2009?
    Mr. Lappin. I think it is $770 million.
    Mr. Mollohan. What has been the annual cost growth for 
medical services?
    Mr. Lappin. I think at about 9 percent. I think that is, 
other than personnel, it is about a 9 percent increase from 
year to year, over the last couple of years.
    Mr. Mollohan. I understand that we are not adequately 
providing healthcare to all inmates in the prison system. Or 
that is my belief. Is that accurate?
    Mr. Lappin. I do not agree.
    Mr. Mollohan. Okay.
    Mr. Lappin. I believe we are providing adequate healthcare.
    Mr. Mollohan. What about all these drug offenders? 
Hepatitis, are they all being treated adequately for any drug 
related diseases such as hepatitis?
    Mr. Lappin. We very closely track infectious diseases. We 
know exactly how many HIV offenders there are, that we are 
aware of, and under risk assessment we test hepatitis, chronic 
hepatitis B, chronic hepatitis C. We know exactly how many 
offenders----
    Mr. Mollohan. Okay, would you submit a detailed answer for 
the record? Mr. Ruppersberger?
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                       GANGS AND COUNTERTERRORISM

    Mr. Ruppersberger. Just a couple questions. On the issue of 
gangs and counterterrorism in prison, I just, I am from the 
Baltimore area, and ATF working with local law enforcement just 
had a bust of a Blood gang member and it has turned out, I 
believe, the key, the head of the operation was running the 
whole gang operation out of a state prison in Western Maryland. 
Also the issue of terrorism. And those are two subject matters 
that are different. You have gangs on the one area, Crip/Blood 
and whatever else you have, and then the terrorism issue. Are 
you working with the other federal agencies, both intelligence 
and FBI, ATF, DEA to deal with that? What are you doing and how 
are you dealing with it? It is my understanding you are dealing 
with it a lot better than state prisons.
    Mr. Lappin. We all have our challenges. But I have to say I 
thank our staff locally. This is the key, you need support from 
the top. And we have great support from FBI, DEA, U.S. 
Marshals, in effective communication back and forth on 
offenders who are coming into our custody or leaving our 
custody, who have associations with disruptive groups or 
security threat groups, which is the generic term for all the 
gangs. We operate in conjunction with the Marshals, the FBI, 
the Sacramento Gang Intelligence Unit in Sacramento, 
California, which is kind of the clearing house.
    Mr. Ruppersberger. And the Marshals are the----
    Mr. Lappin. The Marshals, the FBI, they are part of that 
organization.
    Mr. Ruppersberger. Kind of like a strike force?
    Mr. Lappin. It is, and in fact it is housed in the same 
building as the California gang intelligence unit. And they 
work collaboratively on identifying people who are coming into 
our system, and leaving our system. So we know who is coming as 
best we can, and they know who is leaving as best they can. I 
think over the last three or four years the communication has 
been enhanced significantly. A greater flow of information, 
great work locally and nationally on that type of issue.
    Mr. Ruppersberger. Do you coordinate with the JTTF in that 
regard too?
    Mr. Lappin. We have permanent members. We have two 
permanent seats on the National Joint Terrorism Task Force.
    Mr. Ruppersberger. Okay, good.
    Mr. Lappin. And our staff are actually the liaisons for all 
corrections, federal, state, and local. More applicable to 
terrorists, but certainly getting involved in some of the gang 
issues. Locally where we have prisons, many of our wardens or 
representative of the warden are on the local JTTFs so that 
they are involved locally as well.
    Let me just transition a little bit. Let me back up. 
Without a doubt, as I said earlier, the management of the gangs 
continues to be a challenge. More of them, more younger 
offenders, more violent, more gang associations, so it is 
troublesome for us. And we are currently stepping back, 
reevaluating how we are managing those gangs, and the gathering 
of information. We record all the phone calls, we monitor as 
many as we can. We read mail, especially on high profile 
inmates. Our classification system takes into account gang 
participation. So certainly those at the higher levels end up 
in more structured, and more controlled environments.
    Mr. Ruppersberger. Let me stop you right there. If you have 
identified a gang leader. Do you have a policy on cell phones 
in federal prisons?
    Mr. Lappin. Yes.
    Mr. Ruppersberger. What is that?
    Mr. Lappin. None.

                     CONTRABAND AND STAFF SEARCHES

    Mr. Ruppersberger. None, okay. So the other issue. It seems 
where we are having problems are corruption with respect to the 
prison guards. And again, this is more state than federal, so I 
am focusing more on my knowledge of the state prison. Do you 
have an issue there? And if you do, what protocols do you use 
to identify that?
    Mr. Lappin. It is as much a challenge for us as it is 
locally. That is, the introduction of contraband, some of which 
comes in through other inmates or families, some comes in 
through staff who have decided to break the law, unfortunately. 
We have recently implemented, I guess it was until January we 
did not search our staff coming to and from work. We now search 
all our staff entering work.
    Mr. Ruppersberger. So that is a protocol?
    Mr. Lappin. Obviously we will be doing a better job of 
stopping the introduction of metal, cell phones, those types of 
issues. It is still going to be a challenge. We are working 
closely with a number of organizations to identify equipment to 
help us detect phones in prisons. So it is a big challenge for 
us. And the smaller the phones get and the less metal that is 
in them it is going to be more of a challenge.

                               TERRORISTS

    Let me transition real quickly to terrorists. We have got 
about 211 international terrorists. If you throw in the 
domestic terrorists the number goes up to a little over 1,200. 
As I mentioned earlier to one of the other questions I think--
--
    Mr. Ruppersberger. Where are these terrorists from, by the 
way? What countries?
    Mr. Lappin. You know, primarily the Middle East.
    Mr. Ruppersberger. Okay.
    Mr. Lappin. But there are some international terrorists 
from other countries. I could get you, I could get a break down 
very easily and submit it to the record. I think today we are 
doing a much better job than we were doing a year ago and the 
year before that. We know more, we have increased resources. We 
are monitoring 100 percent of the phones and mail for those 
inmates, it is required for those that we have concerns about. 
We have in place contracts with companies or to assist us with 
interpreting. We struggle trying to find resources to bring 
into the system, to hire people. So we now have contracts in 
place to complete the interpretations that are required. We 
have a system to classify those individuals, so that we have 
them at appropriate security levels and locations to monitor 
and oversee their incarceration, and what contacts they have 
both in and outside of prison.
    [The information follows:]

                Citizenship of International Terrorists

    International Terrorists Incarcerated in BOP institutions are 
citizens of following countries:
    Afghanistan, Algeria, Angola, Belize, Canada, Colombia, Croatia, 
Cuba, Denmark, Ecuador, Egypt, France, Gaza Strip*, Haiti, Indonesia, 
Iran, Iraq, Japan, Jordan, Kenya, Kuwait, Lebanon, Morocco, Pakistan, 
Saudi Arabia, Somalia, Spain, Sri Lanka, Sudan, Syria, Tanzania, 
Trinidad, Turkey, United Kingdom, United States, Yemen, and Yugoslavia 
(Serbia).

*Not a country.

    Mr. Ruppersberger. Okay. Thank you.
    Mr. Mollohan. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Back briefly to the 
staff versus prisoner ratio. Have you noticed any change in the 
number of incidents of violence or disorder as your staff ratio 
has increased?
    Mr. Lappin. If you look at the rate of serious incidents 
over time, you will see peaks and valleys. But the trend has 
been a slight increase in the rate of serious assaults. So we 
have not seen a significant increase. There has been more of an 
increase at higher security institutions, a concern of ours. I 
think what concerns me more is the increase in the severity of 
those incidents. We are seeing more serious assaults. When we 
have serious assaults they are more serious, I think, now than 
in the past. We have had a rash of homicides. We have had, as 
of today, nine homicides this fiscal year. We had twelve last 
year in 2007. We had four in 2006, and we had twelve in 2005. 
Let me give you the three prior years, for 2004, 2003, and 
2002. We had four, three, and three. So we have seen an 
increase in the severity of the serious assaults. We have also 
seen a severity of those assaults that occur on staff, a huge 
concern of ours.
    So, again, the number is a little deceiving. When you look 
at the rate, you do not see a huge increase. You would assume 
there would be given more inmates, and fewer staff. On the 
other hand we are very concerned about the severity of the 
assaults that are occurring. And we are trying to address those 
issues by identifying those offenders who behave in that manner 
and getting them into higher security institutions for greater 
control and custody.

                        NON-U.S. CITIZEN INMATES

    Mr. Rogers. Deportable aliens.
    Mr. Lappin. Yes.
    Mr. Rogers. How do you handle that?
    Mr. Lappin. Of the 201,000 inmates, almost 52,000 are non-
U.S. citizens. 22,000 of those are incarcerated in private 
contract facilities. We determined some years ago that would be 
an appropriate use of private contract facilities. So 22,000, 
of the low security offenders, low security criminal aliens are 
the only offenders that are there, primarily. There is a small 
group of D.C. offenders in one facility, about 600 to 700. So 
the vast majority of the offenders in private corrections are 
low security, criminal aliens. The rest of them, the balance, 
are housed in our low facilities. What we cannot get into our 
private contract low facilities are in our low facilities. The 
majority of what remains are in mediums and highs because of 
violence or escape history, or disruptive behavior.
    Mr. Rogers. Well, I want to know about deportable.
    Mr. Lappin. Yes.
    Mr. Rogers. Those that can be deported.
    Mr. Lappin. They are, and obviously they first stay at 
locations around the Bureau. We have a cooperative agreement 
with the Bureau of Immigration and Customs Enforcement where 
they actually have staff on site. And we try to concentrate the 
individuals who are being considered for deportation, who are 
coming up on the end of their sentence, we try to concentrate 
them at those locations around the Bureau. There are 
institution hearing programs officers from the BICE agency who 
review and determine whether or not that person is going to be 
deported. We also work with them and have a facility in 
Oakdale, Louisiana where many of these offenders are ultimately 
transferred. If there is a decision to be deported, many of 
them end up in Oakdale, Louisiana where we then, again, work 
with the immigration staff to have them deported to their 
country of residence. There are some folks who we are unable to 
deport because the country of residence will not accept them. 
And some of them remain in our custody. Oftentimes BICE takes 
them back into their custody to house them as detainees. But a 
small portion of them remain in our custody as long term 
detainees. We are working closely with BICE for a reimbursable 
agreement on those few that remain in our custody. Oftentimes 
the ones that stay with us have health issues or at a higher 
security level than what they want to put in some of their 
detention facilities.
    Mr. Rogers. Well, I am trying to figure out a place to help 
you reduce the population. So aliens, noncitizens who are 
serving time in a federal prison, you do not have the authority 
to deport them short of them serving their time here?
    Mr. Lappin. No, I do not.
    Mr. Rogers. Should you and would you like to?
    Mr. Lappin. Well, I think that is an issue for the 
Department of Justice.
    Mr. Rogers. You have a feeling about it, surely.
    Mr. Lappin. Well, again, I am open to any strategy to help 
us maintain safe, secure prisons. I certainly have no problem 
assisting or working with the Department to determine if this 
is a viable option, and with the Bureau of Immigration and 
Customs Enforcement.
    Mr. Rogers. Now one-third of your prisons are over fifty 
years old?
    Mr. Lappin. Yes.
    Mr. Rogers. And require very significant upgrades and 
maintenance because of that, obviously. But in your testimony 
you also indicate that the prisons constructed since the 
seventies reflect a modernized architectural design to support 
the principle of direct supervision of inmates. In other words, 
increased efficiency.
    Mr. Lappin. Increased visibility.
    Mr. Rogers. But requiring fewer personnel per prisoner.
    Mr. Lappin. If you compare institutions designed prior to 
that, you are going to see the need for more staff per inmate 
than in the newer facilities.
    Mr. Rogers. Now, the President's Budget Request includes 
only $95 million for construction, which includes maintenance 
of these older prisons especially, which is some indication 
that your facilities budget is going to become even more 
backlogged. Repair projects deferred, projects already in 
construction delayed, not to mention new construction. Is that 
not counterproductive? If a new prison is going to save you a 
lot of manpower, they are more efficient. They were designed 
that way, right? So does it not make sense to phase out some of 
the really old ones that are not efficient and need a lot of 
repair in favor of a newer facility?
    Mr. Lappin. I cannot argue that point. Clearly there are 
some of our older facilities that are very expensive to 
continue to operate. But our dilemma has been that we have 
never had the opportunity to close them because we have too 
many inmates.
    Mr. Rogers. Yes.
    Mr. Lappin. We could not take them offline.
    Mr. Rogers. Have you ever closed one?
    Mr. Lappin. Yes, we have. In fact, we just closed four 
institutions a year ago. Four older, very small, inefficient, 
minimum security camps. But over the course of seventy-seven 
years we have closed a number of prisons. Alcatraz, McNeil, 
well, we did not close McNeil we gave it to the State. There 
are a number of different institutions. We have a list of 
institutions that have been closed over the years.
    Mr. Rogers. Yes.
    Mr. Lappin. But certainly an area of concern. There are two 
aspects of the B and F budget. Certainly new construction is 
one issue. M and R is the other issue.
    Mr. Rogers. Let me briefly follow up.
    Mr. Lappin. And we certainly have to prioritize very 
cautiously funding for modernization and repair because of the 
number of older prisons and the cost of reconstruction and 
modernization. So it is an area we really have to prioritize 
well. Without a doubt we are concerned about the funding level 
in that area.

                              TELE-HEALTH

    Mr. Rogers. Let me follow up briefly on the Chairman's 
questioning about medicine, healthcare. I remember from years 
ago we were talking about telehealth and telemedicine in the 
prisons. That has probably been fifteen years or so. I do not 
think we have moved very far along in that time, have we?
    Mr. Lappin. Well, we have some. Not as far as we would like 
to have moved. We do quite a bit of telepsychiatry. We are 
doing some telehealth in certain locations where we have a 
contract with a community hospital or an organization that can 
assist us with that. But without a doubt, we are not where we 
would like to be. I think that has been limited some by our 
funding challenge. I mean, without a doubt some of the things 
that we would like to do have been slowed, given the funding 
challenges that we have had over the last three or four years.
    Mr. Rogers. Well, it just makes all the sense in the world 
to me to try to utilize telemedicine in the prisons, saving 
manpower and expenses and malingering prisoners who use this as 
an excuse to take a ride out in the country one day a week.
    Mr. Lappin. Let me mention something we see evolving 
though. I mean, you are right, fifteen, twenty years ago we saw 
a greater need. But what has occurred over the last ten, 
fifteen years or more, is community hospitals who are willing 
to come to the facility to provide service. That has had a huge 
impact because in the past typically we took the inmates to the 
hospital. But we have now arranged services through contracts 
for them. Let us take FMC Butner in Raleigh, North Carolina. We 
have several contracts locally where on a given day somebody 
shows up to do certain types of services for inmates. And we 
will have all the inmates prepared. Contractors spend an entire 
day so it is efficient for them. Given that we have seen more 
of a transition to that type of provision of services, not to 
say that telehealth is not an option, but we certainly see a 
bit of a transition ongoing via the priorities and the 
available manner to provide services.
    Mr. Rogers. You could stop a lot of prisoners saying, ``I 
am sick. I want to go to the doctor or the hospital just to get 
a free ride into town or day out of the cell.'' I am sure if 
you said to that same person, ``Okay, come to this next cell 
and we will hook you up with a doctor across town or across the 
countryside here,'' I would say you would have fewer prisoners 
saying they were sick, one. Two, you do not have to have your 
staff accompany that prisoner all day long out there, wasting 
time, so it makes every bit of sense in the world to try to 
save some money. Now the FCC has just awarded over $417 million 
for the construction of sixty-nine statewide or regional 
broadband telehealth networks in forty-two states and three 
U.S. territories. It seems like a grand time for you to make 
your big move.
    Mr. Lappin. I would love to have that information. We would 
welcome an opportunity to chat with them.
    Mr. Rogers. With whom?
    Mr. Lappin. Make connections with the people. I was unaware 
of this. And if there is funding for the advancement of 
telehealth we will certainly look into it and see how it can be 
utilized.
    Mr. Rogers. Well I would challenge you to do that. No one 
is going to come and lay it on your table. You are going to 
have to go after it.
    Mr. Lappin. Absolutely.
    Mr. Rogers. There has been awarded a big sum of money for 
the FCC to expand the telehealth network, which could save you 
tons and tons of staff and money.

                    REIMBURSABLE AGREEMENT WITH BICE

    Mr. Lappin. You know, you mentioned a few minutes ago about 
the long term detainees. I can tell you for sure the ones that 
we keep in our custody typically are individuals who have huge 
medical issues, because BICE may not have the locations 
available, or the resources to provide it. So what we need from 
them, as an example, is a reimbursable agreement with BICE to 
pay for the cost of those individuals. But we will certainly 
look into, this opportunity to see if we can enhance our----
    Mr. Rogers. If you could get back to us with some report on 
how you are proceeding, I would appreciate that.
    Mr. Lappin. I will do that.
    [The information follows:]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rogers. And I would be happy to try to help the 
gentleman and I am sure all of us would. Thank you, Mr. 
Chairman.
    Mr. Lappin. And with the BICE issue.
    Mr. Mollohan. Thank you, Mr. Rogers.
    Mr. Rogers. Thank you.
    Mr. Mollohan. Mr. Aderholt, we are about ready to move onto 
our next witness. We have three hearings. Do you have any?
    Mr. Aderholt. No, you all can move on and I will get ready 
for the next witness.
    Mr. Mollohan. I know the Director will welcome any 
questions for the record from any of us.
    Mr. Aderholt. I have some for the record. I know you would 
love to stay longer, but----
    Mr. Lappin. I am running out of water.
    Mr. Mollohan. Director Lappin, again, thank you for 
appearing before us particularly under these circumstances. And 
we look forward to working with you and your fine staff. We 
appreciate the great job they do and we look forward to working 
with you as we mark up this bill and 2008 supplementals 
reprogrammings and try to get the Bureau of Prisons the 
resources they need to do their job. Thank you for appearing 
here today.
    Mr. Lappin. I appreciate your listening and assisting us. 
We look forward to working with you.
    Mr. Mollohan. Next the Committee is going to turn to the 
Director of the U.S. Marshals Service to present the U.S. 
Marshals Service budget.
    [Recess]
    Mr. Mollohan. All right, we will resume the hearing. Now we 
are going to turn to Mr. John Clark, the Director of the U.S. 
Marshals Service. Mr. Clark, welcome. We thank you for your 
time, Director Clark, and we look forward to your testimony. 
Based on your proposed budget increases we expect to hear a lot 
about your workload in the Southwest Border districts. We have 
all heard about the challenges you are facing in that region 
and we are aware that even more significant challenges are on 
the horizon as a result of changing immigration enforcement 
policy. Today we have to discuss your ideas and proposals for 
addressing those challenges. At the same time, we recognize 
that the Marshals Service has many more mission requirements 
than just prisoner security along the Southwest Border. We are 
anxious to discuss these other requirements as well, including 
Adam Walsh enforcement, courthouse security and judicial threat 
assessments. Your written statement will be made a part of the 
record. We will invite you, after Mr. Frelinghuysen has an 
opportunity for an opening statement, to summarize your 
testimony and to be responsive to questions. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Welcome and 
thank you for running a good operation, the U.S. Marshals 
Service. So a great job on your team. Thank you.
    Mr. Clark. Thank you.
    Mr. Mollohan. Mr. Clark.
    Mr. Clark. In the interest of time I will try to speed it 
along as fast as I can. Chairman Mollohan, Congressman 
Frelinghuysen, other members of the panel and Subcommittee, 
thank you for allowing me to come here today. I am here today 
as the Director and as a career Deputy U.S. Marshal, 
representing more than 4,600 men and women of the United States 
Marshals Service. Our employees are located in ninety-four 
judicial districts nationwide and six regional fugitive task 
forces, three foreign offices, and headquarters. I am also here 
to represent the many clients that we serve in the Marshals 
Service, including the judiciary, the public, other Federal 
investigative agencies, and our state and local partners. The 
Marshals Service needs your help now more than ever.
    In 2006, we worked together to pass the Adam Walsh Act. The 
Act requires the federal government to help state, local and 
tribal entities standardize and link sex offender registries. 
Through the Marshals Service's unique constitutional authority 
and proven success at catching fugitives, the law also mandates 
Deputy U.S. Marshals to investigate, locate, and apprehend sex 
offenders who fail to register. This enforcement mission adds, 
according to conservative estimates, 100,000 additional 
fugitives to our current workload. We have already shown that 
we can be creative and effective at catching fugitives. 
Operation Falcon, Fugitive Safe Surrender, and regional task 
forces are excellent tools we use to carry out this mission. 
Catching sex offenders is a mission that Deputy U.S. Marshals 
have taken to heart. We have been told that each offender has, 
on average, ten victims. Every second we are delayed in looking 
for one of these predators is another second they can use to 
repeat their crime against society's most vulnerable and 
valuable resource, our children.
    Last year, both the House and Senate marks for the Marshals 
Service contained resources for the Adam Walsh Act. The funding 
was denied. This year I urge you to honor the memory of Adam 
Walsh, Megan Kanka, Jessica Lunsford, Polly Klaas, Jacob 
Wetterling, and the thousands of other current and future 
victims of unregistered sex offenders.
    This year I also ask you to remember the unique role the 
Marshals Service plays in protecting our judicial process: the 
fundamental principle that witnesses, judges, assistant U.S. 
attorneys, and defense attorneys, can all operate freely 
without fear of harm or retribution. Over the past years we 
have seen a 69 percent increase in threats to the judiciary. 
Currently we have only thirty-five people who are dedicated 
full-time to analyzing threats against those 7,700 officials.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Further, we have never lost a witness in the Witness 
Security Program who followed our guidelines. We are taking 
care of over 17,000 witnesses and their families. The number 
keeps growing since we are good at what we do. This service 
that we provide is part social worker, part probation officer, 
and a large part bodyguard. It is an excellent program and 
motivates witnesses to cooperate. The government has achieved 
an 89 percent conviction rate using protected witness 
testimony.
    Another example of why we need your help this year is the 
Southwest Border. The five judicial districts that are along 
the Southwest Border handle over one-third of the entire 
prisoner population. Thank you for the positions you 
appropriated to us in 2008 to help with our mission there. I 
also appreciate your support with the additional positions for 
the U.S. Border requested for 2009, which will assist with the 
ever increasing workload. The workforce has not kept up with 
the increased workload, we send deputies to the Southwest 
Border on temporary travel orders for weeks at a time to 
maintain operations. That means they are not able to do their 
jobs in their home districts, not able to catch fugitives, not 
helping your state and local police, and not keeping courts 
running smoothly. As you know we answer to the federal judges. 
When they hold court they set the docket and we have to be 
there with prisoners in hand.
    I also ask you to remember the role that the Marshals 
Service plays when it comes to ensuring the safety and security 
of both the general public and employees in our federal 
courthouses. In some older courthouses, deputies are forced to 
walk prisoners through public hallways, open areas, and use 
public elevators. This situation causes some obvious safety and 
security concerns and needs to be addressed.
    Finally just let me say that we do not conduct 
counterterrorism or counter intelligence investigations, but 
someone has to protect witnesses and detain accused terrorists. 
Someone has to protect the courthouses and court officials 
where terrorists stand trial. Someone has to investigate and 
apprehend violent criminals who are terrorizing our 
communities. And that someone is a Deputy U.S. Marshal and that 
is why I am here today. So thank you for giving me the 
opportunity to speak on behalf of the men and women of the 
Marshals Service. I look forward to taking your questions now.
    [Written statement of John F. Clark, Director, United 
States Marshals Service]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                      ADEQUACY OF FY 2009 REQUEST

    Mr. Mollohan. Thank you, Mr. Clark. The Marshals Service 
has quite an extensive list of responsibilities. I imagine that 
you have to do plenty under the best of circumstances. But you 
are currently facing unprecedented increases in your workload 
due to stricter immigration enforcement, higher judicial threat 
reporting, and a vast new mandate for sexual offender 
apprehension. I understood in your opening remarks, you 
indicated that you were assigning Deputy Marshals to hot spot 
areas and they were not able to do this, not able to do that, 
not able, repeat that sentence for me, will you please?
    Mr. Clark. Essentially, Mr. Chairman, we have Deputy 
Marshals on special assignment going around the country. Some 
may be working on high threat trials, as for example in Miami. 
The resources that we may need there requires us to oftentimes 
bring Deputy Marshals from some other districts to help. On any 
given day, we have numerous special assignments around the 
country.
    Mr. Mollohan. Is that because you are stretching resources?
    Mr. Clark. Yes, that is one way to put it. We are 
stretching some resources. What we are able to do in the 
special assignment process is to move or bring in Deputy 
Marshals from districts that perhaps do not currently have a 
significant workload.
    Mr. Mollohan. Repeat those ``nots'' for me then again. I 
did not get them all down. They were not able, not able to do 
this, not able to do that. What did you say there in your 
opening remarks?
    Mr. Clark. Essentially, if you can bear with me a second to 
find it----
    Mr. Mollohan. I want to hear it again so I do want to bear 
with you.
    Mr. Clark. Okay, one moment.
    Mr. Mollohan. Sorry, thank you.
    Mr. Clark. I think it starts here. Since the workforce has 
not kept up with the increased workload we send deputies to the 
Southwest Border on temporary travel orders for weeks at a time 
to maintain operations. That includes, by the way, the other 
examples that I just gave you. That means they are not able to 
do their jobs in their home districts. For example, not 
catching fugitives, not helping state or local police in their 
law enforcement duties and not keeping courts running smoothly. 
We also answer to the federal judges and when they hold court 
they require us to be there at that particular time.
    Mr. Mollohan. Okay, well I think I have heard that right 
then. You are stretching resources beyond the point that you 
can be able to fulfill all of the responsibilities you 
currently have.
    Mr. Clark. Yes.
    Mr. Mollohan. You have projected increases for, and I 
repeat, stricter immigration enforcement, higher judicial 
threat reporting, and a vast new mandate with regard to sexual 
offender apprehension. Given your current situation, and given 
what you are looking at in the future, do you believe that your 
2009 budget request is sufficient to allow you to fully enforce 
all of your mandated responsibilities?
    Mr. Clark. Mr. Chairman, we were disappointed with the 2007 
continuing resolution in that we did not see the resources to 
enforce the Adam Walsh Act. We continued to be disappointed in 
2008 when the positions were not continued in the Omnibus Bill 
in Conference. We were initially looking for start up positions 
of approximately fifty-four positions and $8 million. This year 
the President's budget calls for additional resources to 
support the Southwest Border, which handles about 34 percent of 
our pretrial detainees.
    Mr. Mollohan. I want to share your disappointment in 2007. 
I want to share your disappointment in 2008. We wish the 
President had negotiated with the Congress as that process is 
supposed to work in a normal environment. I also want an answer 
to my questions. Do you believe that your 2009 budget request 
is sufficient to allow you to fully enforce all of your 
mandated responsibilities?
    Mr. Clark. We certainly need additional resources to 
adequately implement all of these various missions. Our five 
year plan for, the Adam Walsh Act includes 100 Deputy Marshals 
for each of the next five years to successfully complete 
operations.
    Mr. Mollohan. Okay, well let me suggest that I hear you 
answering no. Your 2009 budget request is not sufficient to 
fully enforce all of your mandated responsibilities. Please 
feel free to correct me if I misheard that.
    Mr. Clark. That is correct. We----
    Mr. Mollohan. Thank you. If not, then where do you 
anticipate cutting back in order to work within your budgeted 
level?
    Mr. Clark. Well for example on our enforcement operations, 
where we use our congressionally-funded regional task forces. 
We have a force multiplier there with the state and local 
police that greatly enhance our capabilities. For example to 
succeed with the Adam Walsh Act despite no funding, we have 
about 2,700 sex offenders thus far.

                         ADAM WALSH ENFORCEMENT

    Mr. Mollohan. Well one of the places you are going to cut 
back with is your Adam Walsh. I mean, you have how many non-
compliant sex offenders?
    Mr. Clark. By conservative estimates about 100,000.
    Mr. Mollohan. How many FTEs do you have working on that 
job?
    Mr. Clark. Right now, Deputy Marshals work on a collateral 
duty basis in addition to their other responsibilities 
investigating fugitives. That workload is melded into their 
current workload. So while no one may necessarily be saying, 
``I work solely Adam Walsh Act cases,'' we have a number of 
Deputy Marshals nonetheless performing those duties.
    Mr. Mollohan. No, my question was how many FTEs do you have 
assigned to performing your Adam Walsh mission?
    Mr. Clark. Currently we have about five, I believe, that 
are reassigned to----
    Mr. Mollohan. And how many Adam Walsh offenders do you have 
out there?
    Mr. Clark. There are approximately 100,000 according to the 
National Center for Missing and Exploited Children.
    Mr. Mollohan. Okay.
    Mr. Clark. I am sorry, I just----
    Mr. Mollohan. This is harder than it should be. I feel like 
that is a real good example of where you are going to be 
cutting back, or not hiring personnel to meet a responsibility. 
Am I wrong about that?
    Mr. Clark. Well, what we are hoping to do, and again these 
are positions that we hope to see in the future, is to be able 
to start the process of building up those task forces with 
people who can work solely on Adam Walsh Act investigations.
    Mr. Mollohan. How many people would you have to have 
dedicated to that responsibility to adequately fulfill that 
mission?
    Mr. Clark. Our five year plan is based on projections we 
receive from the National Center for Missing and Exploited 
Children. Additionally, we know the current caseload to be from 
the states that have provided their statistics. Our five year 
plan would call for about 100 Deputy Marshals for each of the 
next five years.
    Mr. Mollohan. Do you think that the budget is appropriately 
balanced between your four major lines of business? Judicial 
security, fugitive apprehension, witness security, prisoner 
security and transportation?
    Mr. Clark. Adequately balanced, if I understand your 
question correctly. Yes, in the sense of working in all those 
programs so that at the end of the day everything is being done 
that we have on the workload ``to-do'' list.
    Mr. Mollohan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Getting back to the Adam Walsh Act, why 
did you not request money specifically?
    Mr. Clark. Well, this particular----
    Mr. Frelinghuysen. I understand that you obviously have 
priorities. You are doing all sorts of things, your traditional 
missions, and this is a relatively new one.
    Mr. Clark. Sure. In the initial 2008 President's Budget 
request, we requested positions for the Adam Walsh Act, and as 
I mentioned a moment ago we were hoping to see those fifty-four 
positions and $8 million. That fell by the wayside in the 
Omnibus Bill. So we did not receive those----
    Mr. Frelinghuysen. Well, if it fell by the wayside why did 
you not pick it up and add a little more emphasis to it?
    Mr. Clark. Well, I had been championing the cause----
    Mr. Frelinghuysen. I know you have.
    Mr. Clark [continuing]. Of receiving as much as we can get 
for our five year plan to properly enforce the Adam Walsh Act. 
As the 2009 budget came together the emphasis was more strongly 
towards the priorities on the Southwest Border, which I think 
arguably after listening to Mr. Lappin and others that we 
certainly have a need there with 34 percent of our workload. So 
we are pleased on the one hand to receive that, but we are 
disappointed in the sense of----
    Mr. Frelinghuysen. Well the Southwest Border 
notwithstanding, there is a pretty strong sentiment in this 
Committee and outside this Committee that the purposes for 
which the Adam Walsh Child Protection Act and Safety Act, that 
we hope that at least you would ask for some money.
    Mr. Clark. Yes. Yes. And it is my intent to keep pushing to 
receive adequate resources to operate that program.
    Mr. Frelinghuysen. Well the best way to receive adequate 
resources is to highlight your commitment, which you are doing 
orally, but perhaps in your budget documents that you would 
like to fulfill what Congress has strongly suggested is an 
important need out there.
    Mr. Clark. Understood.

                    WITNESS AND JUDICIAL PROTECTION

    Mr. Frelinghuysen. Shifting here, I understand that the 
Marshals Service, and let me commend those that are there, has 
personnel in Iraq and Afghanistan providing security and 
witness protection for courts in those countries. We want to 
commend you and your people for providing this very dangerous 
but incredibly important service that is integral to the 
establishment of the rule of law in those countries. The 
administration's pending war supplemental proposes a $7 million 
appropriation to the Marshals Service for costs associated with 
your deployments in Afghanistan. Is this not basically a State 
Department mission that you are performing?
    Mr. Clark. Well, the particular duties we have been 
performing in Iraq and in Afghanistan----
    Mr. Frelinghuysen. It is a type of nation building here.
    Mr. Clark. One of the duties that we are responsible for, 
is helping to establish a more robust judicial presence there. 
We are working with the Iraq government to get a rule of law 
established, in addition to providing services protection for 
witnesses, particularly for example those who testified in such 
events as the Saddam Hussein trial. So some of the things that 
we are performing and doing, I believe, are uniquely situated 
to be a Marshals Service mission.
    Mr. Frelinghuysen. Well you are uniquely situated, but in 
reality you are doing the work of the State Department.
    Mr. Clark. Well the State Department, I believe, has the 
greater responsibility for those kinds of things. But we, by 
nature of our expertise and accomplishments in those areas, 
were asked to provide the service for the governments there.
    Mr. Frelinghuysen. I do not want to take away from what I 
think we all have a huge respect, anybody who works in those 
environments. Talk about our judiciary potentially being under 
fire, your people, I am sure, risk their lives all the time 
protecting the few jurists that are willing to stand up Sunni 
or Shiite, and perhaps a few Kurds, but you are doing a 
remarkable job. For the record it might be good to take a shot 
across the board at the State Department.
    I just want to clarify the Witness Protection numbers 
again. You said in your statement that there were 17,000? You 
have given new identities to how many? I have a figure here, 
8,000.
    Mr. Clark. We have in the Program----
    Mr. Frelinghuysen. But you protect, relocate, and have 
given new identities to how many witnesses? As opposed to those 
who come with them, their families?
    Mr. Clark. Well, the number that you have is more 
adequately describing those who get the new identities and new 
document changes.
    Mr. Frelinghuysen. You mentioned a figure of 17,000. That 
would be the combined, if you were to take the 8,000 witnesses 
and the over 9,700 family members? Is that right?
    Mr. Clark. Correct. The family members would make up the 
bulk of that, and not in every case do they or would they get a 
different identity or be relocated in the same way as what we 
would refer to as the principal.
    Mr. Frelinghuysen. How much money is spent in this area? 
And how much more do you need?
    Mr. Clark. I do not have that figure off the top of my head 
and I am not sure if someone on my staff does. That may be 
something I will have to get back to you on in terms of the 
total figure. I know it is a multimillion----
    Mr. Frelinghuysen. We have provided you with some 
additional positions in 2005 and I think additional ones in 
fiscal year 2006. Do you need additional resources?
    Mr. Clark. Actually, I am just referring to the number you 
just asked me, it is about $32 million, Congressman, on the 
annualized amount to run that program. In terms of the 
additional positions for the program, it is my estimation right 
now that we are handling that program and it is staffed and 
managed quite well. We do have people that continue to come 
into the program, but we also have some individuals who for a 
variety of reasons are not in it anymore. So on the one hand we 
have some new inductees coming in and there are also some 
others who eventually come out. So we are able to manage that, 
and we thank you for the----
    Mr. Frelinghuysen. And lastly, just briefly, the judicial 
protection, you are putting in quite a lot of home intrusion 
detection systems. Have a good number been installed? And I 
assume there are quite a lot of, there are costs related to 
administering this program?
    Mr. Clark. That is correct, Congressman. Of the initial 
group of approximately 1,600 judges that asked for a home 
alarm, some changed their mind for their own personal reasons 
along the way. There are roughly 1,500 now that have received a 
home intrusion alarm. We had those alarms installed. The 
feedback we have received there has been very, very positive. 
The monitoring costs, which are now built into our budget, to 
make sure those alarms are appropriately monitored, have been 
going well. Like any new program within the government it took 
a few rough bumps in the road to get it going well, but we have 
the alarms in. The feedback from the judges, all that I have 
spoken to, has been very, very positive.
    Mr. Frelinghuysen. Okay, thank you Mr. Chairman.
    Mr. Mollohan. Thank you. Mr. Aderholt.

                                 OCDETF

    Mr. Aderholt. Thank you, Mr. Chairman, and thank you 
Director Clark for being here, and thank you for stopping by my 
office a few days ago so I had a chance to visit before this 
hearing here today. In your testimony you had discussed, or had 
mentioned, about your participation in the Department of 
Justice Organized Crime Drug Enforcement Task Force Program, 
and how effective that has been in the apprehension of 
fugitives. You mentioned that you have included six new Deputy 
Marshals to help out with this effort. Are six Deputies enough 
to really accomplish the goal that you are trying to achieve in 
this particular----
    Mr. Clark. Yes, it is. In fact, the program itself has 
received some enhancements in recent times. This enhancement, 
of course, will help even further, particularly with the 
organized crime and drug enforcement fugitives that flee to 
Mexico and the areas where we have already established some 
foreign field offices. So I believe this level of enhancement 
will go a long way.
    Mr. Aderholt. How many are currently working on that, 
Deputies, or Marshals, are working on the project currently?
    Mr. Clark. I believe it is around thirty, somewhere in that 
ballpark.
    Mr. Aderholt. Mm-hmm. And so basically just in a nutshell, 
if you could just tell the Committee and explain exactly how 
this program actually operates and how it would work?
    Mr. Clark. Sure. The Organized Crime and Drug Enforcement 
Task Force is a multi-agency task force. The Marshals Service 
is one of the participants. Our area of expertise, the resource 
we bring to the table, if you will, is our fugitive 
apprehension mission. So frequently what we are doing, within 
that Task Force is looking for a drug fugitive. If the 
individuals are wanted on federal warrants, charged with some 
type of a drug violation, U.S. drug violation, or someone the 
DEA has identified as a major drug offender, but their 
whereabouts are unknown. The men and women who work in this 
program help the larger Task Force to find those individuals 
who are charged under federal law with violating the drug law.
    Mr. Aderholt. All right, thank you. That is all I have 
right now.

                      SOUTHWEST BORDER ACTIVITIES

    Mr. Mollohan. Thank you, Mr. Aderholt. Mr. Clark, your 
testimony clearly describes your struggles with keep pace with 
the workload being generated in the Southwest Border districts 
by DHS enforcement activities. Now unfortunately, those 
struggles are only likely to intensify. At the levels proposed 
in the President's fiscal year 2009 budget request, the number 
of Border Patrol agents will have doubled since 2001. But the 
Marshals staffing will have increased at less than a fifth of 
that rate over that same period. You have proposed a $13 
million enhancement to address these workload challenges, and I 
want to make sure I understand the scale of what you are 
requesting. A couple of questions. Will this $13 million enable 
you to merely catch up on existing workload? Or will it allow 
you to also keep pace with further scheduled DHS enforcement 
increases? As you project those requirements out, is $13 
million enough to meet them?
    Mr. Clark. Our projections are based on what we believe 
will be coming from the U.S. Border Patrol and their 
apprehensions. This is entirely different in relation to the 
workload that we will incur, because not every one of those 
individuals that the Border Patrol would bring in would 
necessarily go through the full federal judicial process; to 
take them to a hearing, to be incarcerated, to needing bed 
space, and so on and so forth. So there is sort of an offset, 
even though the Border Patrol and DHS have been increasing 
apprehensions. We feel, based on what we received through the 
2008 process, and are now requesting in 2009, that this will 
help us to keep pace with what we project will be coming 
through.
    I am appreciative particularly of the Committee is 
recognizing the fact that all the Southwest Border initiatives 
that are sometimes labeled under immigration reform do have an 
impact on the entire judicial system; of course, the federal 
judges, the probation officers, and the like--whom I sometimes 
call the downstream effect. So we have been working very 
closely with the Border Patrol, DHS, and others to make sure we 
are discussing and talking through how to, handle the increased 
workload that will be coming through.
    Mr. Mollohan. What is the workload that you anticipate? 
What is the workload increase and how do you measure it? When 
you see DHS activities increasing, what is the impact upon your 
workload?
    Mr. Clark. Well, there are a number of things that, I 
think, come into play there. The U.S. Attorney's desire to--
    Mr. Mollohan. Let me ask you, have you looked at those and 
have you quantified it? Have you looked at that workload 
increase and have you quantified it?
    Mr. Clark. We have quantified some figures, and I know that 
we have looked at data that will affect our agency's----
    Mr. Mollohan. Can you share that with me right now?
    Mr. Clark. I cannot right now. I do not have that readily 
available. I would be pleased to provide it for--
    Mr. Mollohan. Are your budget estimates based upon those 
numbers?
    Mr. Clark. Yes, in many respects they are. We have 
individuals that, have been working with the Border Patrol, 
DHS, and others to try to project what we think----
    Mr. Mollohan. Your workload increase because of the 
additional activity that is involved with DHS enforcement 
increases?
    Mr. Clark. That is correct. We also know that we will have 
a couple of spots along the Border that have higher projections 
than others. Tucson comes to mind. In fact, the workload there 
I think, even for DHS, is predominantly located in that one 
sliver of Border. So----
    Mr. Mollohan. But you have done that exercise? Your agency? 
You have----
    Mr. Clark. We have looked at data. We have looked at 
numbers. We have looked at what we believe to be----
    Mr. Mollohan. And your budget requests and the budget you 
are requesting here is based upon those projections?
    Mr. Clark. Yes. We can provide some correlation between 
what we sense could be future workload requirements for us as 
compared to what we think DHS is doing, which is quite 
extensive in some ways.
    Mr. Mollohan. Does your request take into consideration the 
impact of Operation Streamline?
    Mr. Clark. Yes. We have discussed Operation Streamline and 
other, as we sometimes refer to them, targeted enforcement 
initiatives with the Customs and Border Patrol. Of course 
Tuscan, Arizona is one such area.
    Mr. Mollohan. Okay. But your request has taken that into 
account? You know that?
    Mr. Clark. Yes. In terms of, Operation Streamline and other 
targeted enforcement----
    Mr. Mollohan. The Marshals Service has taken that increase 
in effect, into account as it has come up with this budget 
request? And the budget you are requesting here is based upon 
those projctions?
    Mr. Clark. Yes, and we can provide some correlation between 
what we sense could be future workload requirements for us as 
compared to what we think DHS is doing, which is you know 
extensive in some ways.
    Mr. Clark. Yes. We have looked at budget or, I'm sorry, at 
workload correlation between those types of programs, Operation 
Streamline and other DHS initiatives that run through the 
Border Patrol. We are trying to align our resources to that.
    Mr. Mollohan. Okay. I will have some other questions in 
that area to submit for the record.
    A few more questions about the Adam Walsh Enforcement. You 
indicated that you have dedicated five positions exclusively to 
Adam Walsh Enforcement. Is that correct?
    Mr. Clark. It is actually three.
    Mr. Mollohan. Oh, okay.
    Mr. Clark. I stand corrected.
    Mr. Mollohan. Well three is probably just as inadequate as 
five to try to deal with 100,000 people.
    How many are tasked with Adam Walsh Enforcement as a 
collateral duty?
    Mr. Clark. In our 94 judicial districts we have identified 
a coordinator in each of those districts. In many of our 
districts that are located in States that have a higher volume 
of unregistered sex offenders, we have more than that. So in 
essence that number is the minimum working collateral duties.
    And then our six regional fugitive task forces have 
identified the individuals who are supporting the Adam Walsh 
Act enforcement. That is the reason we have been able to make 
some positive impact on apprehension of the unregistered----
    Mr. Mollohan. It still sounds daunting to me to try to meet 
that responsibility with the number of people who you have 
assigned to it.
    Do you agree or disagree with that?
    Mr. Clark. It is daunting. I do agree, and we would, again, 
look forward to the support of the Committee.
    Mr. Mollohan. Why didn't you request Adam Walsh Enforcement 
resources for 2009, or did you? Did you request that to OMB?
    Mr. Clark. We did make a request for the funding and the 
positions that we would need. A lot of it, again going back to 
what I referred to as a start up cost, that we had projected in 
the 2008 budget and hoped to continue the momentum through 
2009. But priorities for funding, as many things----
    Mr. Mollohan. Other areas crowded it out.
    Mr. Clark. Went to Southwest Border.
    Mr. Mollohan. From your perspective, as a law enforcement 
officer, what would be required to fully implement the Adam 
Walsh Act?
    Mr. Clark. Our projections, based on what we are referring 
to as our five year plan, would be 100 Deputy Marshals over 
each of the next five years. What we----
    Mr. Mollohan. Accumulative?
    Mr. Clark. An accumulative total.
    Mr. Mollohan. A hundred first year, two hundred, second 
year, three hundred fourth year?
    Mr. Clark. Yes. That is correct. With the emphasis to place 
those positions in those districts, within those, States that 
we know have the highest volume and----
    Mr. Mollohan. Those are new Marshals?
    Mr. Clark. Yes, they would be new Deputy Marshals. Then we 
would, of course, take experienced investigators to place them 
to----
    Mr. Mollohan. Do you have an estimate of the cost 
associated with full implementation?
    Mr. Clark. I do, I believe, somewhere. I may have to get 
back to you. Yes, it would be about $130 million.
    Mr. Mollohan. And that is no where in your request for 
2009?
    Mr. Clark. No, it is not.
    Mr. Mollohan. What is the status of your efforts to create 
a National Sex Offender Targeting Center to collect, 
distribute, and use intelligence to identify, locate, and 
apprehend offenders?
    Mr. Clark. We are working to get that established now with 
the National Center for Missing and Exploited Children. We 
already have, through our headquarters efforts, a process 
underway to get that going. It will allow us, through the 
collection of data and shared data from the National Center 
which also collects from a number of the States that will be 
participating, the capability to target individuals that are 
unregistered.
    So that is coming along well, but we certainly would like 
to see it improve even more.

                     THREATS AGAINST THE JUDICIARY

    Mr. Mollohan. Right. Thank you. The Marshals Service is 
reporting that the number of threats against federal judges and 
prosecutors has risen every year since 2003, with 2008 on pace 
to be the highest year yet. The Judicial Conference has 
identified this as a major concern. Do you agree?
    Mr. Clark. We believe it still is on the increase due to a 
number of factors. One of them is that we are doing, we the 
Marshal Service, a much better job of tracking, collecting, and 
even educating the judges and others about how to report 
threats.
    Similarly, the judges and others we protect are doing a 
better job of reporting. So some of the spike, I believe, is 
due to education, better reporting, and a better collecting of 
that information to our new Threat Management Center.
    Mr. Mollohan. That being the case, do you agree that there 
is a workload increased associated with this increase threat?
    Mr. Clark. There has been a steady increase through this 
collection of more cases and more threats. I think over the 
last five years it has been about 63 percent overall.
    Mr. Mollohan. Yes. My number is 69 percent.
    Mr. Clark. Sixty-nine percent, yes.
    Mr. Mollohan. And funding has only marginally increased 
with inflationary adjustments, is that correct?
    Mr. Clark. Yes. Overall funding, yes, has----
    Mr. Mollohan. Is there a problem there? How are you going 
to keep pace with that growing threat when your funding is only 
keeping pace with inflation?
    Mr. Clark. Well, the number of positions that we would need 
to fully staff our Threat Management Center and other places 
will include the resources to be able to do that. It is 
predominately at our headquarters level, where we would be able 
to do that because that is where our new Threat Management 
Center is located.
    Mr. Mollohan. And that is going to allow you to manage this 
increase with only inflationary increases in funding?
    Mr. Clark. We have real lines----
    Mr. Mollohan. No, no. What is the answer to that question?
    Mr. Clark. Well, we certainly could use the support of the 
Committee to help us in that regard.
    Mr. Mollohan. Well, I want to help you. I want to support 
you, but I want an answer to that question. Is it yes or no? 
Can you keep pace with that threat just asking for inflationary 
increases?
    Mr. Clark. Well, I am concerned about the capability to 
keep pace.
    Mr. Mollohan. Okay.
    Mr. Clark. If things keep increasing as those indicators 
seem to predict----
    Mr. Mollohan. Fair enough.
    Mr. Clark [continuing]. We would want to make sure that our 
capabilities similarly increase. We have concluded a 
substantial amount of reform on how we are doing this process 
now.
    Mr. Mollohan. Right. But you still have a backlog. Do you 
have a pending backlog of threats?--well let me ask you this: 
What is the current status of the backlog of pending threat 
assessments?
    Mr. Clark. We have reduced that down to nearly nothing and 
I don't know what the exact number is now, but we have taken a 
substantial reduction.
    Mr. Mollohan. Since the Justice Inspector General's October 
2006 report?
    Mr. Clark. That is correct.
    Mr. Mollohan. In your response to the most recent OIG 
report on Judicial Security, the Marshals indicated that there 
are several new protective intelligence initiatives you would 
like to implement by 2010. Could you provide us with some 
details about these plans and describe how you intend to pay 
for them without an additional funding request?
    Mr. Clark. Future requests will be based on projecting what 
we thought would be necessary to keep pace.
    Mr. Mollohan. The Protective Intelligence Initiative that 
you would like to implement by 2010. That is what I am talking 
about.
    Mr. Clark. Which will also help support the new Judicial 
Security Improvement Act and----
    Mr. Mollohan. Right.
    Mr. Clark [continuing]. Would include additional threat 
investigators, for example. Those are the individuals that I 
think I mentioned a bit ago who are actually in our field 
offices doing full-time threat investigation on those 
individuals that we protect.
    So that would be one of the key components to implementing 
that.
    Mr. Mollohan. Okay. Mr. Frelinghuysen, do you have any 
other questions?
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Just a little clarification on the Adam 
Walsh Act. Under Public Law 109-248, July 24, 2006, ``The 
attorney general shall use the resources of federal law 
enforcement including the United States Marshals Service to 
assist jurisdictions in locating and apprehending sex offenders 
who violate sex offender registration requirements.''
    We have 100,000 figure. Are those figures in State 
registration hands? I thought we were moving toward the 
National Registry. Can you clarify that for me?
    Mr. Clark. The figures that I have provided are 
predominately from State registries. The National Center for 
Missing and Exploited Children conducted extensive surveys in 
all 50 States and received the numbers that indicate what they 
currently had in registries.
    What the Adam Walsh Act will seek to do, as you pointed 
out, is to have more of a national registry process to get 
everyone, as you might use the phrase, on the same sheet of 
music, so that all States are essentially doing the same kinds 
of things with the registration process.
    Mr. Frelinghuysen. But that is not your job. I assume the 
main burden is on the Department of Justice overall to 
encourage the creation of a national registry.
    One of the issues we have discussed here in terms of 
Violence Against Women Act is that people take off and go off 
into different jurisdictions. And, obviously many of the 
parents that weigh in with us and with you, I am sure, point up 
the fact that, well obviously we respect people's privacy. When 
somebody is a known sex abuser of children there ought to be 
some way on a national basis to locate them in a registry. So 
we are not there yet. I assume, that is a general goal?
    Mr. Clark. The Targeting Center in conjunction with our 
efforts with the National Center for Missing and Exploited 
Children will help tie that together. As you pointed out a 
moment ago, just to clarify, the Marshals Service is what I 
prefer to as the enforcement arm of the Adam Walsh Act.
    So our job will be, more specifically, to go out and locate 
those who are not in compliance with the Act and whose 
whereabouts are unknown and to track them down and to account 
for them.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.

                    COURTHOUSE FACILITY IMPROVEMENTS

    Mr. Mollohan. Congress has invested over $80 million in 
Marshals construction funding between 2000 and 2006. During 
that time the percentage of federal courthouses and court 
occupied facilities meeting minimum security standards rose 
from six to 29 percent. However, the Marshals fiscal year 2009 
budget proposes only $2 million for necessary construction 
projects.
    How many additional courthouses or court occupied 
facilities can meet minimum security standards with only a $2 
million construction budget?
    Mr. Clark. We have, Mr. Chairman, a number of facilities 
that need some security improvements. By that I mean things 
like surveillance cameras, barricades, screening devices and 
the like. In a number of our courthouses, as mentioned a moment 
ago, are aged buildings. They are in need of some updates and 
upgrades and a variety of these security measures.
    So we look at that list in sort of a priority basis. It is 
a rather extensive list. We don't know the exact number of 
courthouses all across the country in the federal system that 
need that but we do go out to rate and rank those courthouses 
to be able to see----
    Mr. Mollohan. What do you call that? Security inventory 
lists?
    Mr. Clark. Security surveys that we conduct to look at 
facilities that we believe would need----
    Mr. Mollohan. Have you looked at every facility in the 
country?
    Mr. Clark. We have.
    Mr. Mollohan. And do you have that list?
    Mr. Clark. I don't have it with me, but it is something we 
can provide in terms of materials to the Committee to consider 
what courthouses that we feel are in need of such security.
    Mr. Mollohan. You have a comprehensive list. Do you have a 
dollar figure associated with necessary security enhancements 
to each facility?
    Mr. Clark. I can perhaps provide that to you.
    Mr. Mollohan. Well first of all do you have it?
    Mr. Clark. We have conducted a national security survey, 
again, of all the facilities.
    Mr. Mollohan. And have you associated a dollar amount 
necessary to bring those facilities up to some reasonable 
security standard?
    Mr. Clark. Yes. I would have to get back to the Committee 
on that.
    Mr. Mollohan. Would you submit that list for the record 
please?
    Mr. Clark. I would be happy to.
    Mr. Mollohan. Do you know what that number is?
    Mr. Clark. I was trying to look at a note on this. I 
believe there was--if you can bear with me for one moment.
    Mr. Mollohan. Certainly.
    Mr. Clark. Roughly 230, I believe.
    Mr. Mollohan. Two hundred and thirty facilities?
    Mr. Clark. Yes. Out of, I don't see the full number here.
    Mr. Mollohan. But the total number that needed attention 
would be 230?
    Mr. Clark. Yes. In varying degrees.
    Mr. Mollohan. Yes.
    Mr. Clark. Now some----
    Mr. Mollohan. And so you have whatever degrees, but you 
have associated a number with all those. Do you have a total? 
What would be the cost of bringing them all up?
    Mr. Clark. Yes. It was just provided here. It looks like 
about $88 million for----
    Mr. Mollohan. Eighty-eight million?
    Mr. Clark. Yes. For----
    Mr. Mollohan. It is going to take you a long time to get 
there with a $2 million request every year.
    Mr. Clark. I agree.
    Mr. Mollohan. How many of those represent really critical 
security problems--and maybe all of them do.
    Mr. Clark. I don't have the percentage broken down that 
way, but I know that many of the courthouses built back in the 
turn of the century or back in the 1920s and 1930s. In the 
District I previously served in Richmond, Virginia, for 
example, that courthouse is dated back to the Civil War.
    So there are places like that in America that have 
courthouses that are in need of some substantial work.
    Mr. Mollohan. Yes. You describe it as, ``. . . being 
stretched beyond acceptable limits,'' in your testimony, don't 
you?
    Well we appreciate that. Does the Administrative Office of 
the U.S. Courts support your construction budget request?
    Mr. Clark. Yes. We have a very good working relationship 
with them. They are generally supportive of all of our efforts 
to----
    Mr. Mollohan. They support a $2 million request as being 
adequate?
    Mr. Clark. I would--you would probably would have to ask 
Mr. Duff that. I believe he would want to see more in that 
account to be able to do that, of course. Mr. Duff being the 
Head of the Administrative Office.
    Mr. Mollohan. We have additional questions for the record. 
And we have asked you to submit some things for the record. And 
if you would kindly do that, we would appreciate it.
    We very much appreciate the tremendous job you do, both 
personally in your organization and all those marshals that are 
out there putting themselves on the line for us. They do a 
great job and we appreciate it. And we look forward to working 
with you to try to meet your real needs.
    Mr. Clark. I really appreciate it.
    Mr. Clark. Thank you both.
    Mr. Mollohan. Thank you.

     OPENING STATEMENTS ON OFFICE OF THE FEDERAL DETENTION TRUSTEE

    And next we will hear from our final witness of the day, 
Stacia Hylton, Federal Detention Trustee.
    Ms. Hylton, we are very pleased to have you here today. We 
thank you for your time. We appreciate your patience with us. 
And we look forward to your testimony.
    The Office of Federal Detention Trustee and the Marshals 
Service are largely in the same boat with respect to surging 
workload in Southwest Border districts. We understand that 
enhanced immigration enforcement has put an enormous strain on 
your resources and challenges you to think creatively about how 
you manage a constantly increasing detainee population.
    We are interested to hear your thoughts about this problem 
and discuss how your proposed budget increases will help you 
address it. We also hope to spend time talking about the state 
of detention housing and transportation services generally. 
Your written statement will be made a part of the record. I 
invite you to summarize that in your oral presentation. But 
before that I would like to call on our Ranking Member, Mr. 
Frelinghuysen, for his comments.
    Mr. Frelinghuysen. Welcome. Thank you for being here and 
thanks for your patience.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen. Ms. Hylton.
    Ms. Hylton. Good afternoon, Chairman and Congressman 
Frelinghuysen. Thank you very much. It is a pleasure to appear 
before you to discuss our President's 2009 budget request. Your 
continued support in this account is appreciated.
    In addressing the budget, I would like to discuss some of 
the challenges we face in the detention community, along with 
our successes. To begin with, I am pleased to report that our 
current projections for the remainder of 2008 are right in line 
with the appropriated funds we received. We have worked 
diligently on improving the effectiveness of the detention 
program and our forecasting model to assure this account is in 
alignment with appropriated funds.
    As you recall, unfunded requirements can produce a notable 
shortfall as we have seen in 2004 and 2005. However, over the 
past three years OFDT has launched numerous successful cost 
avoidance initiatives that have allowed us to manage the 
account more effectively by reducing the time in detention. 
These initiatives enabled OFDT to continue to meet the increase 
of new arrests while better containing the funding requirements 
for the existing population. As a result, OFDT was able to 
return significant unobligated balances to Congress in the last 
budget cycle.
    I would emphasize, however, that we have incorporated these 
cost savings initiatives into our 2008 and 2009 budget request 
by adjusting the population projection to account for these 
efficiencies. At the same time, we have developed aggressive 
performance measures to ensure that we stay on track to keep 
costs contained. Therefore, our goal of bringing the account 
into better alignment with appropriated funds is reflected in 
the current 2008 budget, demonstrating the success of our 
efforts.
    The 2009 budget request is based upon the trends 
experienced over the last several years coupled with a 
considerable increase in immigration activities. However, OFDT 
does not anticipate any unobligated balances to be carried over 
from 2008 to 2009 to mitigate the unknowns. Our current 
concerns are law enforcement and immigration initiatives that 
may occur outside the Department's budget process that could 
cause significant detention population increases.
    The 2009 request, which totals $1.3 billion, represents an 
increase of $69 million above the 2008 appropriation. This 
request will require diligence in managing the time in 
detention. We must ensure that sentenced designated prisoners 
can move swiftly into BOP beds. We anticipate that there is 
little or no room for outside initiatives of which we were 
unaware of during the development of this budget. Problematic 
too, would be an inability to move sentenced prisoners into 
federal prison beds.
    Resources are only a part of the challenge for the 
detention community. Capacity planning for adequate detention 
and prison beds is critical. In meeting the federal detention 
space requirements, I believe that the best value for the 
Government nationwide remains the balanced usage of Federal, 
local, and private detention bed space.
    Intergovernmental Agreements have been and continue to be a 
good approach for housing USMS federal detainees due to the 
need to locate detention beds within federal court cities. In 
an effort to continue building the relationships with local 
governments, we rolled out electronic Intergovernmental 
Agreements (eIGA) in 2008. This initiative fully automated the 
paperwork for IGAs reducing numerous hours of cumbersome 
processing for both State and Federal Government workers. It 
has been a great success and we are very proud of it.
    In our constant drive to improve detention, we are taking a 
number of steps to ensure efficient capacity planning by 
leveraging technology, streamlining processes and driving 
economies of scales across government. We have outlined a 
number of these in our 2009 budget request. I would like to 
highlight a major initiative for 2009 that we have in our 
budget that is imperative to containing our cost. If you 
recall, e-Designate, which automated the post sentencing 
prisoner paperwork, has been fully implemented. We now turn our 
attention to seeking improvements in the transportation 
infrastructure that will reduce the ``choke points'' in the 
system.
    We will accomplish this by implementing our concept of 
regional and ground transfer centers that will be strategically 
located nationwide. Utilizing ground and air movements more 
effectively by region will have a significant impact on the 
efficiencies of scheduling and capacity capabilities. Each 
location is identified not only to provide the best location 
for the transportation system, but also to address critical bed 
space shortages in certain judicial districts.
    While we have realized improvements in detention and 
stabilized the account, diligence in the daily management of 
detention and transportation resources remains imperative. We 
are constantly strengthening the infrastructure and creating a 
more effective environment for the detention communities. With 
approximately 190,000 new arrests annually an effective 
infrastructure and management are critical to ensuring costs 
are contained within appropriated levels. What still remains to 
be addressed is the full impact of law enforcement initiatives 
throughout the system that need to be accepted within the 
budget process in order to reduce the volatility we have seen 
in this account over the years. We are grateful for the spirit 
of cooperation from the leadership of the United States 
Marshals Service and the Federal Bureau of Prisons.
    In closing, we appreciate the resources that Congress 
provides to OFDT and your support and your leadership.
    Mr. Chairman, this concludes my remarks and I am pleased to 
answer any question that you may have.
    [Written statement of Stacia Hylton, Federal Detention 
Trustee]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                     FY 2009 POPULATION PROJECTIONS

    Mr. Mollohan. Your fiscal year 2009 request totals $1.3 
billion including $38 million to address the increased number 
of detainees generated by the DHS enforcement efforts. You have 
based your budget largely on a projection of the average daily 
detainee population, which you estimate to be 60,821 average 
daily detainees in 2009.
    How did you calculate your average daily population 
projections?
    Ms. Hylton. Our average daily population projections 
incorporate time in detention and new arrests coming in. Time 
in detention, of course, is generated by the type of offense, 
similar to the way BOP forecasts their population. For example, 
drugs will create a longer time in detention because of the 
complexity of the case. Immigration initiatives and offenses 
will move quicker through the system, so it is a balance of 
that time in detention incorporated with those offenses that we 
have seen in the trend.
    Mr. Mollohan. I am looking at a chart that has your actuals 
up until 2008. But it doesn't have what you have projected for 
those years. How accurate have those projections proved to be?
    Ms. Hylton. We are very pleased on the projections.
    Mr. Mollohan. Okay.
    Ms. Hylton. We have put a lot of work into the projections; 
however, we are faced with the fact of the unknown coming 
towards us.
    Mr. Mollohan. No, no. I know. But how accurate have your 
projections proven to be in the past, your projections?
    Ms. Hylton. I am pleased to say this year we are right on 
the mark.
    Mr. Mollohan. This year being?
    Ms. Hylton. 2008.
    Mr. Mollohan. 2008.
    Ms. Hylton. And for 2009.
    Mr. Mollohan. Well what about 2007? Or do you know? You may 
not know.
    Ms. Hylton. On the population forecasting?
    Mr. Mollohan. On your average daily population forecasting.
    Ms. Hylton. I feel that 2007 was----
    Mr. Mollohan. I think that would be hard to do.
    Ms. Hylton. To project out?
    Mr. Mollohan. Accurately.
    Ms. Hylton. It is a challenge, but one that we try to get 
right.
    Mr. Mollohan. I am just trying to get how----
    Ms. Hylton. What I want to say is that I feel we have come 
further in the process; however there are always the unknown 
risks. I think the one thing we have accomplished in the 
forecasting model is the fact that we have actually blended 
what we see coming in staffing and on board levels for law 
enforcement and prosecutors instead of just using trend 
analysis. We have blended this into our process.
    Mr. Mollohan. So you think that is going to improve your 
projections even more?
    Ms. Hylton. Oh, absolutely. I feel we have already seen 
improvement. I am very pleased with what we are seeing in 2008.
    The third factor that we have included that never existed 
before is that we now project out the savings of the time in 
detention for each major invictive. It is that time in 
detention that drives this account. For example five days for 
60,000 people equates to $20 million.
    So, it is all about time for us. We are pleased that we put 
these performance measures in place. Three factors of trends, 
staffing on-board, and time-in-detention have improved our 
projections.
    Mr. Mollohan. And those external factors you mentioned in 
your testimony?
    Ms. Hylton. Those are our greatest risks.
    Mr. Mollohan. And one of them is this Operation Streamline 
which I was asking some of our other witnesses about. Are 
projections associated with that activity incorporated in your 
calculations?
    Ms. Hylton. No, sir.
    Mr. Mollohan. Could that drastically impact your cost?
    Ms. Hylton. It could.
    Mr. Mollohan. What other external factors might there be 
that were not taken into consideration?
    Ms. Hylton. There are two things that could greatly impact 
2009. I was waiting for your question of 2009 being sufficient.
    Mr. Mollohan. I just want this little question in between 
that.
    Ms. Hylton. We have allowed a 12 percent growth in 2009 for 
immigration based on the 2008 actuals. We feel that the growth 
is sizeable and it is in line with what has taken place. It is 
in line with what we see.
    Mr. Mollohan. So how does all that impact your 2009 
request? Why is your 2009 request----
    Ms. Hylton. Our 2009 request has a 12 percent growth for 
immigration offenses. If anything was to occur outside that it 
would not be incorporated in our 2009 request. Operation 
Streamline is unclear to us.
    Mr. Mollohan. But you know it is going to generate 
activity.
    Ms. Hylton. It is going to generate activity.
    Mr. Mollohan. And it is not included in your calculation.
    Ms. Hylton. What we are seeing today as Operation 
Streamline has been incorporated is our 2009 request can handle 
that. Anything additional to how it exists today----
    Mr. Mollohan. You will be looking at a supplemental or an 
amended budget request?
    Ms. Hylton. Yes.
    Mr. Mollohan. For 2009, if I am reading this correctly, you 
have projected ADP and budgeted ADP. The Projection is 60,821 
and budgeted is 59,222. It is not a big difference but why do 
you budget on a lower number than is projected? Or am I right? 
Do you budget on a lower number than is projected?
    Ms. Hylton. We take into consideration some of the 
efficiencies we feel like we can build on like last year. I 
don't want to be repetitive, but we often recalculate that 
projection----
    Mr. Mollohan. Well you can be repetitive because repetition 
is a really good way to learn things.
    Ms. Hylton. We recalculate this account quarterly and in 
fact, just ran our numbers in preparation for today, to make 
sure that the forecast is on track.
    Mr. Mollohan. I get the bottom line. So are you comfortable 
with this request based upon those projections?
    Ms. Hylton. I am.
    Mr. Mollohan. And you are asking less than you actually 
project?
    Ms. Hylton. I am, based on two factors. Would you allow me 
to----elaborate
    Mr. Mollohan. Please. Absolutely.
    Ms. Hylton. There are two risks associated with the 2009 
request that you have in front of you. I am requesting the 
support for the BOP supplemental, which I am so pleased to see 
moving through the process.
    Without that, this account is at great risk. We have to 
have adequate prison beds to move detainees to. As I explained, 
you can see how quickly the cost becomes $20 million, for five 
days.
    Mr. Mollohan. Do you know where that BOP request came from? 
Do you know where they are getting that money?
    Ms. Hylton. I can't speak to that.
    Mr. Mollohan. I was just wondering if you had a comment on 
where it came from.
    Ms. Hylton. I am sorry, I don't.
    Mr. Mollohan. Okay.
    Ms. Hylton. I was pleased to hear about it today. You know 
it is one of those things we have been following and I know 
that it just recently came through.
    Mr. Mollohan. Okay.
    Ms. Hylton. BOP having adequate bed space and being able to 
secure their prisons is so important to our ability to move 
fast. It is all about moving fast in detention. The faster we 
can move, the faster we can get them into prisons the more we 
contain those costs. That is critical to us and so your support 
is greatly appreciated. If the reprogramming does not occur 
that does pose a challenge for this account. In essence, the 
other risk is the potential for the unknown. We have recently 
heard that Congressman Culberson who is not here, has put forth 
numbers for Operation Streamline.
    Again, and I can't say it enough, as I have tried to lay 
out over the last several months, the Department has 
significantly addressed immigration. The U.S. Attorneys are 
prosecuting at a strong pace. Bookings grow every year. We took 
this into account, but if the numbers are comparable discussed 
over the last 30 to 60 days, we would be in heavy discussions 
with your staff about the difficulties it poses.
    So those are the two risks for 2009. I am pleased to say 
that even with the projection from last night that we see 
ourselves closer to the budgeted request. When we start the 
budget request there is a 4.6 variance on projections. As we go 
through this process and recalculate we get to this point where 
we are down to a 2.1 percent variance. We are much closer to 
accurately projecting detention needs. I don't know if that 
helps but that is why we ran that number right before we came.
    Mr. Mollohan. You sound convincing. [Laughter.]
    Ms. Hylton. We did this last year.
    Mr. Mollohan. What?
    Ms. Hylton. We did this last year. I really do feel that it 
is an appropriate request.
    Mr. Mollohan. Yes.
    Ms. Hylton. I do point out those risks. They are throughout 
my oral and written testimony and they are very, very real.
    Mr. Mollohan. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. What sort of variance on projections are 
you talking about here? Are we talking about population or are 
we talking about budget?
    Ms. Hylton. I am talking about population. As we get closer 
to the budget year, the forecast on population has an error 
factor of 2.1 on either side. As we get closer we get more 
recent numbers, and are able to use them until the end of 
February in 2008 to formulate projections. When we start the 
budget process, we are using half of 2007. So now we have real 
numbers because, in detention, it is all about what we are 
seeing today.
    Mr. Frelinghuysen. Well I think you are doing a pretty good 
job on it, although I have to say that it is a little difficult 
to figure out exactly what your true funding needs are. You 
know, you have in your, and I quote from the later part of your 
statement. ``When we can strategically plan for the full impact 
of law enforcement initiatives we will see a reduction in the 
volatility we have seen previously in the account over the 
years.''
    What does that mean exactly?
    Ms. Hylton. I appreciate the opportunity to clarify that 
for you.
    Mr. Frelinghuysen. Because I think you will get more 
volatility because I assume when you go to OMB you come in with 
one number and then the back and forth here.
    Ms. Hylton. As you go through the budget process new 
initiatives are developed all the time. For example DHS may 
very well develop an initiative tomorrow and decide that is 
what they want to enforce, which would be information unknown 
to us.
    The point is that in a budget process the more we can 
strategically plan from the start of the initiative to the 
end--the full front end of law enforcement and prosecution and 
the back end of the process which is the Marshals Service, 
detention, and prison beds the better our protection. The more 
comprehensively we can do that, the more we reduce the 
volatility of the account and the possibility of anyone having 
to come forward to request supplementals or other funding 
sources.
    So I think that as a government as we----
    Mr. Frelinghuysen. So when you appeared before OMB what did 
you put before them?
    Ms. Hylton. We put forward what we were seeing at that 
point. I am focused on immigration because that right now is 
the risk factor. We have projected based on what the 
Department's objectives were in prosecuting immigration and we 
allowed for a sizeable growth of 12 percent.
    We have seen immigration grow incrementally over the years 
from nine percent growth to a 12 percent growth.
    I feel that, when we appeared before OMB and as we appear 
today, we are in line with that.

                      INTERGOVERNMENTAL AGREEMENTS

    Mr. Frelinghuysen. All right. Tell us a little more about 
these IGAs. I am looking over your testimony. [Laughter.]
    Mr. Frelinghuysen. But intergovernmental agreements tell me 
a little bit about this. I think most of us have some knowledge 
of that because you look for any space where you can shoe horn 
somebody in.
    Ms. Hylton. That is correct.
    Mr. Frelinghuysen. And then there are other issues in terms 
of the proper reimbursement level.
    And how many do you have? I assume you have what 100s, 
1,000s or how many?
    Ms. Hylton. We do have 1,900 agreements of which, at any 
given time, 1,200 are utilized. Numbers go up and down based on 
the need and the availability within the State and local 
government.
    Mr. Frelinghuysen. And were it not for those IGAs which 
have been going on for what, 30, 40 years or?
    Ms. Hylton. That is correct.
    Mr. Frelinghuysen. Yes.
    Ms. Hylton. That is correct.
    Mr. Frelinghuysen. You would be up the creek.
    Ms. Hylton. We would be because, in all honesty, it is 
advantageous to use private industry in locations where we can 
capitalize on economies of scales, places where we have 4,000 
prisoners. It wouldn't be advantageous to outsource and look 
for 30 beds.
    And so that is where our State and local relationships are 
so critical. Sixty-five percent of our population are in those 
IGAs.
    Mr. Frelinghuysen. Yes.
    Ms. Hylton. IGA's are intergovernmental agreements that we 
enter into and sign with the counties and city governments. It 
is actually a win/win across the board for all of us. It does 
support our county and local governments by partnering. Then 
provide the beds and we pay for that in a daily rate.
    We cannot speak enough about the positive impact that it 
has on this account. We were very pleased. One of the reasons 
we note the eIGA is that we really felt that county governments 
and city governments have been so appreciative of that 
initiative because it automated the entire process.
    Those IGAs are worse than any tax documents that anyone 
would have to fill out. They are very intricate and 
complicated. Automating the IGA Application Process has reduced 
a lot of hours.
    Mr. Frelinghuysen. We compliment you on what you call e-
Designate and DSN Network.
    Ms. Hylton. Thank you.
    Mr. Frelinghuysen. But there are some jurisdictions who 
when they take a look at these intergovernmental agreements 
understandably feel that there are a lot of other associated 
costs that sort of go into looking after these populations. I 
know that your people do those calculations. I assume there is 
some uniformity.
    Ms. Hylton. There is and of course those costs are taken 
into account. The county is able to represent the cost of 
operating that facility and that is what becomes the basis for 
the negotiations.
    We look to pay our freight for those beds and we negotiate 
with the counties an acceptable rate.
    Mr. Frelinghuysen. Well I know in my neck of the woods 
there has been some, you have done your homework.
    But thank you.
    Ms. Hylton. I think the IGA will also help with that. It 
allows the counties to better reflect their operating cost and 
that is what we want to accomplish. The----
    Mr. Frelinghuysen. Well I know that is the goal.
    Ms. Hylton. Yes.
    Mr. Frelinghuysen. You look to the local law enforcement to 
do, you know, a fairly across the board----
    Ms. Hylton. We do.
    Mr. Frelinghuysen [continuing]. Evaluation of what the real 
costs are.
    Ms. Hylton. There are States, such as New Jersey, where the 
State and county governments are feeling the pressure and can't 
expand. This is something that is real for us. Our focus in 
2008 and 2009 on county governments is on how we can best 
support and keep that infrastructure at the county level, 
because we know we couldn't survive without it.
    We try to embrace and work with the counties to help them 
stay whole, but they have their own competing priorities of 
education, growth, and highways. So the expansion of jail beds 
becomes difficult and there is more of a push to get into those 
beds and it impacts us.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman. Thank 
you.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen. Mr. 
Frelinghuysen, looking around this room, you and I are probably 
the only ones here who even know there are such things as 
Carter liver pills.
    They don't even--they never heard of them.
    Ms. Hylton. Who is Carter?
    Mr. Mollohan. Who is Carter? What are liver pills?
    Ms. Hylton. I am just kidding.
    Mr. Mollohan. Okay. I am confused. I think I heard you say 
that you are fine for 2008?
    Ms. Hylton. Yes, sir.
    Mr. Mollohan. What is this $60 million base program cost 
adjustment in your summary of requirements?
    Doesn't that suggest you need this adjustment?
    Ms. Hylton. Mr. Chairman, rather than answer that 
inaccurately, would that be something I could get back to you 
on?
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]
    Mr. Mollohan. Certainly.
    Ms. Hylton. Yes. When we get into adjustments to base----
    Mr. Mollohan. Okay.
    Ms. Hylton [continued]. And the base costs.
    Mr. Mollohan. All right.
    Ms. Hylton. If that wouldn't be inconvenient, I would 
prefer to get back to you with an answer.
    Mr. Mollohan. Sure.
    Ms. Hylton. Thank you.

                           EFFICIENCY SAVINGS

    Mr. Mollohan. And how did you arrive at the $54 million 
efficiency reduction for fiscal year 2009? And what is an 
efficiency reduction? How do you get to it? How do you compute 
it?
    Ms. Hylton. One reason I highlighted those regional 
transfer centers and the ground transfer centers when I spoke 
earlier was to show one of the ways we tried to reduce time in 
detention and how many days we can reasonably achieve in that 
budget year.
    Our goal with transportation is to reduce time-in-detention 
by four to five days. When you see an efficiency tag like that, 
we are trying to drive that efficiency. I believe we will 
accomplish this goal through the regional transfer and ground 
transfer centers.
    Mr. Mollohan. That is very commendable, but it would have 
to be tied to something. You have to work hard at it. Hope is 
not enough.
    Ms. Hylton. That is true.
    Mr. Mollohan. I have heard.
    Ms. Hylton. I will be the first to say that would be a 
challenge. That will be a challenge for us.
    Mr. Mollohan. This is an estimate that you don't have a lot 
of confidence in.
    Ms. Hylton. It is an estimate that I will frankly say is 
contingent upon adequate prison beds and no radical shifts in 
what we have projected for immigration or law enforcement of 
initiatives--especially those that evolve outside of this 
budget cycle.
    I truly believe today versus even four weeks ago that if 
the prison beds move forward in the supplemental and 
immigration stays with the current growth pattern, the $54 
million efficiency reduction can be achieved.
    Mr. Mollohan. How?
    Ms. Hylton. I believe I can reduce the time in detention by 
another four or five days, but we have to have beds to get 
into.
    Mr. Mollohan. Because you can push them into other beds?
    Ms. Hylton. Yes, sir.
    Mr. Mollohan. Okay. But that is based on a lot of 
contingencies.
    Ms. Hylton. Yes everything is.
    Mr. Mollohan. It sounds like quite a wag, is what it sounds 
like.
    The fact that you are requesting, simultaneously with this 
efficiency reduction, a $60 million get well adjustment to make 
up for costs in the 2008 budget makes it very problematic; I am 
not sure you can depend on that adjustment and I am not sure it 
is something we should rely on in our considerations of your 
budget request.
    Ms. Hylton. It is difficult when we get to the adjustments-
to-base issues in this account, because just as everything has 
rising costs associated with our daily living, the same is true 
for prisons and detention. Inflationary costs can raise a 
potential problem in this account.
    Mr. Mollohan. You are not suggesting the $60 million get 
well is unintended inflationary costs?
    Ms. Hylton. No, I am not.
    Mr. Mollohan. Mr. Frelinghuysen.
    Thank you very much for your good work and if anybody can 
achieve those efficiency cost reductions, we know you can. So 
we will look forward to working with you as we mark up our 
budget.
    Thank you very much for your good----
    Ms. Hylton. I appreciate both of you for your time and for 
staying here today for me.
    Mr. Mollohan. Well let me finish complementing you and then 
you can do that. And I was just going to say thank you for all 
your hard work, we appreciate it and we look forward to working 
with you as we mark up this bill.
    Ms. Hylton. Okay. Thank you, sir, very much.
    Mr. Mollohan. Thank you, Ms. Hylton.
    [Clerk's note.--The Department of Justice was unable to 
provide answers to the questions submitted by the Committee 
within the timetable established by the Committee. Submissions 
provided to the Committee subsequent to the printing of this 
official record have been retained in the Committee's permanent 
files.]

                <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Clark J.F........................................................   277
Dyer, Cindy......................................................   203
Hylton, S.A......................................................   277
Lappin, H.G......................................................   277
Leonhart, M.M....................................................   115
Mueller, R.S., III...............................................    71
Mukasey, M.B.....................................................     1
Peed, Carl.......................................................   203
Sedgwick, Jeffrey................................................   203
Sullivan, M.J....................................................   159














                               I N D E X

                              ----------                              

                         DEPARTMENT OF JUSTICE
                U.S. Attorney General Michael B. Mukasey

                                                                   Page
Adam Walsh Act...................................................    26
Antitrust Division...............................................48, 58
Assets Forfeiture Fund...........................................    54
Border Patrol Agent Prosecutions.................................    39
Budget Priorities................................................    16
Counterterrorism Oversight.......................................    48
Cyber Security...................................................    28
Detention Standards..............................................    41
DNA..............................................................    38
Drug Courts......................................................    17
Earmarks.........................................................    45
Eaves-dropping on Mrs. King......................................    35
Executive Privilege..........................................23, 37, 39
Extraterritorial Jurisdiction....................................    42
Foreign Intelligence Surveillance Act............................    27
Grant Funding....................................................    47
Immigration Fraud................................................    31
Impending Crime Wave.............................................    52
Inmate Health Care...............................................    62
Integrated Wireless Network..........................37, 59, 61, 64, 69
International Organized Crime and Terrorism......................    44
Juvenile Justice Grants..........................................18, 45
Law Enforcement Guidance.........................................    44
Monitorship Contracts............................................    46
Name Check Program...............................................    57
National Security Division.......................................    36
Opening Statement of Chairman Obey...............................     1
Opening Statement of Representative Frelinghuysen................     2
Opening Statement of Attorney General Mukasey....................     3
Operation Streamline.............................................39, 41
Prosecutorial Abuse..............................................    33
Questions Submitted by Chairman Obey.............................    51
Questions Submitted by Representative Aderholt...................    69
Questions Submitted by Congressman Frelinghuysen.................65, 67
Questions Submitted by Congressman Honda.........................    62
Sentencing Guidelines............................................    29
Southwest Border.................................................20, 51
Supplemental Funding.............................................    36
United States Parole Commission..................................65, 66
United States Trustees...........................................    67
Worker Abuses....................................................30, 41
Written Statement of Attorney General Mukasey....................     6

                    FEDERAL BUREAU OF INVESTIGATION
                       Director Robert S. Mueller

Assignment of Agents in Tucson Sector............................   100
CNC..............................................................   111
Cybercrime.......................................................   101
Development of Budget Request....................................   110
DNA Evidence.....................................................    86
DNA Samples......................................................    86
FBI Transformation...............................................    84
FISA.............................................................    88
FISA Surveillance................................................   106
FY 2009 Budget Needs.............................................    91
Gangs............................................................    94
GWOT Supplemental Request........................................    92
Intelligence Analyst Staffing....................................   112
International Activities.........................................   112
Interrogation Techniques.........................................   106
Legat Algeria....................................................    89
Mistaken Identities..............................................   108
Narcotics........................................................    97
National Security Branch.........................................    90
New Technology...................................................    88
NSL Violations...................................................   103
Opening Statement of Congressman Frelinghuysen...................    72
Opening Statement of Chairman Obey...............................    71
Opening Statement of Director Mueller............................    73
SENTINEL.........................................................    92
Southwest Border.................................................    99
Surveillance.....................................................   103
State and Local Partnerships.....................................   113
Terrorist Watch List.............................................   107
Weapons of Mass Destruction......................................    97
Written Statement of Director Mueller............................    76

                        DRUG ENFORCEMENT AGENCY
                Acting Administrator Michele M. Leonhart

Adequacy of FY 2009 Request......................................   129
Afghanistan......................................................   136
Afghanistan Expansion............................................   150
Business Partnership.............................................   141
Drugs and Terrorism..............................................   137
Drug Flow Attack Strategy Request................................   151
Electronic Prescriptions.........................................   157
International Operations.........................................   135
Methamphetamine..................................................   134
Measuring Success................................................   145
Opening Statement by Chairman Mollohan...........................   115
Opening Statement by Congressman Frelinghuysen...................   115
Opening Statement by Acting Administrator Leonhart...............   116
Prescription Drug Abuse..........................................   130
Southwest Border Operations......................................   154
State and Local Assistance.......................................   153
Written Statement by Acting Administrator Michele M. Leonhart....   118

                BUREAU OF ALCOHOL, TOBACCO, AND FIREARMS
                      Director Michael J. Sullivan

ATF Activities in Iraq...........................................   189
ATF FY 2009 Budget Shortfall.....................................   169
Coordination with DHS Along the Border...........................   198
Explosive Rulemaking.............................................   192
Firearms Acoustic Detection......................................   195
Gangs............................................................   183
Graduated Sanctions..............................................   190
Gun Dealers along the Border.....................................   187
Gun Show Enforcement.............................................   180
Mexican Gun Tracing..............................................   180
NFA Registrations................................................   194
Opening Statement by Chairman Mollohan...........................   159
Opening Statement by Congressman Frelinghuysen...................   160
Opening Statement by Director Sullivan...........................   160
Operation Streamline.............................................   176
Project Gunrunner................................................   172
Regulation of Potentially Explosive Commodities..................   194
Sharing Aggregate Firearms Tracing Data..........................   195
Southwest Border Initiative......................................   174
Tiahrt Amendment.................................................   181
Weapons of Mass Destruction and Terrorism........................   182
Written Statement by Director Sullivan...........................   163

   OFFICE OF JUSTICE PROGRAMS, COMMUNITY ORIENTED POLICING SERVICES, 
                    OFFICE ON VIOLENCE AGAINST WOMEN
 Acting Associate Attorney General Jeffrey Sedgwick, Office of Justice 
                             Programs (OJP)
    Director Carl Peed, Community Oriented Policing Services (COPS)
      Director Cindy Dyer, Office on Violence Against Women (OVW)

Allocation of OVW Funds..........................................   220
Applications for Funding.........................................   224
Assistance to Victims of Abuse...................................   269
Benefits of More COPS on the Streets.............................   225
Best Practices Serving Grantees..................................   253
Community Policing...............................................   259
Congressionally Directed Funds...................................   259
Coordination between OJP, COPS, and OVW..........................   254
Coordination with DOD, Veterans Administration and OVW...........   265
COPS Community Outreach..........................................   255
COPS Hiring Grants...............................................   263
COPS on Recidivism issue.........................................   250
COPS Perspective on Community Policing...........................   260
Criminal Justice Programs in High Schools........................   262
DNA Initiative...................................................   228
Drug Courts......................................................   227
Effect of Funding Decrease on OJP ICOPS..........................   226
Effect on OJP of Decrease in Funding.............................   216
Funding Under Grant Consolidation................................   219
Grant Consolidation............................................244, 252
Grant Consolidation Proposal.....................................   223
Impact of Drugs on Crime.........................................   217
Intellectual Property Enforcement................................   241
Is There a Crime Wave and Where Does it Exist....................   239
JAG Grants and Impact of Cut.....................................   266
Juvenile Crime...................................................   267
Law Enforcement Unmet Needs......................................   261
National Institute of Corrections................................   256
National Protective Order Registry...............................   246
OJP Management and Administration................................   259
OJP Priorities...................................................   267
OJP Studies on Crime Rate and Recidivism.........................   247
Opening Remarks of Acting Assistant Attorney General.............   211
Opening Remarks of Director Peed.................................   212
Opening Remarks of Director Dyer.................................   214
Opening Statement by Chairman Mollohan...........................   203
Opening Statement by Congressman Frelinghuysen...................   204
Opening Statement by Congressman Ruppersberger...................   215
OVW Recent Statistics............................................   242
OVW Timeline for Grant Disbursement..............................   221
Proposed Grant Consolidation.....................................   211
Questions Submitted by Congressman Honda.........................   272
Questions Submitted by Representative Aderholt...................   275
Questions Submitted by Representative DeLauro....................   273
Range of Administration Funding Priorities.......................   227
Reduced Funding for and Restructuring of OJP, OVW, and COPS 
  Budgets........................................................   273
Report-Impending Crime Wave......................................   247
Rescissions......................................................   257
Restraining Orders...............................................   245
Rise in Juvenile Crime...........................................   217
RISS Program.....................................................   234
Root Causes of Crime.............................................   251
Rural Grants.....................................................   270
SCAAP Program.............................................231, 235, 237
Salary and Benefits for Law Enforcement Personnel................   262
Sexual Predators.................................................   256
Southwest Border Initiative......................................   237
Supplemental Appropriations for Drug Enforcement Programs........   275
Targeting of Funding.............................................   218
Timeliness of DNA Analysis.......................................   229
Tribal Law Enforcement...........................................   263
Unfunded Programs................................................   253
Violent Crime Reduction Partnership Initiative...................   268
Violence Against Women Act of 2005 Grant Program.................   272
Violent Crime....................................................   238
Written Statement for OJP, COPS, and OVW.........................   205

    BUREAU OF PRISONS, U.S. MARSHALS SERVICE, OFFICE OF THE FEDERAL 
                           DETENTION TRUSTEE
           Director Harley G Lappin, Bureau of Prisons (BOP)
           Director John F Clark, US Marshals Service (USMS)
   Federal Detention Trustee Stacia A Hylton, Office of the Federal 
                        Detention Trustee (OFDT)

Activation of FCI Pollock........................................   301
Adam Walsh Enforcement.........................................338, 347
Alternatives to Detention........................................   371
BOP Funding/Reprogramming........................................   303
BOP Recidivism...................................................   305
Bureau of Prisons Budget Situation...............................   296
Bureau of Prisons FY 2008 Needs..................................   292
Bureau of Prisons Staffing.....................................292, 300
Citizenship of International Terrorists..........................   318
Contraband and Staff Searches....................................   317
Contract Confinment..............................................   377
Counterterrorism.................................................   307
Courthouse Facility Improvements.................................   348
Crack Sentencing Amendment.....................................306, 307
Crowding Issues..................................................   312
Detention Capacity Planning......................................   368
Detention Confinement Standards..................................   369
Detention Standards..............................................   374
Drug Treatment Program...........................................   309
Efficiency Savings...............................................   364
Gangs and Counterterrorism.......................................   316
Healthcare Costs.................................................   315
Inmate Medical Care..............................................   310
Inmate Population................................................   294
Intergovernmental Agreements.....................................   362
Inquiry from a Constituent.......................................   297
Justice Prisoner and Alien Transportation System.................   372
Non-US Citizen Inmates...........................................   318
OCDETF...........................................................   341
OFDT FY 2009 Population Projections..............................   358
Opening Remarks by Chairman Mollohan.............................   277
Opening Statement of John F Clark, USMS..........................   325
Opening Statement of Harley G Lappin, BOP........................   278
Opening Statements on Office of the Federal Detention Trustee....   349
Population Projections...........................................   366
Programs to Reduce Recidivism....................................   313
Prison Chapel Library............................................   297
Questions Submitted by Chairman Mollohan.........................   366
Questions Submitted by Congressman Honda.........................   374
Questions Submitted by Representative Rogers.....................   377
Rated Capacity/Overcrowding......................................   299
Reimbursable Agreement with BlCE.................................   321
Southwest Border Activities......................................   342
Stun/Lethal Fences...............................................   301
Tele-health......................................................   320
Tele-health Programs.............................................   323
Terrorists.......................................................   317
Threats Against the Judiciary....................................   345
USMS Adequacy of FY 2009 Request.................................   337
Witness and Judicial Protection..................................   340
Written Statement of John F Clark, USMS..........................   328
Written Statement of Harley G Lappin, BOP........................   280
Written Statement of Stacia Hylton, OFDT.........................   353

                                  <all>
</pre></body></html>
